<html>
<title> - REAUTHORIZATION OF THE MAGNUSON- STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT</title>
<body><pre>[Senate Hearing 106-1106]
[From the U.S. Government Printing Office]


                                                       S. Hrg. 106-1106

                    REAUTHORIZATION OF THE MAGNUSON-
                   STEVENS FISHERY CONSERVATION AND 
                             MANAGEMENT ACT

=======================================================================

                             FIELD HEARING

                               before the

                  SUBCOMMITTEE ON OCEANS AND FISHERIES

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 10, 2000

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


80-304              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001



       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana                DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington             JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
OLYMPIA J. SNOWE, Maine              JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri              RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee                BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan            RON WYDEN, Oregon
SAM BROWNBACK, Kansas                MAX CLELAND, Georgia
                  Mark Buse, Republican Staff Director
            Martha P. Allbright, Republican General Counsel
               Kevin D. Kayes, Democratic Staff Director
                  Moses Boyd, Democratic Chief Counsel
                                 ------                                

                  SUBCOMMITTEE ON OCEANS AND FISHERIES

                   OLYMPIA J. SNOWE, Maine, Chairman
TED STEVENS, Alaska                  JOHN F. KERRY, Massachusetts
SLADE GORTON, Washington             DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN B. BREAUX, Louisiana


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 10, 2000...................................     1
Statement of Senator Kerry.......................................     4
Statement of Senator Snowe.......................................     1
Statement of Senator Stevens.....................................     7

                               Witnesses

Barrett, Edward, Commercial Fisherman, Marshfield, MA............   102
Bennett, Paul E., Commercial Fisherman, Red Devil Fish and 
  Lobster Co., Inc., Middletown, RI..............................   122
    Prepared statement...........................................   122
Bland, Will, General Manager, Little Bay Lobster Co..............   126
    Prepared statement...........................................   126
Bourquet, Mr.....................................................   104
Calomo, Vito J., Executive Director, Gloucester Fisheries 
  Commission.....................................................   102
Chaprales, Bill, Commercial Fisherman............................   125
Cunningham, C.M. ``Rip'', Publisher of Salt Water Sportsman 
  Magazine, and Chairman, American Sportfishing Association's 
  Saltwater Government Affairs Committee.........................    51
    Prepared statement...........................................    53
Dalton, Penelope D., Assistant Administrator, and Patricia 
  Kurkul, Northeast Regional Administrator, National Marine 
  Fisheries Service..............................................     9
Dauphinee, Mr....................................................   133
Didreksen, Harriet, President, Sub-S Corporation.................   130
    Prepared statement...........................................   130
Ferrante, Ms.....................................................   127
Freeland, Richard, President, Northeastern University............     8
Hayden, Anne, Resource Services, Gulf of Maine Fisheries Research 
  Collaborative..................................................   127
    Prepared statement...........................................   127
Hill, Tom R., Chairman, New England Fishery Management Council...    11
    Prepared statement...........................................    13
Hopkins, Doug, on Behalf of the Environmental Defense Fund.......   103
Mattera, Fred, Commercial Fisherman..............................   133
Mayhew, Jonathan, Fisherman, Martha's Vineyard, MA...............   123
McCaffrey, James Bryan, Director, Massachusetts Sierra Club......   134
    Prepared statement...........................................   135
Mirarchi, Frank, Commercial Fisherman and Vessel Owner...........    72
    Prepared statement...........................................    74
Mooney-Seus, Marjorie, Manager, Conservation Department, New 
  England Aquarium...............................................    82
    Prepared statement...........................................    84
Musiol, Richard, Spokesperson for Senator Therese Murray, 
  Plymouth and Barnstable State Senate District..................    99
Naccara, Rear Admiral George, Commander of the First Coast Guard 
  District, Boston, MA...........................................    16
    Prepared statement...........................................    18
O'Malley, James D., Executive Director, East Coast Fisheries 
  Federation, Inc................................................   105
    Prepared statement...........................................   105
Orlando, Joe, Fisherman, Gloucester, MA..........................   101
Palombo, William R., Palombo Fishing Corp., Newport, RI..........   120
    Prepared statement...........................................   121
Parker, Paul, Executive Director, Cape Cod Commercial Hook 
  Fishermen's Association........................................    46
    Prepared statement...........................................    48
Phillips, Ron, President, Coastal Enterprises....................   137
Prybot, Mr., Commercial Fisherman, Cape Ann, MA..................    99
Randazzo, Antonio, Commercial Fisherman, Gloucester, MA..........   102
Rothschild, Dr. Brian, Dean of the Graduate School and Director, 
  Center for Marine Science and Technology, University of 
  Massachusetts Dartmouth........................................    76
    Prepared statement...........................................    78
Sanfilippo, Angela, President, Gloucester Fishermen's Wives 
  Association....................................................    60
    Prepared statement...........................................    63
Scola, Mr., Fisherman............................................   133
Sherman, Russell, Treasurer, Gulf of Maine Fishermen's Alliance..    38
    Prepared statement...........................................    40
Skaar, Ellen, Fishermen's Ad Hoc Committee.......................   132
Spencer, David, Spencer Fish and Lobster, Jamestown, RI..........   122
    Prepared statement...........................................   123
Spinazzola, Bonnie, Executive Director, Atlantic Off-Shore 
  Lobstermen's Association.......................................   125
    Prepared statement...........................................   125
Sullivan, Dr. Patrick, Professor, Department of Natural 
  Resources, Cornell University..................................    80
    Prepared statement...........................................    81
Tarr, Hon. Bruce, Massachusetts State Senator....................    97
Thomas, Matthew, on Behalf of Frederick Kalisz, Mayor of the City 
  of New Bedford, MA.............................................    94
    Prepared statement of Frederick Kalisz.......................    96
Tobey, Mayor, Gloucester, MA.....................................    94
Weiss, Peter, President, General Category Tuna Association.......    56
    Prepared statement...........................................    58

                                Appendix

Birknes, Jr., John A., Fishermen's Ad Hoc Committee, letter dated 
  April 18, 2000, to Hon. Olympia J. Snowe.......................   139
Buchsbaum, Robert, Ph.D., Coastal Ecologist, Massachusetts 
  Audubon Society, letter dated April 10, 2000, to Hon. Olympia 
  J. Snowe.......................................................   140
Donofrio, James A., Executive Director, Recreational Fishing 
  Alliance, prepared statement...................................   141
Enoksen, Ronald, Eastern Fisheries, Inc., New Bedford, MA, 
  prepared statement.............................................   142
Phillips, Ronald L., President, Coastal Enterprises Inc., 
  prepared statement.............................................   143
Roach, David K., Executive Director, Florida Inland Navigation 
  District, Jupiter, FL, prepared statement......................   144
Response to written questions submitted by Hon. John Kerry to:
    Dr. Brian Rothschild.........................................   146
Response to written questions submitted by Hon. Olympia J. Snowe 
  to:
    Rip Cunningham...............................................   147
    Penelope D. Dalton...........................................   148
    Tom Hill.....................................................   149
    Frank Mirarchi...............................................   154
    Marjorie Mooney-Seus.........................................   155
    Rear Admiral George Naccara..................................   157
    Paul Parker..................................................   159
    Dr. Brian Rothschild.........................................   162
    Angela Sanfilippo............................................   163
    Russell Sherman..............................................   165
    Dr. Patrick Sullivan.........................................   166
    Peter Weiss..................................................   167

 
                    REAUTHORIZATION OF THE MAGNUSON-
            STEVENS FISHERY CONSERVATION AND MANAGEMENT ACT

                              ----------                              


                         MONDAY, APRIL 10, 2000

                                       U.S. Senate,
                      Subcommittee on Oceans and Fisheries,
        Committee on Commerce, Science, and Transportation,
                                                        Boston, MA.
    The Subcommittee met, pursuant to notice, at 10 a.m. at 
Curry Student Center, Northeastern University, Boston, 
Massachusetts, Hon. Olympia Snowe, Chairman of the 
Subcommittee, presiding.
    Staff members assigned to this hearing: Sloan Rappoport, 
Republican Counsel; Stephanie Bailenson, Republican 
Professional Staff; and Margaret Spring, Democratic Senior 
Counsel.

          OPENING STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you. Thank you very much, President 
Freeland, for all the courtesies extended by you, your staff 
and officials here at Northeastern University. We certainly 
appreciate it on behalf of the Subcommittee. I also want you to 
know my niece graduated from Northeastern four years ago and 
had a magnificent, positive experience here. Thank you again on 
behalf of the Subcommittee for hosting this event.
    The hearing will now come to order. Good morning. I want to 
begin by welcoming all of you this morning and thanking Senator 
Kerry, in particular, for inviting the Subcommittee to Boston 
to discuss the future of New England and our nation's 
fisheries.
    Senator Kerry has been a major voice on fisheries issues 
during his distinguished career throughout the U.S. Senate. 
During the last reauthorization of the Magnuson-Stevens Act, 
Senator Kerry wrote many of the major provisions which were 
ultimately enacted in the Sustainable Fisheries Act. I'm 
looking forward to working with Senator Kerry as we move 
forward in a bipartisan manner to reintroduce this legislation. 
Hopefully we will reauthorize it and create consensus to 
support the future of our nation's fisheries.
    It's also a great honor to have Senator Stevens with us. 
This is the third Oceans and Fisheries field hearing this year 
and he has been to each one. It's no exaggeration to say that 
there's no member of the House or Senate who has more of an 
impact on fisheries policy in the United States than Senator 
Stevens. He quite literally wrote the book. He was the driving 
force behind the original enactment of this legislation, and he 
served as the first chair of this Subcommittee. We're very 
privileged to have him here today and for the enormous 
contributions that he has made over the years.
    Finally, let me welcome all of our witnesses who agreed to 
join us this morning. We appreciate your willingness to share 
your insights with the Subcommittee. This is the sixth and 
final hearing to be held by the Subcommittee as part of an 
exhaustive review of the Magnuson-Stevens Act and its 
implementation by the administration.
    The enactment of the Fishery Conservation and Management 
Act of 1976 began a new approach to Federal fisheries 
management. As you all know, the Act is administered by the 
National Marine Fisheries Service and the eight regional 
management Councils. Their actions establish the rules under 
which the fishing industry operates. They determine the harvest 
quota, season lengths, gear restrictions, and license 
limitations--decisions which have serious implications for 
those of you who fish and work in New England. That is why 
difficult management decisions cannot be made in a vacuum. 
You're the ones whose livelihoods are at stake. Your voices 
must be heard in the decision-making process. As such it is 
critical that all sectors of the fishing community receive fair 
and balanced representation so that they will have a strong 
voice in management.
    Throughout the process we have sought answers to some very 
critical questions. What are the results of our Federal 
fisheries legislation? What's working? What needs improvement? 
What do you, as people on the front lines, believe is important 
for the future? Already we have heard from fishermen in my own 
state of Maine, Louisiana, Alaska, and Washington to discuss 
proposed changes to the Act.
    Clearly, fishing is critical to many states and the Nation 
as a whole. In 1998 commercial landings by U.S. fishermen were 
over 9.2 billion pounds of fish and shellfish worth $3.1 
billion. The recreational fishing catch was 195 million pounds. 
As you well know, fishing in New England is more than a job; 
it's a way of life. It's an essential component of who we are 
as well as our economy.
    In 1998, New England fishermen landed over 595 million 
pounds worth of fish, worth over $535 million. Maine and 
Massachusetts split the top honors, with Maine leading the 
value of the catch at $216 million and the Bay State leading in 
volume with 252 million pounds. New Bedford is at the top of 
the list in terms of the value of the catch, and last year's 
landings were worth over $93 million. Gloucester, which landed 
107 million pounds, also provides a major source of revenues 
and jobs through the fishing industry.
    While in many regions commercial and recreational fisheries 
are strong and robust, others have not fared as well. Such is 
the case with the New England groundfish. There's no question 
that when fish stocks have declined, communities in those 
regions feel the weight of the economic impact. Rebuilding 
groundfish stocks has consumed much of the New England 
Council's time over the past few years, and it will continue to 
present significant challenges in the future. Therefore, it is 
imperative that the socioeconomic impacts on fishing 
communities be given adequate consideration throughout the 
entire process. It is vital that management decisions, which 
have a direct effect on you, your families, and your 
communities, are based on the best science--not just the best 
available science.
    That is why I am working with Senator Kerry to establish 
cooperative research programs that will provide us with the 
additional tools necessary to improve fisheries management in 
New England. That, after all, is what the reauthorization 
process is all about. We have been examining ways to bring 
about healthy fisheries as well as healthy fishing communities. 
Some common themes have emerged at our hearings that need to be 
addressed if we are to achieve this goal.
    First and foremost, as you all know, the moratorium on new 
individual transferable quotas, or ITQs, will expire in less 
than six months on October 1st. We need the New England 
perspective. We need to know whether or not to extend the 
moratorium, and whether or not ITQs can work.
    At some of our other field hearings witnesses asked us to 
examine the use of co-ops and buy-backs as means to reduce 
capacity. We need to hear if these, or other alternatives, 
could work in New England.
    Second, flexibility is a broader issue with major 
consequences. Clearly, those most affected by the law believe 
it is too rigid, that it's not properly implemented by NMFS, 
that there has not been adequate consideration of the 
socioeconomic impacts, and that--contrary to its mandate--the 
best science is not being used.
    To help us assess how NMFS has handled some of these 
requirements, Senator Breaux and I asked the General Accounting 
Office to conduct an investigation. In fact, the report was 
released last week. I know many of you spoke with the GAO in 
New Bedford and Fairhaven this past September. This report will 
help clarify what changes, if any, are necessary to make sure 
that NMFS fulfills its mandates.
    I'm convinced that if the law is not made more flexible the 
agency will continue to act to the detriment of fishing 
communities across the country. Hopefully I will be able to 
introduce a bill with Senator Kerry and Senator Stevens that 
will go a long way toward making your government work for you 
and with you, not against you.
    Moreover, we must look at ways to improve the Council 
process. Those of you who have actively participated know that 
it requires a great deal of time and effort. I'd like to see if 
there's a way to reward that work with good results, not with 
delays and frustrations.
    As we move forward in this process, we must make sure that 
sustainable fishing and good management become the norm and not 
the exception. Clearly, the reauthorization will have major 
implications for the future of marine fisheries in the United 
States. I view this as a unique opportunity to take what we've 
learned and craft a sensible and balanced approach that 
respects all sides. Many of you have urged us not to do another 
major overhaul of the Act at this time. You've pointed to 
significant changes that were made in 1996 and that NMFS and 
the Council are required to implement. It is with your 
suggestions that we will be able to decide what changes are 
necessary to make the Act work better for you.
    I hope to have draft legislation by the end of this month 
and move forward to reauthorize this legislation in June. 
Hopefully we can work together in a bipartisan manner to 
incorporate all of your changes and suggestions and develop the 
best approach possible for the future of our nation's 
fisheries.
    With that, let me recognize Senator Kerry for any opening 
statement he may want to make.

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Senator Snowe, Madam Chairman, thank you 
very, very much for being here, for your words, but also more 
importantly for your sustained commitment to the issues that we 
face here, and I'm very, very appreciative for your taking the 
time to come here and give our folks in Massachusetts, indeed 
New England, an opportunity to be heard more thoroughly with 
respect to these issues. You've done a wonderful job of 
traveling around the country and listening. These are tough 
issues, we all know that; we've been dealing with them for a 
long time. I think these hearings are a critical part of the 
process of building consensus on what the large issues with the 
Act are. The hearings are time consuming, they're tough, and I 
know how difficult it is to be able to conduct them all. So 
we're very appreciative.
    Senator Stevens, likewise, I echo what Senator Snowe said 
in her comments. I've been on this Committee now for 16 years, 
and it has been a privilege working with Senator Stevens every 
step of the way. He is by far one of the most knowledgeable and 
best advocates in the Congress for sustainable fisheries and 
for the marine environment, and it's no accident that the 
legislation we are discussing today is now known as the 
Magnuson-Stevens Act. We're honored that you're here, and we're 
appreciative for all you've done.
    Also, I want to thank Penny Dalton who helped write a lot 
of this law when she was on the Committee and continues to 
exert leadership on these issues in her position as director of 
National Marine Fisheries Service. Admiral Naccara, thank you 
very much for being here to share your expertise and help us 
understand the resources and the commitments necessary for the 
Coast Guard to carry out its missions under the Sustainable 
Fisheries Act. To all of you who are here from the industry or 
from science or the public side of the policymaking, we really 
do welcome you. This is a great opportunity just to listen and 
have a dialogue with us and others interested in these issues, 
and not to just talk at each other. We really welcome that 
opportunity.
    I'm very pleased that we're here at Northeastern. It is a 
terrific university, as everybody knows. It's an appropriate 
place for us to be talking about these kinds of issues because 
of Northeastern's commitment to sensible approaches to public 
policy issues, and its understanding of the problems of working 
people's needs as they adjust to the rapid changes that we face 
in our marketplace today. Nowhere do they do a better job of 
helping people do this than here at Northeastern. And I'm very 
grateful to President Freeland for his welcome, and to Tom 
Keedy, for helping to facilitate our being here today.
    Let me just try to focus very quickly on a couple of 
things, building on what the Chairman has said. We in the 
United States harvested 3.1 billion dollars of fishing product 
in 1998, the last year we have the stats for. That's 9.2 
billion pounds of seafood. By weight that ranked us as fifth 
largest fishing nation in the world, and I think third in 
fishery exports. Here in Massachusetts, as Senator Snowe said, 
we are combined with Maine and New Hampshire and Rhode Island 
and the New England states to be extraordinary providers of 
fish product, not just to our own country, but to the world. We 
brought in $204 million worth of product to Massachusetts in 
1998. That is a 33 percent reduction from 1990 when it was a 
$300 million industry. And no one in this room would doubt the 
impact of the decline of the groundfish stocks and the 
regulations enacted to help rebuild those stocks. The impact 
these tough, but necessary, measures have had on our economy, 
on individual lives within our communities as a result is 
unquestionable.
    We've tried to provide transitional assistance to people. I 
see a lot of faces around the audience--we have worked closely 
with you to try to mitigate the unfortunate impact of these 
realities. Our fisheries are beginning to recover, and this 
current progress shows we need to stay the course. Obviously 
part of the discussion today will be figuring out how we stay 
the course.
    A little over 3 years ago, we enacted the Sustainable 
Fisheries Act that substantially amended the Magnuson-Stevens 
Act so that we would better conserve and manage these vital 
marine resources. That was the most important rewrite of the 
Federal fishing laws since the enactment of the Magnuson 
Fisheries Act in 1976 when we Americanized the fisheries within 
200 miles of our shores. Senator Stevens and I were the 
original co-sponsors of those 1996 amendments, and we set out 
some very clear restraints on reducing bycatch, rebuilding 
depleted stocks, and designated and conserving essential fish 
habitat. We tried to put solid principles and conservation 
requirements into place, and needless to say, some people had 
to make some sacrifices in order to help increase the abundance 
of many of these species.
    This time around, I don't think we have to do that kind of 
dramatic restructuring of the Sustainable Fisheries Act. Now, 
maybe some of you have a different notion about that. I think 
the key questions that we face are: Do we have the resources 
necessary and the tools necessary to be able to make the 
existing fisheries management structure work properly? Are we 
able to implement the changes made in 1996 as we envisioned, 
and to the degree that most people think are necessary to 
sustain fisheries? And do we have the necessary information, 
and are we using this information effectively to help us make 
sound management and conservation judgments?
    Now, the recently released General Accounting Office report 
highlights a lot of these implementation issues. The bottom 
line is that it's difficult to implement the Act given the 
current level of information and the current level of funding. 
The GAO found that NMFS is using the best scientific 
information available to make fishery management decisions, but 
they also say we've got to work to increase the availability of 
that information, including collecting data with fishermen.
    The New England delegation recognized that gap, and we 
worked together--and I might say Senator Snowe and Senator 
Stevens and the rest of the Committee, I've never seen this 
Committee become partisan. I've never seen us divide our issues 
Democrat/Republican. We have a terrific way of working 
together, and it's been very, very helpful in terms of our 
approach to these issues. It was working together that Senator 
Stevens was able to help Senator Snowe and I get $20 million in 
Federal funds to help establish the cooperative research 
program between scientists and fishermen. But everybody 
understands that's just a drop in the bucket. I think we 
definitely need a national observer program, electronic or 
real-time reporting, increased surveys, better understanding of 
habitat protection needs, more socioeconomic data, not to 
mention designing more effective ways to conserve and manage 
our stocks and ultimately our fishing communities. Modernizing 
the fishery management process is also long overdue. I think we 
can get there from here with a concerted effort.
    Let me say finally that there's a certain irony in the fact 
that in New England some of the new management challenges 
actually come from the very thing that we hoped for--the 
rebuilding of the stocks. Now is the time to work together to 
plan for managing those stocks as they do rebound. The 
extraordinary scallop harvesting that we saw is a classic 
example of what can be achieved by restraint and by proper 
management. Rebuilding of the stocks really ought to be just a 
bell weather signal to all of us about the capacity of our 
fisheries to ultimately come back.
    But there are still unanswered questions. How do we improve 
the quality and use of scientific and economic data in 
conservation and management decisions? Are we doing all we can 
to reduce bycatch? Again, have we done enough to identify and 
protect essential fish habitat? There, of course, the research 
process itself is critical. What can we do to improve our 
management options? Senator Snowe mentioned a moment ago the 
question of the individual fishing quotas. Well, we all know 
the current moratorium expires at the end of September. We 
haven't been able to consider even the transferable quotas and 
issues about cooperatives and community quota systems that were 
mentioned. I personally am very interested in those. I think 
that they may be some terrific tools, and it may be that under 
these scenarios we can find a way to satisfy some of the 
complaints of fishermen who say people don't use their 
expertise enough, people don't rely on the fishermen enough to 
not only provide data but also to use techniques built up over 
a long period of time to make responsible decisions.
    So what we do with respect to that issue is going to be, I 
think, very important in the proper implementation of this Act 
ultimately. So whether you're a fisherman or a manager or a 
conservationist or a scientist or just an interested party, I 
think this hearing is vitally important to our ability to tweak 
the process to address pressing issues. And we're blessed that 
we happen to have Senator Stevens here, the Chairman of the 
Appropriations Committee, which has a great ability to have an 
impact on a lot of these issues. I hope I'm not putting too 
much weight on him by saying that. But in a sense maybe I do 
hope I am.
    So Madam Chairwoman, thank you very, very much.
    Senator Snowe. Thank you. Thank you very much, Senator 
Kerry, for those comments.
    Senator Stevens, do you care to make any comments?
    Senator Stevens. Thank you very much, Madam Chairwoman----
    Senator Snowe. We welcome you.

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. --and Senator Kerry. It is nice to be back 
here again. I have fond memories of Boston and Cambridge, but 
beyond that I really have a great memory of the time we held 
hearings here--we have held them here several times over the 
years as you know, but when will we get a chance to go into 
that grand aquarium you have here. I wish we had time today to 
go back and see how you've maybe improved that. It's a 
wonderful asset to your community.
    Senator Kerry. We were going to maybe be there, but the Big 
Dig is there, and so we----
    Senator Stevens. I figured you didn't want me to see that, 
John. That's why . . .
    (Laughter.)
    The proper management of fisheries and our resources was 
really the motivating factor of our becoming a state, and I 
have been involved in this general area now for a very long 
time. I think it's a very wise thing that we decided that the 
Magnuson Act, now renamed and carries my name too, that it 
should be renewed periodically so we can be forced to go around 
the country and get the attitude of the people affected by the 
kind of management that's going on.
    I don't want to add too much to what's already been said. 
We've been in Anchorage and Seattle. You've been in New Orleans 
and Maine, and now we're here. I hope we can now get down to 
marking up this bill and getting an agreement so that we can 
take it to the floor.
    Ms. Dalton, Penny, as we all know you, you're a good 
traveler too. You've been at all these hearings, and I 
congratulate you for that. I say that so I can say something 
nice about you before I say this: The one thing that's happened 
recently that has not been what I thought it should be--we all 
have supported the essential fish habitat concept, but when the 
agency designated the entire 200-mile zone as essential, I 
think it put an enormous burden on entities that are not 
associated with fish habitat to clear with National Marine 
Fisheries Service, and I hope we find some way to turn that 
off. We have half of the 200-mile zone of the United States off 
one state, my state. And when you look at the impact of that on 
our state, I think it's just overwhelming. So I do hope that 
we'll hear if there's any comments about that here today. But 
I'm really here to learn. One of the problems we have now on 
the west coast and up in the Baring Sea and the North Pacific 
is the problem of individual fisheries quotas. Our attitudes 
there are changing. There's no question about it. Many more 
people now are in favor of IFQs as one of the management tools 
to help us as we must reduce our gear as product is slowly but 
surely being reduced--I think from overpressure from marine 
mammals--but that will take awhile to prove. So while we wait 
for that proof, we must protect the species.
    Senator Magnuson and I, when we first introduce this bill, 
agreed on one goal: This bill was not a bill to protect 
fishermen; it was not a bill to protect jurisdiction of states; 
it was to protect the reproductive capacity of our fisheries. 
And I think that should continue to be the goal as we go 
forward. It's nice to be with you.
    Senator Snowe. Thank you, Senator Stevens.

    STATEMENT OF RICHARD FREELAND, PRESIDENT, NORTHEASTERN 
                           UNIVERSITY

    Mr. Freeland. My name is Richard Freeland. I am the 
president of Northeastern University, and it's my pleasure this 
morning to welcome you all to this hearing. I'd like 
particularly to welcome the three members of the U.S. Senate 
who honor us with their presence today; Senator Olympia Snowe, 
Subcommittee chair of the Subcommittee on Oceans and Fisheries; 
and in the center, our old friend Senator John Kerry, the 
Junior Senator from Massachusetts. It's always a pleasure to 
welcome Senator Kerry back to the Northeastern campus; and at 
the far end of the table, Senator Ted Stevens from Alaska.
    I also want to welcome those who will testify here this 
morning: representatives of the fisheries industry, experts on 
this subject, and members of the general public.
    This is an important topic to the region, to the nation. 
It's one that we here at Northeastern follow with great 
concern, and we're very happy to be able to provide this forum 
for these important issues to be heard. So with that, welcome 
once again to Northeastern, and Senator Snowe, welcome once 
again.
    Senator Snowe. We now begin with our first panel. Our first 
witness is Ms. Penny Dalton, the Assistant Administrator for 
the National Marine Fisheries Service. Penny, I do want to 
express my appreciation and gratitude to you for your testimony 
here today and at the five other field hearings held across the 
country.
    Mr. Tom Hill, chairman of the New England Fishery 
Management Council, is our second witness. We know that your 
testimony will be very important to us here today because of 
your familiarity with New England issues.
    Our final witness on the panel will be Rear Admiral George 
Naccara, Commander of the First Coast Guard District here in 
Boston. Congratulations to you, Admiral, for your recent 
selection for this very important post.
    Accompanying Ms. Dalton is Ms. Kurkul, who is the Northeast 
Regional Administrator for NMFS.
    We also have Dr. Mike Sissenwine, from the Northeast 
Fisheries Science Center.
    Ms. Dalton, would you please begin. We'll include all the 
statements. We would please ask to you limit your testimony to 
five minutes. Thank you.

          STATEMENT OF PENELOPE D. DALTON, ASSISTANT 
         ADMINISTRATOR, AND PATRICIA KURKUL, NORTHEAST 
   REGIONAL ADMINISTRATOR, NATIONAL MARINE FISHERIES SERVICE

    Ms. Dalton. Good morning. Thank you for the opportunity to 
testify on the Magnuson-Stevens Act and on New England fishery 
issues. Just thank you also for the opportunity to have 
attended these hearings around the country. It's been a great 
learning experience for me. I'm Penny Dalton, Assistant 
Administrator for NOAA Fisheries. Accompanying me are Pat 
Kurkul, our Northeast Regional Administrator, and Dr. Mike 
Sissenwine who heads the Northeast Science Center.
    My written statement includes a detailed discussion of our 
implementation of Magnuson-Stevens Act and suggestions for 
amendments to the Act. So in the interest of time, I'll limit 
my comments to a few key issues.
    In 1998 New England fisheries harvested close to 600 
million pounds producing almost $540 million in dock-side 
revenues. If rebuilt, these fisheries could sustain a billion 
dollar industry. However, rebuilding cannot be achieved without 
significant socioeconomic costs. The past five years have been 
difficult for almost all sectors of the industry. But this 
investment is beginning to payoff. And we're starting to see 
signs of recovery.
    NOAA stock assessments indicate there is good news for many 
stocks and for a few species we actually have seen substantial 
improvement. For instance, the biomass of George's Bank haddock 
has increased fourfold since early 1993. And the 1998 year 
class is the largest in the past 20 years. One Cape Cod 
fisherman reported that the 1999 haddock harvest by the Cape 
Hook Fleet was the best in 30 years.
    The situation also has improved for George's Bank cod where 
populations have increased 43 percent above record low 1995 
levels. Yellowtail flounder is improving with growing numbers 
off George's Bank, southern New England and Cape Cod. In 
addition, witch flounder is well on its way to recovery. We've 
seen good recruitment and a doubling of the adult biomass since 
1995.
    Despite these positive signs, other fish stocks are still 
threatened by overfishing or in the early stages of recovery. 
The Gulf of Maine cod situation remains particularly troubling. 
Fishing pressure has been reduced, but mortality is still two 
to three times what it needs to be to promote rebuilding. For 
cod populations on both Gulf of Maine and George's Bank, few 
young fish are entering the fishery, and we have not had a good 
cod year class in many years.
    Despite these concerns, we remain cautiously optimistic 
that we can reestablish the full potential of New England 
fisheries. The cultural and economic benefits that healthy 
fisheries can provide to coastal fishing communities are 
enormous. However, to realize this potential, we must stay the 
course. That is not to say that we cannot or will not take 
steps to improve our fishery management programs. Such steps 
are necessary to improve the scientific base for decisions, to 
minimize the impacts of our regulations on fishing communities 
and to ensure that no future generation of fishermen has to 
suffer through the protracted rebuilding effort that is ongoing 
today.
    Toward that end, we are looking for more flexible ways to 
achieve our conservation objectives and improve our working 
relations with the fishing industry. Last year's experience in 
the scallop fishery illustrate several of the approaches we are 
pursuing, and that may be useful to think about in the 
reauthorization.
    As you know, large areas on George's Bank were closed in 
the mid-90's to rebuild groundfish. These area closures allow 
productive scallop beds to rebuild in the absence of fishing. 
The wealth of scallops that now exist in the closed areas 
demonstrates the effectiveness of protected areas as a fishery 
management tool. NOAA Fisheries surveys documented growing 
populations of scallops in the closed area and the cooperative 
research program was initiated in 1998. The program involved 
many here today, including our Northeast Science Center, U-Mass 
Dartmouth, the fishery survival fund and several fishing 
vessels. It collected essential data on scallop density, 
habitat and bycatch. It was used by the New England Council to 
develop an exempted fishery for closed area two. In setting the 
ground rules for the fishery, the Council and NOAA Fisheries 
incorporated a number of conservation safeguards. First, the 
fishermen agreed to a cap on bycatch of yellowtail flounder and 
modified their nets and fishing practices to minimize that 
bycatch. They also use electronic reporting to track landings 
and avoid hitting the cap.
    Second, the Council established an observer coverage target 
of 25 percent. Scallopers carrying observers were allowed to 
harvest additional scallops to finance observer costs through 
an innovative arrangement with the National Fish and Wildlife 
Foundation. To the extent possible, fishermen were trained as 
observers. Finally, additional surveys were made to assess the 
effects of the fishery on habitat. The results was a limited 
opening that put as much as $40 million in the southeast New 
England fishing communities.
    In addition, the improved conditions of the scallop 
resource will allow fishermen to forego the reductions in days 
at sea scheduled for the upcoming fishing year. The Council is 
now following up with a proposal to expand the exempted fishery 
this year and formalize an area rotational system in the 
scallop plan.
    Recent appropriations by Congress will significantly 
increase opportunities for such partnerships in other northeast 
fisheries. More than half of the new funds provided in our 
fiscal 2000 budget will be dedicated to cooperative research 
activities. The remainder will support the deployment of 
observers, data collection and analysis and agency costs for 
collaborative research and enforcement. NOAA Fisheries will 
work with the New England Fishery Management Council, the 
fishermen and the academic community to ensure that research 
projects target priority issues and are grounded in good 
science.
    I also want to reiterate our commitment to improving our 
understanding of the potential economic impacts of management 
measures on fishing communities. Progress toward addressing 
this issue requires additional funding, and the NOAA budget 
requests $2.5 million to establish a core economic program and 
develop a national economic data base. In addition, we have 
requested $1 million for the collection of social and economic 
data to improve analyses for management.
    I will conclude by saying that NOAA Fisheries is continuing 
to work to fully implement the changes made by Congress in 1996 
and to strengthen our foundation for future management 
decisions. Our goal is restored fisheries that support a 
healthy coastal economy and the vibrant fishing industry that 
is New England's tradition. Thank you.
    Senator Snowe. Thank you, Ms. Dalton.
    Mr. Hill.

    STATEMENT OF TOM R. HILL, CHAIRMAN, NEW ENGLAND FISHERY 
                       MANAGEMENT COUNCIL

    Mr. Hill. Thank you, Madam Chairwoman and members of the 
Committee. I'm grateful to be here this morning in order to 
offer our Council's perspective on the implementation of the 
1996 amendments to the Magnuson-Stevens Act.
    First, I want to indicate that it is my opinion and I 
believe the opinion of our committee that--of our Council, 
rather--that the basic tenants of the Sustainable Fisheries Act 
are sound. And that although we have wrestled with some 
components of the implementation of the Act, the fundamental 
tenants of the Act are sound and we look forward to working 
with the Committee in dealing with the refinements that are 
necessary.
    I also want to thank both Senator Snowe and Senator Kerry 
and Senator Stevens, all of you for your support on dealing 
with the cooperative research effort this year. I think that 
program will I think contribute benefits to our relationship 
with the industry and the relationship with the scientific 
community that will be multifold, and I suspect that as we 
enter into that over an extended period of time that we'll see 
the benefits that come from that kind of cooperation.
    I also wanted to touch on what I think is a significant 
point that's already been made, and that is that we are making 
progress with many of our stocks. That the issue noted here 
earlier of scallops the recurrence and resurgence of scallops 
has added tremendously to the economic opportunities of the 
fishing industry. We've also had a significant recovery of 
haddock. In fact, we've gone from a 500-pound trip limit only 
several years ago to a 50,000-pound per trip limit, and that's 
a significant recovery. In addition, we've had gray sole and 
George's Bank yellowtail flounder and a number of other stocks 
that are on the mend, and I believe that is a consequence of 
the implementation of management regulations that the Council 
has put into place.
    On the other hand, we do have some challenges. We've--as 
the Sustainable Fisheries Act required--why we've had to 
implement a number of management plans and a number of 
amendments in order to alter existing plans or to implement new 
ones for either fish stocks that did not have management plans 
in place, or to alter the plans in order to achieve the 
rebuilding schedules as required under the Act.
    I won't go into all of the requirements of the Act. I'm 
sure you're all familiar with them. But I want to emphasize it 
is not just a case of the inclusion of this information in the 
fisheries management plans, it often tends to, in order to stay 
on schedule where we're required to amend those plans on an 
annual basis, particularly those plans where we have 
significant overfishing that requires closer scrutiny versus 
less scrutiny. And as a result of that, we're amending and/or 
changing management regulations on an annual basis. And that 
burden is significant. As well as dealing with all of the other 
requirements under the Act, and this includes dealing with SAFE 
reports, largely a staff work product, more comprehensive 
social and economic analyses are necessary and required under 
the revisions of the Act. Many of the Council meetings that 
used to be one or two days long are now three days long. And 
the number of committee meetings that are required in order to 
deal with the complex issues that are at stake here in New 
England require extended oversight committee meetings in the 
various communities that are affected.
    I won't take the time to list all of these items because 
the mandates are not appropriate, but to note that the number 
of meetings and the amount of effort that is required to deal 
with these is significant. The workload of the Council has more 
than doubled over the last couple of years. And the resources 
that the Council has had at its disposal has not kept pace with 
that doubling of effort. In fact, in order to address that very 
serious issue, and it's a significant issue, we had staff 
working 70 and 80 hours a week for extended periods of time. I 
want to compliment my staff publicly. They've done an 
extraordinary job in keeping up with the demands that have been 
placed on them. I am proud of every single one of them.
    On the other hand, that pace could not be sustained. And we 
have recently--the Council has agreed on a series of 
initiatives for this coming year, and it left out a number of 
items that we just are not capable of dealing with. And it 
includes the development of an annual or an adjustment 
including limited entry for whiting. It included an industry-
supported controlled access system for herring. It included an 
FMP for red crab, which is a fishery that has collapsed in the 
past, and is now, we believe, at near sustainable levels. And 
yet we're not going to get to that this year. And there are 
measures that we feel are necessary to deal with capacity 
issues in New England. We've got far more capacity than we've 
got resources available in various portions of our fisheries.
    And due to these complex issues and reasons why I would 
only bring to the Committee's attention that the Council has 
very good intent but nevertheless a big challenge in front of 
it in trying to deal with these very complex subjects.
    Finally, I want to add a personal note. When I was elected 
as Chairman of the Council, one of the commitments I made was 
to do--to bring to the Council a more orderly way of developing 
our fisheries management plans. As the Committee knows, New 
England has had a reputation for a rather lively environment at 
our Council meetings. We have been working since I've been 
elected at trying to bring a little more deliberative 
perspective to the development of management plans. And we have 
done that. And I think that it's a credit to the members and to 
the industry that they've worked with us in order to work 
through our Subcommittee process in developing options that are 
deliberated by the full Council. We needed to avoid the 
midnight decisions that were occurring on occasionally after an 
18-hour meeting. We don't make good decisions under that kind 
of environment. I don't believe the Senate would do so, and I 
don't believe a regional management Council ought to do that.
    And in closing, I believe that it is important for our 
region to deal with the challenges before us, but we need to do 
so in an orderly manner. It is my commitment to do outreach 
with the industry. In fact, I'm going to be in Maine a couple 
of weeks from now meeting with industry groups, with Pat 
Kurkul, and we're making an effort to do public outreach. We're 
making an effort to make the process understandable and to be 
accessible to all of the industry participants. There is a 
corresponding responsibility on their behalf to deal with the 
management system that the Congress has put into place. And we 
look forward to doing that to the benefit of the region and the 
Nation as a whole. And I'd be happy to answer questions at the 
appropriate time. Thank you.
    [The prepared statement of Mr. Hill follows:]

             Prepared Statement of Tom R. Hill, Chairman, 
                 New England Fishery Management Council


    I would like to thank the members of the Subcommittee for inviting 
me here to offer our Council's perspectives on the implementation of 
the 1996 amendments to the Magnuson-Stevens Act. First, let me say that 
while I believe there are some issues of concern, I also believe that, 
overall, the Act is a sound piece of legislation. The New England 
Council's revised fishery management plans have produced some 
substantial improvements in the status of many of the commercially 
valuable species we manage. Haddock, gray sole (witch flounder), 
Georges Bank yellowtail flounder and sea scallops in particular, are 
among our success stories and I would like to take a moment to discuss 
them.

Haddock--The adult stock biomass has increased fourfold since 1993 and 
is at its highest levels since the early 1980s. Stock biomass is 
expected to continue to increase because of low fishing mortality and 
favorable recruitment in 1998.

Gray sole--This traditionally valued flounder species in the Gulf of 
Maine has rebounded to near maximum sustainable yield conditions. 
Favorable recruitment (new fish entering the population each year), 
lower fishing mortality and reduced bycatch in small mesh fisheries 
have contributed to its resurgence.

Georges Bank yellowtail flounder--The total stock biomass has increased 
in both 1998 and 1999 to its highest level since 1973 and could be 
rebuilt in about three more years. The 1997 year class is the largest 
observed since 1973, and since 1996, fishing mortality is lowest 
observed in over 20 years.

Sea scallops--The biomass on Georges Bank is the highest observed since 
1982, primarily in the groundfish closed areas and due to favorable 
recruitment. Biomass in the Mid-Atlantic increased in 1998, but still 
remains below the management target, although overall fishing mortality 
has declined significantly from effort reductions and closed areas. 
Furthermore, the Council's 1999 groundfish closed area access program 
provided a much-needed economic boost to the scallop industry while at 
the same time conserving yellowtail flounder and protecting areas with 
sensitive habitat.

    These are some of the positive results that have been achieved 
through fishing regulations and the sacrifices of New England 
fishermen. On the other hand, we continue to face several serious 
challenges. The new requirements of the Magnuson-Stevens Act, as 
amended by the Sustainable Fisheries Act (SFA), have placed an enormous 
burden on Council members and its staff, as well as on the National 
Marine Fisheries Service, without providing a commensurate increase in 
resources to carry out the new mandates.
    While the previous Magnuson Act, along with National Standard 
guidelines already required the Councils and the Secretary of Commerce 
to take steps to end overfishing and rebuild depleted stocks, fishery 
management plans (FMPs) must now specify for each stock:

  <bullet> objective and measurable criteria for identifying whether a 
        fishery is overfished;

  <bullet> if a fishery is overfished or approaching an overfished 
        condition, the plan must contain measures to prevent 
        overfishing or to end overfishing and rebuild the fishery;

  <bullet> the plan or amendment must be developed within one year of 
        notification by NMFS that a stock is overfished or approaching 
        an overfished condition and must specify rebuilding periods 
        that ``are as short as possible,'' but are not to exceed 10 
        years; and

  <bullet> if rebuilding plans call for reduced harvests, the 
        restrictions and recovery benefits must be fairly allocated 
        among the harvesters.

    Plans must, to the extent practicable, also address bycatch issues, 
including minimizing bycatch and the mortality of bycatch that cannot 
be avoided. Further, FMPs must now describe and identify essential fish 
habitat (EFH), minimize ``to the extent practicable'' adverse effects 
on such habitat, and identify other actions to encourage the 
conservation of such habitat. Fishery impact statements also must 
assess the likely effects of management measures on fishing communities 
and, to the extent practicable, minimize economic impacts (National 
Standard 8).
    I want to emphasize that work does not simply cease with the 
inclusion of this information in fishery management plans. In order to 
stay on schedule with many of the new stock rebuilding plans, FMPs 
require annual reviews and adjustments to assess progress, as well as 
Stock Assessment and Fishery Evaluation (SAFE) reports, largely a 
Council staff work product. More comprehensive social and economic 
analyses are necessary to meet Regulatory Flexibility Act (RFA) 
requirements to adequately respond to National Standard 8. Many Council 
meetings are now several days longer to provide for the level of public 
input generated by the imposition of new and often very complex 
management measures. The development of new measures also has required 
more frequent meetings of our oversight committees, resulting in a 
corresponding increase in related costs. As you know, our Council also 
will have an additional seat beginning in August, adding to our 
overhead.
    I take the time to list all these issues, not because the SFA 
mandates are not appropriate, but to emphasize that the steps 
undertaken to meet the new requirements have increased the Council's 
workload by well more than 100 percent. In response to SFA, our Council 
has developed four new FMPs (for herring, monkfish, whiting and 
dogfish), six plan amendments (for groundfish, scallops and for 
essential fish habitat (EFH) designations), seventeen framework 
adjustments and three SAFE reports--an enormous body of work by almost 
any standard. All of these actions have been completed since 1997.
    In contrast, increases in Council funding since 1997 have totaled 
approximately 28 percent. While I assure you that our work is being 
accomplished, it is occurring at a pace that cannot be sustained. 
Without question, more resources are needed to enable the Council to 
continue to meet its responsibilities, including maintaining public 
outreach efforts and meeting with affected stakeholders.
    In order to address this very serious situation, the Council 
recently developed a list of priorities for the purpose of focusing on 
what it could realistically accomplish in 2000. The document was as 
significant in what it listed as initiatives as for the issues that 
were postponed for consideration until 2001. Council actions in 2000 
will include:

  <bullet> Groundfish Amendment 13--to develop SFA rebuilding plans;

  <bullet> Skate management measures--the Council was recently given 
        management authority for seven skate species, four of which are 
        overfished and will require the development of rebuilding plans 
        within one year;

  <bullet> Sea Scallop Amendment 10--to develop a rotational area 
        management system;

  <bullet> A framework adjustment for whiting--to develop measures for 
        a raised footrope trawl fishery;

  <bullet> A framework adjustment for monkfish--to review the 
        effectiveness of management measures implemented in 2000 and 
        make any necessary changes;

  <bullet> Annual specifications for Atlantic herring fishery--these 
        include only optimum yield, domestic annual harvest, domestic 
        annual processing, the total amount allocated to processing by 
        foreign ships, the amount of herring that can be taken in U.S. 
        waters and transferred to Canadian herring carriers for 
        transshipment to Canada and an allocation for internal waters 
        processing;

  <bullet> A Habitat Annual Report--including the possible development 
        of a dedicated habitat research area, EFH designations for the 
        seven skate species and a formal process for designating 
        habitat areas of particular concern (HAPCs);

  <bullet> Research Steering Committee activities--to provide input to 
        NMFS concerning the expenditure of Congressional appropriations 
        earmarked to fund cooperative research efforts developed by 
        fishermen and scientists; and

  <bullet> U.S.-Canada activities--to support efforts to coordinate the 
        management of transboundary stocks, especially the rapidly 
        rebuilding Georges Bank stocks of haddock and yellowtail 
        flounder; it is of critical importance to maintain a New 
        England perspective in this arena through Council and 
        grassroots involvement.

    Because of the need to make choices given the overall workload and 
the shortage of resources with which to accomplish these tasks, the 
Council will not address a number of key issues this year. Actions to 
be deferred until next year are:

  <bullet> the development of a whiting annual adjustment with a 
        limited entry program and establishment of Total Allowable 
        Catch levels;

  <bullet> consideration of an industry-supported controlled access 
        program for the herring fishery;

  <bullet> an FMP for red crab; and

  <bullet> measures to address capacity in New England fisheries.

    In the case of the Spiny Dogfish Plan, the Mid-Atlantic Council is 
the lead and therefore will assume most of those plan development 
responsibilities. These decisions were difficult ones, especially in 
view of the level of industry interest in most of the programs listed.
    Personally, I am very concerned about the potential consequences of 
inaction this year. Whiting is an overfished resource. Alternatively, 
herring is a healthy resource that could only benefit from pro-active 
management. We witnessed the collapse of the red crab fishery in the 
mid-1980's because of increased effort by new boats which could not be 
supported by the available resource. Estimates of landings this year 
suggest that the red crab fishery may be operating at close to maximum 
sustainable yield levels at this time, and the Council is concerned 
about the long-term stability of this fishery absent a management plan. 
The expansion and contraction of fishing capacity remains one of the 
most important issues yet to be addressed in our region and one that 
merits attention if we are to achieve sustainability in our fisheries.
    Ideally, I would like to report to you that we will undertake all 
of the actions and initiatives listed above. With our current funding 
shortfall for fiscal year 2000 and a greater shortfall projected for 
next year, which includes the addition of new staff, however, I am at a 
loss to determine how we may accommodate any workload increase. We will 
be unable to add additional staff and schedule the necessary meetings 
to consider action on the issues that are currently deferred.
    Finally, I would like to add a personal note here. When I was 
elected Council Chairman last August, I made a commitment to ensure an 
awareness of and support for the benefits of sound, long-term resource 
management. I believe I have held to that commitment. However, I also 
pledged to increase the Council's outreach and education efforts and to 
pay special attention to fishermen who have traditionally been out of 
the mainstream, those who rarely attend our meetings, but who are 
nonetheless affected by our actions. It is perhaps one of my greatest 
personal disappointments that informal meetings with fishermen's 
associations and information exchanges in other venues outside of the 
formal atmosphere of Council meetings, will likely not occur because 
our staff simply cannot undertake these activities. To do so would 
compromise the timely completion of our management responsibilities.
    I believe I have made my point to the Subcommittee. The New England 
Council is striving to comply with the SFA requirements. We have 
committed Council members and an experienced and hard-working staff. We 
have made significant progress in rebuilding fish stocks to sustainable 
levels, but we are in real need of increased resources to do the job 
right. I sincerely hope you will give this issue serious consideration.
    Madam Chairman, I would like to thank you for this opportunity to 
comment on the implementation of the Magnuson-Stevens and Sustainable 
Fisheries Acts. I'm happy to answer questions or provide further 
information about the issues I have brought forward here today.

    Senator Snowe. Thank you, Mr. Hill. Admiral Naccara.

           STATEMENT OF REAR ADMIRAL GEORGE NACCARA, 
         COMMANDER OF THE FIRST COAST GUARD DISTRICT, 
                           BOSTON, MA

    Admiral Naccara. Good morning, Madam Chairwoman, and 
distinguished members of the Subcommittee. I'm George Naccara, 
Commander of the First Coast Guard District. On behalf of the 
Commandant, Admiral Jim Loy, thank you for the opportunity to 
appear before you today to discuss the Coast Guard's efforts in 
support of the Magnuson-Stevens Fishery Conservation and 
Management Act.
    Please let me explain to you that I've been on the job for 
just over six weeks, and I'm working hard to understand the 
complexities and the subtleties of our fisheries program.
    Let me begin by outlining our operations today. Four 
cutters and two aircraft are on patrol as part of our ongoing 
operation called ``Atlantic Venture.'' Coast Guard personnel 
are also conducting increased at-sea and dock-side voluntary 
commercial fishing vessel safety examinations as part of our 
operation ``SAFE CATCH,'' an Atlantic area-wide initiative to 
reduce lives lost at sea.
    First District unit commanders are also conducting 
operation ``Tango Orange,'' interfacing with coastal fishermen 
and vessel safety and multispecies fisheries enforcement. Our 
cutters, boats, and aircraft are also positioned and prepared 
to respond to any emergent search and rescue case. This is 
certainly critical in winter when bitter-cold temperatures and 
frequent heavy weather drastically reduced survival times.
    The Coast Guard is firmly committed to providing effective 
at-sea enforcement of fisheries management schemes established 
by the Fishery Management Councils and the National Marine 
Fisheries Service under the Act. We work closely with the 
National Marine Fisheries Service, the National Oceanic and 
Atmospheric Administration, and all stakeholders to exercise 
this stewardship.
    Of course, the fishing industry continues to play an 
integral role in the New England culture and economy. New 
Bedford, Massachusetts is second only to Dutch Harbor, Alaska 
in the value of domestic catch landed in the U.S., and the 
industry, both commercial and recreational, provides 
approximately $1.5 billion of revenue to the region.
    The First Coast Guard District encompasses the lateral 
Northeastern United States from Shrewsbury River, New Jersey to 
the Canadian border, out to 200 nautical miles off-shore. The 
fishery management plans have implemented closed area and 
regulated areas throughout this region. There are numerous 
year-round, seasonal and protected species enforcement schemes 
in effect throughout the northeast. This chart reflects some of 
those areas. Over 10,000 square nautical miles of year-round 
closed areas, when combined with over 60,000 square nautical 
miles of seasonal closures and regions delineated to protect 
endangered marine mammals, comprise a large proportion of the 
available fishing area.
    To carry out our enforcement responsibilities under this 
contract, the Coast Guard has adopted a strategic plan called 
``Ocean Guardian'' that outlines the Coast Guard's long-range 
strategy to provide effective enforcement in support of 
national goals for fishery resource management and 
conservation. Under this Ocean Guardian program the First 
District conducts Operation Atlantic Venture, an operation 
based on an intelligence-driven framework for Coast Guard 
patrols enforcing the 13 Fishery Management Plans, the Marine 
Mammal Protection Act, and the Endangered Species Act involving 
more than 40 different species of marine life.
    In fiscal year 1999 alone, First District units contributed 
more than 19,000 resource hours to these operations. Future 
modernization is important if our fisheries law enforcement 
efforts are to be sustained. The Coast Guard, through the 
innovative Deepwater Capability Replacement Project, is 
addressing these modernization needs. The project is designed 
to ensure timely acquisition of systems that will leverage 
technology to meet the demanding mission requirements.
    As I've indicated previously, there is an enduring demand 
for our unique off-shore enforcement capabilities under this 
Act. The Deepwater Project is the Coast Guard's plan to ensure 
that this capability exists into the future. And I ask for your 
full support of the President's fiscal year 2001 funding 
request for this project of national importance.
    We do not conduct the fisheries enforcement mission alone. 
In carrying out our mandate, we partner with the National 
Marine Fisheries Service, the NOAA General Council, and many 
state agencies such as the Massachusetts Marine Environmental 
Police and the Maine Marine Police, local fishing industry 
groups, and of course, the New England Fishery Management 
Council. Together, we all work to achieve a balance of safety, 
enforcement effectiveness, and service to the industry.
    Our focus as a non-voting member of the Council is on 
enforcement and safety issues. The Act provides the mechanism 
the Coast Guard needs to address these issues, particularly 
with the 1996 addition of the National Standard 10. An 
enforceable plan that encourages safety at sea is essential to 
ensuring the safest environment possible for the fishing 
community. We view the well-being of fishing vessel crews and 
their vessels as our highest safety priority. During the past 
few months the Coast Guard has been conducting a commercial 
fishing vessel safety initiative called ``Operation SAFE 
CATCH'' along the Atlantic Sea Board and the Gulf of Mexico. 
Operation SAFE CATCH is the Coast Guard's effort to expand at-
sea and onshore vessel examinations. During these examinations 
fishermen are required to meet regulatory demands including 
specified safety equipment as well as to encourage the 
fishermen to critically examine the non-regulated material 
condition of their vessels for safety deficiencies, such as 
hull condition, vessel stability, and watertight integrity. 
During the first 90 days of this Operation SAFE CATCH, we 
identified more than 100 commercial fishing vessels in our 
district that are high risk. Every one of these vessels was 
approached in port and assisted by Coast Guard personnel to 
reach higher safety standards. The early results of this 
operation are very promising.
    I also remain focused on our people that carry out this 
important national mission. Maintenance and availability 
problems with cutters and aircraft, workforce shortages, and 
decreasing levels of experience have necessitated a 10 percent 
cut in medium endurance cutter hours and the reduction of 
aircraft hours dedicated to law enforcement in this fiscal 
year. In 1999 the Coast Guard faced the same challenges as the 
other services in recruitment and readiness. We are requesting 
additional resources for recruitment and retention initiatives 
in fiscal year 2001 that are necessary for the Coast Guard to 
maintain a ready work force. Funds requested in 2001 will 
provide an important first step in enabling us to train, 
retain, and outfit our personnel allowing us to meet national 
objectives.
    The Coast Guard is a key partner in the complex fisheries 
sustainability. Sustaining our country's natural resources and 
ensuring the safety of fishermen are high Coast Guard 
priorities. Our contributions will be most effective only with 
the continued cooperation and support of fishing communities, 
the Councils and state and local agencies. This Act provides 
the tools we need to address Coast Guard fisheries concerns, 
and I do not recommend any changes.
    Thank you for your continued leadership and support of the 
Coast Guard and for providing this opportunity to discuss these 
important issues with you today. I'll be happy to answer any 
questions.
    [The prepared statement of Rear Admiral Naccara follows:]

  Prepared Statement of Rear Admiral George Naccara, Commander of the 
                 First Coast Guard District, Boston, MA

    Good morning, Madam Chairman and distinguished members of the 
Subcommittee. I am Rear Admiral George Naccara, Commander of the First 
Coast Guard District. On behalf of the Commandant, Admiral Jim Loy, 
thank you for the opportunity to appear before you today to discuss the 
Coast Guard's efforts in support of the Magnuson-Stevens Fishery 
Conservation and Management Act (MSFCMA).
    The Coast Guard is firmly committed to providing effective at-sea 
enforcement of fisheries conservation and management programs that are 
established by the Fishery Management Councils (FMCs) and the National 
Marine Fisheries Service (NMFS) under the MSFCMA. We recognize that the 
proper stewardship of our fisheries resources, and of all marine 
protected species, is of great importance to protect both the 
environment and the economic impact fisheries have on this nation. We 
work closely with NMFS, the National Oceanic and Atmospheric 
Administration (NOAA), and all stakeholders to exercise this 
stewardship.
    The fishing industry continues to play an integral role in the New 
England culture and economy. New Bedford, Massachusetts is second only 
to Dutch Harbor, Alaska in the value of domestic catch landed in the 
U.S., and the industry, both commercial and recreational, provides 
approximately one and one-half billion dollars of revenue to the 
region. American lobster is the single most valuable marine species 
landed in the U.S.--worth over $253 million in 1998.
    The First Coast Guard District encompasses the Northeastern United 
States from Shrewsbury River, New Jersey to the Canadian border. This 
area includes such traditional and bountiful fishing areas as Georges 
Bank, Davis Bank, and the Southern New England Canyons. To help sustain 
the fisheries in this vast area, the fishery management plans (FMP) and 
amendments have implemented closed areas and regulated areas throughout 
the region. The following list reflects the enforcement regions for 
fiscal year 2000:

  <bullet> 10,600 square nautical miles of year-round closed areas 
        (Closed Areas I & II (CA I/II), Western Gulf of Maine (WGOM), 
        and Nantucket Lightship Closed Area (NLCA);

  <bullet> 3,400 square nautical miles of year-round restricted gear 
        areas (to prevent gear conflicts);

  <bullet> 53,200 square nautical miles of seasonal closed areas 
        (rolling closed areas);

  <bullet> 5,280 square nautical miles of critical habitat (to protect 
        the northern right whale);

  <bullet> 490 square nautical miles of marine sanctuary (Stellwagen 
        Bank);

  <bullet> 15,000 square nautical miles of pinger-only gillnet areas 
        (to protect harbor porpoises);

  <bullet> And, in just a few weeks, an additional seasonal closure 
        covering 6,000 square nautical miles of fishing grounds north 
        of the tip of Cape Cod designed to protect the threatened Gulf 
        of Maine cod stocks.

    Enforcement of the fisheries regulations associated with these 
specific areas, in addition to protecting the more than 100,000 square 
nautical miles of the Exclusive Economic Zone (EEZ) off New England, is 
a high priority to the Coast Guard. To carry out our enforcement 
responsibilities under the MSFCMA, the Coast Guard has adopted a 
strategic plan, OCEAN GUARDIAN, that outlines the Coast Guard's long-
range strategy to provide effective enforcement in support of the 
national goals for fisheries resource management and conservation. 
Under OCEAN GUARDIAN, the First District conducts the only permanent 
operation dedicated to fisheries enforcement in the Atlantic, Operation 
ATLANTIC VENTURE. ATLANTIC VENTURE is based on an intelligence-driven 
framework for Coast Guard offshore enforcement operations. It also 
guides our cutter and aircraft commanders who are tasked with enforcing 
the 13 fishery management plans, the Marine Mammal Protection Act 
(MMPA), and the Endangered Species Act (ESA), involving more than 40 
different species of marine life. In fiscal year 1999 alone, the First 
District devoted more than 29,000 resource hours to patrolling offshore 
by Coast Guard aircraft and cutters in support of living marine 
resource regulations. In addition, we conducted nearly 1,600 boardings, 
resulting in improvements to commercial fishing vessel safety and 
improved compliance with the fishery management plans.
    We do not conduct this enforcement mission alone. In carrying out 
our mandate to enforce fisheries conservation and management 
regulations, we partner with NMFS, NOAA General Counsel, state 
agencies, local fishing industry groups, and the New England Fishery 
Management Council (NEFMC). Together, we all work to achieve a balance 
of safety, enforcement effectiveness, and service to the fishing 
industry, thus ensuring the long-term sustainability of our living 
marine resources.
    The NEFMC, consisting of representatives from maritime states, 
environmental organizations, and fishing communities, exists under the 
authority of the MSFCMA and serves to produce management measures to 
attain sustainable fisheries. As I said, we partner closely with the 
Council, and we participate in the Council as a non-voting member to 
advise on the enforceability implications of proposed fisheries 
management plans and the impact of those plans on fishing vessel 
safety. It is imperative that safety and enforceability concerns be 
addressed in the regulation development process. Adequate weighting of 
enforceability can be a challenge as many variables including 
statistical, biological, and social considerations factor into this 
complex decision-making process. Regulations that may tempt smaller 
coastal fishermen farther offshore to fish or exemptions to closed 
areas that reduce the effectiveness of our enforcement efforts are of 
concern to me. The MSFCMA provides the mechanism the Coast Guard needs 
to address these issues, particularly with the 1996 addition of 
National Standard Ten. An enforceable plan that encourages safety at 
sea is essential to ensuring the safest environment possible for the 
fishing community while ensuring the sustainability of the living 
marine resources of our nation.
    We view the well-being of fishing vessel crews and the safety of 
their vessel as our highest safety priority. During the past few 
months, the Coast Guard has been conducting a commercial fishing vessel 
safety initiative called Operation SAFE CATCH along the Atlantic 
seaboard and in the Gulf of Mexico. Operation SAFE CATCH is the Coast 
Guard's effort to expand the focus on at-sea and onshore examinations. 
During the examinations, fishermen are required to meet regulatory 
demands including specified safety equipment (immersion suits, life 
rafts, and Emergency Position Indicating Radio Beacons (EPIRBS)). We 
also encourage the fishermen to critically examine the non-regulated 
material condition of their vessels for safety deficiencies. Areas of 
critical importance are the hull condition, vessel stability, and 
watertight integrity. When vessels capsize and sink at sea, the reason 
is usually related to one or more of these physical conditions of the 
vessel. Many watertight integrity and stability issues are based on a 
lack of crew awareness and training. These non-regulatory measures are 
founded on good engineering practice rather than regulation, and our 
primary focus is to educate the mariner and improve the seaworthiness 
of the vessel.
    Operation SAFE CATCH continues the Coast Guard's strong emphasis on 
people helping people in our common workplace, the open ocean. During 
the first 90 days of Operation SAFE CATCH, we identified more than 100 
commercial fishing vessels in our district as ``high-risk'' vessels. 
(``High risk'' is defined as any vessel that engages in a high-risk 
fishery (e.g., inshore scallop, urchin, or derby fishery); has a 
history of prior safety violation or casualties; has a history of 
material conditions requiring serious search and rescue interventions; 
or upon boarding, is found to have conditions warranting termination.) 
Every one of these vessels was approached in port and assisted by Coast 
Guard personnel to reach the higher safety standards. The early results 
of this operation are promising. In fact, I believe it has already 
saved lives.
    I also remain focused on my people that carry out this important 
national mission. In 2000 and 2001, active duty military full-time 
equivalents (FTE) will increase by 959. This significant increase will 
improve the Coast Guard's operational capabilities both in the First 
District and nationwide. Although attracting quality candidates to 
serve in the military remains a challenge, the Coast Guard recently has 
been as successful as the other sea services in recruitment, and the 
fiscal year 2001 budget includes an increase in recruitment funds. The 
Coast Guard is building on this success by requesting additional 
recruitment and retention initiatives in fiscal year 2001. Funds 
requested in 2001 will enable us to train, retain, and properly outfit 
Coast Guard personnel, allowing the Coast Guard to meet national 
objectives and giving Coast Guard personnel the right skills and 
equipment to do their jobs safely and effectively.
    Future modernization is also important if our fisheries law 
enforcement resources are to be sustained or improved. The Coast Guard, 
through the innovative Deepwater Capability Replacement Project, is 
addressing the modernization needs necessary to provide this important 
enforcement through the coming decades. The project is designed to 
ensure timely acquisition of a system of systems that will leverage 
technology to meet the demanding mission needs in the offshore 
environment. As I have indicated previously, there is an enduring 
demand for our unique offshore enforcement capabilities to enforce the 
fisheries conservation and management goals of MSCMFA, as well as 
increasing responsibilities under the MMPA and ESA. The Integrated 
Deepwater System is the Coast Guard's plan to ensure that this 
capability exists into the future and I ask for your full support of 
the President's fiscal year 2001 funding request for this project of 
national importance.
    The Coast Guard is a key partner in the complex fisheries 
sustainability effort and we appreciate being included in the 
continuing efforts to implement and, when necessary, improve the 
MSFCMA. Sustaining our country's natural resources and ensuring the 
safety of fishermen are high Coast Guard priorities. We are dedicated 
to reaching both goals, realizing our contributions will be most 
effective only with the continued cooperation and support of fishing 
communities, the councils, and state and local agencies. The MSFCMA 
provides the tools we need to address Coast Guard fisheries concerns 
and, as such, I do not recommend any changes during this re-
authorization.
    Thank you for your continued leadership and support of the Coast 
Guard, and for providing this opportunity to discuss these important 
fisheries issues with you today. I will be happy to answer any 
questions you may have.

    Senator Snowe. Thank you. Thank you all for testifying here 
this morning.
    Ms. Dalton, I'd like to begin with you, and Admiral, I'd 
like to have you jump in. I want to begin, with the whole issue 
of the groundfish industry, obviously rebuilding the cod stocks 
here in New England. Again, I think it sort of underscores some 
of the problems that we're facing with the implementation of 
the Act and the decisions that are made and so on. We're at 20 
days out before the beginning of the fishing season for the 
groundfish industry, and NMFS has yet to approve the changes 
that were made by the Council in January. Now, you know last 
year there were five different plans and adjustments to the 
groundfish industry and with respect to closures and trip 
limits and all the other implications of those decisions, the 
industry ultimately faced five different plans last year. Here 
we are 20 days out and they have yet to receive an indication 
from your agency in terms of what is going to be approved, 
disapproved and so on. That's wrenching for an industry. That 
it's obviously so important here and to New England, but for 
all of the people who rely on industry, they don't obviously 
know; they can't plan. It's very difficult. So can you tell us 
exactly what has happened and why the agency has not yet made 
that decision?
    Ms. Dalton. The final rules should be coming out within the 
next couple of days. So I'm not, right now, since it hasn't 
come out, I'm not supposed to, I guess, talk about what's in 
the rule, but it will be out within the next couple days.
    Senator Snowe. Could you give us an indication as to why it 
takes so long when you have an industry that relies on a course 
of action? We know what happened last year in the 1999 season. 
It was a very difficult experience for the groundfish industry.
    Mr. Hill, I'd like to have you jump in here because, 
something happened in which the scientific objectives were not 
met by the original decision and subsequent decisions by the 
Council, because a third of entire catch was caught in the 
first three weeks of the season. Obviously, the action missed 
its mark and never would have worked had it been in effect 
throughout the entire season. So what has happened here? This 
is something that we've got to avoid in the future. You stated, 
Ms. Dalton, that we have to minimize economic consequences and 
make adjustments. I think everybody understands that along the 
way there will be adjustments, but you had five different plan 
amendments in one season and still missed the mark. Here we are 
20 days out from beginning the new season, and we have yet to 
make those decisions. So for one, it's the process. Second, how 
were the scientific objectives approved that ultimately did not 
achieve the goal?
    Mr. Hill. Thank you, Senator. I appreciate the opportunity 
to comment on the subject. The development of an FMP or its 
amendment or framework action is, starts from the Committee. 
The Committee develops with the industry three or four or five 
different options that they bring to the Council. During the 
development of framework 33, there were several options that 
were brought to the Council. One was to increase the closed 
area significantly. The other was to decrease the number of 
days, opportunity days in the industry. The third was a 
combination of closed areas and trip limits. The decrease in 
the number of days at sea would have prevented the discards 
that we have experienced. That was not a popular option because 
those days, opportunity days, if we reduced them would have 
affected other participants in the fishery who were not 
targeting groundfish or were not targeting Gulf Maine codfish 
would be a better way of describing it.
    The combination of days at--of closed areas and trip 
limits--was ultimately decided to be the best tool, but nobody 
anticipated--I don't believe anybody anticipated, including the 
scientific community or the Council--that at the same time this 
rule was being implemented, we had a significant movement of 
fish in-shore that was right in the areas where these fishermen 
were fishing. We had what is called ``sand eel bloom,'' which 
is a bait fish and codfish chase those. And when they show up, 
why the codfish show up, and nobody anticipated that, and as a 
result we had very high landings and very high discards in a 
very brief period of time. It was the Council's perspective 
that there was an automatic trigger involved in the trip limit 
system that if we got to a certain point in the target quota 
that a lower trip limit would be triggered. And all that did, 
unfortunately, was to increase the number of discards that 
occurred.
    There are some clear options to deal with that. One, we 
could have gone to a quota system, which was not popular, that 
would have closed the fishery subsequent to reaching a certain 
target. The other was we could have used days at sea as a 
methodology which when they used up their days at sea, the 
reduced level of days at sea, they would have stopped, 
individually stopped fishing. There were several options that 
would have avoided the experience we had last year. Neither of 
them were popular. Neither of them gained the kind of support 
in the Committee in the development of the framework that 
brought it to the Council that it had a chance, that either of 
them had a chance of being approved. In retrospect, would the 
Council have done something different? I suspect so. Will the 
Council be looking? We're engaged in development of Amendment 
13 right now which is going to look holistically at groundfish 
management in dealing with the consequences of that action. And 
I suspect we may take a different path in the future, but I 
must tell you that it is profoundly complex. Groundfish stock 
represents 13 different species. They're all caught in varying 
combinations.
    We've got different sectors of the fishery saying, I can go 
fishing for this particular species, and I won't catch many 
codfish, so why are you impacting me by creating these kinds of 
regulations? It's very complex. I wish it was simple. It's not 
like individual species management like scallops where you're 
basically establishing a regulation for a single species. 
Multispecies management, the reason we chose--and I know this 
is a long-winded answer, but it's a very complex subject--the 
reason that the Council initially chose days at sea as a 
methodology for managing fisheries in New England in 1993 was 
for the very reasons that we've experienced when we've gone 
toward other management methodologies. And there were reasons 
to go in that direction. And my personal opinion, they were not 
sufficient to overcome the reasons to not use days at sea. But 
that is a personal opinion. That was not the collective opinion 
of the Council, and we therefore have the circumstances we have 
today.
    Senator Snowe. To follow-up, the question is: With five 
different regulation changes, at what point does it work?
    Mr. Hill. Okay.
    Senator Snowe. And that's the issue here. The scientific 
objectives were not met. What is the problem?
    Mr. Hill. The problem is----
    Senator Snowe. Is it the information? Is it the will? 
Obviously we expect adjustments, but having five different 
regulation changes in a given year and missing those objectives 
creates a problem. That's what I'd like to underscore here, to 
see if we can get to the heart of the matter.
    Mr. Hill. Well, I think I testified earlier in Washington 
from an individual perspective before I ascended to the chair. 
And my opinion, personal opinion, is that the reason we keep 
exceeding our mortality targets is because we can't agree on a 
methodology that will keep us within them. And the reason we 
can't agree on that methodology is because it has allocation 
implications and many industry people don't agree with the 
science that underpins the rationale that we're using to set 
our targets. And result ofthat, we've used what are generally 
called ``input controls,'' which are closed areas and other 
methodologies to try to control fishing mortality without 
closing the fishery.
    My opinion is that it is--this is a personal opinion--I'm 
not speaking for the Council--but it is my opinion that when we 
exceed our mortality targets why we do ourselves no service as 
all. The following year we're back at the table trying to 
figure out how to cut mortality further. And that's been the 
history of this fishery here in the region. It is a lack of 
consensus--to get at your question--it is a lack of consensus 
in the industry and on the Council on what the appropriate 
target should be, and then what methodology should be used to 
ensure that we do not exceed our targets. And currently, there 
has been no consensus in New England that we would be choosing 
hard quotas as is used in Alaska and the North Pacific as a 
methodology of controlling fishing mortality. It's a 
significant issue. When you're using input controls and other 
soft targets, the risk factor is very significant. And in my 
opinion, in this particular instance, why it has demonstrated 
one of the fundamental weaknesses of that methodology. Is there 
a consensus to go in a different direction? I certainly hope 
so. But I won't know that until we develop Amendment 13 and 
take a look at the consequences of using a methodology that has 
within it the potential of this kind of what I'll call 
``discard problems.'' And in fact, exceeding the TAC. That's 
the best answer I can give. And if I haven't been clear, I'd be 
happy to have another shot at it. But I suspect the other 
speakers might offer some additional comments.
    Senator Snowe. Thank you. Admiral Naccara, you mentioned 
that you're going to be reducing operational air patrol hours 
by 50 percent. I recently had a chance to talk with the 
Commandant of the Coast Guard, Admiral Loy, about the need to 
reduce the operational pace to provide more training and to 
maintain equipment. But this is a significant reduction in air 
patrol hours. What will be the general impact and what will 
happen during this fishing season?
    Admiral Naccara. Thank you, Madam Chairwoman. It was not 
quite 50 percent. What I discussed was some amounts, 10 percent 
on our cutters, medium endurance cutters in particular, and 
probably 14 to 15 percent on air surveillance time. It's an 
effort on the part of the Coast Guard to try and restore 
readiness in the Coast Guard. We have noted many readiness 
shortfalls during the last couple of years. And we're trying to 
establish an equilibrium in which we can still sustain normal 
operations, we can perform the appropriate amount of training, 
maintenance, and administrative work and at the same time not 
impose any unreasonable workload on our folks while still 
having that search capability to respond to emergencies.
    We found that was absolutely necessary for this year. And 
I'm hoping that we can once again return to our normal numbers, 
both for surface and air surveillance next year.
    What does that mean for us? It means fewer cutters on 
patrol in the Atlantic. It means fewer aircraft in the air. For 
us in the First District, it's going to mean a substantial cut 
back in the number of aircraft patrolling the fishery zones. It 
will mean less cutters involved with drug law enforcement. It 
will mean less harbor patrols for the Coast Guard in our 
internal waters. It could have a potential impact on pollution 
in the harbors if we're not there with the same level of 
presence that we normally have. There could be a probable 
change on those different issues. We'll still have the 
capability to respond to emergencies in any case, but we found 
this absolutely necessary, ma'am.
    Senator Snowe. That does represent a serious reduction.
    Admiral Naccara. Yes, it does.
    Senator Snowe. So it could be 14 percent? Or it could be 
more?
    Admiral Naccara. Yes, that's it. That's true.
    Senator Snowe. From what I understand, that's not been 
established. Is that true?
    Admiral Naccara. Well, our Atlantic Area Commander 
established limits, and we're working to try to meet those. 
Now, a 10 percent cut over the fiscal year since being 
implemented halfway through the year will be an appreciably 
higher number in the short-term. So for us in First District, 
it could mean as much as 35 percent cut back in the short-term 
for the remainder of this fiscal year.
    Senator Snowe. Thank you. Senator Kerry.
    Senator Kerry. Thank you, Madam Chairwoman. I might just 
stay with where we are on that. Admiral, assuming you were at 
what you call ``normal level,'' are you able to do the job 
that's been set out for you with all these additional 
restraints?
    Admiral Naccara. We can do it in a fairly capable manner, 
Senator----
    Senator Kerry. But it's really not where you'd like to be.
    Admiral Naccara. No. That is correct. I would like to have 
more resources. I think our presence has been shown to have a 
very beneficial effect. We're doing the best that we can with 
our current level of resources.
    Senator Kerry. That's what concerns me overall here. I 
mean, you're going to go through a period of reduction. I think 
there's a critical level of basic deterrence/enforcement 
oversight. If you're not capable of doing that now with the 
reduction, if you're really not capable of doing what we've now 
set out for you in all of these enlarged closed areas, then 
we're in trouble.
    Admiral Naccara. Yes, sir. And of course, in a multimission 
service we have very many competing demands for our cutters and 
our aircraft. Some of the zones and the areas are very 
challenging for us to enforce, restricted gear areas in 
particular. We look to simplistic forms and shapes that can be 
enforced relatively easily. But certainly again, the Deepwater 
Project, as I've mentioned, is a system of systems, which will 
include sensors, which certainly will help our effectiveness 
into the future.
    Senator Kerry. Well, I want to emphasize to my colleagues 
that this is not just a passing comment at a hearing. I think 
it goes to the core of what we're trying to achieve here. 
There's nothing more damning to the Congress or to the public 
process than us passing a law--we've done it in education, 
we've done it in a number of areas where we say an agency has 
to go do something, but we don't provide the resources, and 
then we go through these accountability processes, and we sit 
here scratching our heads, asking why isn't it working? Well, 
it's pretty fundamental. It brings me back to the points about 
consensus and information needs that were discussed I believe 
by both Mr. Hill and Ms. Dalton. You've just underscored that, 
Tom, the need to have adequate information, the need to have 
consensus. But if we're not structured in a way that allows us 
to gather that information, either through observers or through 
science or the process, we're sowing the seeds of either a very 
confusing, haphazard kind of rudimentary management where we 
stumble along when we get there. Or even more destructively, we 
develop a management plan where people lose faith in the 
process and its credibility. I thought I heard you say that 
mortality rates are two to three times what they ought to be? 
Is that correct? You did say that?
    Ms. Dalton. Yes.
    Senator Kerry. Well, isn't that the nub of this? I mean, if 
mortality rates are two to three times what they ought to be 
and we know that, but we don't have adequate enforcement, it 
seems to mean we're on a very dangerous slide. Do you want to 
address that, Tom?
    Mr. Hill. I would. Thank you, Senator. I think you've made 
an excellent point. And I would go further by saying that we're 
currently realizing $40 million out of the groundfish fishery 
on annual revenues. I think it's an excellent question. And the 
reality is we're currently realizing about $40 million of 
revenue out of the groundfish fishery and the potential if all 
13 stocks are rebuilt it's $450 to $500 million worth of 
revenue. So we have a long ways to go. It isn't just Gulf of 
Maine codfish. There are a number of other species in that 
species complex that need to be rebuilt. On the other hand, 
there are some other stocks in that species complex that are 
making significant recovery, the projections are pretty good.
    My read is that we are not doing things from a 
comprehensive perspective. I agree with the Admiral's concern 
and your stated concern that things--we're not tying things 
together adequately either on analysis basis or on a resources 
basis to be able to say this is a holistic look at this 
problem, and all of the components that are necessary for 
success are adequately dealt with and adequately--I don't know 
what the right word is--but assessed and appreciated and then 
implemented in a manner that is consistent.
    We're all doing, I suspect, the service and the Council and 
the Coast Guard, are doing the best that we can with the 
available resources. I think that it is a credit to the Coast 
Guard and the Council and the service that we do the best we 
can. But these are complex problems, and they don't get fixed 
easily. And because there are significant differences of 
opinion about things, when there is a scarcity of information 
or when that information is not available in a timely way, it 
adds to the confusion, it adds to the opportunity for those who 
want to take a different perspective, it calls into question 
the validity of what we're doing, what anybody is doing, and it 
adds to the discontent in the fishery, real information or not. 
And I believe fully that we need to have an integrated system 
that has real-time data. I agree with you, observers are a 
necessity in this fishery in order for us to be able to get a 
handle on what is being caught, what is being discarded, what 
is the complex--it will help in our science efforts. It's 
significant. And I'm a believer in fixing problems. I think 
that the track record of our Council is we want to fix 
problems. We're making some strides. But we need to take a 
holistic look at this. And I agree with you, and I hope the 
Committee does.
    Senator Kerry. Let me ask you a budget question first of 
all. Some people have been suggesting that the NMFS budget is 
increasing, and that we don't need to provide more money to the 
agency. People who say this argue that there's an issue with 
how you prioritize funds. On the other hand, I look at the 
budget request for this year. It's essentially a static or 
decreasing budget for basic resource information at a time when 
those resource needs, as we're hearing, are greater than ever. 
Why is that? What's happening here?
    Ms. Dalton. We've actually seen 57 percent increases since 
1994 in our budget which looks like it's a really healthy 
increase. Most of those resources have gone into Pacific 
salmon. What has happened to us is while our budget has 
increased, our responsibilities have also increased 
concurrently. The other thing that has happened is that the new 
money that we get tends to go for specific purposes. With the 
number of different lines we have in our budget, we currently 
have to manage our operations and research budget under 113 
separate lines. And we can't move money between those different 
lines. As a result, what we've seen in the northeast region 
this year, we actually had a deficit in our spending. Where in 
other regions of the country things are fine and our budgets 
are adequate.
    What we were doing to try to deal with this, because it's 
been a gradual problem that's developed over a period of time 
this year, is we've asked Ray Kammer, who is the head of NIST 
(National Institute of Standards and Technology) now, to do an 
independent budget assessment of our entire agency budget. He's 
putting together a team with the Coast Guard, hopefully one 
Coast Guard person, the chief scientist of the Canadian 
National Marine Fishery Service, and some of our in-house 
folks, to try to look at where we're spending our money and 
what problems we have.
    Senator Kerry. When will that be available?
    Ms. Dalton. He is going to try to do it within the next 60 
days, so it's germane to the funding process and the 
appropriations process.
    Senator Kerry. Are you going to share that with us?
    Ms. Dalton. Sure, we'd be happy to.
    Mr. Hill. And if I--I'm sorry----
    Senator Kerry. Go ahead, Tom.
    Mr. Hill. I would be more blunt and say that our workload 
in the Council dealing with the changes in the Act and the 
challenges that we face have gone up 100 percent, and our 
budget has gone up 28 percent.
    Senator Kerry. How much?
    Mr. Hill. 28 percent.
    Senator Kerry. 28 percent.
    Mr. Hill. Since the----
    Senator Kerry. I thought you made a compelling argument 
about the number of hours and the amount of work the Council 
has to do. Obviously, we don't want to just build 
bureaucracies, but at the same time we've got to be able to 
build the consensus and make good decisions.
    Are there management tools that you know of in certain 
places in the country, or in certain countries other than ours 
that you think work? I mean, some people have suggested to me 
that some other countries are doing fishery management better 
than we are. I won't go into which or where, but there are 
examples. Are there tools that you wish you had that you don't 
have? And Penny, are there ways to build consensus among 
stakeholders that you think you could achieve, and if so, are 
there steps we could take to help you achieve it? Tom?
    Mr. Hill. I think that there are a number of tools that are 
successful for given regions for very specific reasons. And the 
biggest reason is that the industry buys into a management 
methodology that achieves their goals as well as the goals of 
the Sustainable Fisheries Act. I must admit that I am troubled 
by--and this is a personal perspective--but actually the 
Council has gone on record in requesting that the Senate remove 
the moratorium on individual fisheries quotas. That's probably 
the only methodology that has denied the Council system in 
terms of looking at how we manage our resources.
    Am I suggesting that our Council is going to move toward 
IFQs in the near future? Not at all. I just believe it is one 
methodology that the Council ought to have an opportunity to 
look at. I think community-based quotas, sector allocations and 
a number of other allocations which empower the participants in 
the fishery. Clearly, the service and the Councils are defining 
what the playing field is by the volume of fish that are 
available. We then need to empower the participants within the 
fishery by defining the playing field and then asking them how 
it is that they're going to prosecute that fishery to their 
best economic and social advantage.
    And so in that respect, I would request that the--on the 
behalf of the Council or individually--that the Senate look at 
the moratorium on IFQs. I think that from my individual 
perspective that I think it is fundamental that we achieve our 
mortality targets and not exceed them on a regular basis. It is 
fundamental to success.
    Senator Kerry. Admiral, you wanted to add something?
    Admiral Naccara. If I may, I'd like to pile on for just a 
moment here, Senator.
    Excellent point you made before. And I can give you some 
more substantive issues within the Coast Guard. First of all, 
it's interesting to note that our work force in the Coast Guard 
is equal to that of our 1963 levels. And I can guarantee you 
that many new responsibilities have come to the Coast Guard 
since that time.
    In the fiscal year 2001 President's budget there are a 
number of issues that I think will help in the issue just 
addressed. Such as some money for Vessel Monitoring Systems, 
the VMS system. I think there is some value in that system. 
It's another tool that we may use to locate vessels. Of course, 
we still need the at-sea enforcement capabilities, so we need 
the cutters and aircraft. But it could be helpful. And we need 
a more effective way to pass the information to our cutters. In 
the budget there is money to help enhance that system of 
interconnectivity.
    There's also money in the budget for an additional 23 
billets for the Coast Guard in our Fishing Vessel Safety 
Program. Absolutely essential for us. It helps us, of course, 
to rebuild our work force and focus on this issue. And of 
course, there are also moneys for upgrading repairs of our 
infrastructure and some of the critical steps with our 
Deepwater acquisition project.
    Senator Kerry. Well, I have talked to individual fishermen 
who say to me that there are plenty of fish out there. I go out 
there and we're being restricted from this area. A lot of fish. 
Why don't they listen to us? We could go out there--if we were 
allowed to make some judgments ourselves, we could avoid the 
race and the trip limits. They propose that you'd wind up with 
less risk to fishermen's safety because they wouldn't be 
trundling around at sea because they can't come in to justify 
their catch until they've been out there for a certain amount 
time. So you run into the risk of being in a storm you 
shouldn't have been in. Isn't there a more effective way to 
create--I suppose you're smiling because you're going to say, 
yes, we have IFQs, is that right?
    Mr. Hill. Well, there are more effective ways, and many of 
them are not popular. And it has to do with cultural and social 
and economic differences in the fishing industry relative to 
their vision of the future of the industry. And my opinion is 
that fisheries management is an evolutionary process. It is not 
a--it is not--well, this is the right answer forever. This is 
the right answer for today. It is the best social and economic 
and political, in parenthesis, conclusion that we can come to 
based on the interest of the industry and the public today.
    I have a fundamentally singular perspective on fisheries 
management. I've articulated it before the Committee in the 
past. And I think it's really important that as a national 
standard that we identify controlling fishing mortality to live 
within our limits as being a core element of success. How we do 
that with the industry I think is multifaceted. It's my opinion 
that the Council is looking seriously at regionalizing our 
groundfish plan. And this is in the development of Amendment 13 
where we're talking about breaking the groundfish plan up into 
regions, southern New England, George's Bank, and maybe in-
shore and off-shore Gulf of Maine. And that will allow the 
industry participants to have a more narrow input on the area 
where they're actually fishing versus every time we amend the 
management plan it effects everything from the New Jersey 
border all the way to the Canadian border.
    Senator Kerry. But this is not new. Every few years we sit 
here and we've tried to tweak the Act in a way or even 
radically change it in a way that empowers somebody to be able 
to break this kind of cultural resistance you're talking about. 
There is an evolutionary process going on. It's called ``two to 
three times the mortality rate.'' And if we continue with two 
to three times the mortality rate, the problem's going to solve 
itself.
    Mr. Hill. But if I could, I think that the critical 
component here is not to overlook the fact that the Council has 
been successful in many fisheries. This is the poster boy of 
today. Gulf of Maine codfish is the issue of the day. The fact 
of the matter is we've been successful with haddock, we've been 
successful with George's Bank yellowtail. We've been successful 
with gray sole. There are a number of areas where the Council 
has wrestled through problems, and we have been successful. The 
problem with Gulf of Maine codfish is that it affects almost 
every segment of the fishing industry. Gulf of Maine cod has 
the largest number of permits, the largest number of 
participants that catch that species either directly or as a 
bycatch. And it is a challenge. I believe that we will 
eventually wrestle it to the ground. It has profound impacts in 
the communities that abut the Gulf of Maine. It is a 
significant issue, but we are wrestling with it.
    Senator Kerry. Last question before I turn to my colleague.
    Ms. Dalton. Cooperative research I think is really an 
important way to get people to interact. That's one reason why 
it's such a critical thing because it brings our managers 
together and the scientists and the fishermen in a program 
where they work together and they begin to understand each 
other's viewpoints. So there are a lot of other things that we 
are trying to do. The real-time reporting, the things that they 
did in the scallop industry to try to maintain their discards 
at very low levels, they're doing that in the North Pacific now 
and using it to control discards of halibut and the Pacific 
codfish and extending the fishery. We can do those kinds of 
things in New England. We just have to begin that process of 
making people aware that those capabilities exist.
    Senator Kerry. Is there a tool that you wish you had that 
you don't have?
    Admiral Naccara. Money.
    Senator Kerry. That's it, huh?
    Ms. Dalton. That's it. Great answer.
    Senator Kerry. Are you familiar with the effort of Cliff 
Gowdy, researcher at the MIT Sea Grant Program who was trying 
to get permission to go out and tow two dredges on the same day 
in order to do a comparison with a video camera, recording 
operations, and he couldn't do it because NMFS wouldn't sign 
off on it?
    Ms. Kurkul. I don't remember a lot of the specifics of it, 
but I generally remember the issue. And it had to do with the 
need to obtain an experimental fishing permit.
    Senator Kerry. Correct.
    Ms. Kurkul. And I think the length of time it takes to get 
these experimental fishing permits, and that is something we've 
been talking about quite a bit in the last few weeks. And we 
are working on streamlining that process and, in fact, talking 
about establishing a delegation for those permits at the 
regional level instead of at the headquarters level, which we 
believe will cut a significant amount of time off the length of 
time it takes right now to obtain those permits.
    Senator Kerry. Well, it's not just time. I think it's sort 
of the sense of it. I mean, this fellow thought he was coming 
up with a scheme to help protect habitat, and that you folks 
ought to welcome that kind of effort. His quote is: ``They say 
it takes 60 days, but there's a whole process of give and take 
to get a proposal up to snuff. It typically takes much longer 
than that, this process of getting an experimental fisheries 
permit is ridiculous. It allows too much authority to NMFS.'' 
If that's true, it essentially blocks whatever was intended in 
the original Magnuson Act and following refinements. The 
process totally discourages research by scientists, let alone 
by fishermen.
    Ms. Dalton. We have heard similar complaints from a number 
of people.
    Senator Kerry. Why is it so complicated, folks? I don't 
understand that.
    Ms. Dalton. I think part of it is we have too many steps in 
the process right now. What happens is the region works with 
the people that want to do the research, goes ahead and 
develops a program, does a package up for a decision, and then 
it comes to Washington DC where people again go through a 
review process.
    Senator Kerry. This is the kind of stuff that sends people 
away in despair. It drives everybody nuts, not to mention gives 
the entire system a lousy name. I think when somebody brings in 
a sound experimental fisheries proposal you ought to leap on it 
and say: How can we help? Is there a way to make sense out of 
this proposal? And if the proposal isn't going to make sense, 
tell them right up front and tell them why. Maybe there are too 
many cooks cooking this soup or something. I don't know.
    I think the point is made. I think you've got to find a way 
to work this out as part of the process of building credibility 
and creating a relationship, built on common sense, with people 
that you're regulating. If bureaucracies get in the way, we're 
all going to have a hard time getting people to listen and 
cooperate. Thank you, Madam Chairwoman.
    Senator Snowe. Thank you, Senator. Senator Stevens.
    Senator Stevens. Penny, where do we get the mortality 
figures in this area?
    Ms. Dalton. Our science center calculates them. If you want 
to explain that, Mike, or----
    Senator Stevens. Are they industry originated, or are they 
estimates of scientists? What are the----
    Ms. Dalton. They're scientific estimates.
    Senator Stevens. They're estimates. Are those broadcast to 
the industry, people in the industry?
    Ms. Dalton. Yes. We do a stock assessment on each of the 
stocks, and that's provided to the Council.
    Senator Stevens. Is this excessive bycatch, or are they 
discarding for size? What's the--why is the mortality rate so 
high?
    Ms. Dalton. Well, the problem with Gulf of Maine cod has 
been that they have been aggregated in the primary fishing area 
in Massachusetts Bay. And so it's very hard to avoid them when 
the fishermen go out to fish. But it's one of the stocks that's 
in the most trouble within that whole multispecies complex, so 
what we've tried to do is set trip limits on it so that it 
discourages a directed fishery but allows regular fishing 
operations to go ahead and continue.
    Senator Stevens. Well, money can't solve the mortality 
problem.
    Ms. Dalton. No.
    Senator Stevens. That's discipline.
    Ms. Dalton. Yes. And figuring out effective ways to try to 
control the discards and reduce them.
    Senator Stevens. It's also a violation of the last Act. If 
you fish in an area where you're going to get an excessive 
amount of bycatch, you're supposed to desist. I wonder 
sometimes about how much we can enforce discipline on a 
fishery.
    Ms. Dalton. It's difficult. I know you're frustrated that 
we had to go through five different rulemakings last year, but 
we did manage to control the cod mortality last year to the 
amount that was in the regulation. It was at a level that I 
believe it stopped overfishing but it didn't provide for 
rebuilding. And the next step is we have to get to levels that 
allow us to go ahead and rebuild.
    Ms. Kurkul. Part of what's happened with cod, that Tom 
talked about a little bit, is that there's this continual 
discussion about finding a balance between the different 
measures of the tools that are available. Trip limits do create 
discards. Everybody recognizes that. That was part of the whole 
discussion. Closed areas, on the other hand, limit 
opportunities. And so the goal was to find a package of 
measures that would to the extent practicable reduce those 
discards while still preserving some opportunities for the 
industry. And so it's this constant balancing act that's made 
the regulations and the situation very complex. It's a very 
diverse industry. And so trying to accommodate each of the 
regional differences has been part of the difficulty of the 
process.
    Ms. Dalton. There's also a small boat issue.
    Senator Stevens. That's why it was my suggestion to create 
Councils because the Federal Government just doesn't understand 
every area. The Councils are supposed to understand every area.
    Let me go to Mr. Hill, if I may. I went through your list 
of the things that you're considering, Mr. Hill, and I have 
great respect for Councils and the hard work that you all do. 
But I found strange that one of the three areas that you 
deferred this year were measures to address capacity in the New 
England fisheries. If you overcapitalize, why has that been 
postponed?
    Mr. Hill. Because there was not a clear--well, the short 
answer is there was not a clear consensus on what we needed to 
do about it. The Council individually does not have the 
authority under the Act to eliminate or to control capacity 
other than through limited entry plans which we have 
implemented in various fisheries. Limited entry in New England 
has been historically a rather controversial issue. The 
character and nature of the New England fishery has been an 
open-access fishery and making a transition for limited entry 
has been profoundly controversial in some quarters.
    Senator Stevens. Well, I'm bombarded with plans that come 
from the North Pacific Council from various species groups of 
their own origination of how to deal with overcapacity. Do you 
have plans coming from the fisheries themselves----
    Mr. Hill. No.
    Senator Stevens.--to deal with overcapacity?
    Mr. Hill. Well, not specifically for capacity issues, no. 
We have management plans, suggestions that come from industry, 
but not ones that deal with capacity other than through the 
traditional format.
    Senator Stevens. But didn't I hear you say you had an 
outstanding number of permits in one fishery that's just 
overwhelming?
    Mr. Hill. Yes, we do. That's in the groundfish fishery.
    Senator Stevens. Has the Council addressed that, what you'd 
like to do to get rid of those, or to limit those somehow?
    Mr. Hill. Yes, we are. We are in the development, as a 
matter of fact, our capacity committee, is looking singularly 
at this time, looking at scallops and groundfish and is going 
to make recommendations to those subcommittees relative to a 
singular focus for this Amendment 13 process. And so yes, we 
are looking at it.
    Senator Stevens. Well, I'm going to be pursuing for the 
king crab fishery a concept of trying to use their CCF as a 
pool and, with almost a lottery system to have all the boats in 
the lottery, some of them are going to be retired. And 
hopefully, the CCF will pay for those boats, plus selling them 
off as recreational boats never to be used in fisheries again. 
Are your people thinking about things like that?
    Mr. Hill. Well, I can't speak for the industry. The Council 
is certainly wrestling with issues of that nature, yes. That it 
is a--it's a--Senator, it's a complex subject, and I'm 
uncomfortable speaking on the behalf of the Council----
    Senator Stevens. I understand. I'm not asking you to speak 
for the Council. I'm just wondering if people have presented to 
your Council plans like they're presenting to ours.
    Mr. Hill. Not to date, no, sir.
    Senator Stevens. I see. Well, I would hope we'd find some 
way to address capacity in fisheries nationally because we're 
overcapitalized very clearly in view of the way the supply is 
being reduced. And if you have any ideas, I'd be pleased to 
join others in working with you to deal with this. This is the 
historic fishery of the United States, and it ought to find a 
more fertile field for renewal and even some of the newer areas 
such as mine.
    Mr. Hill. Senator, that's a wonderful invitation, and I 
will bring that back to our Council and to our executive 
committee----
    Senator Stevens. I think there are many ways to be--to use 
great ingenuity in dealing with capital--overcapitalization, 
and I say that as one that's always opposed to individual 
fisheries quotas, but I'm about ready to change my mind. It may 
be the only tool we have left.
    Admiral, I'm a little disturbed about the statistics you 
have reported. I've been down to the east coast anti-drug 
activities out of Florida, and I was out at the area there in 
California at Alameda to deal with what they've got there in 
terms of the Pacific effort now. How much have you lost of your 
gear to the anti-narcotic trafficking efforts that the Coast 
Guard's putting forth this year? Have you lost some of your 
gear here?
    Admiral Naccara. I can't specifically address that, 
Senator. I know that we have constant competition for Coast 
Guard assets. I know that we've all--all of our programs have 
suffered in the country----
    Senator Stevens. Have you lost any cutters?
    Admiral Naccara. No, sir.
    Senator Stevens. Lost any personnel?
    Admiral Naccara. No, sir.
    Senator Stevens. Most areas have. It sounds like you 
believe you've had a cut of 10 percent?
    Admiral Naccara. Yes, sir, yes, sir. Ten percent of our 
medium endurance cutters, the primary large cutter that we use 
in the fisheries----
    Senator Stevens. You mean the utilization of your cutters 
is 10 percent?
    Admiral Naccara. Utilization, yes, sir, utilization.
    Senator Stevens. Oh, I misunderstood. I thought you said 
you had been cut 10 percent.
    Admiral Naccara. No, sir. Well, I've been cut 10 percent of 
my available usage of those cutters.
    Senator Stevens. Yes.
    Admiral Naccara. They'll remain ashore for training, for 
maintenance and so forth. That was the cut that I was 
discussing, sir.
    Senator Stevens. And has that been allocated to law 
enforcement, that 10 percent?
    Admiral Naccara. No, sir. No, sir. All programs have 
sustained a cut to their operations. All of our multimissions 
have sustained that cut. So it's across all missions. The 
cutters will be at sea 10 percent less.
    Senator Stevens. Was your budget cut that 10 percent?
    Admiral Naccara. No, sir, no, sir. We've just been trying 
to help to restore the readiness problem that we've noticed 
over the last couple of years. It's a very----
    Senator Stevens. It's a catch-up in your operations, your 
maintenance and your training?
    Admiral Naccara. That's precisely it, yes, sir. It's a very 
difficult cultural change for us, but that is something we felt 
necessary.
    Senator Stevens. Last question: What do you think of the 
GMS (sic) system?
    Admiral Naccara. The VMS system, sir? The vessel monitoring 
system?
    Senator Stevens. What is GMS?
    Admiral Naccara. Vessel----
    Senator Stevens. VMS, pardon me.
    Admiral Naccara. Yes, sir.
    Senator Stevens. A little trouble hearing up here. VMS. 
What do you think of that?
    Admiral Naccara. I think it's a valuable tool for helping 
us to determine position of vessels. Right now we've only been 
using it on the scallop fleets, so it's got limited 
applicability for us.
    Senator Stevens. And you would mandate all vessels in the 
fishery to have that?
    Admiral Naccara. I think in the long run it would be very 
valuable in that way, yes, sir. We need an enhanced Command and 
Control Communication Capability with the VMS systems, so I can 
get that information to our cutters right away.
    Senator Stevens. Who can tell me what the on-vessel cost 
for the VMS system is for the fishermen?
    Ms. Dalton. Right now, it's a few thousand dollars.
    Senator Stevens. I can't hear you, Penny.
    Ms. Dalton. I think it is about $2,000 or $3,000. It may be 
more than that.
    Ms. Kurkul. It depends on the system.
    Senator Stevens. There's people back there raising five 
fingers.
    Ms. Dalton. Okay.
    Ms. Kurkul. The system----
    Senator Stevens. It's nice to be in Boston where they wave 
at me with all five fingers.
    (Laughter.)
    Ms. Kurkul. The system that is being used on the scallop 
fleet is about five or $6,000 to install the system. There are 
other systems available in use in other parts of the country.
    Senator Stevens. What does it cost the government?
    Ms. Kurkul. There is no cost to the government for the 
scallop fishery.
    Senator Stevens. You have to monitor----
    Ms. Kurkul. Yes, I'm sorry. The in-house capability to 
monitor the system as well as compile the data and make the 
data available is fairly significant.
    Senator Stevens. What's holding that up? How much? You 
requested money this year?
    Ms. Dalton. Yes. We have an increase for it, and we do have 
money in our budget this year for it. We just did a contract 
with Volpe, the transportation group, and they're going to be 
setting up a national VMS system for us. And they think that 
they'll be able to handle I think up to 10,000 vessels in that 
system. So we have a couple systems. There's one for mackerel. 
There's one in the Western Pacific for the long lines.
    Senator Stevens. This is the beeper system satellite to 
monitor----
    Ms. Dalton. It would be. You can monitor. It also has some 
capabilities. You can tie it in with communications. We've also 
been looking at the possibility of tying it in with electronic 
log books.
    Senator Stevens. And is it GPS integrated?
    Ms. Dalton. I think so.
    Senator Stevens. I see. Okay. Thank you very much, Madam 
Chairwoman.
    Senator Snowe. Thank you, Senator Stevens. I know we have 
to go on to the next panel, but I just wanted to ask you, Ms. 
Dalton, have you had a chance to review the GAO report that was 
released last week?
    Ms. Dalton. I read it on the plane.
    Senator Snowe. You read it on the plane, great. I certainly 
want a response from you with respect to a number of the 
issues. One of the major issues, of course, is how to utilize 
and incorporate the socioeconomic impact when making these 
decisions. GAO has said that this decision is not incorporated 
at the outset of the NMFS decision-making process. The impact 
is identified, but we don't identify ways to minimize it. Do 
you have any ideas about how we can restructure the decision-
making process within the agency?
    Ms. Dalton. There are two different things. One is that we 
have, again, requested additional funding to go ahead and do, 
collect, establish data bases and do some of the economic 
analysis. We have a $3.5 million increase in our budget for it 
this year. Thus far, the increase that we had for last year of 
$1 million was not funded. So that's one of the things that we 
need to do.
    In addition to that, we've been working on revamping our 
guidelines because we recognize the same thing as GAO did. 
Particularly in some of the litigation these kinds of issues 
have come up.
    So we're trying to revise our guidelines for both the 
Councils and for our own internal reviews to move things up in 
the process. We had hoped to have those guidelines redone.
    Senator Snowe. What's the timeframe?
    Ms. Dalton. What?
    Senator Snowe. What's the timeframe?
    Ms. Dalton. The timeframe is probably this summer, because 
it requires more analysis.
    Senator Snowe. I just think that one of the things against 
the agency is time, time, time, time. We really need to move 
this process forward. I think that is one of our critical 
challenges. The decision-making process is too open-ended. 
Let's get back to groundfish. Many livelihoods depend on the 
fishery. The requirements have been in the Act since 1996, so 
this is not a new discovery. The agency needs to focus on 
getting this done. It is very critical, which is why we had the 
GAO conduct this study. We realized it wasn't being 
incorporated in the agency's decision-making.
    As in the groundfish industry, there is not an isolated 
decision. There are many, and we have to weigh all of them. The 
agency has to give a sense of urgency to these issues. In your 
statement you said that, ``A great deal of work remains to be 
done with respect to the SFA requirements. We are laying a 
better foundation for future fisheries management, yet the 
benefits of the changes made by Congress will take years, 
perhaps decades to realize.''
    I don't want this to be a lethargic process. Focus on the 
key issues that will make a difference. We need the agency's 
commitment. To use the national standards, the best science, 
and the amount of money we're going to need for research, we 
have to decide that these are the key issues to focus on. I 
want to use this reauthorization process to identify the key 
issues. Otherwise, we're just going to continue to go in 
circles.
    I would hope that in the next few months we can get an idea 
of how that's going to be incorporated. The GAO made some very 
constructive suggestions, and I think we ought to try to review 
those. I hope that in the final analysis, we realize that it's 
going to take an enormous commitment to make sure this process 
moves forward in a way that affects people's lives today. We 
have to make those decisions now.
    Mr. Hill, one other suggestion: In talking to a number of 
people about the Council process, I know there are a number of 
advisory panels within the New England Council. How do you 
incorporate their decisions? Are there standard operating 
procedures that could be used, or established, so that people 
who do the work on those subcommittees see the results of their 
work?
    Mr. Hill. Well, the advisory panels for the Council are 
established for each species committee. And the species 
committee utilizes the advisory panels for responding to areas 
where the industry has greater expertise than the committee 
itself. And that's been the traditional role where we seek 
advice from the advisors. The advisors often then meet 
concurrently with the oversight committee. During the 
presentation before the Council, the oversight committee and 
the chairman of the advisory committee often give them before 
the Council before we act on a given item. In the multispecies 
plan, and the groundfish plan, we're actually taking a 
fundamentally different tact with the advisors in this upcoming 
amendment process. And we've integrated the advisors into the 
development teams that are developing options for the Council's 
consideration. I suspect that the advisory process is either 
supported or disliked depending on whether, in fact, the 
committee or the Council does what it is that this particular 
segment of the advisory panel may want. On the other hand, why 
the advisory process is critical to the Council's development 
of management plans because the industry often has expertise 
that the committee or the Council does not, my read is that 
there is a balancing act between the types of things--the 
advice we seek from the advisors and our willingness to take 
that advice. It certainly is not a simple equation. There are 
many areas, policy areas of biological issues that are not 
appropriate to seek input or advice from advisors. On the other 
hand, the impacts of various regulations and/or corresponding 
different regulations and how that will impact mortality, gear 
changes, areas fished or not fished. Why that kind of input is 
the area where the Council seeks that input.
    And in fact, we've had industry groups over the years that 
have provided us with management options wholly that we have 
sent through our analysis process and have made suggestions 
back to the industry on how to improve them. And in fact, many 
of the plans that we have implemented have had significant 
industry input. Unfortunately, as is in legislation, why you 
generally end up with a modified version of a proposal and 
often times why that doesn't meet with the full concurrence of 
those who had authored the recommendations to begin with. It's 
an iterative process, and no management plan that I am familiar 
with is ever fully supported by everybody that is involved. 
There are a number of compromises that come forward, and it's 
from that perspective that the industry and the Council need to 
work on the most.
    Senator Snowe. There's no standard for them to be 
incorporated in the same way in the decision-making process.
    Mr. Hill. Well, I would say that the standard has been that 
the industry advisory panels meet regularly with the committee, 
and at times are charged specifically by the committee with 
answering specific questions that are posed to it. And I 
believe there is a standard. We are now trying a different 
model in this upcoming amendment process groundfish, but I 
would say, for instance, in scallops, the industry advisory 
panel meets the day before our scallop committee meeting, and 
then concurrently with the committee at times, and their advice 
is incorporated into the decision-making process, and in fact, 
that has been a very successful model. The process is used in 
other species committees where more or less effectiveness, 
depending on the nature of the policy issue that's being 
wrestled with.
    Now, that's been the methodology. Think it's been a 
modestly effective one. We're looking for ways of improving 
that. And we are taking a different model here in the 
groundfish development of Amendment 13 trying to have the 
industry being involved from day one on the development of all 
of the various options that will come to the Council. We hope 
that will improve the communication level between the industry 
and the Council. I will tell you that I'm committed to 
improving that process in areas where it has not been 
successful. It's one of the various things I touched on in 
talking to Council members prior to my election.
    Senator Snowe. Okay. Thank you all very much. We 
appreciate----
    Senator Kerry. One quick question----
    Senator Snowe. Yes, you may.
    Senator Kerry. One quick question to the Admiral. No, no, 
no, because I know we want to move on to the next panel.
    And also, the record will remain open?
    Senator Snowe. Yes. The record will remain open for 
additional questions and comments.
    Senator Kerry. We'll submit something to you in writing.
    But just very quickly: I appreciate what you were saying 
about Operation Safe Catch, and obviously you're committed to 
the safety of fishermen in every way, but some news reports 
recently have focused on what I mentioned earlier about the 
trip limits issue, and the trip limits sort of forcing some 
fishermen to remain at sea. Obviously sometime in the winter, 
particularly with the cost of fuel now, it seems that you've 
got two problems. One is the risk of being at sea when you 
don't want them to be. And secondly, it doesn't further 
conservation goals to have them out there burning fuel when 
they don't need to be. Is there some way to achieve your goal 
with respect to the enforcement regulations and compliance but 
still flexible enough to increase the safety of fishermen? Does 
this situation raise the question of the IFQ program, and 
what's your attitude about it?
    Admiral Naccara. It's a little bit out of our realm there, 
Senator. But I would say up front that the Coast Guard would 
never encourage to remain at sea when bad weather is 
approaching. I think reason must prevail. We don't enforce the 
trip limits at sea. That enforcement is conducted at the dock, 
of course. I feel that we've had a positive example over the 
last couple of months, in which fishermen had come ashore, 
perhaps exceeding their trip limits, and through arrangements, 
through some kind of a compromise between the Coast Guard and 
National Marine Fisheries and the fishermen, they were allowed 
to come ashore. I think some of the catch was put in escrow, 
and I think safety prevailed and good logic and reason 
prevailed. That may be necessary on a case-by-case basis. I 
think working together we can establish the proper standards 
and apply reason to those. I think that we're very willing to 
work together into the future. And that's as much as we can 
hope for.
    Ms. Kurkul. Senator, may I also respond? As a result of the 
issues that have been raised around this issue of safety and 
the trip limits, we have convened a meeting that will include 
the Coast Guard, the Council, our office of law enforcement, 
our NOAA office of General Council as well as the fishing 
industry to discuss some of these issues. It's scheduled for 
this Wednesday.
    Senator Kerry. When will that be? This Wednesday?
    Ms. Kurkul. This Wednesday.
    Senator Kerry. Oh, well that's good. All right. Thank you 
very much. Thank you, Madam Chairwoman.
    Senator Snowe. Thank you, Senator Kerry. Senator Stevens, 
any final comments? No. Thank you all very much.
    We'll now proceed with the second panel witnesses. Our 
first witness will be Mr. Russell Sherman, treasurer of the 
Gulf of Maine Fishermen's Alliance, followed by Paul Parker of 
the Cape Cod Commercial Fishermen's Association; Rip 
Cunningham, publisher of the magazine, Salt Water Sportsman; 
Peter Weiss, president of the General Category Tuna 
Association; and Angela Sanfilippo, president of the Gloucester 
Fishermen's Wives Association.
    We thank all of you for being here today. I'd like to 
remind witnesses to limit their statement to five minutes, and 
we'll place your full written testimony in the record.
    Mr. Sherman, we'll start with you.

           STATEMENT OF RUSSELL SHERMAN, TREASURER, 
               GULF OF MAINE FISHERMEN'S ALLIANCE

    Mr. Sherman. Madam Chair and members of the Committee, I 
would like to thank you for the opportunity to address you 
regarding the reauthorization of the Magnuson-Stevens Fishery 
Conservation and Management Act.
    I've been a commercial fisherman for 29 years, fishing 
primarily out of the port of Gloucester, Massachusetts, but 
also from ports in Alaska, Maine and Virginia. As a commercial 
fisherman and vessel owner, I have a vested interest in the 
future of a viable commercial fishery and understand and 
respect the need for effective conservation and management. I 
am the treasurer and a director of the Gulf of Maine 
Fishermen's Alliance. This group of fishermen representing 
vessel owners and crew who fish in the Gulf of Maine and 
surrounding waters seeks to ensure that regulations are 
effective and sensible and treat fishermen fairly and equally. 
The Gulf of Maine Fishermen's Alliance and I have been involved 
for a number of years in the effort to implement management 
measures that attain conservation objectives without 
unreasonably burdening those who access the resource.
    As the owner of an in-shore vessel currently unable to fish 
due to extensive and lengthy in-shore closures, I believe that 
I have also experienced and suffered through one of the most 
dismal failures in the management process. With increasingly 
stringent rebuilding measures mandated by the SFA and reduced 
involvement of fishermen the management process has turned into 
an allocation battle. With the winners being special interest 
groups represented by well-funded lobbyists able to garner 
support or who are actual members of the New England Fishery 
Management Council. As a result, small owner-operated vessels 
from small fishery-dependent coastal communities are being 
forced out of the industry.
    Effective conservation measures must be sensible and 
practical and derive their authority from the consent of those 
governed and affected. Rules must be fair and equitable and 
take into account variations between fisheries. While the 
Magnuson Act appears to provide many of the safeguards for 
small businesses, particularly in the National Standards Four, 
Six and Eight, we believe that the National Marine Fisheries 
Service has been infective in ensuring that those standards are 
properly applied. In many instances, I believe that the 
shortcomings of the present Act result not from problems in the 
Act itself but from improper interpretation or ineffective 
implementation of existing provisions.
    While all fishermen understand that the long-term goal of 
the Act is to sustain a viable fishery, we do not believe that 
Congress' intent is to sacrifice fishermen's lives nor their 
livelihoods merely to hasten a recovery. Nor do we think 
Congress' intent is to eliminate small businesses like mine.
    In making my comments, therefore, while addressing the need 
to revisions to the Act as presently drafted, I will also 
address the problems we presently see in the Act's 
interpretation which might in some respects be corrected 
through clarification of the Congressional intent. The views 
expressed here reflect my opinions and represent the consensus 
of the Gulf of Maine Fishermen's Alliance. Congress must give 
more guidance in prioritizing the national standards and 
require that a balance is struck between them. Every time that 
we ask for a balance to be struck between conservation and the 
economic interests of the communities, we are told that the 
fish come first. We do not believe that Congress really 
intended this. Managers should have the flexibility to 
coordinate management of interrelated stocks or manage them as 
one. All species cannot be built to their historic levels at 
one time.
    National Marine Fisheries Service must be compelled to 
enforce all of the national standards and correct Council 
abuses. The in-shore fleet is currently bearing the entire 
burden of conservation for codfish in the Gulf of Maine. The 
ban on ITQs should be continued and any quotas distributed 
equally among fishermen. Let us not give one group the 
opportunity to receive everything.
    Any latent effort buy-back should be made and should be 
made entirely voluntarily. Congress should encourage community 
and area-based management. Regional management will encourage 
more responsible fishing and more involvement of fishermen in 
the process.
    Real-time data is badly needed. At present we are making 
annual adjustments and amending plans on a few month's data or 
data that is presently years out of date.
    Cooperative research and management are vital to the 
success of management plans and the Federal Government is not 
doing enough to promote these efforts. Fishermen have been 
begging for inclusion into the science process.
    No more regulatory discards. All fish which cannot be 
released alive should be landed, even if the proceeds from them 
are given out to charity.
    Council procedures benefit special interests and 
undermining fishermen's confidence in management and the 
Democratic process. We want industry people on the Council. No 
more lobbyists or paid representatives on the Council.
    Limitations must be placed on the scope of Council action 
particularly in the abbreviated rulemaking process known as the 
``framework.'' The Council is presently allocating more through 
frameworks than through full amendments.
    The constant changes in overfishing definitions, stock 
rebuilding definitions and management objectives must stop. 
Just once let us try to give a plan time enough to work. While 
enforcement is crucial, fishermen remain citizens, harvesting 
food for America, and the government must stop treating us like 
criminals and respect our constitutional rights.
    Judicial review of management measures should be made 
easier or all plans, amendments and frameworks should 
automatically be sent for review to another government agency, 
perhaps the SBA. Consideration should be given to removing 
management oversight from NOAA. Science should be objectively 
performed without input from policymakers.
    In conclusion, Madam Chair and distinguished participants, 
I believe that the Magnuson Act has great potential for 
maintaining a healthy and sustainable fishery. Congress must, 
however, ensure that the national standards are enforced and 
establish priorities so that managers achieve a balance between 
biological objectives and the need of those dependent upon the 
resource. More importantly, Congress must reverse the trends 
seen on the New England Fishery Management Council that allow 
special interest to allocate to themselves or their 
constituents disproportionate access to the resources at the 
expense of others. The Act as written appears to provide many 
of these protections if only the National Marine Fisheries 
Service would enforce them by refusing to implement Council 
recommendations which do not comply with the law. Unless and 
until fishermen are treated fairly and equally, the industry 
will remain in turmoil and management of their objectives will 
fall far short of their goals. American fishermen have a long 
and proud heritage bringing food to these shores for over 375 
years. While the desire of government to change the way we fish 
by requiring MSY and every species is admirable, it may well be 
impossible.
    We need to ensure that goals are realistic and management 
plans workable. While I may not agree with all that the 
government is trying to do, I can accept the cutbacks, tie-up 
periods, closed areas, inconvenience and personal loss 
resulting from these management measures but only if I am 
treated fairly, equally and with the respect that America 
fishermen deserve. I ask you then to restore to the Magnuson 
Act the most basic principles of fairness, equity and equality, 
not just in words, but in the actions of the government and to 
restrain the abuses of the Council process which threaten to 
undermine these Democratic principles. I thank you for this 
opportunity to speak.
    [The prepared statement of Mr. Sherman follows:]

           Prepared Statement of Russell Sherman, Treasurer, 
                   Gulf of Maine Fishermen's Alliance

I. Introduction

    Madame Chair and members of the Committee, I would like to thank 
you for the opportunity to address you regarding the re-authorization 
of the Magnuson-Stevens Fishery Conservation and Management Act. I have 
been a commercial fisherman for 29 years, fishing primarily out of the 
port of Gloucester, Massachusetts, and also from Alaska, Maine and 
Virginia. As a commercial fisherman and vessel owner, I have a vested 
interest in the future of a viable commercial fishery and understand 
and respect the need for effective conservation and management. I am 
the Treasurer and a Director of the Gulf of Maine Fishermen's Alliance. 
This group of fishermen, representing vessel owners and crew who fish 
in the Gulf of Maine and surrounding waters seeks to ensure that 
regulations are effective and sensible and treat fishermen fairly and 
equally. The Gulf of Maine Fishermen's Alliance and I have been 
involved for a number of years in the effort to implement management 
measures that attain conservation objectives, without unreasonably 
burdening those who access the resource. As the owner of an inshore 
vessel currently unable to fish due to extensive and lengthy inshore 
closures, I believe I have also experienced and suffered through one of 
the most dismal failures of the management process. With increasingly 
stringent rebuilding measures mandated by the Sustainable Fisheries 
Act, and reduced involvement of fishermen, the management process has 
turned into an allocation fight, with the winners being special 
interest groups, represented by well funded lobbyists able to garner 
support on, or who are actually members of, the New England Fishery 
Management Council. As a result, small owner operated vessels, from 
small fishery dependent coastal communities are forced out of the 
industry.
    Effective conservation measures must be sensible and practical and 
derive their authority from the consent of those governed and affected. 
Rules must be fair and equitable, and take into account variations 
between fisheries. While the Magnuson Act appears to provide many of 
the safeguards for small businesses, particularly in National Standards 
four, six and eight, we believe that the National Marine Fisheries 
Service has been ineffective in ensuring that those standards are 
properly applied. In many instances, I believe that the shortcomings of 
the present Act result not from problems in the Act itself, but from 
improper interpretation or ineffective implementation of existing 
provisions. While all fishermen understand that the long-term goal of 
the Act is to sustain a viable fishery, we do not believe that 
Congress' intent is to sacrifice fishermen's lives or livelihoods 
merely to hasten a recovery. Nor do we think Congress' intent is to 
eliminate small businesses like mine.
    In making my comments therefore, while addressing the need for 
revisions to the Act as presently drafted, I will also address the 
problems we presently see in the Act's interpretation, which might in 
some respects be corrected, through clarification of Congressional 
intent. The views expressed herein reflect my opinions, and represent 
the consensus of the Gulf of Maine Fishermen's Alliance

II. Congress Must Give More Guidance in Prioritizing the National 
        Standards and Require that a Balance is Struck Between Them

    Congress should provide some guidance to the Administration as to 
the priority to be given each National Standard. As fishermen, we are 
often confronted with the statement that conservation goals set forth 
in National Standard One override all others. As a result, I believe 
managers are too quick to reject industry alternatives that might come 
close to conservation goals, but which would significantly reduce the 
burden on fishermen and harm to their communities. We do not believe 
that this was Congress' intent. Managers must balance competing issues 
such as health of stocks with the health of fishery dependent 
communities, fairness and equity and safety at sea. If a slight delay 
in rebuilding will permit a community to survive or promote equity or 
safety, then every attempt should be made to delay rebuilding as long 
as this does not affect the long term viability of a stock. Plans 
should be flexible to permit some re-direction, or to avoid cumulative 
effects of competing plans from suddenly increasing the burden on 
fishermen who engage in a number of fisheries.
    The present National Standards require consideration of the effect 
of fishermen based on each individual plan or action. As a multispecies 
fisherman, I am subjected to a number of management plans, each with 
its own set of rules and limitations. Although considered a 
groundfisherman, I am also severely impacted by the Lobster Plan, the 
Monkfish Plan and the Dogfish Plan. For example, at the same time 
inshore multispecies vessels are suffering from draconian restrictions 
in the cod fishery, which deprive many of us access to other species 
such as flounder and pollock, we are now required to discard many of 
the lobster we previously landed; many others are required to discard 
monkfish; and the dogfish fishery appears to be at an end for all 
practical purposes. Nowhere has the cumulative effect of these plans 
been evaluated. I can tell you that the value of any fish that the 
regulations require me to discard represents a pure loss of profit--
without any conservation benefit. The cumulative effect of all plans, 
including their regulatory burden, must be determined.

III. Managers Should Have the Flexibility to Coordinate Management of 
        Interrelated Stocks or Manage Them as One

    At present, stocks are managed on a species by species basis, with 
stock biomass targets set forth for each species based on their 
historical levels. We, as fishermen, know that the peak levels of fish 
never occur at the same time. Scientists tell us that the biomass of 
the ocean actually remains fairly constant, with the balance between 
species changing. Thus, not every species can be rebuilt to its maximum 
potential at the same time, as presently required under the Magnuson 
Act. Scientists have told us that the present management structure is 
doomed to failure because the ocean can never hold all of the species 
at the biomass level necessary for them to provide the maximum 
sustainable yield (BMSY). We are doomed to a perpetual rebuilding 
phase. The Act must be amended to permit managers to look at 
interrelated species to determine what the overall stock size should 
be, and the appropriate mix, and not base management decisions on 
inflexible and unattainable goals. Management on a ``fishery by 
fishery'' and not a ``species by species'' basis will allow combined 
trip limits and reduce discards, thereby maximizing return from the 
fishery. Congress should also permit managers the flexibility to 
rebuild predators and prey at reasonable levels that make biological 
sense rather than to adhere to arbitrary rebuilding targets which 
accelerate the rebuilding of both predators and prey simultaneously.

IV. NMFS Must Be Compelled to Enforce All of the National Standards and 
        Correct Council Abuses

    As a small businessman, I expect NMFS to ensure that National 
Standards, in particular those governing fairness and equity and 
community issues, will be enforced. In the past, our former regional 
Director, Dr. Rosenberg was not afraid to tell the Council their 
proposed actions were unfair to one or more sectors, or to reverse 
unfair Council actions. NMFS must actively ensure that the little guy 
does not become the victim of larger special interests as they try to 
avoid their burden of conservation and gain further advantage. Congress 
should ensure that those who bear the burden of conservation are still 
around to benefit from the result.

V. The Ban on ITQs Should Be Continued, and Any ``Quotas'' Distributed 
        Equally Among Fishermen

    I am generally opposed to any management scheme that privatizes and 
allows a few individuals to accumulate exclusive rights to the 
resource. I support a continued ban on the development of Individual 
Transferable Quotas (ITQs).
    I think that individual fishing quotas (``IFQs''), which are non-
transferable, might be considered a useful management tool, as long as 
they are fairly and equitably distributed. Quotas should not be carried 
from year to year, but available for use only in the year allocated. 
Recent proposals for quota allocation raise serious questions as to 
fairness. I do not believe that any individual quota should be directly 
correlated to an individual's past fishing history. This merely rewards 
those who have had the greatest impact on the resource, at the expense 
of those who have either voluntarily reduced their effort, or been 
forced to do so by the unevenly distributed burden of conservation. If 
any individual quotas are to be implemented, everyone should be given 
an equal share.

VI. Any Latent Effort Buy Back Should Be Entirely Voluntary

    Although most fishermen understand the problem with so-called 
latent effort, at the same time we realize that it is unfair to deny 
access to the resource to those who have voluntarily reduced effort in 
some or all fisheries. Any restriction on latent effort should be 
carefully reviewed and any buyback should be voluntary.

VII. Congress Should Encourage Community and Area Based Management

    I strongly favor the development of regional fishery plans with 
local management. Under Magnuson as presently drafted, stocks must be 
managed as a unit throughout their range. This leads to situations 
where some fishermen are free to overfish in area after area. Managers 
should have the option of dividing areas into regional management 
blocks, with separate sub-TACs. Fishermen signing into these areas 
would then be limited to a region for a fishing year. I believe this 
would be more equitable and encourage more responsible fishing. It 
would force fishermen to work more cooperatively with each other and 
with managers to achieve a common goal.

VIII. Real Time Data is Badly Needed

    A continual problem is that of obtaining timely data. Scientific 
sampling and analysis is months or years behind. Management decisions 
are routinely adjusted or altered with less than a year's data. Nowhere 
has this been more dramatic than in the cod fishery, where large 
movements of codfish have resulted in accelerated catch rates. With a 
restrictive trip limit, the result is frequent discard. Scientists must 
be able to correlate fishermen and observers' data on a real time basis 
to ensure that decisions are made not on the ``best available data'' 
but rather on meaningful data. Stock assessments should be performed 
more regularly, and daily catches and catch rates should be analyzed to 
detect trends between full assessments. This could be accomplished 
through use of industry trawl data, possibly collected through 
electronic logbooks.

IX. Cooperative Research and Management Are Vital to Success of 
        Management Plans, and the Federal Government is Not Doing 
        Enough to Promote These Efforts

    As fishermen, we possess special knowledge regarding the fish, 
their habits and the health of stocks, which I often think scientists 
lack. Fishermen are by their very nature assessors of the stocks, and 
followers of migratory patterns. Too often scientists contest 
fishermen's claims about quantities of fish being seen or caught, fish 
migration, spawning habits, etc. We frequently invite the scientists 
and managers to come aboard our vessels to experience what we see, but 
are turned down. As a result, there has been an almost complete loss of 
trust between fishermen and managers. I believe fishermen need a closer 
working relationship with both scientists and managers, so they can 
understand what occurs on the ocean, both in terms of stocks and how we 
conduct our fisheries. We can tell scientists more than their computer 
models can about the subtle changes in the environment that can be 
discovered by daily observation. I have tried to become involved in the 
stock assessment process, but find I am often frustrated by the failure 
of managers to take seriously my involvement. For example, a Council 
staffer invited me to participate in a stock assessment workshop, but 
only notified me of the time and place less than a day before the 
meeting, which was in a location far from my home. I encourage Congress 
to mandate the Administration to involve fishermen in the entire 
scientific process.
    Despite many attempts to develop innovative conservation methods 
through gear modification, etc., managers routinely reject fishermen's 
experience as ``anecdotal'' information, not worthy of consideration in 
management decisions. As fishermen we have spent years learning how 
gear works, and what it can and can't do. We need to develop new 
methods of protecting juvenile fish and non-target species. This can 
best be done with the fishermen's knowledge of gear. There has been a 
strong push by state officials, such as the Massachusetts Fishery 
Recovery Commission initiative to involve fishermen in the gathering of 
data and development of new gear, etc. The federal government has been 
slow to follow the lead, despite calls for industry involvement at all 
other levels. Even the recent peer review of the Northeast Multispecies 
Stock assessment process performed by the National Academy of Sciences 
called for increased industry involvement. Unless and until fishermen 
are involved in the process, trust will never be re-established between 
fishermen and regulators.

X. Present Plans Encourage Wasteful Discards of Bycatch--all Fish Which 
        Can Not Be Released Alive Should Be Landed, Even if it is Given 
        to Charity

    Present plans do little to discourage or prevent bycatch despite 
the existing National Standards. Nowhere is this more evident than in 
the Gulf of Maine cod fishery, where managers have closed coastal 
fishing areas to protect cod, including areas where fishermen have 
traditionally caught other species such as pollock and flounder. 
Vessels are bunched so closely together to make a day's pay that they 
can not maneuver or relocate to avoid massive influxes of codfish. All 
plans should provide for sufficient opportunity for vessels to avoid 
aggregations of critical species, while permitting maximum flexibility 
for fishermen to earn a living. All plans should also provide a 
mechanism to permit vessels to land all that they catch with combined 
trip limits, and any excess over trip limits should be donated to 
charity. No fish should go to waste merely because regulators find it 
more convenient to mandate discard.

XI. Council Procedures Benefit Special Interests and are Undermining 
        Fishermen's Confidence in Management and the Democratic Process

    The Council process must be reviewed to ensure that affected 
fishermen can be involved in making the decisions that affect their 
lives. In the Northeast region, we have a multitude of interrelated 
fisheries, prosecuted by fishermen from different ports, using 
different gears and methods of fishing. The result is that given the 
small number of Council seats, many fishermen are under-represented, or 
not represented at all. Council members are often paid lobbyists, not 
individuals merely economically dependent on fisheries for their 
livelihood. As such, they are paid based on how they vote. This results 
in less than objective consideration of a ``competitor's'' position, 
and in cabals among Council members to promote the interests of their 
collective clients. Paid lobbyists, whether they represent fishing 
interests or other groups should have no place on the Council.
    The problem with special interests on the Council is made worse by 
the Administration's failure to ensure that management measures are 
fair and equitable or to otherwise apply the existing National 
Standards to prevent abuse of the Council process. In many instances 
Council action is not merely a conservation tool. The first rule in 
fishery management has always been ``shut down everyone but me'' and 
Council action, unchecked by the Administration, becomes nothing more 
than an allocation battle, where a few special interests hold all of 
the cards.
    Recent developments on the New England Fishery Management Council 
raise even more serious questions as to the continued involvement of 
fishermen in the management process. While the Magnuson Act mandates 
public hearings, recent changes in New England Fishery Management 
Council policies prohibit many from speaking at the Council hearings, 
relegating public comment to subcommittees. While this may streamline 
the Council process, it does so at the cost of democracy. These new 
policies makes it virtually impossible for fishermen to promote plans 
or ideas, as they must now go though a completely separate culling 
process, before they can even approach the Council. Congress should 
make clear that the Council must abide by all public notice and public 
comment provisions of the Act.

XII. Limitations Must Be Placed on the Scope of Council Action, 
        Particularly in Abbreviated Rulemaking Known as the Framework 
        Process

    As a small businessman it is very difficult to continually attend 
meetings to determine what action may affect me. When Amendments Five 
and Seven to the Northeast Multispecies Fishery Management Plan were 
formulated, it was believed these would control our fishery for years. 
These measures relied on an even distribution of the burden of 
conservation. Recent frameworks have dramatically and 
disproportionately affected our inshore fishery, far beyond that which 
we could have anticipated under the FMP or the subsequent amendments. 
Councils should not be permitted to allocate through frameworks, or to 
make drastic adjustments to rebuilding goals without a full amendment 
process. Congress should place limits on the extent to which 
abbreviated rulemaking can affect catches particularly where they 
result in significant allocation. Perhaps a maximum change of 10 
percent, in an allocation or in landings in any one fishery, would be 
an appropriate limit on the scope of a framework.

XIII. The Constant Changes in Overfishing Definitions, Stock Rebuilding 
        Definitions and Management Objectives Must Stop

    As fishermen, changing ``overfishing'' definitions continually 
confound us. Stocks become ``overfished'' not due to a decline in fish 
nor an increases in fishing effort, but merely because a definition is 
changed. As fishermen it is difficult for us to understand how, when 
measures meet or approach their objectives and we see more fish, NMFS 
is always calling for additional restrictions. Each time we believe 
that we are closing in on a management objective, we are informed that 
Congress has changed the goal, ``raised the bar,'' so to speak, and 
that therefore we must again suffer. In the face of increasing 
conservation targets, industry plans always come up short.\1\ Public 
perception of fishermen and the government is also negatively affected 
by this apparent failure to meet objectives. We need to set goals and 
meet them, or at least follow one course of action long enough to see 
if anything we are doing is having any positive effect.
---------------------------------------------------------------------------
    \1\ In a recent case, managers added a new twist, applying goals 
not part of the rulemaking process. In the recent groundfish annual 
adjustment, the New England Fishery Management Council staff indicated 
a Gulf of Maine Fishermen's Alliance groundfish proposal did not meet 
marine mammal objectives, but came close to meeting biological 
objectives, and would have had the most positive effect on communities 
of any alternative. Marine mammal issues had never been discussed at 
the Council level or made a goal in the framework process. Sadly, the 
staffers failed to realize that due to present closures, fixed gear, 
the largest alleged threat to large marine mammals, has increased in 
areas closed to groundfishing. The Alliance's proposed reopening of 
those areas would have reduced the potential for interaction. Had the 
matter been discussed openly, the obvious error would have been 
realized. However, Council staff has never been receptive to industry 
proposals, and at times it almost seems as if they conceal from us the 
true goal until it is too late for us to adjust our plans.
---------------------------------------------------------------------------
XIV. While Enforcement is Crucial, Fishermen Remain Citizens, 
        Harvesting Food for America, and the Government Must Stop 
        Treating Us Like Criminals and Respect Our Rights

    While most fishermen recognize and respect that the rules must be 
obeyed and violators punished the present manner and level of 
enforcement has turned the fishing dock into a virtual police state. We 
all suffer when fishermen violate the regulations, but the present 
atmosphere of daily boardings and daily dockside interrogations is too 
much. The ability to seize and hold a catch without a hearing gives the 
government too much power. In recent months a number of vessels have 
had catches seized and the proceeds of sale held for months without any 
action by the government. In one recent case, the Coast Guard escorted 
a boat from George's Banks to Gloucester, where the catch was seized 
and sold. Months later, the Coast Guard admitted that they had made a 
mistake and returned the monies without further compensation to captain 
or crew. Because of the civil nature of the seizures, the lawyers have 
a new joke--``What's the difference between an American fisherman and a 
foreign drug runner?--The drug runner has constitutional rights.''
    Having been rescued by a Coast Guard vessel \2\ after 14 hours in 
the water, during which time two other men died, I will always respect 
the men who put their lives on the line for us. It is unfortunate that 
present regulations make us adversaries, and I believe that the Coast 
Guard's role in fisheries enforcement needs to be re-examined.
---------------------------------------------------------------------------
    \2\ At that time under the command of Paul Howard, current 
Executive Director of the New England Fishery Management Council.
---------------------------------------------------------------------------
    Fishermen are engaged in the most dangerous, and probably the 
oldest profession in America. We risk our lives every day to put food 
on the tables of our fellow citizens, yet even when in full compliance 
with the law, we are treated with less respect by law enforcement 
agencies than common criminals. The situation is unfair and demeaning. 
As American citizens, we believe we deserve better treatment.

XV. Judicial Review of Management Measures Should Be Made Easier, or 
        All Plans, Amendments and Frameworks, Should Automatically Be 
        Sent for Review to Other Agencies, Such as the SBA

    Under present law, management measures promulgated under the 
Magnuson Act are subject to only limited judicial review. Challenges to 
management measures must be brought within thirty days of promulgation, 
and preliminary relief is unavailable. Regulatory change is frequent 
and often dramatic, and regulations often run their course in a short 
period. Fishermen, irreparably harmed by improper action are thus 
deprived of any remedy at law. Congress should provide for an even more 
expeditious hearing process than presently exists, or alternatively, 
remove the anti-injunction provisions contained in Magnuson.
    Another solution could be to submit all FMPs, Amendments and 
Frameworks to another agency, such as the SBA, for review of compliance 
with the National Standards. This reviewing agency could screen 
regulations and comments, and reduce or prevent disputes resulting in 
litigation.

XVI. Consideration Should Be Given to Removing Management Oversight 
        from NOAA

    Congress should consider whether NOAA and NMFS are actually the 
appropriate entities to manage the fisheries. We are concerned that too 
often policy decisions may infect the science. We believe that Congress 
should investigate placing control over management of fishermen and 
stocks under another agency, such as Interior or Agriculture, with NOAA 
and NMFS continuing with the scientific analysis only.

XVII. Conclusion

    I believe that the Magnuson Act has great potential for maintaining 
a healthy and sustainable fishery. Congress must, however, ensure that 
the National Standards are enforced, and establish priorities so that 
managers achieve a balance between the biological objectives and the 
needs of those dependent on the resource. More importantly, Congress 
must reverse the trend seen on the New England Fishery Management 
Council that allows special interests to allocate to themselves, or 
their constituents, disproportionate access to the resource, at the 
expenses of others. The Act as written appears to provide many of these 
protections, if only the National Marine Fisheries Service would 
enforce them by refusing to implement Council recommendations which do 
not comply with the law. Unless and until all fishermen are treated 
fairly and equally, the industry will remain in turmoil and management 
objectives will fall short of their goals.
    American fishermen have a long and proud heritage, bringing food to 
American shores for over 375 years. While the desire of government to 
change the way we fish, by requiring MSY in every species is admirable 
it may be impossible. We need to ensure goals are realistic and 
management plans workable. As fishermen we know more about how 
fisheries function and how to manage fishermen. While I may not agree 
with all that the government is trying to do, I can accept the 
cutbacks, tie up periods, closed areas, inconvenience and personal loss 
resulting from management measures, but only if I am treated fairly, 
equally and with the respect American fishermen deserve. I ask you 
then, to restore to the Magnuson Act the most basic principals of 
fairness, equity and equality, not just in words, but in the actions of 
the government and to restrain the abuses of the Council process which 
threaten to undermine these democratic principles.
    Senator Snowe. Thank you very much, Mr. Sherman.
    Mr. Parker.

         STATEMENT OF PAUL PARKER, EXECUTIVE DIRECTOR, 
        CAPE COD COMMERCIAL HOOK FISHERMEN'S ASSOCIATION

    Mr. Parker. Madam Chair and members of the Subcommittee, 
thank you for inviting me to testify.
    I am Paul Parker, a commercial hook and line fisherman 
aboard the fishing vessel PEGGY B II from the port of Wychmere 
Harbor in Harwich, Mass. I also serve as the Executive Director 
of the Cape Cod Commercial Hook Fishermen's Association and as 
a member of the Board of Advisors of the Marine Fish 
Conservation Network. As an active participant in the New 
England Fishery Management Council process I also serve on the 
groundfish and habitat advisory panels.
    Founded in 1993, the Cape Cod Commercial Hook Fishermen's 
Association is a community-based organization of over 800 
members including commercial fishermen and concerned coastal 
residents who want to ensure that New Englanders have a healthy 
and productive fishery for the future.
    The Marine Fish Conservation Network is a unique coalition 
of over 90 national and regional environmental organizations, 
commercial and recreational fishing groups, and marine science 
groups dedicated to conserving marine fish and promoting their 
long-term sustainability. Over the past year, the hook 
fishermen's association has been active within the Marine Fish 
Conservation Network in developing the Magnuson Act 
reauthorization. The majority of the network's reauthorization 
agenda is contained in the Fisheries Restoration Act.
    While I wear a number of different hats in the fisheries 
management arena, my testimony today is on behalf of the Cape 
Cod Commercial Hook Fishermen's Association. In order to bring 
sustainable fisheries back to New England, we all need to work 
together to protect essential fish habitat, avoid bycatch, 
ensure adequate observer coverage and to ensure the long-term 
economic viability of our coastal fishing communities.
    Unless and until these conservation principles are 
addressed in New England, there should be no consideration 
whatsoever of lifting the current moratorium on individual 
fishing quotas or individual transferable quotas.
    Fish, like all other living creatures, need healthy habitat 
to survive. Habitats are those places fish need for spawning, 
feeding, shelter and growth. Science has shown that some of New 
England's most valuable commercial fish stocks, such as haddock 
and cod, depend on habitat along the ocean bottom for survival.
    Many small in-shore dragger fleets fish sustainably on soft 
bottom, including Cape Cod's own Provincetown and Chatham 
fleets. In fact, for many years all draggers worked only on 
soft bottom, avoiding the hard bottom that could snag and tear 
their nets. Therefore, hard bottom became a refuge for the 
fish. But as New England fish stocks diminished, some draggers 
looked to technological advancements that allowed them to tow 
nets and gear along almost any type of sea floor.
    The major effect driving the failure of many of our 
groundfish plans to rebuild is chronically poor recruitment. We 
cannot possibly expect good recruitment when the habitat 
necessary for survival is degraded. By better protecting fish 
habitats, scientists predict that we will increase recruitment 
in the future. Increased recruitment will quickly result in 
increased total allowable catches and consequently increased 
economic opportunity for all fishermen.
    For fishermen, protecting fish habitat should not only be a 
matter of common sense but of dollars and cents. Thus, the Cape 
Cod Commercial Hook Fishermen advocate for incentives for 
fishing gear that cause less impact to essential fish habitat 
such as hook and line or soft bottom dragging and sensible 
controls on overly aggressive gear such as rock hoppers or 
rollers.
    Landings are not the same as mortality. They should not be 
treated as the same by NMFS or the New England Council. 
However, because we lack any type of comprehensive observer 
program in New England, we are forced to use landings as a 
proxy for fishing mortality. The madness of this proxy was well 
highlighted last May when the Gulf of Maine cod trip limit was 
reduced to 30 pounds. Everyone knew, and many fishermen even 
testified that such a draconian reduction of the trip limit 
would not help to reduce mortality, it would only serve to 
generate dead and wasted discards.
    Equally reprehensible to the dead, unquantified and wasted 
discards that ended up on the sea floor on the Gulf of Maine 
last year was the fact that jig fishermen, like Roger Brisson 
and Ed Skoniecki were put right out of business by the very 
same regulation. Roger and Ed worked from small boats by 
themselves and target directly on cod in the most sustainable 
way. They hauled them up from the depths with rods and reels, 
releasing undersized fish alive and having no impact on the 
habitat. Jigging has been used sustainably in New England 
waters to catch cod for 400 years. Never in modern fisheries 
has jigging accounted for more than a few percent of the 
overall catch.
    But today, it is one of the most persecuted means of 
fishing in the Gulf of Maine. Why? Because our current 
management system ignores bycatch and fails to perform full 
cost accounting of the bycatch impacts of fishing. We should 
not be closing down sustainable directed fisheries to make room 
for bycatch in other sectors. It's just plain wrong.
    By instituting a comprehensive observer program in New 
England we will begin to understand the true fishing mortality 
on our stocks. Likewise, an observer program will assist in 
generating regulations that provide incentives to sustainable 
fishermen which would be viewed as a solution to our fisheries 
and not as a problem.
    I live in a small fishing community on Cape Cod. Without a 
healthy fishery, my community will no longer exist. Sure, the 
roads, the houses, the schools, the restaurants and especially 
the tourists will continue to exist. For the centuries of 
tradition, our unique character and the culture, the very heart 
and soul of Cape Cod will be cut out and lost forever. The 
first step to ensuring that we save the fishermen and our 
communities is to ensure that we save the fish and the 
diversity of the fleet.
    The Regulatory Flexibility Act and National Standard Eight 
should not be used to undercut fisheries conservation. Although 
such arguments may appeal to the interests of some, it's short-
sided, and it may lead to more and greater economic hardships 
for all of us in the long-term.
    New England fisheries management is not ready to consider 
the utilization of individual fishing quotas or individual 
transferable quotas as a management tool. With pressing 
problems like protection of fish habitats, reduction of bycatch 
and ensuring survival of our fishing communities, we should not 
even be considering adding a layer of complexity that offers no 
solutions but guarantees added expense and conflict. It's 
unthinkable. Commercial fishermen in New England do not trust 
and consequently do not want IFQs nor ITQs. Fishermen are 
living in a time of uncertainty. Time and time again we have 
been advised to focus our attention away from groundfish. We've 
been asked to target dogfish, to sell back our boats, to target 
monkfish or whiting, even skates. Today many in-shore fishermen 
are unable to access the groundfish resource. The stocks are 
simply found too far off-shore. Other fishermen are waiting for 
the stocks to recover. They're clamming or painting or 
constructing. How would they be considered in an IFQ or ITQ 
allocation? My answer is: They would not be considered.
    The current Sustainable Fisheries Act provides the tools 
that we need to build sustainable fisheries for the future. In 
New England, we need more time to implement these provisions. 
We need to protect fish habitats and to reduce bycatch to 
ensure the future of our communities. We need to do these 
things before anyone should consider the possibility of lifting 
the moratorium on IFQs or ITQs.
    Thank you very much for your attention and for this 
opportunity to express our opinion. The Cape Cod Commercial 
Hook Fishermen's Association is an organization dedicated to 
providing assistance and valuable constructive criticism to the 
New England fishery management process. We are encouraged by 
some recent investment in fisheries management, and will 
continue to work hard with all of you for the future of our 
fisheries and our communities.
    Senator Snowe. Thank you, Mr. Parker. We have to ask 
witnesses to summarize their statements, to keep them within 
the five-minute timeframe. Thank you.
    [The prepared statement of Mr. Parker follows:]

        Prepared Statement of Paul Parker, Executive Director, 
            Cape Cod Commercial Hook Fishermen's Association

    Madame Chair and members of the Subcommittee, thank you for 
inviting me to testify on implementation of the 1996 Sustainable 
Fisheries Act and the ongoing reauthorization of the Magnuson-Stevens 
Fishery Conservation and Management Act (Magnuson-Stevens Act).
    I am Paul Parker, a commercial hook and line fisherman aboard the 
fishing vessel PEGGY B II from the port of Wychmere Harbor in Harwich, 
Massachusetts. I also serve as the Executive Director of the Cape Cod 
Commercial Hook Fishermen's Association and as a member of the Board of 
Advisors of the Marine Fish Conservation Network (Network). As an 
active participant in the New England Fishery Management Council 
process, I serve on the Groundfish and Habitat Advisory Panels.
    Founded in 1993, the Cape Cod Commercial Hook Fishermen's 
Association is a community based organization made up of over 800 
members including commercial fishermen and concerned coastal residents 
who want to ensure that New Englanders have a healthy and productive 
fishery for the future. The Marine Fish Conservation Network is a 
unique coalition of over 90 national and regional environmental 
organizations, commercial and recreational fishing groups, and marine 
science groups dedicated to conserving marine fish and promoting their 
long-term sustainability. Over the past year, the Cape Cod Commercial 
Hook Fishermen's Association has been active within the Marine Fish 
Conservation Network in developing Magnuson Act reauthorization. The 
majority of the Network's reauthorization agenda is contained in the 
Fisheries Restoration Act, H.R. 4046, which was introduced by 
Congressman Wayne Gilchrest (R-MD), on March 21, 2000. The Cape Cod 
Commercial Hook Fishermen's Association supports this legislation and 
urges the Subcommittee to give serious consideration to the bill's 
provisions as it develops its reauthorization agenda. While I wear a 
number of different hats in the fisheries management arena, my 
testimony today is on behalf of the Cape Cod Commercial Hook 
Fishermen's Association.
    In order to bring sustainable fisheries back to New England, we all 
need to work together to protect essential fish habitat, avoid bycatch, 
ensure adequate observer coverage and to ensure the long term economic 
viability of our coastal fishing communities. Until these critical 
conservation principles are addressed in New England, there should be 
no consideration whatsoever of lifting the current moratorium on 
Individual Fishing Quotas or Individual Transferable Quotas.

Protect Essential Fish Habitat
    Fish, like all other living creatures, need healthy habitat to 
survive. Habitats are those places fish need for spawning, feeding, 
shelter, and growth. Science has shown that some of New England's most 
valuable commercial fish stocks, such as cod and haddock, depend on 
habitat along the ocean bottom for survival.
    Ocean bottom habitat can be categorized as soft or hard bottom. 
Soft bottom, such as sand and mud, is habitat for many commercial 
species. Mobile fishing gear, or draggers, tow nets along this bottom 
to harvest these stocks. Hard bottom, such as gravel, cobble, and rocky 
substrates, is more structurally complex. Groundfish such as cod rely 
on hard bottom for juvenile survival and successful spawning. Some gear 
types, including hook and line, harvest fish along hard bottom without 
damaging fish habitat. However, dragging along hard bottom destroys 
vital habitat.
    Many small inshore dragger fleets fish sustainably on soft bottom, 
including Cape Cod's own Provincetown and Chatham fleets. In fact, for 
many years all draggers worked only on soft bottom, avoiding the hard 
bottom that could snag and tear their nets. Therefore, hard bottom 
became a refuge for the fish. But as New England fish stocks diminished 
some draggers looked to technological advancements that allowed them to 
tow nets and gear along almost any type of seafloor. Hardware such as 
rollers and rockhoppers were added along the mouth of the nets so that 
fishermen could drag their gear along hard bottom without getting torn 
or snagged. Similar advancements in scallop dredging have allowed 
scallopers to work on hard bottom habitats as well.
    In 1996, the Sustainable Fisheries Act called for fisheries 
managers to identify and protect essential fish habitat from 
destructive fishing practices such as the use of rockhoppers and 
rollers. To date, the New England Fishery Management Council has failed 
to do so, wrongly claiming that there is not enough scientific data to 
warrant prompt action. The single factor driving the failure of many of 
our groundfish plans to rebuild is chronically poor recruitment. How 
can we possibly expect good recruitment when the habitat necessary for 
survival is so degraded? By better protecting fish habitats, scientists 
predict that we will increase recruitment in the future. Increased 
recruitment will quickly result in increased Total Allowable Catches 
and consequently increased economic opportunity for all fishermen. For 
fishermen, protecting fish habitat should not only be a matter of 
common sense but of dollars and cents.
    Thus, the Cape Cod Commercial Hook Fishermen's Association 
advocates for incentives to fishing gears that cause less impact to 
essential fish habitat such as hook and line or soft bottom dragging 
and sensible controls on overly aggressive gears such as rockhoppers or 
rollers.

Avoid Bycatch
    As a fisherman, I can state with absolute confidence that landings 
are not the same as mortality. They should not be treated as the same 
by NMFS nor by the New England Fishery Management Council. However, 
because we lack any type of comprehensive observer program in New 
England, we are forced to use landings as a proxy for fishing 
mortality. The madness of this proxy was well highlighted last May when 
the Gulf of Maine cod trip limit was reduced to 30 pounds. Everyone 
knew, and many fishermen even testified that such a draconian reduction 
of the trip limit would not help to reduce mortality, it would only 
serve to generate dead and wasted discards.
    Equally reprehensible to the dead, unquantified and wasted discards 
that ended up on the seafloor of the Gulf of Maine last year was the 
fact that jig fishermen like Roger Brisson and Ed Skoniecki were put 
right out of business by the very same regulation. Roger and Ed work 
from small boats by themselves and target directly on cod in the most 
sustainable way. They haul them up from the depths with rod and reel, 
releasing undersized fish alive and having no impact on the habitat. 
Jigging has been used sustainably in New England waters to catch 
codfish for the past 400 years. Never in modern fisheries management 
has jigging cod accounted for more than a few percent of the overall 
catch. And today, it has become one of the most persecuted means of 
fishing in the Gulf of Maine.
    Why? Because our current management system ignores bycatch and 
fails to perform full cost accounting of the bycatch impacts of 
fishing. We should not be closing down sustainable directed fisheries 
to make room for bycatch in other sectors. It is just plain wrong. A 
dead fish is a dead fish, whether it is landed at the docks or whether 
it is thrown overboard. To generate more sustainable fisheries and a 
more complete understanding of the condition of our stocks, we must 
immediately quantify the degree of bycatch in our fisheries. The best 
way to do this is by requiring the establishment of observer programs 
in each fishery as envisioned by the Fisheries Recovery Act.
    We have learned a number of valuable lessons from the recent access 
to the George's Bank Groundfish Closed Areas by the scallop fleet. One 
of the best results of the access has been the development of a hard 
bycatch quota on yellowtail flounder. Quite simply, scallops are worth 
a lot of money. However, yellowtail flounder live in the same areas as 
the scallops and they have traditionally been caught in the process of 
scalloping. Because we are trying to conserve yellowtail and promote 
rebuilding of the stock, managers created a hard total allowable catch 
of yellowtail which, when reached would cause shut down of the access 
to closed areas program. The program worked, and scallopers innovated 
creative means to minimize yellowtail bycatch while maximizing their 
access to the valuable scallops. Institutionalizing incentives to 
reduce bycatch, like those that worked so well in the scallop fishery, 
is also envisioned by the Fisheries Recovery Act.
    By instituting a comprehensive observer program in New England, we 
will begin to understand the true fishing mortality on our stocks. 
Similarly, once we have a baseline of information regarding bycatch 
rates in various fisheries and sectors, we will be better equipped to 
predict the implications of our management decisions. Our managers will 
be far less likely to call upon measures like a 30 pound trip limit to 
conserve codfish. Likewise, an observer program will assist in 
generating regulations that provide incentives to sustainable fishermen 
like Ed and Roger who should be viewed as a solution to our fisheries 
crisis and not as the problem.

Ensure Economic Viability of Coastal Fishing Communities
    I live in a small fishing community on Cape Cod. Without a healthy 
fishery, my community will no longer exist. Sure, the roads, the 
houses, the schools, the restaurants and especially the tourists will 
continue to exist but the centuries of tradition, our unique character 
and the culture, the very heart and soul of Cape Cod will be cut out 
and lost forever. The first step to ensuring that we save the fishermen 
and their communities is to ensure that we save the fish.
    In recent years, there has been significant debate over application 
of National Standard 8 and the Regulatory Flexibility Act. Upon 
developing fish conservation measures, NMFS must consider alternatives 
that accomplish the objectives of the Magnuson-Stevens Act AND that 
minimize significant impacts on small businesses, like fishermen. 
Although economic impacts must be considered, they cannot take 
precedence over the Magnuson-Stevens Act's mandate to conserve fish. In 
an instance where several alternatives are equally protective of marine 
fish, but have varying degrees of adverse economic impacts to 
fishermen, then NMFS should choose the alternative with the least 
economic impact. The Regulatory Flexibility Act and National Standard 8 
should not be used to undercut fisheries conservation. Although such 
arguments may appeal to the interests of some fishermen, it is a short-
sighted point of view that will lead to more and greater economic 
hardships for fishermen in the long-term.

Extend the Moratorium on IFQ/ITQs
    New England fisheries management is not ready to consider the 
utilization of Individual Fishing Quotas or Individual Transferable 
Quotas as a management tool. With pressing problems like protection of 
fish habitats, the reduction of bycatch and ensuring survival of our 
fishing communities, how can we consider adding a layer of complexity 
that offers no solutions? It is unthinkable.
    A rallying point for nearly all fishermen across New England is our 
universal opposition to IFQ/ITQs. A handful of individuals have worked 
to portray that there exists acceptance of this management tool but I 
assure you that these contentions are false. Fishermen in New England 
do not want IFQ/ITQs!
    Fishermen are living in a time of uncertainty. Time and time again 
we have been advised to focus our attention away from groundfish. We 
have been asked to target dogfish, to sell back our boats, to target 
monkfish or whiting, even skates. Today, many inshore fishermen are 
unable to access the groundfish resource. The stocks are simply found 
too far offshore. Other fishermen are waiting for the stocks to 
recover. They are clamming or painting or constructing. How would they 
be considered in an IFQ/ITQ allocation. The answer is: they would not 
be considered!
    If IFQ/ITQs were allowed in New England fisheries and the 
allocations were based on catch history, which they always are, it 
would generate a tremendous windfall profit for the largest operators 
who have caused the most damage. Why would we choose to consider IFQ/
ITQs now, when allocation would reward those individuals whom had 
contributed most to our fisheries crisis. This tremendous windfall 
profit would then place today's fisherman, that is waiting for the fish 
to recover, in the untenable position of having to sell their permit to 
these newly created millionaires. If this is allowed to happen, our 
fishery will no longer include thousands of independent operators, it 
will be one of tenant farmers to a handful of large corporations. IFQ/
ITQs, if allowed, will do to New England fishing communities what 
agribusinesses did to the family farmers in the 1960s and 1970s. Please 
don't let that happen.
    The current Sustainable Fisheries Act provides many of the tools 
that we need to build sustainable fisheries for future generations. In 
New England, we need more time to implement these provisions. We need 
to protect fish habitats and to reduce bycatch to ensure for our 
communities. We need to do these things before anyone should consider 
the possibility of lifting the moratorium on IFQ/ITQs.

Conclusion
    Thank you very much for your attention and for this opportunity to 
express our opinion. The Cape Cod Commercial Hook Fishermen's 
Association is an organization dedicated to providing valuable 
constructive criticism to the New England fishery management process. 
We are encouraged by some recent developments in fisheries management 
and will continue to work hard for the future of our fishery and our 
communities.

    Senator Snowe. Mr. Cunningham.

 STATEMENT OF C.M. ``RIP'' CUNNINGHAM, PUBLISHER OF SALT WATER 
    SPORTSMAN MAGAZINE, AND CHAIRMAN, AMERICAN SPORTFISHING 
      ASSOCIATION'S SALTWATER GOVERNMENT AFFAIRS COMMITTEE

    Mr. Cunningham. Thank you, Madam Chair and distinguished 
members of the Committee. I appreciate the opportunity to 
testify on behalf of the recreational fishing industry. As 
publisher of Salt Water Sportsman magazine and as chairman of 
the American Sport Fishing Association's government affairs 
salt water committee, we recognize that sound resources are the 
basis for a strong industry and are united in our commitment to 
proper management.
    Sport fishing is big business. In 1996, 10 million 
Americans spent over 100 million days fishing in salt water. 
Approximately 750,000 of those individuals in Massachusetts 
waters. The economic impact exceeded $8.5 billion nationally, 
accounted for 288,000 full-time jobs, and generated $25 billion 
in overall economic output. In Massachusetts alone, 5,000 jobs 
and over $420 million of economic activity.
    These jobs and economic benefits are in jeopardy with 46 
percent of our New England stocks overfished and their habitat 
compromised. This includes cod, as earlier mentioned, once the 
staple of this region whose decline is evidenced by the 61 
percent annual decrease in recreational catch from 1996 to 
1998.
    Managing fish populations is only half the equation. One of 
the keys to achieving a healthy fish stock is to protect their 
habitat. It makes little sense to try to rebuild the fish 
stocks while continuing to diminish their habitat. The 1996 
reauthorization of Magnuson-Stevens included a new essential 
fish habitat provision to address this aspect. I supported 
these essential fish habitat provisions and continue to believe 
they are crucial. Some have dramatized the dire consequences of 
these positions, yet those fears have not been realized here in 
New England. But the last four years have shown that NMFS does 
not have the resources to delineate sensitive areas. Like all 
conservation-minded recreational anglers, I urge the Committee 
to continue to support EFH provisions.
    Solid data is necessary for making accurate management 
decisions such as those relating to EFH. As Magnuson-Stevens 
requires, both biological and socioeconomic data must be used. 
I take issue with the marine recreational fisheries statistics 
survey that is the primary method used by NMFS to assess the 
impact of salt water sport fishing. This data is used to set 
catch targets and allocate fisheries. Many current allocations 
of recreational quotas are little more than guesswork.
    Funding for MRFSS has not increased significantly for more 
than 20 years, yet gathering this data is necessary to fulfill 
requirements of Magnuson-Stevens. I might ask that the Senate 
look toward the lands bill that is currently being considered 
in the House and the Senate. If the substantial OCS oil and gas 
revenues are going to be diverted from the general budget and 
dedicated to conservation efforts, I cannot help but think that 
directing some of that money into collecting accurate data to 
better manage our nation's fisheries is a worthwhile 
investment.
    The detrimental effect of some commercial fishing practices 
is one area where we do have adequate scientific information. 
Preventable human activities that cause damage to vast 
stretches of fish habitat should be dealt with. One way to 
protect habitat is to restrict harmful fishing practices and 
gear types by creating marine protected areas, a concept born 
of the system of terrestrial parks and refuges. On land or on 
water, it can be a useful tool if used properly. Unfortunately, 
for many MPAs have become the silver bullet. Rather target 
management on the most harmful practices, it seems easiest to 
exclude everyone. This mentality concerns me. In the rush to 
close off areas in the name of habitat preservation and 
fisheries management, it is often forgotten that we are 
excluding public access to areas of traditional use. 
Recreational fishing is still universally accepted on 
terrestrial parks and refuges.
    A recent National Research Council report found that the 
annual recreational catch was only a fraction of that caught 
commercially, yet each pound of recreationally caught fish 
produced 40 times the economic benefit of a pound of 
commercially caught fish. I have previously stated that right 
here in Massachusetts salt water sport fishing contributes $420 
million to the local economy, also over 2 million of Wallop-
Breaux excise tax funds were returned to Massachusetts to sport 
fish restoration and aquatic resource education programs. 
Recreational anglers are among the first conservationists. Why 
penalize them with no-take zones that remove their public 
access?
    In conclusion, the price of sustainable resources will be 
eternal vigilance. The Magnuson-Stevens Act goes a long way to 
help with that goal, but it too needs eternal vigilance.
    Thank you for allowing me to comment.
    [The prepared statement of Mr. Cunningham follows:]

Prepared Statement of C.M. ``Rip'' Cunningham, Publisher of Salt Water 
 Sportsman Magazine, and Chairman, American Sportfishing Association's 
                 Saltwater Government Affairs Committee

    Madam Chair, I appreciate the opportunity to testify before the 
Subcommittee about the Magnuson-Stevens Act on behalf of the 
recreational fishing industry. I am the publisher of Salt Water 
Sportsman magazine and chairman of the American Sportfishing 
Association's saltwater government affairs committee. Salt Water 
Sportsman has a national readership of 1.2 million, making it the 
largest saltwater fishing magazine in the U.S. ASA is a non-profit 
trade organization representing the environmental and business 
interests of the sport fishing industry. We recognize that a sound 
resource is the basis for a strong industry and, as such, are united in 
our commitment to ensure the proper management of our nation's 
fisheries.
    I am pleased to provide the Committee with some thoughts on the 
reauthorization of the Magnuson-Stevens Act. As you know, there are 
many saltwater fish species that are of extreme importance to 
recreational anglers and the sport fishing industry here in New 
England. In addition to being a popular leisure activity, saltwater 
sport fishing is also big business. In 1996, approximately 10 million 
Americans spent just over 100 million days fishing in saltwater; nearly 
750,000 of those individuals spent time fishing in the waters off of 
Massachusetts. The economic impact of this activity exceeded eight and 
a half billion dollars nationally at the retail level, accounted for 
the equivalent of 288,000 full-time jobs, and generated $25 billion in 
overall economic output. In Massachusetts alone, approximately 5,000 
jobs and over $420 million was infused into the local economy due to 
saltwater recreational angling. Many of these jobs and economic 
benefits are in jeopardy as stocks of saltwater game fish are 
overfished and their habitat compromised. The promise of the Magnuson-
Stevens Act has not yet been realized.
    Through strict catch levels and the continuous efforts of 
conservation-minded members of the New England Fishery Management 
Council, progress has been made on some New England species. Georges 
Bank populations of yellowtail flounder, near a historical low in 1994, 
are now rapidly approaching maximum sustainable yield. Considered 
commercially extinct not long ago, Georges Bank haddock have reversed 
their steep decline. Unfortunately, there are many other stocks not 
doing quite so well after nearly 30 years of federal management. Forty-
six percent of NMFS-managed species in New England are known to be 
overfished, including Gulf of Maine cod, once the staple fish of this 
region. As evidence, the recreational catch of Gulf of Maine cod from 
1994 to 1998 has declined an average of 61 percent per year. When 
compared to the commercial sector T.A.C. overage for 1996, 97, and 98 
of 9,612 metric tons, the recreational catch for that period was only 
20.7 percent of the overage alone. Nationally, an additional 75 percent 
of stocks under federal management maintain an ``unknown'' status. 
Undoubtedly, some of these ``unknown'' species are overfished.
    Despite the enormity of the problem facing NMFS, the New England 
Fishery Management Council and above all, the local fishermen (both 
recreational and commercial), I am optimistic that a viable, diverse 
recreational fishery can again be established in New England. No 
species is more important to this than the striped bass. Once decimated 
by overfishing throughout its range, striped bass rebounded in the 
1990's to regain its title as perhaps the most important recreational 
fish along the northeast Atlantic coast. The recovery was neither quick 
nor easy. However, it has been worth the hardship as recreational 
anglers and local coastal communities are now reaping the rewards of a 
strong recreational striped bass fishery. Since 1987, recreational 
angler expenditures and number of trips directed at striped bass have 
increased more than ten fold as evidenced in the figure below.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Given the striped bass' relative abundance, the success story seems 
complete. It is easy to forget that striped bass remain vulnerable to 
overfishing. Although we may not need to revert to the restrictions of 
15 years ago, difficult management decisions are still required to 
maintain a healthy recreational fishery. The effort to rebuild striped 
bass populations was the result of unprecedented cooperation among the 
states from North Carolina to Maine. The effort to maintain healthy 
stocks must show this same commitment. Nevertheless, equity between the 
states must be demonstrated. The recreational fishing interests that 
worked hard for striped bass populations fifteen years ago must have 
the opportunity to catch their fair share of the fish they helped to 
rebuild. Being a recreational fisherman in Massachusetts, I want the 
same chance to catch striped bass as those anglers do down in Maryland.
    It must be recognized that there are structural changes in the 
population with any given geographic location. As striped bass migrate 
throughout the course of the year, removing too many large fish in one 
area, may affect the conservation measures needed in an adjacent area. 
While the central goal is healthy striped bass populations, regulations 
that disproportionately reward one region over another must be avoided. 
While the conservation measures to which I am referring will likely 
not, for example, put a charter boat or local bait shop out of 
business, the economic consequences to local communities and individual 
anglers can be significant. I would ask the Committee to carefully 
examine these and similar equity issues, paying particular attention to 
the opportunity costs of regulation on recreational anglers and the 
industry.
    Managing fish populations is only half of the equation. One of the 
keys to achieving healthy fish stocks is to protect their habitat. It 
makes little sense to try to rebuild the fish stocks while continuing 
to diminish their necessary habitat. There are several factors 
contributing to habitat degradation, emanating from human activities 
both on the land and on the water.
    The 1996 reauthorization of the Magnuson-Stevens Act included a new 
Essential Fish Habitat provision that was supposed to address this 
aspect. I supported these Essential Fish Habitat (EFH) provisions and 
continue to believe protecting fish habitat is crucial. Recently, some 
have made dramatic characterizations about the dire consequences on 
development from implementing these provisions. Those fears have not 
been realized here in New England. To my knowledge, no reasonable 
development has ever been halted due to Magnuson's EFH protections.
    Nevertheless, the last four years have made it evident that NMFS 
has neither the resources nor the scientific data to delineate areas 
that promote habitat preservation while taking into account the 
socioeconomic effects on local communities. Like most recreational 
fishermen, I have a strong conservation ethic. While I have and 
continue to be outspoken about protecting fish habitat, from a 
practical matter, I do believe it is not possible to delineate all 
waters in the US EEZ as essential fish habitat. I urge the Committee to 
help NMFS find the correct balance.
    Solid data is necessary for making accurate management decisions 
such as those relating to EFH. As Magnuson-Stevens requires, both 
biological and socioeconomic data must be used in making such 
decisions. I feel that on both of those fronts, NMFS does not often 
have the information in their possession to make well-supported 
decisions. Specifically, take for example the Marine Recreational 
Fisheries Statistics Survey (MRFSS) that is the primary method used by 
NMFS to assess the impact of saltwater sport fishing. Both catch data 
and general demographic information is collected by the annual survey. 
This data is used to set catch targets and allocate fishery resources 
among various groups. I take issue with the accuracy of the biological 
data collected and its use to make educated decisions about allocation 
of recreationally important species. Many current allocations of 
recreational quotas are little more than guesswork and give rise to 
serious questions about equity of allocation decisions.
    I have seen little effort by NMFS to seek to improve the data 
collection deficiency. Funding for the MRFSS has not increased 
significantly since it began more than twenty years ago. While simply 
throwing money at a problem is not the solution, I see a definite cause 
and effect relationship here. Furthermore, gathering this data is 
necessary to fulfill the requirements set forth in Magnuson-Stevens. I 
might ask that the Senate look toward the lands bill that is currently 
being considered in the House and the Senate. If the substantial OCS 
oil and gas revenues are going to be diverted from the general budget 
and dedicated to conservation efforts, I cannot help but think that 
directing some of that money into collecting accurate data to better 
manage our nation's fisheries is a worthwhile investment.
    The detrimental effect of some commercial fishing practices is one 
area where we do have adequate scientific information. Preventable 
human activities that cause damage to vast stretches of fish habitat 
should be dealt with. One way to protect habitat is to restrict harmful 
fishing practices and use of particular gears by creating marine 
protected areas (MPA). This notion of marine zoning, through the 
establishment of sanctuaries and reserves as a method to minimize 
pressure on the resource, was born from the system of terrestrial parks 
and refuges. Just as it is on the land, it can be a useful tool on the 
sea if it is used properly.
    Unfortunately, for many, MPA's have become the silver bullet 
solution to the fishery management crisis. Rather than target 
management on the most harmful practices, it just seems easier to 
exclude everyone. This mentality concerns me greatly. In the rush to 
close off areas in the name of habitat preservation and fisheries 
management, it is often forgotten that we are excluding the public from 
areas where they traditionally have recreated. Last I checked, 
recreational fishing is still a universally accepted practice in nearly 
all terrestrial parks and refuges. So it should be on the sea. While 
limiting public access to certain very sensitive areas may be required 
in certain cases, I am disturbed that other equally effective and less 
draconian measures to control recreational fishing pressure may be 
bypassed in favor of no-take fishing zones. In New England, the NEFMC 
research has concluded that the impact of recreational fishing in 
managed closed areas has no impact on the recovery of over-fished 
groundfish stocks.
    A recent National Research Council report found that the annual 
recreational catch was only a fraction of that caught commercially, yet 
each pound of recreationally caught fish produced 40 times the economic 
benefit of a pound of commercially caught fish. I had previously stated 
that right here in Massachusetts, saltwater sport fishing contributes 
$420 million to the local economy. Further, significant monies are 
collected on each purchase of sport fishing equipment through the 
payment of the Wallop-Breaux excise tax. Over $2 million of those 
collections were returned to Massachusetts to support fish restoration 
and aquatic resource education programs. Recreational anglers are among 
the first conservationists, why penalize them by establishing no-take 
zones that remove their access to the water? If public access to the 
resource is restricted, fishery participation may well decrease and 
vital influxes of monies to local communities may evaporate.
    It seems to me, that before public access to the resource is 
limited, other fishery management tools need to be exhausted. 
Recreational fisheries are effectively managed through closed seasons, 
bag limits, or minimum sizes. Then, should the evidence show that 
specific sites need extra protection, recreational anglers need to be 
included in the designation process with preserving public access among 
the top priorities.
    One practical matter on the establishment of MPA's that is of 
concern regards the sheer number of efforts underway to establish 
MPA's. The National Park Service, Department of the Interior, and NMFS 
are just a few government entities contemplating marine closures. It 
makes it difficult to follow these different efforts and extremely 
time-consuming to comment at all that would affect the recreational 
fishing industry. I would ask the Committee to consider consolidating 
these efforts to better facilitate public participation. The regional 
fishery management councils seem one logical place to centralize these 
efforts.
    Let me close by stating that fishery management begins here at home 
with a strong Magnuson-Stevens Act. However, the rebuilding of fish 
stocks takes a dedicated commitment both nationally and 
internationally. While it is difficult to look beyond our borders when 
many of our fisheries resources are in decline, fish are global 
resources with many species important to the United States migrating 
freely between the waters of many different nations.
    The U.S. has shown a positive commitment to participating with 
international management bodies to improve management of these 
international, migrating fish stocks. Through the leadership of the 
United States, progress has been made. I hope to one day soon see 
sustainable swordfish populations return to the coast of Massachusetts. 
With strong U.S. participation at the International Conference on the 
Conservation of Atlantic Tunas, this may be a reality by the end of the 
decade.
    As is the situation here with our fishery resources, much remains 
to be accomplished on these international stocks. We must continue to 
be a conservation leader both nationally and internationally.
    I thank the Committee for listening to my thoughts on Magnuson-
Stevens reauthorization.

    Senator Snowe. Thank you, Mr. Cunningham.
    Mr. Weiss.

             STATEMENT OF PETER WEISS, PRESIDENT, 
               GENERAL CATEGORY TUNA ASSOCIATION

    Mr. Weiss. Thank you, Madam chairwoman, Senator Kerry, 
Senator Stevens. My name is Peter Weiss, I'm president of the 
General Category Tuna Association. There are over 7500 
permitted fishermen in the general category, 2820 from 
Massachusetts, 1069 from Maine, 469 from New Hampshire.
    Over a thousand individuals captured bluefin tuna last 
year. General category permit holders are commercial fishermen 
who sell their fish. When all these boats and fishermen are 
lumped together, one must assume the Bluefin Tuna Fishery is 
one of the largest commercial fisheries in the United States.
    The Magnuson-Stevens Act was an important step in an effort 
to conserve fish and also to conserve the fishermen. I have 
several different issues I would like to comment on.
    Section 301, paragraph 2 of the Act states: ``Conservation 
and management measures shall be based upon the best scientific 
information available.'' The disputes between scientists and 
fishermen are as old as time. Today, many new assessment tools 
are available to scientists. As an example, we now have 
available pop-up tag technology which allows us to see the 
distance, depth and migration routes bluefin tuna have traveled 
for a period of time after they have been tagged. Results have 
found that over 30 percent of the tagged fish have crossed the 
imaginary 45-degree boundary line that separates the east and 
the west management areas. These tags prove beyond a doubt that 
there is more intermingling among eastern and western stocks 
than had been previously thought. Yet the NMFS scientific 
community is very slow to use these tagging results in any type 
of bluefin tuna assessment.
    I would urge this Committee to put language in the Magnuson 
Act that would force the NMFS scientists to use these pop-up 
tags and their information in further assessments as soon as 
possible.
    NMFS has over 100 lawsuits pending at this particular time. 
It seems to me that this is rather an excessive amount of 
lawsuits. I believe some of these suits are frivolous, others 
are not. I believe when the Magnuson Act is reauthorized, many 
areas in the Act have to be clarified so that the true intent 
of various sections are not ambiguous and allows anyone who is 
not happy with NMFS, with a NMFS rule, to hire a lawyer and 
sue. As an example, the conservation community led by the 
National Audubon Society, has sued National Marine Fisheries 
over rebuilding of bluefin tuna stocks. They claim under the 
Act there should be a 10-year rebuilding program. On the other 
hand, NMFS claims that the current rebuilding program is 
appropriate and interprets the Act correctly due to the quota 
of the fishery which is regulated by ICCAT. I believe 
clarification of the Act in various areas would be very 
important. And there is an immediate need to make serious 
progress in this area.
    I'd like to make a short comment on law enforcement, 
something which has been touched on in the previous testimony. 
Fishery rules and regulations are useless unless they're 
enforceable. And there is no question that the amount of new 
rules on fisheries, including the Bluefin Tuna Fisher, have 
multiplied in the last ten years, especially since the 
implementation of the Sustainable Fisheries Act. Nevertheless, 
to the best of my knowledge, NMFS still has approximately the 
same amount of enforcement agents it had 10 years ago. If 
you're going to create rules and you're going to spend time 
reauthorizing this Act to make it more efficient, I urge you, 
whether it be in the Act itself or your important positions as 
Senators, to see to it that NMFS has available to it the moneys 
to dramatically enlarge its enforcement staff. I just cannot 
emphasize enough, rules without enforcement are no rules at 
all.
    That brings me to my last subject, and hopefully within my 
five-minute timeframe, one that I'm personally deeply involved 
in and have the support of 99 percent of permit holders in the 
general harpoon categories. I'm talking about vessels using 
spotter planes to capture bluefin tuna. Spotter planes are the 
scourge of the fishery. There are not many planes, probably 25 
at a maximum and in the harpoon category approximately 17 
boats. These 17 boats using spotter planes in the harpoon 
category captured 95 percent of the fish in that category, 
which has over 100 permit holders.
    How this situation can be tolerated when a Magnuson Act 
national standard mandates that if it becomes necessary to 
allocate or assign fishing privileges among various United 
States fishermen, such an allocation shall be carried out in 
such a manner that no particular individual, corporation or 
other entity acquires an excessive share of such privileges.
    The use of spotter planes in both of general and harpoon 
categories is creating a situation nothing short of chaotic. 
The wild west has reinvented itself off the waters of New 
England. NMFS has stated part of the rationale for the general 
and harpoon categories was to spread the greatest number of 
fish among the greatest number of fishermen. Planes are 
preventing this objective from ever being achieved. I could 
spend hours talking about this issue, but within the context of 
my timeframe I will just quickly make the following points.
    Airplanes encourage cheating since they can see enforcement 
from a long distance away. Planes have been known to dive bomb 
boats when they feel that the boat is encroaching upon the fish 
they're looking at. The ridiculous idea that pilots advocate 
that they're able to minimize the capture of undersized 
bluefish because their ability to tell size in the air is 
nothing short of a joke.
    Spotter planes and their boats accelerate the catch in both 
harpoon and general categories. Two years ago NMFS adopted a 
final rule banning airplanes in the general category from using 
spotter planes. The Spotter Pilots Association sued the 
secretary and won a ruling in Federal court which held that 
NMFS was arbitrary and capricious in its ban. NMFS then stated 
this issue should be addressed to a Highly Migratory Advisory 
Panel of which I am a member. This panel was created by the 
Magnuson-Stevens Act. I've sat on this panel for two years, and 
we tried to reach consensus on issues, consensus being the 
preferred avenue. In two years consensus was impossible to 
reach in almost any issue except what time we adjourned. But we 
did reach a strong consensus on the spotter plane issue. We did 
reach a strong consensus.
    With this advice in hand, last March NMFS proposed a new 
rule banning spotter planes in both the general and harpoon 
categories. To this very day, to the very moment after numerous 
false promises by NMFS to Congress and the fishermen, this 
proposed rule of last March is not final. I urge you to 
consider and do the right thing and establish a law banning 
fishing vessels from using aircraft to assist in the catch of 
bluefin tuna. Thank you very much.
    Senator Snowe. Thank you, Mr. Weiss.
    [The prepared statement of Mr. Weiss follows:]

             Prepared Statement of Peter Weiss, President, 
                   General Category Tuna Association

    My name is Peter Weiss, President of the General Category Tuna 
Association. I am also Chairman and Chief Executive of Bradford 
Industries, Inc., a manufacturer of coated fabrics in Lowell, 
Massachusetts, employing approximately 175 people.
    There are over 7,500 permitted fishermen in the General Category; 
2,820 from Massachusetts, 1,069 from Maine, and 469 from New Hampshire. 
Although it is obvious not all of the permit holders are active 
fishermen, many thousands are. Over 1,000 individuals captured bluefin 
tuna last year. General Category permit holders are commercial 
fishermen who sell their fish. When all these boats and fishermen are 
lumped together, one must assume the Bluefin Tuna Fishery is one of the 
largest commercial fisheries in the United States.
    No state in the country benefits more from the Bluefin Fishery than 
the Commonwealth of Massachusetts. It is not just the $25 to $32 
million dollars in sales of bluefin tuna annually, but also the tens of 
millions in economic activity stemming from all the unsuccessful 
fishing effort; bait and tackle, marinas, fuel, insurance, hotels, boat 
manufacturers, etc.
    The Magnuson-Stevens Act was an important step in an effort to 
conserve fish and also conserve the fisherman. I do not claim to be an 
expert on fisheries, but I have been fishing for BFT for 30 years, and 
I do feel I am somewhat knowledgeable on various fishing matters.
    I have several different issues that I would like to comment on. 
Section 301, Paragraph 2, of the Act states, ``Conservation and 
management measures shall be based upon the best scientific information 
available.''
    The disputes between scientists and fishermen are as old as time. 
Today, many new assessment tools are available to scientists. As an 
example, we now have available pop-up tag technology which allows us to 
see the distance, depth, and migration routes bluefin tuna have 
traveled for a period of time after they have been tagged. The results 
of these tags have been amazing. Results have found that over 30 
percent of the tagged fish have crossed over the imaginary 45 degree 
boundary line that separates the Eastern and Western management areas. 
These tags prove beyond a doubt that there is more intermingling among 
Eastern and Western stocks than had been previously thought, yet the 
NMFS scientific community is very slow to use these tagging results in 
any type of bluefin tuna assessment. I would urge this Committee to put 
language in the Magnuson Act that would force the NMFS scientists to 
use these pop-up tags in their further assessments as soon as possible. 
If this is done in the U.S., the SCRS of ICCAT will then be forced to 
use the results of these tagging studies. One must remember, it does 
not behoove countries fishing in the Eastern Atlantic to find proof 
that there is much intermingling of stocks. Right now, the two stock 
theory and the arbitrary dividing line results in all of the 
conservation being done in the West by U.S. fishermen. Here we have an 
opportunity to use 21st Century science in assessments to fix the 
flawed science and unfair management program. A total of 52,000mt were 
reported caught in the East in 1996, while only 2500mt of Bluefin were 
caught in all of the West. This is totally ridiculous!
    NMFS has over 100 lawsuits pending at this particular time. It 
seems to me that this is rather an excessive amount of lawsuits. I 
believe some of these suits are frivolous, others are not. I believe 
when the Magnuson Act is reauthorized, many areas in the Act have to be 
clarified so that the true intent of various sections are not ambiguous 
and allows anyone who is not happy with the NMFS rule to hire a lawyer 
and sue.
    As an example, the conservation community, led by the National 
Audubon Society, has sued National Marine Fisheries over rebuilding of 
bluefin tuna stocks. They claim, under the Act, there should be a ten 
year rebuilding program. On the other hand, NMFS claims that the 
current rebuilding program is appropriate and interprets the Act 
correctly due to the quota of the fishery which is regulated by ICCAT. 
Both these interpretations come from the Act. The fact that there are 
so many lawsuits must be interpreted as a signal that there is 
something wrong. I believe clarification of the Act in various areas 
would be very important and there is an immediate need to make serious 
progress in this area.
    I would like to make a short comment on law enforcement. Fishery 
rules and regulations are useless unless they are enforceable, and 
there is no question that the amount of new rules in fisheries, 
including the Bluefin Tuna Fisher, has multiplied in the last ten 
years, especially since implementation of the Sustainable Fisheries 
Act. Nevertheless, to the best of my knowledge, NMFS still has 
approximately the same amount of enforcement agents it had ten years 
ago. If you are going to create rules and you are going to spend time 
reauthorizing this Act to make it more efficient, I urge you, whether 
it be in the Act itself, or in your important positions as Senators, to 
see to it that NMFS has available to it the monies to dramatically 
enlarge its enforcement staff. I can tell you from my own experience in 
the Bluefin Tuna Fishery, effective enforcement is difficult, at best, 
and that is not because enforcement is not capable, it is because it 
does not have the manpower nor the resources. I just cannot emphasize 
enough, rules without enforcement are no rules at all.
    This brings me to my last subject, one that I am personally deeply 
involved in and have the support of 99 percent of the permitted holders 
in the General and Harpoon Categories. As you know, for the last 
several years, NMFS and all the organizations involved in the fishery 
have worked together to try to bring a workable fishing plan for the 
domestic Bluefin Tuna Fishery. We have settled many of our differences. 
Today, a bluefin tuna fisherman knows when he is going to fish, what 
his quota is, what days off he has, and all the other important issues 
that he faces during the season. We only have one major, major domestic 
problem left, and this problem, unless it is corrected, will continue 
to create more havoc in this fishery than one can believe. I am talking 
about vessels using spotter planes to capture bluefin tuna. Spotter 
planes are the scourge of the fishery. We are not talking about many 
planes, probably 25 at a maximum, and in the Harpoon Category, 
approximately 17 boats. These 17 boats using spotter planes in the 
Harpoon Category capture approximately 95 percent of the fish in that 
Category. In the Harpoon Category, the top 17 boats all use spotter 
planes and captured over 90 percent of the fish. How can this situation 
be tolerated when a Magnuson Act National Standard mandates that: If it 
becomes necessary to allocate or assign fishing privileges among 
various United States fishermen, such allocation shall be (A) fair and 
equitable to all such fishermen; (B) reasonably calculated to promote 
conservation; and (C) carried out in such manner that no particular 
individual, corporation, or other entity acquires an excessive share of 
such privileges.
    The use of spotter planes in both the General and Harpoon 
Categories is creating a situation nothing short of chaotic. The wild 
west has reinvented itself off the waters of New England. The Harpoon 
Category was established because it represented a special and unique 
method of capturing Bluefin. It was supposed to be weather dependent 
and that's why multiple daily catches were allowed. Airplanes were 
never a part of this tradition. The General Category method of taking 
Bluefin also did not historically use aircraft. In fact, as NMFS has 
stated, part of the rationale for the General and Harpoon Categories 
was to spread the greatest number of fish among the greatest number of 
fishermen. Airplanes are preventing this objective from ever being 
achieved.
    I could spend many hours talking about this issue, but within the 
context of my timeframe, I will just quickly make the following points. 
Airplanes encourage cheating, since they can see enforcement from a 
long distance away, airplanes have been known to dive-bomb boats, my 
boat, in particular, when they feel the boat is encroaching upon the 
fish they are looking at. The ridiculous idea that pilots advocate that 
they are able to minimize the capture of undersized Bluefin because of 
their ability to tell the size in the air is nothing short of a joke. 
Can you imagine being able to tell the difference between a 72 and a 
73" fish from 500 feet in the air; 72 being legal and 73 being not. 
Airplanes have driven many fishermen to the point where the only method 
of fishing to them without competing with airplanes is chumming. 
Spotter planes and their boats accelerate the catch in both the Harpoon 
and General Categories. It is not unusual for the Harpoon Category to 
be filled by the middle of July. Before the advent of airplanes, many 
times the Harpoon Category was not even caught after a whole season of 
fishing. Pilots are not regulated by NMFS, they are not licensed by 
NMFS, and they are not fishermen. General Category boats using spotter 
planes also cheat by capturing more than one fish, passing extra 
catches to other boats or skiffs, interfere with other fishermen, and, 
as I have stated before, create havoc.
    Two years ago, NMFS adopted a final rule banning airplanes in the 
General Category from using spotter planes. They left out the Harpoon 
Category in this rule which was a gigantic mistake. The Spotter Pilot 
Association sued the Secretary and won a ruling in Federal Court in 
Boston which held NMFS to be arbitrary and capricious in its ban. NMFS 
then stated that this issue should be addressed by the Highly Migratory 
Advisory Panel of which I am a member. This Panel was created by the 
Magnuson Act.
    I have sat on this Panel for two years and we tried to reach 
consensus on issues, consensus being the preferred avenue. In two 
years, consensus was impossible to reach on almost any issue, but we 
did reach a strong consensus on the spotter planes issue. The vote was 
unanimous, with two abstentions, to ban the use of spotter planes by 
fishing vessels. This Panel is made up of over 20 members from the 
academic community, the environmental community, commercial, and 
recreational fishermen. With this advice in hand, last March, NMFS 
proposed a new rule banning spotter planes in both the General and 
Harpoon Categories. To this very day and to this very moment, after 
numerous false promises by NMFS to Congress and the fishermen, this 
proposed rule of last March is not final. Why is it not final? The 
explanation I get is the Justice Department is afraid Secretary Daley 
will be held in contempt of court. Not only do we not believe this, but 
the lawyers who we have hired to intervene in this matter if it ever 
comes to court again agree not only will the secretary not be held in 
contempt, but we had a very good chance of winning the case. The 
Government is just plain afraid to lose in court. This is a completely 
unacceptable reason not to again finalize a rule banning spotter 
aircraft which gathered more supportive comments for NMFS than any 
other rule in its history.
    I urge you to consider and do the right thing and establish a law 
banning fishing vessels from using aircraft to assist them in the 
capture of bluefin tuna. As I have stated before, 99 percent of the 
fishermen in the Bluefin Tuna Fisher do not want airplanes. Please use 
any alternative necessary to get this done before another Giant Bluefin 
season is ruined for the vast majority of permit holders.
    Finally, for the record, Senator, GCTA supports the administrative 
and technical changes suggested by East Coast Tuna last September in 
Portland, Maine relative to National Standard No. 8 and the HMS 
Advisory Panel and the ICCAT Commissioners.

    Senator Snowe. Ms. Sanfilippo.

     STATEMENT OF ANGELA SANFILIPPO, PRESIDENT, GLOUCESTER 
                 FISHERMEN'S WIVES ASSOCIATION

    Ms. Sanfilippo. Madam Chairperson and members of the 
Subcommittee, thank you for inviting me to testify on the 
reauthorization of the Magnuson-Stevens Fishery Conservation 
and Management Act. I'm Angela Sanfilippo, President of the 
Gloucester Fishermen's Wives Association and a member of the 
Board of Directors of Massachusetts Fishermen's Partnership. 
And I am here to represent the partnership consensus. The 
Massachusetts Fishermen's Partnership is an umbrella group 
consisting of 18 commercial fishing organizations representing 
all the various gear sectors of Massachusetts. The 
Massachusetts Fishermen's Partnership and its member 
organizations currently represent more than 3,000 fishermen and 
their family members.
    For the past four months the MFP has been engaged in the 
formal consensus-building process to provide significant input 
in the reauthorization of the Magnuson Act. The result is a 
formal document which contains 26 points of consensus agreed to 
by a large number of members of the MFP. It is that report 
which forms the core of today's presentation.
    To summarize, all participants in this process share a 
common concern for the sustainable fishery. The fishermen 
developed a consensus to be partners with the regulators and 
management and with scientists and research. In addition, they 
express the desire to be partners with the Coast Guard and 
enforcement. There was also recognition of the need to redefine 
the role and organization structure of the management Council 
and other regulatory bodies. However, before we'll deal with 
reorganization, it's necessary to clarify and redefine some of 
the terms which have so often led to confusion and dissent 
about the regulatory measure. First and foremost is the term 
``overfishing.'' A strict adherence to the previous use of this 
term leads inescapably to the conclusion that all declines in 
fish stock are due to overfishing, even in cases where other 
factors can be shown to be the primary cause.
    Other terms battered loosely about in sometime 
contradictory ways have been ``maximum sustainable yield,'' 
``healthy fishing community'' and ``best available science.'' 
Alternatively, we recommend the following new definitions. 
``Overfishing'' means that amount of fishing mortality, not 
including mortality or stock population declines from other 
causes. ``Maximum sustainable yield'' should be dropped from 
the legislation and replaced by ``sustainable yield'' to 
reflect more realistic goals. Sustainable yield should be a 
range of fishing activity sufficient to maintain a sustainable 
fishery. ``Sustainable fishery'' means a fishery that maintains 
a healthy fish stock and a healthy fishing community. ``Healthy 
fish stock'' means a population of fish species that are 
biologically stable or growing in abundance and may include 
fish stock that have changed their range or migratory patterns. 
``Fishing community'' means U.S. vessels, crew, people and 
related business who earn income as a result of harvesting, 
processing of wild fish stock. ``Healthy fishing community'' 
means a fishing community as defined above that maintains 
sustainable participation in the U.S. fisheries and provides 
for social, economic and cultural need of such community. 
``Best available science,'' must be collected by both 
government and fishermen working together utilizing the same 
calibrated equipment and practices. ``Best available science'' 
must be used before a stock can be declared overfished. All 
management plans in which fishing mortality is reduced must 
define causes of declining fish populations from overfishing, 
from pollution and habitat loss, from change in physical or 
natural environmental conditions that affect fish stocks, from 
predator, from unknown causes.
    These recommendations when implemented would go a long way 
toward restoring trust and confidence in management systems 
which sometimes appears to be failing right before our eyes.
    But now we would like to address more of the major 
recommendations. We propose that the advisory committee chair 
should have a vote on that species subcommittee and on the full 
Council on issues specific to the advisory committee. This will 
ensure the voice of the advisory committee is heard at 
Councils.
    Additionally, we believe that the voice of fishermen would 
be heard even more strongly if fishermen on the Council are 
active commercial fishermen. Therefore, fishermen members must 
be elected by fishermen and people in the fishing industry.
    Under the current system, the National Marine Fisheries 
Service is charged with interpreting the provisions of the SFA, 
issuing guidelines, gathering the data, preparing the stock 
assessments under the science centers, approving the fishery 
management plans and enforcing their provisions. What is needed 
now is to put some distance between NMFS and science centers so 
the two different functions of the agency are not forced into 
sharing the same political agenda and budget.
    We also propose the creation of a totally independent 
national standard oversight panel which would monitor NMFS and 
Council regulations from the Department of Justice. The panel 
would report only to the appropriate secretary and with statute 
power to reject any proposal regulation that does not meet all 
of the standards. The panel would not evaluate the entire plan, 
they would only rule on the ten national standard provisions.
    We further believe that management plans should encourage 
incentive, promote conservation instead of punitive measures. 
Consequently, there must be a compensation program established 
as a management tool and this compensation program must be in 
place before the fisheries close.
    We will continue to build consensus to impact fishery 
management in the future. The cornerstone of this strategy will 
be the extension of the Sustainable Fisheries Act moratorium on 
ITQs. In our discussion we recognize the importance of the 
issue of bycatch, and we will work continuously to focus our 
efforts on this problem in order to develop a wider consensus.
    In order to improve both safety and conservation, 
management plans utilizing days at sea limitation and daily 
trip quotas should allow fishing vessels to run the clock while 
tied to the dock.
    Finally, the best input from the industry is of little 
value if adequate funding is not provided. In particular, 
research and monitoring should be given high priority. The 
fishermen agree that NMFS must execute observer coverage of 
commercial fishing vessel for the sector on any fishery where 
stock are declining.
    Congress should specify adequate funding to establish best 
available science. As so, there should be funding for research.
    We hope the recommendation that we're making here today 
will be part of this new reorganization of the Magnuson Act. 
And this has been a terrible experience for many of us. And 
fishermen feel like they've been treated unfairly and something 
precious has been taken away. But they stand committed to work 
with you as they have for the last 23 years.
    Thank you for the opportunity.
    [The prepared statement of Ms. Sanfilippo follows:]

          Prepared Statement of Angela Sanfilippo, President, 
                Gloucester Fishermen's Wives Association

    Madame Chairperson and members of the Subcommittee, thank you for 
inviting me to testify on the reauthorization of the Magnuson-Stevens 
Fishery Conservation and Management Act (Magnuson-Stevens Act). I am 
Angela Sanfilippo, President of the Gloucester Fishermen's Wives 
Association (GFWA) and a member of the Board of Massachusetts 
Fishermen's Partnership (MFP). GFWA is a founding member of the MFP and 
I am here representing the Partnership consensus.
    The Massachusetts Fishermen's Partnership (MFP) is an umbrella 
group consisting of 18 commercial fishing organizations representing 
all of the various gear sectors in Massachusetts. Our organization 
sponsors the Fishing Partnership Health Plan which provides health 
insurance for about 1500 persons. The MFP and its member organizations 
currently represent more than 3000 fishermen and their families.
    For the past 4 months, the MFP has been engaged in a formal 
consensus building process to provide significant input into the 
Magnuson reauthorization legislation. The effort began when a group of 
40 fishermen met at the New England Aquarium on January 10th, 2000 to 
set priorities and establish a task force. The task force met twice in 
February and produced a draft consensus report. The full group 
reconvened in March to review the draft report and all of the members 
have now had an opportunity to comment on the recommendations. The 
result is a formal document which contains 26 points of consensus 
agreed to by a large number of Massachusetts fishermen. It is that 
report which forms the core of today's presentation.
    To summarize, all participants in this process share a common 
concern for a sustainable fishery. The fishermen developed a consensus 
to be partners with regulators in management and with scientists in 
research. In addition, they expressed a desire to be partners with the 
Coast Guard in enforcement. There was also a recognition of the need to 
redefine the role and organizational structure of the management 
councils and other regulatory bodies.
    However, before we deal with reorganization, it is necessary to 
clarify and redefine some of the terms which have so often led to 
confusion and dissent about regulatory measures. First and foremost is 
the term overfishing. A strict adherence to the previous use of this 
term leads inescapably to the conclusion that all declines in fish 
stocks are due to overfishing; even in cases when other factors can be 
shown to be the primary cause (for example, the lobster die-off in Long 
Island Sound or pollution in the Hudson). This approach is equivalent 
to saying that the single cause of airplane crashes is overflying and 
that the passengers are always at fault. Not only is the 
characterization misleading, it precludes the investigation of the true 
cause of the crash, such as pilot error or mechanical failure. We are 
not saying that overfishing or overflying (when a plane is overloaded) 
cannot occasionally be the primary cause of a crash, merely that it 
should not be assumed to be the cause without additional evidence.
    Other terms battered loosely about in sometimes-contradictory ways 
have been Maximum Sustainable Yield (MSY), healthy fishing communities 
and best available science. This terminology has led to widespread 
disillusionment with the management process and more than a few 
lawsuits.
    Alternatively, we recommend the following new definitions.

    1. Overfishing means that amount of fishing mortality, not 
        including mortality or stock population declines from other 
        causes (e.g. pollution or habitat loss, changes in physical or 
        natural environmental conditions, predators, and unknown 
        causes), which decrease spawning biomass to a stock level that 
        results in decreasing stock population over time. Sometimes 
        fishing mortality must be reduced in response to phenomena 
        other than ``overfishing,'' but management definitions should 
        always make it clear when fishing is NOT causing declining 
        stocks.

    Maximum Sustainable Yield (MSY) should be dropped from the 
legislation and replaced by ``Sustainable Yield'' (SY) to reflect more 
realistic goals. It has been debated for years whether MSY is even 
possible to achieve for multiple species simultaneously; especially 
where there is a complex predator-prey relationship.

    2. Sustainable Yield--shall be a range of fishing activity 
        sufficient to maintain a sustainable fishery.

    3. Sustainable fishery--means a fishery that maintains healthy fish 
        stocks and a healthy fishing community.

    4. Healthy fish stocks--mean populations of fish species that are 
        biologically stable or growing in abundance and may include 
        fish stocks that have changed their range or migratory 
        patterns.

    5. Fishing community--means U.S. vessels, crew, people, and related 
        businesses who earn income as the result of the harvesting or 
        processing of wild fish stocks.

    6. Healthy fishing community--means a fishing community as defined 
        above that maintains sustainable participation in U.S. 
        fisheries and provides for the social, economic, and cultural 
        needs of such community.

    7. Best Available Science--means unbiased information based on data 
        that:

    --integrates current data that is less than 2 years old
    --must be collected by both government and fishermen working 
            together utilizing the same or calibrated equipment and 
            practices
    --must meet generally accepted standards with no less than 80 
            percent accuracy, defined by the Probability Distribution 
            Function.

    As a direct consequence of these new definitions, the following New 
Requirements for Management Plans are recommended:

  <bullet> Best Available Science as defined above must be used before 
        a stock can be declared ``overfished.''

  <bullet> All management plans in which fishing mortality is reduced 
        must define causes of declining fish populations:
    <bullet> from overfishing
    <bullet> from pollution or habitat loss
    <bullet> from changes in physical or natural environmental 
            conditions that affect fish stocks
    <bullet> from predators
    <bullet> from unknown causes

  <bullet> Data being used in fisheries management must be mailed out 
        to interested parties no less than 30 working days prior to a 
        meeting where the data will be used to make management 
        decisions.

    These recommendations, when implemented, would go a long way 
towards restoring trust and confidence in a management system which 
sometimes appears to be failing right before our eyes. But, now we 
would like to address some of the major problems under the current 
management organizational system.
    The government of this country was founded on two basic principles: 
meaningful representation of all citizens and the separation of powers. 
Yet, the existing fisheries management system violates both of these 
fundamental precepts.
    While it is true that most of the committees under the regional 
Councils have formed advisory panels, the recommendations of these 
panels carry no formal weight whatsoever. Their recommendations are 
more likely to be ignored than implemented and the outcome depends 
entirely on the whim of the committees. We propose that the Advisory 
Committee Chair shall have a vote on that species subcommittee and on 
the full Council on issues specific to that Advisory Committee. This 
will ensure that the voice of the Advisory Committee is heard at the 
Council level and that any dissenting opinions or alternative 
recommendations will be seriously considered during plan development 
and implementation.
    Additionally, we believe that the voice of the fishermen will be 
heard even more strongly if fishermen on the Council are active 
commercial fishermen. Therefore, fishermen Council members must be 
elected by fishermen and people in the fishing industry.
    This brings us back to the separation of powers issue. Under the 
current system, the National Marine Fisheries Service (NMFS) is charged 
with interpreting the provisions of the SFA, issuing guidelines, 
gathering the data, preparing the stock assessments (under the Science 
Centers), approving the Fishery Management Plans (FMPs) and enforcing 
their provisions. No single agency should be entrusted with being 
prosecutor, judge, jury and executioner.
    In practice, the guidelines have unfairly become mandates, and the 
FMP's have become political footballs based on incomplete data and 
erroneous assumptions. What is needed now is to put some distance 
between NMFS and the Science Centers so that the two different 
functions of the agency are not forced into sharing the same political 
agenda and budget. We recommend that the Science Centers remain under 
NOAA and continue to collect and analyze data just like the National 
Weather Service. Then, all of the permitting and regulatory functions 
of NMFS could be moved from the Department of Commerce to another 
Department such as Agriculture. This would guarantee a completely 
unbiased analysis and an uncon-
taminated database.
    Furthermore, NMFS has previously stated that the 10 National 
Standards cannot all be met by the regulatory measures. Hence, they 
have taken it upon themselves to decide when the provisions are 
sufficiently met to warrant approval of a plan. This is similar to 
deciding which of the Ten Commandments one chooses to obey which can 
frequently lead to trouble. We do not believe that selective compliance 
is what Congress intended when it developed the National Standards. By 
properly addressing the issue of bycatch, for example National Standard 
9, the management Councils would have the ability to further decrease 
discards. The present NMFS policy has proven to be the source of dozens 
of lawsuits and has seriously undermined the credibility of the agency.
    We also propose the creation of a totally independent National 
Standards Oversight Panel which will monitor NMFS and Council 
regulations from the Department of Justice. The Panel will report only 
to the appropriate Secretary and will have statutory power to reject 
any proposed regulations that do not meet all of the National 
Standards. Unlike the Councils, no conflicts of interest will be 
permitted on the panel from environmentalists, fisheries agencies, or 
industry. Members of the panel will have term limits of no less than 
two years but will not be political appointees. The panel will not 
evaluate the entire plans. They will only rule on the 10 National 
Standards provisions.
    We further believe that management plans should encourage 
incentives to promote conservation instead of punitive measures. 
Consequently, there must be a compensation program established as a 
management tool and this compensation program must be in place before a 
fishery closure.
    The compensation program should be focused on fishermen because 
other sectors have other options available, while fishermen have none. 
Compensation should be confined to fishermen in the fishery that is 
closed as documented by logbooks. It might be linked to other research 
commitments such as days at sea compensation for collaborative research 
efforts.
    We will continue to build consensus to impact fisheries management 
in the future. The cornerstone of this strategy will be the extension 
of the Sustainable Fisheries Act moratorium on ITQs. In our 
discussions, we recognized the importance of the issue of bycatch and 
we will continue to focus our efforts on this problem in order to 
develop a wider consensus.
    In order to promote both safety and conservation, management plans 
utilizing days-at-sea limitations and daily/trip quotas should allow 
fishing vessels to run the clock while tied to the dock. Furthermore, 
management plans should promote quality instead of commodity as a 
national fisheries strategy to protect market share and the competitive 
advantage of family fishing fleets.
    Finally, the best input from the industry is of little value if 
adequate funding is not provided. In particular, research and 
monitoring should be given a high priority. The fishermen are agreed 
that NMFS must execute observer coverage of commercial fishing vessels 
from that sector on any fishery where fish stocks are declining. 
Without these observers, the Fisheries Service is flying blind and is 
liable to take the wrong action at the wrong time resulting in a crash. 
There must be cooperative research funding for these observers and 
biologists. The research will be done by observers or biologists and 
fishermen, and will be funded by the federal government. Consensus 
included using collaborative research money available this year to 
immediately implement this recommendation in New England.
    Also, there should be funding for gear selectivity research and the 
Saltonstall-Kennedy grant program should be re-designed to support 
fishing industry generated research AND not fund NMFS enforcement and 
administration.
    Most importantly, Congress should specify adequate funding to 
establish ``Best Available Science'' as defined above for fisheries 
management. Without better scientific data there is little hope of 
restoring the fish stocks within the ten-year time frame which Congress 
has mandated.
    In conclusion, please allow me to express my gratitude for your 
kind attention. The painstaking process we have endured these many 
months has unified commercial fishermen in Massachusetts in ways that 
are rarely seen in this industry. The fishermen are committed to seeing 
these recommendations put in place. They will continue to work 
tirelessly to strengthen the system by engaging in every aspect of 
fisheries management. They desire to be a full partner in this 
undertaking.
    The recommendations made by the MFP today which are not adopted in 
the Magnuson Reauthorization Process will not fade away. They will 
emerge again and again in different forms submitted by different 
groups. They will prevail because fishermen throughout the country will 
know that ultimately these proposals are good for the fish and the 
fishermen. They provide a beacon in the fog that permits a safe and 
soft landing and avoids a crash which leaves no survivors.

    Senator Snowe. Thank you, Ms. Sanfilippo.
    Okay. I'd like to ask the panel--it seems that everybody 
has stated they're opposed to lifting the moratorium on the 
IFQs.
    We're going to have a recess for a minute.
    (Brief recess taken.)
    Thank you very much. I'd like to explore the IFQs because I 
do think, obviously, it's going to be an issue before the 
reauthorization process, and I've heard various positions 
around the country. I know the regional chairmen of the 
management Councils unanimously support, lifting the 
moratorium, I gather to use as a tool Council by Council rather 
than having it federally mandated. But I'd like to have each of 
you give me your perspectives as to why it isn't a viable 
option for New England so I have a better understanding of the 
issues from your perspectives.
    Mr. Sherman, let me begin with you.
    Mr. Sherman. Yes, ma'am. Our--we are opposed to ITQs 
because of the fear that all of the wealth will be gathered in 
the end. People are pushed up against the wall. And I'm sure 
everyone knows this scenario. It's happened in Canada. It's 
happened in other places. That people who through regulation, 
whether excessive or not, have been pushed to a point 
economically where they're unable to, with the quota given to 
them, and there we go another problem is equity and allocation 
of quota, and they're forced to sell to larger interests and 
larger interests get larger and larger. And that's the problem 
that we find with it.
    We are not unopposed to fishing quotas as a management tool 
if and only if they are distributed fairly and equitably, and 
that each traditional fisherman, each one who has a stake is 
given enough, allocated enough so that they can survive until 
the fishing stocks come back. And these quotas should only be 
year by year, and not carried on. The excess, if you do not 
catch your quota, the excess should not be carried on further. 
And then each quota will be assessed as the stock assessments 
go year by year. It is something that should be looked at as a 
tool, but only individual fishing quotas, not individual 
transferable quotas.
    Senator Snowe. Okay. Mr. Parker.
    Mr. Parker. Yeah. I did touch on this as I was speaking. 
And I think that the most important thing to remember is that 
the commercial fishermen here in New England do not trust ITQ 
or IFQ allocations. We're very fearful that ITQs or IFQs would 
be allocated based on historic landings as they have been done 
in many other places, which would reward those people who have 
grabbed the most fish in the past.
    In my case, where I represent a group of people from small 
communities where traditional fisheries, a lot of people aren't 
able to fish right now. The groundfish are quite simply too far 
off-shore. There's people clamming, doing other things. And 
those people would not be treated fairly in allocation.
    I think that one of the most important things that we need 
to do is address some of the inequities that are going on right 
now with habitat and bycatch so that if we are going to look at 
ITQs or IFQs, it's looking at them with a balanced playing 
field for the future when everything is being considered and 
landings are more in check with those types of consideration. 
Thank you.
    Senator Snowe. Do you think that smaller operations would 
be eliminated by the larger fishing companies?
    Mr. Parker. The small in-shore fleet would be completely 
eliminated if they were allocated right now. There's no way 
that we can consider ITQs or IFQs right now. And I think----
    Senator Snowe. And at this time, you don't want the 
regional Councils to have that option. You want the federal 
moratorium on new IFQs to continue?
    Mr. Parker. We would like the moratorium to continue. We 
don't trust the system as it stands now. And I think that one 
of the problems here is that fishermen have been--we've been 
very narrow in our scope. We've been concentrating on small 
issues like bycatch, I mean, like dogfish or like groundfish, 
framework adjustments. We haven't had the time to organize and 
mobilize our thoughts, convey them to yourselves regarding IFQs 
and ITQs. I think that some of the people that have had that 
opportunity, people that are organized in their ways, have 
created the perception that there are commercial fishermen that 
are in favor of them. But if you look at this table, look at 
how many people are represented by Russell and myself and 
Angela. That's a vast number of the commercial fishermen in 
this region. And I think it's very important that we begin to 
convey this to you.
    Senator Snowe. Thank you. That will be one of the issues in 
this reauthorization process. So we appreciate it. And any more 
information regarding your views would be very helpful.
    Mr. Cunningham.
    Mr. Cunningham. Yes. My thoughts on it are--perhaps come 
from more the philosophic side which says when you establish 
these IFQs you have in fact incurred property rights on a 
common property resource. And from the philosophical standpoint 
I have a great deal of concern about that and what it means in 
the long-term and some of those concerns are as simple as that 
the general public's ultimate access to these resources may 
only be through the supermarket if it's carried to too great an 
extent.
    Senator Snowe. Mr. Weiss. Oh, yes, go right ahead.
    Senator Kerry. But surely you don't accept the notion that 
the general public has unlimited access to a finite resource?
    Mr. Cunningham. I do agree with that.
    Senator Kerry. Okay. Well, then where do you get the 
balance? We're beginning to learn that we can't let as many 
people into our national parks as we do, at least in 
automobiles and off-terrain vehicles and things because we're 
going to destroy the parks. I mean, isn't there a relationship 
there?
    Mr. Cunningham. Well, I think that there are certainly--and 
when I'm saying this I'm thinking of the New England area--I 
think that there are other options in terms of management 
considerations that may not have been accepted by the industry, 
per se. I think that if you look at the, currently the general 
public's access to these resources are quite limited. Even the 
Council did some research on it and found that the recreational 
sport fishing impact on groundfish in New England was 
practically negligible and would not have any detrimental 
impact on rebuilding the resources.
    Senator Kerry. We can pick up on that. Thank you.
    Senator Snowe. Okay. Mr. Weiss.
    Mr. Weiss. Senator Snowe, I really am not tremendously 
well-versed in the ground fishery. I kind of concentrate on 
tuna fishery. But I would say, what little I know about these 
ITQ/IFQs, it seems if a lot of the issues that Mr. Parker and 
Mr. Sherman have problems with, I think a lot of those issues 
can probably be addressed, some of it which I know because I 
know some of the fishermen that belong to this organization who 
are not fishing right now, who are digging clams or whatever, 
but who have fished for 20 years. If I think that if their 
concerns about getting their fair share of whatever quota may 
be out there can be addressed. It seems to me--again, as an 
outsider really--that it probably wouldn't be the worst way to 
go in the long run.
    Senator Snowe. I agree with you on the spotter plane issue, 
and we'll attempt to address that. That is a major concern of 
mine and we hope that the agency will issue a rule. You're 
absolutely right on the issue of lawsuits. I think the agency 
is run by how best to defend against a lawsuit rather than good 
policy. I would be interested in your ideas on how we can avoid 
some of these lawsuits in the future. As I said, the agency has 
not issued a rule on spotter planes, so we will have to 
consider legislation.
    Ms. Sanfilippo.
    Ms. Sanfilippo. Madam Chairwoman, the Massachusetts fishing 
community has been in existence for many years, in Gloucester, 
375 years. Our community, a small community, and its existence 
is through the fishery. For the last 23 years we have suffered 
greatly. The fabric of our community has been ripped apart. And 
we believe in what we're doing in the fishing community. ITQs 
will just totally destroy that. And given what we've been going 
through and see how sometimes the allocation has been so unjust 
to fishermen, and when the days at sea were distributed there 
were many, many wrong things done. The fear of thinking of ITQs 
to the same people. We cannot accept that.
    We believe that people in this country should enjoy 
fisheries. They should have opportunity. We have many 
regulations which will never open it up to everyone. We'll 
always be restricted to some people. Our young people need to 
know that if they ever dream to be fishermen, even if their 
family never fished, they should have that right. And I come 
from seven generations of fishermen, but I don't believe that I 
just reserve that right. We're humans. We have dreams and we 
should pursue them. To put the wealth in the hands of few, it's 
wrong. And we have dealt with the shift of the wealth for the 
last few years. I strongly believe that what we have seen in 
the last few years, it's a shift of the wealth from one group 
to another group. And we simply cannot allow that to happen. 
New England is very special for its little fishing communities, 
and we would like to keep it that way. And we hope that you 
will support us. Thank you.
    Senator Snowe. Thank you. Senator Kerry.
    Senator Kerry. I'm listening very carefully to these 
thoughts about individual fishing quotas. I haven't made up my 
mind on them yet, just to be honest with everybody. I want to 
look at it very carefully. I want to think about it.
    We seem to care more about taxi cabs than a finite resource 
called ``fish'' because we grant medallions for taxi cabs, and 
you have to buy a medallion to drive a taxi cab. You know, 
there's something out of whack here.
    Alaska has been pretty smart about thinking about 
cooperatives and ways to manage their fisheries. Now, I share 
your concern, and I think you have a very legitimate fear of 
the consequences of transferability. We need to think these 
fears through together. There are legitimate fears about how 
these quotas might work. But in a sense, you're working today 
with that kind of individual quota. I mean, you're all 
operating with an individual fishing quota anyway, but you're 
doing it in a fairly inefficient way because of the days, the 
trips, you know, the way it's being measured. But you're 
limited in your catch. You're limited in the time you can fish. 
You're limited to fishing only in certain areas. These are all 
some kind of limits. It may be that if we think about this 
carefully together there's actually going to be more freedom as 
to when, how, what you choose to do under a quota program. I 
don't want to quit the discussion on quota programs yet. I 
think we all need to keep a dialogue going.
    The cooperative concept, which has some limits on 
transferability is something that I think we ought to all look 
at carefully.
    Enough said on that. I don't think we need to belabor it. 
But I was really interested, Mr. Sherman, in your testimony on 
another subject. You used some very strong language, and 
suggested that fishermen are being treated like criminals. I 
wanted to ask you a bit more about that. Give me some meat 
there. How so? And what can we do about it?
    Mr. Sherman. Well, Senator, more or less I refer to the 
fact that often times when we come to the wharf we are boarded 
and surveilled. The Coast Guard and I--I'm not putting the 
blame or the onus on the Coast Guard. Certainly, the Coast 
Guard has saved my life on more than one occasion, and I'm very 
grateful. But often times some of the younger fellows have come 
aboard and more or less the atmosphere of it is that there's 
something automatically wrong because----
    Senator Kerry. Sort of a presumption that you've broken the 
law and you feel----
    Mr. Sherman. Yes, sir.
    Senator Kerry. Yeah. So you feel besieged in that sort of 
enforcement process?
    Mr. Sherman. Yes, sir, and perhaps it's because I do take 
out my fish at the Gloucester display auction, which is a very 
wonderful thing. And it's helped us a lot with our price 
structure, and it's enabled a lot of us smaller boats to stay 
in business. But it also performs--it's a great platform for 
surveillance and for things of that nature. And it seems that 
every second time that I come in and unload my catch that I 
have officers aboard, and even though I have no violation, sir, 
and haven't been found in violation, it's a repetitive process, 
and at times it's, frankly, quite intrusive.
    Senator Kerry. I think that's a very fair comment. And I 
can sense how as an entrepreneur and individual out there you 
would feel that way. I think it's important for us to talk to 
the enforcement folks and see if we can't elicit a more 
cooperative atmosphere. I think your point is a good one.
    Let me ask all of you a tough question. It's one that we 
really wrestle with within this whole fishery management 
structure. I've heard from some sectors here in New England as 
well as elsewhere in the country that people don't feel 
adequately represented on the Council. There's always this 
tension. Who's on? Who's off? Who gets to impact it and who 
doesn't? The New England Council currently has about eight 
commercial fishermen, two recreational fishermen, one 
environmentalist and then the Federal and State 
representatives. Now, often we hear people talk about the 
conflict of interest issue, that when it's so heavily weighted 
toward one sector you don't get adequate balance in the other. 
Each of you represents different sectors of commercial, 
recreational and environmental interests. Do each of you feel 
adequately represented on the Council? Is there anyone here who 
feels that the structure somehow is--that we need to think 
about the Council's structure at all?
    Mr. Cunningham. Senator?
    Senator Kerry. Yes.
    Mr. Cunningham. I'd like to comment on that. I think 
certainly from the recreational industry there is a feeling of 
under-representation on the Council. And I don't have a 
suggestion as to what should be considered as a gauge, whether 
it is economic activity generated by the sectors, one of 
participation. I think that there are a number of gauges that 
you could measure that against. In any case you would find that 
the recreation sector has been under-represented.
    Senator Kerry. And a final question: Did the recusal 
provisions that we put into the 1996 Act work in terms of 
people with significant financial interest in harvesting, 
processing, marketing, etc., recusing themselves from decisions 
if they have a significant or predictable effect on any 
personal interest? Has that arisen?
    Mr. Sherman. I've never seen it happen, sir.
    Senator Kerry. Never seen it happen?
    Mr. Sherman. I've never seen it happen. And actually, there 
are--I can say there's one member of the Council I believe that 
is directly paid by an environmental group. That's his job. 
That's his work. And is he going to vote any other way, sir? Is 
he going to see any other perspective? Not only that, I think 
if you look at the burden of regulation of small boat fishermen 
that we have borne the excessive burden of regulation. We don't 
have the means to access some of these off-shore stocks. And I 
know that the current situation is that these codfish stocks 
have aggregated along the shore and that it's necessary to 
perhaps close us down more than the off-shore. But I beg to 
differ. And I think that also what was mentioned, the biomass 
of codfish has increased by 23 percent, I believe, is the 
figure. That in the last framework process there were four 
proposals, two of which were presented by industry and were 
thrown out, and rightfully so because of lacking to meet the 
biological objectives. And I agree with that. I'm a member of 
the groundfish advisory panel, sir. But there were two others 
that were identical in every respect except one, and that was 
in the final additional conservation measures. One proposal, 
proposal option No. 1, was that everyone, every groundfish boat 
that prosecutes their fishery out of New England for every day 
that they stayed out fishing they'd stay a day ashore. So a 
large boat would be out for 10 days. And then he would stay 
ashore for 10 days. My boat is smaller. Perhaps I go for two 
days, sometimes only one. I would have to remain ashore for the 
next day.
    The other option, option two, the only additional 
conservation measure there was that if the--half of the total 
allowable catch of codfish in the total Gulf of Maine was 
reached by July 28th, then a certain sector, which is 
Stellwagon Bank, where I prosecute and many of my associates 
and friends prosecute their business, would be closed down for 
an additional month. This area is also closed for five months 
already, Senator. Where I prosecute my business, out of the 
next 16 months, we have 10 months of closure facing us. And we 
are unable to access these other areas because of the age of 
our vessels, the size of our vessels. And also the size of our 
crew. And we see a disproportionate amount of problems here. We 
feel that there is a large body of codfish that are off-shore 
as well. Fellows are not reporting this. And I don't--and 
frankly, I don't blame them because they see the type of 
regulation that's been placed upon us onshore and they're 
scared to death that this regulation will extend to them. And 
so only through observer coverage and real-time data can this 
situation be remedied. And also with observer coverage and 
real-time data, sir----
    Senator Kerry. You heard me ask for both. And I'm with you 
on that. We need to try to do that.
    Mr. Sherman. Indeed, sir.
    Senator Kerry. We need to try to do that.
    Mr. Sherman. And we do appreciate it.
    Senator Kerry. We're going to follow-up on this, and we 
don't have time now, obviously, to exhaust every part of it. 
We'll be having conversations with you to work through this. 
Let me join the chairwoman in saying, Peter, that we are on the 
spot. As we said to you before, we will get it done. And I 
think we will get it done.
    Mr. Cunningham. Senator, if I could just make one quick 
comment on your question on the recusal and conflict of 
interest issue. I do believe that is an area that needs to be 
addressed in some fashion. I think that the current standard is 
not strict enough. I think on the other hand I'm familiar with 
what goes on here in Massachusetts being a member of the, in 
the past and recently reappointed to the Marine Fisheries 
Commission, that perhaps some of the regulations that they 
operate under would cause the New England Council system to 
grind to a total halt. But I think somewhere in the middle 
ground there is, in fact, a reasonable situation.
    Senator Kerry. Thank you very much.
    Senator Snowe. Thank you. Senator Stevens.
    Senator Stevens. Well, this looks like a neighborhood 
fight, and this isn't my neighborhood. I think my area--I'm not 
going to ask you any questions because I really don't know 
enough about your fisheries to get into it. But in my area we 
have I think been more innovative about in-shore off-shore. We 
had in-shore allocation and off-shore allocation. And we 
limited the in-shore boats to delivering fish to the on-shore 
processors and vice versa. We have worked up innovative ways to 
try and deal with the conflicts that you mentioned, but we 
still haven't found a way to get the good Lord to reproduce the 
fish in a steady way. And sometimes the crab wander off. And 
sometimes there are too many sea lions and sometimes there's 
too many storms and we just have too much fluctuation. I think 
that we're trying to use all sorts of methods. As I indicated, 
I have been opposed to what Mr. Cunningham said that the 
concept of adding a new level capital requirement for a fishery 
because it's a barrier to the next generation. Now you have to 
get a bigger boat. Now you have to get a permit. And then on 
top of that you have to get--by your allocation you've got 
three levels of capital requirements for a new generation to 
get involved in a fishery. And that seems to me to be very 
burdensome.
    But where fisheries are failing and we have a couple close 
to failing--thank God we don't have any of our fisheries that 
are listed as endangered species. That's still right today, 
isn't it, Betty? (Pause.) What? Salmon, an endangered species? 
Oh, you mean down south? Don't mix us up with the Pacific now. 
We're the North Pacific, where we have the concepts. Well, the 
king crab is failing right now. And if we're not careful, it 
will become an endangered species. And it's the crab industry 
themselves that are coming forward with an IFQ plan or a co-op 
plan, I don't know which. But I do think that it's incumbent 
upon the people in the fishery, without regard to whether 
you're historical or not, to protect the species. And I don't 
see blocking out any mechanism to save the species, including 
IFQs. But I think that they ought to be the last resort. But we 
may be at the last resort as far as king crab are concerned.
    I appreciate all your points of view. I just wish I'd hear 
a little bit more about protecting the species rather than 
protecting the heritage of the fisherman. Thank you.
    Senator Snowe. Thank you, Senator Stevens. And we want to 
thank all of you very much for being here today and expressing 
your points of view. Thank you.
    We'll now proceed to the third panel. I'd like to welcome 
Frank Mirarchi, a commercial fisherman and vessel owner; Dr. 
Brian Rothschild, Director of the University of Massachusetts 
for Marine Science and Technology; Dr. Patrick Sullivan, a 
professor in the Department of Natural Resources at Cornell 
University; and Ms. Marjorie Mooney-Seus, manager of the 
conservation department for the New England Aquarium. We 
welcome all of you here today. I would like to remind our 
witnesses to please limit your testimony to five minutes.
    Mr. Mirarchi, we will begin with you.

                 STATEMENT OF FRANK MIRARCHI, 
             COMMERCIAL FISHERMAN AND VESSEL OWNER

    Mr. Mirarchi. Thank you, Senator. Good afternoon, Senators. 
My name is Frank Mirarchi. I'm a commercial fisherman from 
Scituate, Massachusetts. And the primary focus of my discussion 
today will be cooperative research. I personally got into the 
business during the early 1990's to supplement declining fish 
income. My first job in cooperative research turned out to be 
one that had fisheries relevance working with discard 
mortality, calculations, working with researchers from the 
Massachusetts Division of Marine Fisheries and New England 
Aquarium. That work grew into environmental monitoring. 
Primarily looking at the Boston sewer outfall and looking at 
the impacts of the potential discharge on fish habitat as well 
as the oceanographic systems.
    What I've learned from this type of work is something 
that's extremely satisfying to me, that is that fishermen have 
valuable skills beside killing fish. Fishermen are good at 
rigging, and fishermen are good at making things work. We've 
formed some wonderful partnerships in our work.
    Speaking of making things work. Fishery management I don't 
believe is working terribly well. And one of the reasons, 
Senators, that I think that fishery management is failing to 
produce the result that we would like to see is the lack of 
high-resolution near-term data on stocks and fish and gear 
interactions. Basically, I believe the following: That NMFS 
stock assessments are good, but they do not give the regional 
Fishery Management Councils enough detail. As an example, 
presently we are forced to close 600 square nautical mile 
blocks in the Gulf of Maine to protect cod, as you've heard 
from the previous panels of witnesses. These closures are 
basically stifling the life blood from fishing communities 
while cod are only present in a small fraction of the areas 
closed. One solution is to use fishing vessels, which are much 
cheaper and give a higher resolution of data and local 
knowledge to complement, but not to replace the NMFS stock 
assessments.
    Another example that I'd like to raise to you is that of 
bycatch. We must under the present dictates of the law conserve 
specific stocks. Basically what that means presently in New 
England is we must fish to the level which protects the weakest 
stock. It doesn't enable us to fulfill the mandate of maximum 
sustainable yield. A way out of this is to develop gear that's 
more selective. And a fine way to do this and one which is 
presently an ongoing process here in New England but needs to 
be strengthened is to use the fishermen's skills in conjunction 
with gear technologists from academia and from agencies who 
innovate new types of fishing gear which are more selective.
    My third example, that of fish habitat. The definition of 
gear impact on essential fish habitat is not adequate. There is 
a pattern of fishing that is not obvious in the present 
definition which just assumes that fishing takes place 
uniformly across the available grounds. This isn't so. But how 
do we determine that? And a wonderful way is to put 
instrumentation on fishing boats which gives real-time 
information on where the fishing is taking place and exactly 
where these grounds are and focuses management's attention on 
areas of high impact and also identifies areas that are 
presently left fallow in a way to integrate it into a 
comprehensive potentially protected area management system.
    These are only the examples that I've chosen to list to you 
today. There are many more, but I feel the biggest gain to be 
held, to be achieved here is the reestablishment of trust 
between scientists and fishermen. There are just a few items 
that Congress needs to do to facilitate the development of 
these processes. One you've heard about today is the 
experimental fishing permit process which is long, cumbersome 
and tedious. It needs to be expedited.
    Another is to remove impediments to cooperative research. 
Among those that have been identified are the difference in 
insurance coverages that are presently available to crews on 
fishing boats and workers on the shore side. Workers' comp 
versus the Jones Act.
    Another is the mandated safety equipment. Often times the 
safety equipment on fishing boats is intended for fishermen. 
It's not adequate to cover shore-side workers that are 
transplanted temporarily onto fishing platforms. In order to do 
this, there needs to be a funding source. You know, basically 
trying to boot strap many of these operations. And some sort of 
a loan program perhaps to provide safety equipment which is 
mandated by Coast Guard safety regulations will be extremely 
helpful.
    One way to get at this is to look at a long-term funding 
program. Emergency aid linkage is a fine start, but I don't 
think it's the final solution. I look at that evolving 
eventually into a subsidy. I don't really think subsidization 
is an appropriate way to conduct sustainable fisheries. I look 
at good conservation as a good business decision. I look to the 
future after this initial stage is complete at a cooperative 
research program that runs off incentives such as tax credit or 
tax-deferred funds. I look at point-of-service fees to fund 
programs like domestic observers.
    And finally I would advocate the opportunity to allow--
fishermen are becoming more directed working partners in the 
venture of developing and rebuilding sustainable fisheries. And 
I look to this final link at the development of a rights-based 
system which touches on your issue earlier of lifting of the 
ITQ moratorium. Rights-based fishing is not necessarily totally 
ITQs, but it does give fishermen property rights delivering 
resources, which basically I see as an extricable component--an 
inextricable component--excuse me--of a management system that 
rewards conservation.
    So for that reason, I would advocate that the Congress 
consider lifting the restriction on ITQs and giving the option 
of imposing programs to the local decision-making authorities 
of the regional fishermen and fisheries management Councils. 
Thank you.
    [The prepared statement of Mr. Mirarchi follows:]

                 Prepared Statement of Frank Mirarchi, 
                 Commercial Fisherman and Vessel Owner

    Good morning Madame Chairman, Senators, and Committee Staff. My 
name is Frank Mirarchi. I am a commercial fisherman from Massachusetts. 
My son Andrew and I operate a 62 ft. dragger out of Scituate.
    I have fished for 37 years. Andrew has virtually grown to adulthood 
aboard our boat. Today he is an invaluable partner in a family 
business. His is the face of tomorrow's fisherman.
    My town, as are most small New England ports, is dominated by such 
family centered fishing businesses. Two generation boats are 
commonplace.
    It is now nearly 25 years since Congress declared an EEZ in our 
coastal waters. I clearly recall the excitement and sense of 
opportunity which prevailed in those days.
    Unfortunately as I speak before you today I must report that the 
opportunity remains largely unfulfilled. We built new boats, adopted 
new technologies, and supplied new markets. Unfortunately, as a nation, 
we're heedless of the finite and fragile nature of marine resources, 
ecosystems, and habitats. We practiced the philosophical error 
articulated by Thomas Huxley in the late 19th Century--the sea is so 
vast our boats are so small therefore our fisheries have no discernible 
impact.
    In the intervening decades unprecedented change have reshaped our 
fisheries. Open access is no longer an unchallenged right. Intricate 
rules dictate almost every facet of our activities from catches to gear 
characteristics to reporting standards. Despite this, success remains 
elusive with Congress now being asked to provide emergency financial 
aid to impacted fishermen on a regular basis.
    Does this mean that ``sustainable fishing'' is an oxymoron? After 
years of observation and reflection my answer is a resounding ``No.''
    Since the earliest application of technology to artisinal fishing 
the guiding philosophy has been ``more . . . quicker and cheaper.'' The 
cost of this premise only became apparent when biological failure 
finally resulted in economic dislocation.
    Magnuson-Stevens is forcing us to consider external costs as an 
integral part of management. This is a good thing but one which quickly 
makes us realize we simply do not have answers to many of the most 
pertinent questions. Here are some examples:
    (1) The Northeast Fisheries Science Center in Woods Hole, MA 
provides some of the best stock assessments available. Their trawl 
survey produces an index of abundance which is a reliable barometer of 
biomass.
    However, simply knowing the abundance of a stock is no longer 
sufficient information. Fishing takes place at a different spatial 
scale than survey work. Due to lack of finer resolution data we are 
compelled to close 600 square nautical mile blocks in the Gulf of Maine 
to suppress the catch of cod which may occur in only a small fraction 
of each area.
    (2) The catch of non-targeted species, known as a bycatch, used to 
be a nuisance to fishermen culling catches. Now we are recognizing that 
bycatch mortality is a significant cost of fishing.
    The development of more discrete fishing gear, known as 
conservation engineering, is in its infancy. Devices such as the 
Nordmore Grate and turtle excluders in shrimp trawls are only the first 
wave of this technology. How can we continue to improve the efficiency 
and selectivity of fishing gear?
    (3) The impact of fishing operations on fish habitat has only 
recently become an issue. How serious is the impact? If it is 
significant, is it more appropriate to modify the offending practices 
or to create protected areas where fish are unmolested? Perhaps it is 
more efficient to open areas on a rotational basis, harvesting a 
``crop'' and letting the area remain fallow until another grows.
    These are complex and vexatious questions which elude easy answers. 
Only through the combination of technology and analytical procedures 
will we be able to unravel the enigmas which still prevent fulfillment 
of the vision of the framers of Magnuson.
    It is truly ironic that a provision in an emergency assistance 
appropriation may become the catalyst which topples a quarter century 
of inertia.
    The use of fishermen and fishing boats as resources in research is 
nothing new. Oil companies often turn to fishermen as sources of 
skilled labor. Ten years ago, faced with declining catches, I began 
chartering my boat to scientists from the New England Aquarium and the 
Massachusetts Division of Marine Fisheries to obtain supplementary 
revenue.
    Today companies such as CR Environmental, Inc. of Falmouth, MA are 
regularly providing fishing boats for tasks as diverse as baseline 
monitoring at the Boston sewer outfall and debris recovery at the TWA 
Flight 800 crash site.
    I believe that the skills and knowledge of America's commercial 
fishermen represent a significant underexploited resource. I wish to be 
on record as endorsing their inclusion as collaborators in applied 
research aimed at obtaining answers to questions such as I have earlier 
identified.
    I furthermore assert that in addition to the technical skills and 
detailed knowledge which fishermen can provide there is another 
intangible but potentially valuable benefit. The schism which has 
developed between fishermen and fishery regulators and scientists must 
be healed. How tragic if fishery management degenerates into a lawyer's 
game of convoluted rules and sophisticated evasions. The bonds of trust 
can be restored in no better way than working together in the planning 
and execution of collaborative research projects.
    In closing I would like to offer some suggestions where legislative 
action could facilitate the growth of this important and overlooked 
component of sound fishery policy.
    (1) Streamline NMFS' permitting process--experimental fishery 
permits, required for nonconforming gear now require extensive reviews 
which could well be modified without significant impact.
    (2) Develop ways to overcome regulatory impediments--issues such as 
workplace safety standards and availability of insurance coverage must 
be considered. An example is a loan program to enable purchase of 
additional safety and survival equipment.
    (3) Develop a durable, long term funding mechanism. While using 
emergency assistance funding as an initial source is appropriate, the 
need for research will persist long after the current crisis passes. I 
believe applied research to be an investment which generates positive 
benefits to the nation. There needs to be debate concerning the source 
of funding as well as the development of a distribution process.
    Fish are a renewable resource. We would be rightfully indignant to 
learn that agriculture was being conducted without attention to 
practices which would compromise its sustainability. We can accept no 
less of fishing.
    Thank you for the opportunity to present my views today.

    Senator Snowe. Thank you. Dr. Rothschild.

        STATEMENT OF DR. BRIAN ROTHSCHILD, DEAN OF THE 
  GRADUATE SCHOOL AND DIRECTOR, CENTER FOR MARINE SCIENCE AND 
                   TECHNOLOGY, UNIVERSITY OF
                    MASSACHUSETTS DARTMOUTH

    Dr. Rothschild. Thank you very much for having me here, 
Madam Chairwoman, Senator Kerry, Senator Stevens. I've been 
working in fisheries, in most of the major fisheries in the 
United States for about 47 years. I'm also working on a joint 
program with the University of Alaska. And I do have my 
master's degree from the University of Maine.
    The central technical concept of the Act, overfishing, is 
difficult to define. It is difficult to use as a practical 
criterion. It should be replaced by a criterion that is simpler 
and more practical. Levels of optimal fishing should be set by 
optimization techniques that are used in many industries today. 
Multiple species catch levels and bycatch should be involved in 
the calculations. Reasonable thresholds on minimum stock 
abundance should be maintained.
    Having said that, the concept of rebuilding is also 
difficult to define and open to arbitrary interpretation. More 
easily defined targets should replace rebuilding targets. 
Maintaining optimal levels of catch, that is fishing mortality, 
would certainly replace the need for rebuilding stocks. Not all 
declines in fish stocks are the result of overfishing or the 
result of fishing. Declines in fish stocks are sometimes caused 
by environmental change in the ocean. Significant societal 
costs occur when declines in fish stocks that result from the 
environment are attributed to fishing.
    It is evident that innovations in fishery management can 
only arise through considerably intensified data collection on 
fish population abundance obtained directly from the fishing 
fleets. It is only through a very detailed analysis of day-to-
day fishing records that stock abundances can be regularly 
monitored and the power of the fishery to remove fish can be 
determined. It is only through the simultaneous monitoring of 
fish abundance and the environment that the effects of fishing 
can be separated from the effect of the environment.
    Not keeping track on a daily or weekly basis of stock 
abundance and environment is analogous to a department store 
owner who checks sales and inventory only once a year or once 
every two years.
    In order to implement research changes, it would be 
necessary to rely to a much greater degree on observations made 
directly by fishermen. In fact, such a program is required if 
we are going to collect the data that are needed to develop a 
monitoring system that has the confidence of all interested 
parties in a fishery management program. In addition, involving 
fishermen to a greater degree in the process increases the 
legitimacy of the data and the entire process.
    We can conceive of a new approach to management that 
minimizes an emphasis on the simple question of whether or not 
a stock is overfished or not, especially since the definitions 
are difficult to define. We should maintain a stock at some 
level that is reasonable for the industry and does not drop 
below some flexible floor. We think that this is the most cost-
effective approach for management.
    We also need to experiment with various combinations of 
effort and mixes of species remembering that the overfishing 
definitions relate to single species. We need to view 
management in much more flexible context. We should, in fact, 
choose an adaptive management approach where we try an approach 
and watch whether the approach is working and then make 
iterative corrections as necessary.
    We're already working on these approaches with the 
Massachusetts Fisheries Recovery Commission of which I am the 
co-chairman. The commission instituted through the legislative 
efforts of Senator Montigny and Senator Bruce Tarr has 
developed a plan involving high-resolution surveys, comparisons 
of fishing boat surveys with research boat surveys and stock 
identification. Possible sentinel or experimental fisheries 
will be implemented by the Massachusetts Division of Marine 
Fisheries and the University of Massachusetts Graduate School 
of Marine Sciences Technology, and we've begun to issue 
prototype forecasts of the ocean environment through NASA 
funding which we're working on jointly with the University of 
Alaska. Funding for the fishermen to cooperate in this program 
is facilitated to a great degree by Senator Kerry.
    Another example of cooperative management that has produced 
spectacular results is working together with the scallop 
industry in New Bedford and the National Marine Fisheries 
Service with some support from NASA to survey the scallop 
areas. Very briefly, this will result in $100 million of new 
product in two years pushing New Bedford into probably the 
number one economic fishing city in the U.S.
    To sum up, in my view it is time to retool the Magnuson-
Stevens Act to put in perspective the issue of overfishing. We 
have to realize that the definition of ``overfishing'' is 
really very soft. Rather we should develop alternative 
management criteria of keeping the stock above some flexible 
threshold level. Cooperative research would, in fact, be 
necessary to maintain the appropriate data stream. At the end 
of the day, this would be much more cost effective than the 
present method, particularly with fuller use of computers and 
the information superhighway. We need to put in place a task 
force to work out the details of the innovations. The task 
force should draw heavily on the expertise of the fisheries 
service and academia and, of course, the fishermen. Thank you.
    [The prepared statement of Dr. Rothschild follows:]

Prepared Statement of Dr. Brian Rothschild, Dean of the Graduate School 
 and Director, Center for Marine Science and Technology, University of 
                        Massachusetts Dartmouth

    My name is Brian J. Rothschild. I am the Dean of the Graduate 
School of Marine Sciences and Technology, University of Massachusetts 
System and the Director of the Center for Marine Science and 
Technology, University of Massachusetts Dartmouth. I have been working 
in fisheries for 47 years. I have been involved in fishery research and 
management of most of the major fisheries in the U.S.
    I am pleased to provide you with recommendations to change the 
Magnuson-Stevens Act, including cooperative research and science 
issues.
    Any recommendations for changing the Magnuson-Stevens Act depends 
on a) whether or not the Nation is realizing the full potential of its 
fishery resources, and b) the extent to which any shortfalls in 
performance results from the language of the Act itself, its 
interpretation via guidelines, or its implementation by DOC.
    It seems fair to say that the Act is not perceived as its achieving 
its intended goal.
    Addressing the perceptions involves a wide range of issues, many of 
which are complex. However, a key issue involves science and 
cooperative research. My theme is that

  <bullet> The central technical concept in the Act, ``overfishing'' is 
        difficult to define in a non-arbitrary way. It is difficult to 
        use as a practical criterion. It should be replaced by a 
        criterion that is simpler and more practical. The levels of 
        optimal fishing should be set by optimization techniques widely 
        used by many industries. Multiple species catch levels and 
        bycatch should be optimized, and reasonable thresholds on 
        minimum stock abundance should be maintained.

  <bullet> The concept of rebuilding is logically difficult to define 
        and also open to arbitrary interpretation. More easily defined 
        and practical targets should replace it. Maintaining optimal 
        levels of catch (i.e., fishing mortality) suppresses the need 
        for rebuilding stocks.

  <bullet> Not all declines in fish stocks are the result of fishing. 
        Declines in fish stocks are sometimes caused by environmental 
        changes in the ocean. Significant societal costs occur when 
        declines in fish stocks that result from the environment are 
        attributed to fishing.

  <bullet> Innovations in management approaches are necessary to 
        develop non-arbitrary and participatory management measures. It 
        is not to the fishermen's advantage to keep stocks at minimal 
        levels.

  <bullet> It is evident that the necessary innovations in fishery 
        management can only arise through considerably intensified data 
        collection on fish-population-abundance obtained directly from 
        the fishing fleet. It is only through very detailed analysis of 
        day-to-day fishing records that stock abundances can be 
        regularly monitored and the power of the fishery to remove fish 
        is determined.

  <bullet> It is only through the simultaneous monitoring of fish 
        abundance and the environment that the effects of fishing can 
        be separated with the effects of the environment. Not keeping 
        track on a daily or weekly basis of stock abundance and the 
        environment is analogous to a department store owner who checks 
        sales and inventory only once a year or once every two years 
        and ignores consumer preferences.

  <bullet> In order to implement these research changes, it will be 
        necessary to rely to a much greater degree on observations made 
        directly by fishermen. In fact, such a program is required if 
        we are going to collect the data that are needed to develop a 
        monitoring system that has the confidence of all interested 
        parties in fishery management. In addition, involving to a 
        greater degree fishermen in the process increases the 
        legitimacy of the data and entire process.

    To highlight these points, consider the definition of biological 
overfishing in the technical literature. In this literature there are 
three different definitions of overfishing: production overfishing, 
stock overfishing, and recruitment overfishing. The definitions are 
different. They are reasonable theoretical concepts, but they are 
generally not supported by actual data--that is to say there is 
considerable variability between the actual data and theoretical 
predictions. Furthermore, the technical theories upon which definitions 
of overfishing are built are really single-species theories. This means 
that a non-overfishing definition for one species may necessitate 
overfishing another species.
    It is interesting to observe as well that only one of these 
theories--within reasonable bounds--has a general conservation impact. 
This is the recruitment overfishing theory. But this is the aspect of 
overfishing that is least known and the most difficult to understand. 
The theory of recruitment is by far the least understood aspect of 
fisheries science and still the subject of intense research around the 
world.
    All of this leads, of course, to the fact that if we are unclear as 
to the precise definition and application of overfishing then its use 
creates the perception of faulty management. (In fact, in some cases 
because it is not known whether or not a stock is overfished, proxies 
are developed in the guidelines to determine whether a stock is 
overfished.) An analysis by FAO of all fish stocks under its 
jurisdiction as to whether they were overfished or not led to 
considerable controversy because the definitions were not clear. All of 
this leads, of course, to the fact that if we are unclear about our 
definition of overfishing, then how can we be clear about rebuilding 
stocks or even imputing that stocks may be overfished in the near 
future.
    So, it should be clear that whether or not a stock is declared to 
be overfished is not a clearly honed concept. It is, in general, more 
or less an art that is subject to a tremendous scope of interpretation. 
Because there is such a wide scope of interpretation, the issues become 
contentious and this leads to the perception that stocks are not 
managed in the best possible way. It really places scientists in the 
unfortunate and counterproductive position of declaring whether or not 
a stock is overfished while it is really the councils and the managers 
who need to and are better prepared to make these decisions.
    Absent of guidelines developed by SOC on theoretical concepts that 
are shaky when put into practice, how would we know whether or not a 
stock is overfished--how would we know how to rebuild a stock--how 
would we know whether or not to take draconian measures limiting catch 
and how would we know how to fine-tune effort limitations regarding 
plus or minus a small number of days that would have a big impact; how 
would we know that in fact we were addressing the right problem? In 
other words, a decline in stock abundance could as easily relate not to 
fishing or overfishing but to degradation of the nursery habitat, or to 
natural changes. In fact, a decline in a stock might very well be the 
consequence of a management regulation that protects one species at the 
expense of another. The relation of dogfish and groundfish in New 
England and the mid-Atlantic are good examples. So is the relation 
between herring/mackerel and groundfish.
    All of this may sound like ``because we don't know, let's do 
nothing.'' It may also sound like ``fishing has minimal or no effects 
on the stock.'' Neither of these assertions is intended. Rather, we 
hope to move away from over-simplified criteria and take into account, 
much more intensively, data from actual fishing operations.
    As suggested above, it is possible to conceive of a new approach to 
management where we would minimize an emphasis on whether or not a 
stock is overfished or not especially since the definitions are 
difficult and attempt to maintain a stock at some level that is 
reasonable for the industry and does not drop below some flexible 
floor. We also need to experiment with various combinations of effort 
and mixes of species. We need to view management in a much more 
flexible context. We should, in fact, use an adaptive management 
approach where we try an approach and watch whether the approach is 
working and then make iterative corrections as necessary.
    How would such an approach be implemented? It is necessary to begin 
to think that we need a much more intensive virtually real-time 
monitoring of the stocks and the catch and the ocean environment. We 
have to rely to a much greater extent on the fishing fleet to provide 
data on the status of the stocks and the condition of the ocean 
environment.
    This is where we need to revise our ideas on implementation. We 
need to rely to a much greater degree on cooperative research and 
sampling of the catch. This implies that for most fishing trips the 
fishermen would be responsible for filling out detailed logs that 
indicate the abundance of fish and the condition of the ocean 
environment; that the catches would be sampled at dockside and the logs 
collected; that the research establishment would place the highest 
priority on the analysis and quick turn around of information; and that 
the management team would warn if the stock exceeded bounds.
    To some extent, these ideas may seem almost heretical, however, 
they are bound to meet with success. Not only will they provide better 
information, both the fishing and conservation groups will be more 
agreeable with the information because they will have participated in 
the process.
    We are already working on involving fishermen in data collection. 
The Massachusetts Fisheries Recovery Commission, instituted through the 
legislative efforts of Senators Mark Montigny and Bruce Tarr, has 
developed a plan involving high-resolution surveys, comparisons of 
fishing boat efficiency with research boat efficiency, and stock 
identification. Possible sentinel fisheries is being implemented by the 
Massachusetts Division of Fish and Game and the University of 
Massachusetts Graduate School of Marine Sciences and Technology 
(CMAST), and we have begun to issue prototype forecasts of the ocean 
environment through NASA funding. Funding for the fishermen to 
cooperate on this program has been facilitated by Senator Kerry.
    Another example of cooperative management that has produced 
spectacular results is that we worked together with the scallop 
industry in New Bedford, NMFS, and VIMS, with some support from NASA, 
to survey the scallop areas in the closed portion of Georges Bank. Our 
work and the help of Senator Kennedy and Congressman Frank resulted in 
$35 million ex-vessel in scallops last year and probably $70 million 
this year!
    To sum up, in my view it is time to retool the Magnuson-Stevens Act 
to put in perspective the issue of overfishing. We have to realize that 
the definition of overfishing is really very soft. Rather, we should 
develop alternative management criteria of keeping the stock above some 
flexible threshold level. Cooperative research would, in fact, be 
necessary to maintain the appropriate data stream. At the end of the 
day, this would be much more cost effective than the present method, 
particularly with fuller use of computers and the information super 
highway. We need to put in place a task force to work out the details 
of the innovations. This task force should draw upon the expertise of 
NMFS and academia.

    Senator Snowe. Thank you, Dr. Rothschild.
    Dr. Sullivan.

         STATEMENT OF DR. PATRICK SULLIVAN, PROFESSOR, 
           DEPARTMENT OF NATURAL RESOURCES, CORNELL 
                           UNIVERSITY

    Dr. Sullivan. Thank you, Madam Chair and Committee members. 
My name is Pat Sullivan, and I'm on the faculty, department of 
natural resources at Cornell University. And I've been there 
for about a year and a half. Prior to that, I spent 10 years as 
a population dynamist with the International Pacific Halibut 
Commission. At that time I was on the statistical and 
scientific committee for the Pacific Fisheries Management 
Council. And currently I'm serving on the same committee for 
the New England Fishery Management Council.
    You have my written statement. And I brought a supplemental 
material. This handbook put out by the Heinz Center called 
``Reauthorization of the Magnuson-Stevens Fishery Conservation 
and Management Act.'' And you probably are already aware of it, 
but I thought I'd bring it to your attention. Again, I thought 
it was very good.
    Reauthorization of the Magnuson-Stevens Fisheries 
Conservation Act----
    Senator Stevens. And who put it out?
    Dr. Sullivan. John Heinz Center. So I would like to 
summarize my statement today by relating to you a story. It's a 
story about my 12-year-old son who collects Pokemon cards. My 
son and his friends were playing this game the other night 
which is made up of these mythical monsters with special powers 
that can combat one another. And I noticed they were doing 
something different. They were rolling dice to see who would go 
first to determine the power of the Pokemon card and who would 
get to go first. You see, each boy has his own set of cards, 
and so if they each play the game according to the conventional 
rules, the same boy would win each time as determined by the 
cards he owns. By adding this little bit of chance, it made it 
less clear who would win and thus made the game more 
interesting and challenging.
    Obviously, the strategies in a game of chance are different 
than a game where the outcome is determined. I guess the idea 
in telling you this story is to convey to you a point that 
fishing and fisheries management are games of chance. The 
system is complex, and there's a lot at stake. My impression is 
that we are playing this game under conventional rules, not 
taking into account that the system has a random element to it, 
and should affect the strategies for playing the game.
    First, we must acknowledge that there are risks, even when 
we have good information. And second, having more information 
helps us reduce the risk, even if we cannot eliminate it. The 
conventional maximum sustainable yield, MSY theory of several 
decades ago I believe is too risky to employ by itself in this 
complex and uncertain marine environment. We need to develop 
more robust rules that take into account our uncertainty.
    Furthermore, on a positive side, I believe, both fishery 
scientists and fishermen are getting better at gathering and 
analyzing information. Furthermore, the information they are 
gathering is from different perspectives reflecting differences 
in scale, experience and objectives. Unfortunately, these 
differences have led to problems in communication between these 
two groups. But one should recognize that these reflect 
actually complementary data sources that if pooled could lead 
to greater understanding of our fisheries and of the ecosystem. 
I think the benefit to the Nation would be great if fishermen 
and scientists could learn to better communicate and share this 
information. Thank you.
    [The prepared statement of Dr. Sullivan follows:]

        Prepared Statement of Dr. Patrick Sullivan, Professor, 
          Department of Natural Resources, Cornell University

    Our marine ecosystems are complex and dynamic. They represent an 
important source of food, commerce, recreation, scientific inspiration, 
and culture. What we don't often realize when we attempt to manage 
these systems is that they are quite variable and not readily subject 
to hard and fast rules of oversight. The conventional maximum 
sustainable yield (MSY) theory of several decades ago is too risky to 
employ in this uncertain environment. It was developed with the concept 
of optimal production in a controlled setting. The control we exercise 
in the marine environment is by no means complete. There is an element 
of chance present not only in how populations change from year to year, 
but also in how we track and interact with those changes. We should try 
to understand, first and foremost, that there will always be risk in 
decision-making in fisheries, even when the best available information 
is used. But we should also recognize that increasing the information 
we have at hand for decision-making reduces our risk. We must develop 
more robust management objectives that take into account this 
uncertainty. And we need to adjust our expectations to recognize the 
multiple uses that are being made of these resources. What is positive 
for decision makers and stakeholders is that both fisheries scientists 
and fishermen are getting better at gathering and analyzing information 
about marine ecosystems. What is interesting, but often goes unnoticed, 
is that the information fishermen and scientists each gather reflects 
differences in perspective, in scale, in experience, and in value. And 
while these differences have led to problems in communication between 
scientists and fishermen, to the consternation of many managers, one 
should recognize that complementary sources of information are 
reflected in these perspectives and if combined could lead to a greater 
understanding of our fisheries and of marine ecosystems in general. I 
think the benefit to the nation would be great if fishermen and 
scientists could learn to better communicate and share this valuable 
information.
    How might this be brought about? I think a dialogue needs to take 
place between stakeholders, fishermen in particular, and fisheries and 
marine scientists. The dialogue needs to take place in a neutral 
setting and outside of the contentious arena surrounding quota setting. 
In this regard the handbook ``Reauthorizing the Magnuson-Stevens 
Fishery Conservation and Management Act'' produced by the H. John Heinz 
III Center under a program managed by Dr. Susan Hanna from Oregon State 
University provides a starting point and identifies the set of relevant 
issues and questions needed for such a dialogue to take place. I've 
included this document as part of my supplemental materials.*
---------------------------------------------------------------------------
    *The information referred to has been retained in the Subcommittee 
files.
---------------------------------------------------------------------------
    A lot has been made out of the idea of fishermen collecting data in 
collaboration with scientists. I have had some good experiences 
collaborating with fishermen while working with the International 
Pacific Halibut Commission on board longline fishing vessels chartered 
for halibut survey work. Such collaborations facilitated data gathering 
at reduced costs to the IPHC, which owns no survey vessels, and also 
provided a venue for fishermen and scientists like myself to share 
ideas and gain perspective from one another. I think such associations 
should be promoted when possible, but it also should be recognized that 
not all data can be collected in this fashion. Longline fishing effort 
tends to be gear specific and so can be controlled from vessel to 
vessel, whereas trawling effort used to assess many fisheries is a 
function not only of gear, but of towing speed, engine capacity, and 
vessel size, making vessel-to-vessel standardization difficult. This is 
why it is appropriate for the National Marine Fisheries Service (NMFS) 
to use their own research vessels for standardized trawl surveys for 
fish stock assessments in the Pacific and the Atlantic. Nevertheless, 
there still remains many opportunities for collaborative research 
including having fishermen on board NMFS survey vessels, having NMFS 
and other marine scientists on board commercial and recreational 
fishing vessels, and encouraging the development of special 
collaborative projects designed to test assumptions upon which stock 
assessment procedures are built. In particular, harvest data from 
commercial and recreational fishermen may be highly informative 
provided trust can be maintained between fishermen and the management 
agency and provided a high level of quality control is established. 
Technological innovations such as computerized logbooks, satellite 
vessel monitoring systems, and acoustic data collection are all likely 
to improve the precision and accuracy of data gathered by fishing 
vessels, and it would be a shame not to anticipate and make use of 
this.
    In conclusion let me stress that there are a number of issues that 
I have not been able to touch upon here that need to be addressed 
during reauthorization including: problems associated with overfishing, 
capacity reduction, and bycatch; the usefulness of individual vessel 
quotas for some fisheries; and the need for social and economic data to 
improve fisheries management. For a good overview of these issues 
please refer to the recent marine fisheries reviews conducted by the 
National Research Council (NRC 1998a, 1998b, 1999a, 1999b). The 
greatest need, in my opinion, is for good information and the ability 
to make wise use of it. Good communication among all parties is 
essential to this goal.

  National Research Council. 1998a. Improving Fish Stock Assessments. 
        National Academy Press, Washington, D.C.
  National Research Council. 1998b. Review of Northeast Fishery Stock 
        Assessments. National Academy Press, Washington, D.C.
  National Research Council. 1999a. Sustaining Marine Fisheries. 
        National Academy Press, Washington, D.C.
  National Research Council. 1999b. Sharing the Fish: Toward a National 
        Policy on Individual Fishing Quotas. National Academy Press, 
        Washington, D.C.

    Senator Snowe. Thank you very much, Dr. Sullivan.
    Ms. Mooney-Seus.

   STATEMENT OF MARJORIE MOONEY-SEUS, MANAGER, CONSERVATION 
                DEPARTMENT, NEW ENGLAND AQUARIUM

    Ms. Mooney-Seus. Good afternoon, Madame Chairwoman, Senator 
Kerry and Senator Stevens. My name is Marjorie Mooney-Seus. I 
manage the conservation department at the New England Aquarium. 
And I'm going to try to summarize my remarks to keep them 
short.
    Thank you for the opportunity to testify today on the 
reauthorization of the Magnuson-Stevens Fishery Conservation 
and Management Act. I want to point out that with the passage 
of the Sustainable Fisheries Act three and a half or almost 
four years ago, I think it laid the groundwork toward ecosystem 
management, particularly with two mandates, the essential fish 
habitat mandate, and the efforts to reduce bycatch. And we 
ought to recognize that the road to ecosystem management is a 
long-term commitment and a long-term process. So we need to 
view the Magnuson-Stevens Act as a work in progress. And I do 
think over the last several years there has been some progress. 
One example, in particular, is with respect to the essential 
fish habitat designations. This represents a comprehensive 
attempt to look at things other than just fishing, to look at 
things like non-point and point-source pollution and to 
consider those things with respect to the health of fish 
stocks.
    I know there's been criticism that the designations are 
fairly broad and having served as a technical advisor to the 
habitat committee for the New England Fishery Management 
Council for the past two and a half years, I've looked at the 
data. And we just don't have the level of information that we 
need to determine what are really critical areas to maintain 
healthy fish stocks at this stage of the game. As a result, 
having broad designations makes sense initially, and then over 
the long-term making efforts to refine those designations is 
the prudent course of action.
    Another strength of the essential fish habitat component of 
Magnuson is the consultation process, specifically section 
305(B)(2). This is a key component of EFH because it promotes 
open exchange of information between Federal agencies about 
activities that could affect fish habitat. There really isn't 
any other mechanism in place to promote this open dialogue.
    In moving forward with reauthorization, there are some 
things that we certainly could do to improve the Act, although 
I don't think it needs substantial overhauling. There needs to 
be a clear mandate from Congress to the National Marine 
Fisheries Service and to the Councils to continue to refine 
essential fish habitat designations. In particular, to start to 
define habitat areas of particular concern. And at least we 
need to maintain the integrity, if not strengthen, section 
305(B)(2), the consultation process.
    In the area of bycatch reduction, renewed regulatory 
language should be adopted to provide incentives for fishermen 
to avoid bycatch.
    And most importantly, we need to promote collaborative 
research. That's going to allow us to do a lot of things: 
gather important information that we need to begin mapping and 
refining essential fish habitat; determine the amount, the type 
and the disposition of the bycatch and the bycatch mortality in 
various fisheries; address bycatch through gear modification 
and changing fishing methodology; and conduct long-term 
monitoring programs to assess the health of ecosystem.
    Fishermen can clearly be able partners in this process. 
They know how to fish. They know where to fish. They know a lot 
about species co-occurrence, and they've been real innovators 
in a number of fisheries at reducing bycatch.
    Toward this end, I think in section 2(A)(8), language 
should be added to recognize the value of partnering with 
various stakeholders to conduct collaborative research. In 
section 404(B) language should be modified to make it clear 
that stakeholders should be involved in the strategic planning 
process for research. If they're involved in the strategic 
planning process, they're more likely to support monitoring 
programs, and ultimately the management measures that are put 
in place.
    The New England Fishery Management Council's research 
steering committee, has taken a really positive step toward 
strategic planning in defining some priority areas for 
research. In moving forward, we need guidance from Congress to 
encourage the Council and others to look at ecosystem questions 
and make that a high priority.
    We need, again, Federal investment in collaborative 
research and long-term monitoring and in institutions that 
promote collaborative research. The Canadian Sentinel Fisheries 
model is a great model that you've heard a little bit about 
where fishermen are actually involved in fishery-dependent 
surveys and they collect data. And, that data is actually used 
in stock assessments.
    We also must ensure that there's adequate funding for 
enabling technologies like vessel monitoring systems for real-
time reporting and for upgrading vessel monitoring systems data 
management capabilities.
    Along with research, we need to make sure that there are 
complimentary management directives, so I think we should add 
language to section 305 calling for the establishment of 
ecosystem management plans.
    Two last points. We need to complement collaborative 
research with a Federal observer program. And last, we must 
work more closely with our neighbor countries, Mexico and 
Canada, to share information, possibly conduct joint stock 
assessments and start to look at how we can manage shared 
resources more effectively.
    The New England Fishery Management Council has done 
something exciting. They've laid the groundwork for that in the 
future. They are looking at developing a frame of reference for 
three principle groundfish stocks. This type of effort should 
be encouraged to better manage and conduct research on trans-
boundary and highly migratory fish species. Thank you.
    [The prepared statement of Ms. Mooney-Seus follows:]

         Prepared Statement of Marjorie Mooney-Seus, Manager, 
             Conservation Department, New England Aquarium

    Good morning Madame Chairman and Members of the Subcommittee, my 
name is Marjorie Mooney-Seus. I am the manager of the New England 
Aquarium Conservation Department, a non-profit organization with over 
1.3 million visitors each year. Our organization is dedicated to 
promote, protect and restore the aquatic environment through education, 
conservation and research.
    The New England Aquarium like more than 80 other organizations 
across the country is a member of the Marine Fish Conservation Network 
because we support the basic premise of the Network, that it represents 
a diverse group of stakeholders working to conserve and promote the 
long-term sustainability of marine fish.
    I personally have worked closely with the fishing industry, 
government agencies, members of the academic research community and 
environmental organizations over the past several years on regional and 
international fisheries issues. I appreciate this opportunity to speak 
before you on the reauthorization of the Magnuson-Stevens Act.
    In my testimony, I will focus on what has been accomplished with 
the passage of the Sustainable Fisheries Act (SFA) in 1996 and what 
more needs to be done to strengthen future fisheries management in the 
following areas: Essential Fish Habitat designations; bycatch 
reduction; collaborative research and adoption of ecosystem-based 
principles for research and management; expanded observer coverage; and 
increased coordination among multiple jurisdictions (particularly 
between the United States and Canada). The majority of my comments will 
be made within the regional context.
    Given the significant time constraints under the law for 
implementation of SFA, limited resources, both human and financial and 
an already taxed agenda, National Marine Fisheries Service and the 
Fishery Management Councils were still able to achieve some measurable 
progress.
    The groundwork was laid for promoting a broader ecosystem-based 
approach to produce a healthy abundance and diversity of marine species 
for human and other uses. However, because this represents a 
fundamental shift in fisheries management, the Act's full impact has 
yet to be realized. It rather should be viewed as a work in progress. 
Thereby, the emphasis should be on fine tuning the Act rather than 
rewriting significant components of it.
    In particular, SFA mandates for identifying and protecting 
Essential Fish Habitat and addressing bycatch were positive steps 
toward an ecosystem approach to fisheries management. And, these are 
areas where some definitive actions were taken over the past several 
years.

Essential Fish Habitat Designations
    Approximately 75 percent of federally managed fish species spend 
some portion of their lives in estuaries and rivers. Inshore waters 
provide important areas for fish breeding, feeding and growth. However, 
these areas are subject to all manner of degradation from urban, 
residential and industrial runoff to the loss of wetlands and submerged 
vegetation. The Essential Fish Habitat (EFH) mandate represents the 
first truly comprehensive attempt to protect habitat from these and 
other sources of degradation as well as from the impact of various 
fishing gear.
    There has been some criticism over the broad scope of EFH 
designations. Having served as a technical advisor to the New England 
Fishery Management Council's Habitat Committee for the past two and a 
half years and seeing first hand the level of available scientific data 
and information, I believe that such broad designations, at least 
initially, are prudent. There remains much scientific uncertainty over 
exactly how much habitat is necessary to support healthy fish 
populations. Until such time as additional information and data can be 
collected from existing and new sources such broad designations are 
warranted. Again, it is important to view this mandate as a first step 
in a multi-staged process. Through additional collaborative research 
and a further consolidation of existing data and information from 
various federal, state and other sources, these designations can be 
refined and their value enhanced.
    Another strength of the EFH mandate lies in its ``Consultation 
Process.'' Having spent the better part of the past six years working 
to bring together fishermen, scientists, fishery managers and 
environmentalists to identify common ground on fisheries related 
management and science issues, I recognize the value of ongoing and 
open communication.
    The requirement under Section 305(b)(2) is that a Federal agency 
``shall consult with the Secretary with respect to any action 
authorized, funded or undertaken, or proposed to be authorized, funded 
or undertaken by such agency that may adversely affect any essential 
fish habitat identified under this Act.''
    This provides a formal channel for more open agency dialogue and a 
foundation to address cross-sectoral effects on water resources. In 
order to manage fish species, which don't respect human societal 
boundaries, it is imperative that we consider the broader picture 
beyond just regulating fishing activities. There really isn't any other 
mechanism in place to evaluate the impact of various projects on fish 
habitat. Existing environmental review procedures available through the 
Clean Water Act and the National Environmental Policy Act (NEPA) 
examine the impact of proposed projects on the environment generally 
and on the human environment, respectively.
    What is needed in order to move forward is a clear mandate for the 
National Marine Fisheries Service and the Councils to continue to 
refine habitat designations with a high priority placed on the 
development of Areas of Particular Concern. Further refinement of EFH 
designations and development of habitat protection measures also 
require investment in collaborative research and mapping, shared 
information and a common vision, and a long-term monitoring program.
    In addition, it is imperative that the integrity of Section 
305(b)(2) of the Magnuson-Stevens Act be maintained, if not 
strengthened, to promote increased communication among federal agencies 
over activities that may impact fish habitat.

Fisheries Bycatch and Discards
    While results have not been as significant in the area of bycatch 
reduction as they were in identifying EFH, there have been some modest 
accomplishments since the passage of SFA.
    Bycatch, particularly in multispecies fisheries as we have in the 
northeast, for years was regarded as a normal course of doing business. 
In some cases, fishermen following a natural desire to maximize the 
value of their catch, discard less valuable fish. In other cases, the 
discards are regulatory. Bycatch discards are simply an economic and 
ecological externality. However, with dwindling commercial fish stocks 
and concern over endangered species, the need to curtail bycatch and 
discards has significantly increased. Bycatch and discards not only 
affect vulnerable species such as seabirds and marine mammals, but also 
other commercial fisheries for which the bycatch is their primary 
target.
    National Standard 9 states that ``Conservation and management 
measures shall, to the extent practicable, (A) minimize bycatch and (B) 
to the extent bycatch cannot be avoided, minimize the mortality of such 
bycatch.''
    In New England while there is clearly a need for more comprehensive 
evaluation and minimization of the region's bycatch, some positive 
steps have been taken to reduce bycatch and/or minimize bycatch 
mortality. The region already mandates the use of a bycatch reduction 
device in its northern shrimp fishery and has measures to keep 
groundfish bycatch in other fisheries under five percent. Most 
recently, with the reopening of a section of one of the groundfish 
closed areas for scallop fishing, strict bycatch quotas were put in 
place for yellowtail flounder and monitored with the help of a vessel 
monitoring system (VMS). Once the yellowtail bycatch quota was reached, 
the scallop fishery in this area was effectively shut down.
    Further progress can be made in addressing bycatch by enlisting 
more support from fishermen. The fishing industry has proven time and 
time again that it can be innovative when it comes to finding 
technological solutions or alternative fishing methods to deal with 
bycatch. In the North Pacific longline fishermen took the initiative to 
reduce seabird mortality prior to the implementation of bycatch 
management measures. Similarly, fishermen led the charge to address 
problems of dolphin mortality in Eastern Tropical Pacific tuna 
fisheries and to reduce harbor porpoise entanglement in gillnets and 
shrimp fishery bycatch in the North Atlantic.
    Towards this end, there needs to be a stronger legislative mandate 
to more actively engage fishermen in research and research project 
design--drawing on the fisherman's expertise and daily knowledge of 
aquatic resources and species co-occurrence in the marine ecosystem--to 
find further efforts to minimize bycatch and associated discards.
    While existing regulatory measures provide some incentive for 
fishermen to address bycatch, they also serve to stymie ingenuity 
within the fishing industry to more effectively curtail this needless 
waste.
    To help overcome this impediment, additional language needs to be 
added to Section 303(a), Required Provisions for Fishery Management 
Plans that encourages the adoption of conservation and management 
measures which provide catch incentives for fishermen to engage in 
fishing practices that avoid bycatch or result in lower levels of 
mortality of bycatch that cannot be avoided.
    Congress also needs to ensure that there are adequate 
appropriations to support improved data collection and observer 
coverage if we are to determine the amount, type and disposition of 
bycatch and bycatch mortality in various fisheries, as well as support 
innovations in gear technology.

Collaborative Research and Strategic Planning within the Ecosystem 
        Context
    There are obvious advantages to increasing stakeholder involvement 
in data collection efforts. Both available resources and the scope of 
existing survey programs can be expanded. For example, while the fish 
component of marine ecosystems is monitored routinely for many stocks 
and in most regions--through programs like the standardized trawl 
surveys that have been implemented off of the northeast coast of the 
United States since 1963--some fish stocks are virtually unsampled by 
the current survey program. The trawl survey is further limited in its 
scope because it does not effectively capture inshore waters. In other 
regions, fish stocks are only surveyed every third year.
    Section 2(a)(8) of the Magnuson-Stevens Act which states, ``the 
collection of reliable data is essential to the effective conservation, 
management, and scientific understanding of the fishery resources of 
the United States,'' should be modified to recognize the value of 
partnering with various organizations such as the fishing industry, 
academic community, state agencies and other organizations to collect 
scientific data and information.
    Another suggested change to the Act would address the need for 
including stakeholders in the research strategic planning process. The 
rationale for this being that this would increase stakeholder 
commitment to more long-term monitoring programs. Long-term monitoring 
programs are essential to the success of fisheries management, 
particularly if we are to discern the effects of fishery policies from 
those due to other factors.
    Section 404(b) of the Magnuson-Stevens Act requires that the 
Secretary ``shall develop . . . a strategic plan for fisheries research 
. . . indicate goals and timetables . . . provide a role for commercial 
fishermen in such research . . . and provide for collection and 
dissemination in a timely manner . . . and provide for coordination 
with affected States and other research entities.''
    Section 404(b) should be modified to specify that both industry and 
other stakeholders be involved in the development of strategic plans 
for collaborative research. If stakeholders are more fully vested in 
the development of the research strategic plan and actively involved in 
the execution of this plan, they are more likely to support its 
results.
    The New England Fishery Management Council through its Research 
Steering Committee (RSC) has taken the first big step in helping to 
satisfy this mandate at the regional level by developing a broad list 
of priorities for cooperative research. What is needed now is for 
Congress to provide guidance to fishery management councils so that 
when they engage in designing collaborative research programs, 
addressing ecosystem questions are given a high priority. There also 
must be a long-term commitment to funding of collaborative research and 
investment in new institutions for collaborative data gathering such as 
the Canadian Sentinel Fisheries model, whereby fishermen are regularly 
engaged in fishery dependent surveys and the data is then integrated 
into annual stock assessments. There also must be long-term investment 
to ensure universal application of enabling technologies such as VMS 
and upgrading of the VMS data management capability regionally. 
Ultimately, this would lead to a more comprehensive research program 
with established ecological and governance underpinnings for ecosystem-
based management.
    At the end of Section 305 language should be added calling for the 
development of Fisheries Ecosystem Plans. Included in the plans should 
be information on the structure and function of ecosystems, including 
the geographic extent of the ecosystem and its biological, physical and 
chemical dynamics; a description of the significant food web including 
key predator-prey relationships and the habitat needs of different life 
stages of species that make up the significant food web, indices of 
ecosystem health and integrity; and an outline for a long-term 
monitoring program to evaluate fishery-dependent and fishery 
independent changes in the ecosystem.
    Complimentary management directives also are needed within the Act. 
Specifically, language should be added to Section 2(b) emphasizing the 
importance of considering the precautionary approach in management 
decisions when the effects of fishing are unknown in order to maintain 
ecosystem health and sustainability. Also, in Section 2(c)(3) new 
language should emphasize the need for incorporating and applying 
ecosystem principles and considering how fishing affects predator-prey 
relationships within marine ecosystems, trophic structure, age class 
structure within stocks, and biological functions such as spawning.
    As early as 1871, the value of understanding ecosystem dynamics was 
recognized, when the first appointed Commissioner of the U.S. 
Commission of Fish and Fisheries, Spencer Baird stated, ``our 
understanding of fish . . . would not be complete without a thorough 
knowledge of their associates in the sea, especially of such as prey 
upon them or constitute their food.'' As we move into the new 
millennium and we struggle with how better to manage overtaxed fish 
stocks, it is time we took heed of these words.

Federal Observer Program
    To complement collaborative research programs, a national observer 
program also should be established to monitor and collect statistically 
significant and reliable data about bycatch and discards, landings, 
impacts on essential fish habitat, and other relevant ecosystem 
information. Specifically, language should be added to Section 2(a)(6) 
of the Magnuson-Stevens Act calling for establishment of such a 
program.

Multilateral Coordination
    In considering the reauthorization of the Magnuson-Stevens Act the 
means for promoting greater coordination of legislative and 
institutional responsibilities across jurisdictions should be 
encouraged. We need an ``institutional'' and a ``legislative'' ecology 
which more closely parallel the natural ecology to more effectively 
manage fish resources.
    Therefore, it is important that there be complementary approaches 
in data collection, stock assessment and management of fish both at the 
state and federal level and at the international level. In the 
northeast, there should be increased coordination between the United 
States and Canada. The NMFS and New England Fishery Management Council 
have already taken some positive steps to informally develop a 
management frame of reference between the United States and Canada for 
three principal groundfish stocks, cod, yellowtail flounder and 
haddock. Such action should be commended and further encouraged by 
Congress for more effectively studying and managing transboundary and 
highly migratory fish stocks.
    At the New England Aquarium we have long recognized the value of 
such cross-sectoral collaborations, having conducted a number of 
workshops to promote information exchange among various jurisdictions. 
Currently, we are undertaking a collaborative research project with the 
lobster fishing industry and various government agencies in three 
states to apply a model developed by the Canadians for gathering stock 
assessment information. The hope is that this will enable us to take 
some serious steps towards better understanding the North American 
lobster's distribution in the Gulf of Maine.
    In closing, I believe that the reauthorization of the Magnuson-
Stevens Fishery Conservation and Management Act provides real 
opportunity for greater stakeholder involvement in strategic planning 
and collaborative research. This will contribute to a fuller 
understanding of the marine ecosystem, providing a foundation for 
ecosystem-based management and the long-term sustainability and health 
of marine resources.

    Senator Snowe. Thank you. Thank you all very much.
    Dr. Rothschild, you were mentioning that the Act has not 
really achieved its intended goal. I'd like to ask each of you 
as we focus on this reauthorization exactly, what you think 
that we should focus on in terms of improving flexibility in 
the Act. That's something we hear consistently throughout all 
the hearings that I've held across the country. Second, please 
comment on involving the fishermen in the decision-making 
process, through the cooperative research as well as in the 
ultimate decision, so that there is a better relationship and 
harmony between the decisions, the agency, and the Councils who 
make those decisions.
    Dr. Rothschild. I remember when the Act was first put in 
place, and Senator Magnuson said that at last we have a ``new 
form of government,'' a new way of managing the fisheries. 
However, all one has to do is read any of the fishery press and 
you can see that the perceptions of performance are really not 
good. It seems to me what we need to do is buildup trust in the 
fishing community, but not at the sacrifice of the conservation 
of the fish. And the way to do that is through a flexibility 
that matches what we actually know about the level of the 
resources. As I pointed out in my testimony, the concept of 
overfishing, and therefore the concept of rebuilding is fuzzy, 
and so basically what we need to do is take more account of the 
needs of the fishing community and be more flexible in the use 
of overfishing definitions while certainly maintaining a 
minimum level for the stock.
    The second issue involves fishermen in the decision-making 
process. There is, in my opinion, a tremendous cost saving that 
could be obtained by working with fishermen to get observations 
directly from fishing boats. Thank you.
    Senator Snowe. Thank you. Mr. Mirarchi.
    Mr. Mirarchi. Yeah, thanks, Senator. With regards to how 
Magnuson-Stevens is working, I think basically you can look at 
it as two phases. For the first 15 years or so, from 1977 
through the early 1990's, and clearly the bridge was crossed 
with the Sustainable Fisheries Act, but even in New England 
before that, the earlier model was basing to exploit the fish 
stocks at whatever costs. The opportunity was for development. 
We then shifted gears and went to a protectionist mode where we 
began to rebuild fish stocks that were depleted during that 
early period, but at a great cost to the shore-side component 
of a fishery, the people, the communities. And we're still in 
that component. We haven't yet learned how to balance those two 
phases.
    My personal take is that we need to allow market forces to 
right-size the capacity to whatever resource that best 
available science tells us is out there to catch. Which bring 
me to the second part of your question: How do you achieve that 
proper assessment? And I think that one of the best tools that 
we have is utilizing the fishing platforms that are available. 
For one reason, there's a surplus of them today because of the 
stringency of the fishing rules that are now in place here in 
New England to rebuild stocks. So there's plenty of fishermen 
with only 88 opportunity days to fish for groundfish or with 
four or five months of closures in the Gulf of Maine who would 
love to have something else to do with their boats.
    Number two, it would build confidence among the fishermen 
in the process itself. There's still a lot of skepticism as to 
whether NMFS knows how to count fish or not. And clearly, 
whatever the result of this cooperative research will be, it 
will at least be a broader basis of authority through those 
figures. And I think that will go along way to developing a 
fishery which is robust and sustainable. Thank you.
    Senator Snowe. Thank you.
    Dr. Sullivan.
    Dr. Sullivan. With regard to flexibility, I guess the first 
thing I think of is the way that we used to manage fisheries, 
and that was by providing a single quota, and nobody was 
allowed to go above it, and nobody was allowed to go below it. 
And for many years that worked, basically I think because the 
fisheries were never at the capacity to actually take those 
quotas.
    We're now at a point where we're overcapitalized, and we 
have too much capacity. And so we need to have some options to 
explore. And I think one of the ways to do that is to actually 
explore the uncertainty associated with the assessments, the 
estimates that come out of the stock assessments. And I think 
National Marine Fisheries Services is doing a good job in 
providing some of that uncertainty, and I think they can 
continue moving forward in that direction. In particular, I 
think rather than again providing a single quota as a 
recommendation for what one should do, I think it would be 
useful to have some kind of distribution of quotas that are 
possible, and the consequences either to ultimate sustainable 
catch or to the stock in hand as an outcome. So effectively a 
decision table associated with different choices.
    In such an instance, that would put the responsibility back 
into the Council's hands who should have the responsibility for 
managing the systems and allow the scientists to defend their 
work on the basis of science rather than from management 
standpoint.
    With regard to involving fishermen, my experience with the 
halibut commission was very positive in the sense that I had 
plenty of opportunity to explain my stock assessments to the 
fishermen, to the managers, to the commissioners and to other 
scientists. And during the whole process of decision-making, 
the weeks and months prior to that when the halibut 
commissioners were making their decisions, I would explain the 
assessment over and over and over again to lots of different 
groups from lots of different perspectives. And I felt that, 
although this was time consuming and took a lot of my energy, 
it was a good way to convey the thoughts and concerns I had 
about the stock to the people who it was important to get to. 
But furthermore, it allowed me to hear the concerns that 
people, other people had with regard to my assessment so that I 
could take the opportunity at subsequent times to address those 
questions and so forth.
    So I guess what I'm saying is I feel that communication is 
really important, and it's difficult to underestimate the 
impact that will have.
    Senator Snowe. Thank you. Ms. Mooney-Seus.
    Ms. Mooney-Seus. It's a combination of things. I think 
collaborative research has certainly involved the fishermen 
more in the process. It will enable us to tap into their 
collective knowledge and bring their resources to bear. It will 
help us broaden the scope of our surveys to better capture 
inshore areas and expand the duration of our surveys throughout 
the year. We do need to shorten the permitting process in terms 
of granting experimental fishery permits. One of the things 
that is promising in terms of the Council process right now is 
the fact that with the establishment of the research steering 
committee all the members on that committee represent diverse 
stakeholders, and everybody has a vote, and that's a positive 
thing in going forward. We should encourage the establishment 
of more committees like this.
    There are opportunities or there should be increased 
opportunities for things like co-management. We've seen some 
positive results in Maine, mixed results, but some good results 
in Maine with the lobster zone management system. There are 
certainly opportunities for getting greater community 
involvement in fisheries management.
    Senator Snowe. Thank you. Senator Kerry.
    Senator Kerry. I'm going to hold back on most of my 
questions because we've got a lot of people I think who are 
waiting to speak at our open mike session.
    Let me just ask a quick question to Dr. Sullivan. Do I hear 
you say--are you suggesting NMFS is not basing their decisions 
on the best science that we have available?
    Dr. Sullivan. Oh, no. I believe they are. I think could 
probably expand upon their communication of uncertainty 
associated with that. I think it's a change that's happening. 
In the past, fishery scientists were using deterministic 
models, and they were giving single-point estimates as to 
what's happening. With the advent of computers is also data 
base management systems, there's lots of data now that is being 
used. And it can be explored in a much wider sense. And as a 
consequence, one can convey not just the point but the 
consequences of lots of different actions.
    Senator Kerry. Fair enough. And Dr. Rothschild, you 
advocate for this flexibility and I think you suggested 
ensuring fish stocks don't drop below a certain ``flexible 
floor.'' And levels of catch ought to be ``reasonable for the 
industry.'' I don't have a clue as to how that provides us with 
the margin of safety that you also mentioned we're looking for. 
Isn't that effectively what fishery managers are doing now? 
Aren't they trying to do that? Don't they try to incorporate 
these ideas in the numbers they come up with now?
    Dr. Rothschild. Well, it seems to me that the rebuilding 
targets are fairly rigid. And they're over a multi-year period.
    Senator Kerry. They're rigid because we saw that 
flexibility was destructive, and that flexibility was taking us 
on a downward track.
    Dr. Rothschild. I don't intend to mean that flexibility 
means that you continued to catch the same quantity of fish as 
the stock continues to decline. What I'm saying is that we need 
to take more consideration of National Standard Eight, for 
example, to balance the needs of the fishing community with the 
conservation of the stock. And some flexibility in the current 
year or the next year or in the third year really isn't going 
to cause the fish stock to become extinct. I only know of two 
or three instances where fish stocks have really become 
extinct. I know in New Bedford that there are perhaps 150 less 
fishing boats now than there were five years ago. That in a way 
is good because we're controlling capacity. On the other hand, 
we have to look at the economy of New Bedford that now consists 
of 150 less small businesses.
    Senator Kerry. You're suggesting that the economy of New 
Bedford and those 150 vessels should have been balanced against 
stock rebuilding?
    Dr. Rothschild. Well, what I'm suggesting is that when you 
buy back a fishing vessel, for example, you affect many 
businesses on the shore side.
    Senator Kerry. What's the alternative that you're 
proposing? If you're trying to----
    Dr. Rothschild. Well, the alternative----
    Senator Kerry. --reduce fishing effort--I don't understand 
the balance there at all.
    Dr. Rothschild. What I'm saying is that the balance is in 
the slowing down the draconian actions, and that in the long 
run this is not a tremendous conservation problem where it is a 
problem in the short run for the communities.
    Senator Kerry. How do you know what you're proposing is not 
a tremendous conservation problem? Science tell us otherwise.
    Dr. Rothschild. Well, actually, there are many cases where 
stocks declined independent of changes in fishing mortality. 
And there are many cases where stocks increase independent of 
fishing mortality. The real scientific issue again applying the 
best available science is that this relates to the recruitment 
issue which we really as a scientific community don't 
understand very well.
    So the direct answer to your question is one, this isn't 
well-known, that's why Dr. Sullivan's approach is really a good 
one. And the second is that the risk of the stocks being, 
disappearing, is relatively small. We don't know of any stocks 
except a few that have actually disappeared.
    Senator Kerry. That's because we stopped before we killed 
them. Are you telling me the striped bass experience wasn't 
somehow instructive?
    Dr. Rothschild. I think the striped bass experience was 
instructive----
    Senator Kerry. We stopped before it was extinct.
    Dr. Rothschild. Well, actually, there were programs in the 
1940's that were put in place to prevent or understand the 
decline of the striped bass. And then the striped bass came 
back independent of any regulations on fishing. And then it 
declined again. And that's when new regulations were started. 
So if you look at the long-term history of the striped bass 
over the years, the interaction of the effects of the 
environment and fishing are arguable. I'm not saying that we 
don't have to account for fishing, that we don't have to be 
prudent, so on and so forth. I don't want to be misunderstood. 
I'm just saying that the interpretation is perhaps more 
flexible than the one given.
    Senator Kerry. Well, it all argues powerfully for the two 
things we talked about at the beginning the hearing which are 
the resources and the information.
    Dr. Rothschild. Yes, absolutely.
    Senator Kerry. Thank you.
    Dr. Rothschild. Absolutely.
    Senator Snowe. Thank you, Senator Kerry. Senator Stevens.
    Senator Stevens. I'm constrained to ask whether any of you 
have ever costed-out your suggestions. How much would it cost 
the taxpayers to follow your suggestions?
    Dr. Rothschild. Well, I find it really very difficult to 
cost out suggestions because--I would like to comment on it. 
The reason that I find it difficult is, for example, when you 
ask the Coast Guard, Well, how much is this? Or how much is 
that? The answer is, Well, we're doing other things. And so I 
guess that--the way I would look at it is that a simpler 
fishery management scheme that was--would be more flexible, 
would reduce a lot of social costs and social programs that 
relate to the adverse economic conditions of the fishermen. And 
I would think that what would be needed to tremendously 
increase this data collection and so on and so forth is, in 
fact, quite expensive. But that always has to be taken into 
account the total program of the agency.
    Senator Stevens. Dr. Sullivan.
    Dr. Sullivan. I believe that communicating information in 
terms of risk could be done with the technology that we have 
now at no--maybe a marginal additional expense in terms of the 
time and effort involved for the National Marine Fisheries 
Service.
    In terms of communication, I feel that it will be an added 
cost in terms of time and money. But I feel that it would be 
worthwhile in terms of--overall. Because currently there's a 
stalemate I think, as evidenced by the discussion earlier with 
Mr. Hill and the Council in terms of understanding what the 
consequences are taking actions that keep fish mortality at a 
high level.
    Senator Stevens. Ms. Mooney.
    Ms. Mooney-Seus. We have to look at a combination of 
funding sources. It's a lot of money to underake all this. And 
I couldn't put a precise figure on a lot of the things I 
suggested--with the exception of the vessel monitoring systems. 
We've heard ranges of 3,000 up to 6,000 dollars per boat. And 
I'm sure as more and more boats were equipped with VMS we could 
get the cost per boat down.
    You have to look at not only Federal moneys but also 
support from the fishing industry to help offset some of the 
cost. As the fish stocks recover, you have to look at also 
private moneys to come into the picture. And I think we have to 
recognize this is a public resource, so it isn't unreasonable 
to ask for more appropriations to do things like collaborative 
research.
    Senator Stevens. It's not unreasonable to ask, but . . . 
Thank you very much.
    Did you have a comment, Mr. Mirarchi?
    Mr. Mirarchi. Yes, I do, thank you, Senator. My comment is 
this: I can only offer you an opinion. I'm a fisherman. There's 
going to be a short-term net cost to the taxpayers to get such 
a program of collaborative research up and running. And 
eventually there will be a pay-back through an enhanced 
resource. We've heard today of people opining that the resource 
productivity at maximum sustainable yield could be perhaps 
three times what it is presently. That the cost burden should 
be at least in part borne by that enhanced resource. Basically, 
the resource, once up and running, should be able to sustain 
itself. But we need to boot strap it to get it to that point. 
Thank you.
    Senator Stevens. Well, I can only tell you, the people of 
Cordova found that their resource salmon was disappearing, and 
they taxed themselves. I believe it was two cents a fish. Do 
you recall that, Dr. Rothschild? And after two years, started 
building some hatcheries and today have an overabundant supply 
of salmon. There was no Federal money involved at all, no state 
money involved at all. It was all the industry themselves 
getting together. Although at the very lowest ebb of their 
existence, they taxed themselves and provided their own 
stability and they're still the most stable supply in the 
state. Have you done that here at all?
    Mr. Mirarchi. To my knowledge, no. At this point, there is 
no possibility of assessing a fee to commercial--to Federal 
commercial fishing permits. I personally am not adverse to 
that----
    Senator Stevens. Well, this wasn't a Federal--this was 
industry action. It's just a collection. They got together and 
formed a collection.
    Mr. Mirarchi. I'd like to raise an associated point, if I 
could. And that is this is why I feel that a rights-based 
management system is so important that if people feel they have 
a vested economic interest in a living resource versus having 
to kill a fish in order to realize a personal economic gain 
from it, they'd look much more favorably on programs such as 
that which occurred in Cordova.
    Senator Snowe. Final word?
    Senator Stevens. I'm constrained to add that they provided 
the hatcheries that supply sports fishermen, the public at 
large and the ocean mammals and everything else. They did it 
themselves. And it's the most successful program I know in the 
country. Thank you.
    Senator Snowe. Thank you. Thank you all very much. We thank 
you very much for sharing your views here today.
    This is the final part of the program, and I know that many 
people have signed up. We've got about a half an hour for open 
microphone, so we're going to ask you to limit your comments to 
no more than one minute. We're going to have a red light here, 
and please, we ask you to honor it. Rich Levitt of Senator 
Kerry's staff will read the names for the open mic session. So 
please come forward very quickly so we can move the process 
along.
    Who's number one?

            STATEMENT OF MAYOR TOBEY, GLOUCESTER, MA

    Mayor Tobey. Thank you, Madam Chair, Senators. I will be 
brief; no one will miss a flight on my account.
    I want to speak simply to one criteria on behalf of the 
city of Gloucester supplementing all that others before me have 
said, and that would be on National Standard Eight. We ask that 
there be, as this review goes forward, an effort to strengthen 
the requirement for meaningful socioeconomic impact 
consideration. Moving past what we now see as minimum criteria, 
cursory studies, justification rather than complementary action 
when it relates to decisions already made is what we fear we 
see.
    Since I became mayor in 1991, we've seen real social change 
in our community on its waterfront, real economic change. We've 
seen stresses in family where the fisherman father can no 
longer go fishing. We're seeing financial stresses and strains 
like never before. We're seeing fewer folks working in the 
related industries both directly and indirectly to the fishing 
industry. We're seeing a waterfront that is a matter of both 
sentiment, heritage and law must be marine in its utilization 
no longer able to move ahead with new investment because we are 
not getting a balanced approached we see as a result of 
National Standard Eight being too low down rather than equal in 
its placement in the prioritization scheme.
    I'm not looking for the days to return a hundred years ago 
when my grandfathers fished, a harbor full of masts and fishing 
boats. But we're looking to hold onto the infrastructure we 
have so that when the species do rebound the small family 
businesses that now have been looking to hang in there can move 
ahead with the progress they have helped realize by being 
partners in conservation and research today.
    Thank you for your indulgence.
    Senator Snowe. Thank you very much.
    Senator Kerry. Mayor, you've done a great job out there 
too.
    Mayor Tobey. Thank you, Senator. We like what you're doing.

           STATEMENT OF MATTHEW THOMAS, ON BEHALF OF 
            FREDERICK KALISZ, MAYOR OF THE CITY OF 
                        NEW BEDFORD, MA

    Mr. Thomas. Good afternoon. My name is Matthew Thomas. I'm 
one of the assistant city solicitors for the city of New 
Bedford. Unfortunately, Mayor Kalisz could not be with us 
today. He's on his way to Washington. Maybe you passed in the 
air. He has asked that I read the statement with your 
permission.
    Madam Chair and Senators, thank you for the opportunity to 
address you this afternoon regarding the Magnuson-Stevens 
Fishery Conservation and Management Act. Unfortunately, I'm 
scheduled to be in Washington today and so cannot address you 
in person. I have asked Attorney Matthew Thomas to deliver 
these comments for me. And I thank you for your understanding 
of my absence from today's hearing on that important matter, 
sustainable fisheries.
    As you are aware, mariners from New Bedford have been 
fishing the waters along the east coast of the United States 
for over 150 years. Our fishermen harvest one of the most 
diverse catches in the United States, and in fact, over 45 
percent of the seafood landed in Massachusetts is landed in the 
port of New Bedford. The seafood industry in New Bedford allows 
over 30,000 individuals to provide a living for their families 
and contributes over $800 million to the economy of New 
Bedford. Our port is ranked number one in the United States 
based on dollar value of landings.
    This concept of a sustainable fishery is one that has been 
understood by our fishermen for over 150 years. Initially, it 
was the fishermen themselves who regulated the days at sea. 
Eventually that regulation has been assumed by the government 
through the Magnuson-Stevens Act.
    This afternoon I would like to direct my comments to one 
aspect of the regulation. The need to employ the best available 
technology to determine the levels of resource and the impacts 
of certain levels of harvesting. Whether one is a proponent of 
the derby theory or the quota theory of resource management, it 
is essential that the data upon which these regulatory 
decisions are made is as accurate as possible.
    I understand that there are significant challenges in the 
effort to accurately compile data and there are differences of 
opinion in the interpretation of that data, however, I also 
understand that unless we utilize the most innovative 
technology available and unless all the management Councils 
agree to a protocol regarding the interpretation of that data, 
our fishermen in our communities will be subject to rules and 
regulations that shift with the tide.
    The old methods of reporting catches are not sufficient. We 
must apply the same efforts to accurately determining catch 
levels as we have to determining the levels of the resource.
    In New Bedford, we are fortunate to have a world-class 
center for marine science and technology. That center is CMAST, 
the Center for Marine Science and Technology at the University 
of Massachusetts. Dr. Rothschild and his competent staff have 
been instrumental in helping us understand the scallop resource 
and the effect of different levels of harvesting on that 
resource. In large part, thanks to their efforts, our scallop 
industry has regained access to the closed areas leading to an 
additional $30 million to $40 million of product.
    Through CMAST's efforts, we were able to learn that it is 
necessary to harvest to certain levels to maintain a healthy 
scallop resource. This success involved a cooperation between 
CMAST and National Marine Fisheries and the New England 
Management Council and the harvesters themselves. This effort 
should become a model for analysis of the other fishery 
resources.
    A broader scope of industry groups should be brought into 
the process of fisheries management in order to protect the 
interest of all participants. As you know, the fisheries 
Councils were the body created as the partnership between the 
government, the scientific community and the direct 
stockholders in fisheries. With all due respect to the other 
partners in the fisheries Councils, it is the scientific 
community that will play the greatest role in achieving a truly 
sustainable fishery. The date collected and the analysis of the 
scientific community is to some degree outcome-determinative. 
We must encourage the scientific community to develop the new 
innovative methods to assist in the true assessment of the 
resource and the true impact of various levels of landing. We 
must remove the guess work from this process.
    I understand this is a difficult task, however, who among 
us would make a decision that affects their family without 
attempting to collect the best information and analyze that 
information as thoroughly as possible? We must also continue to 
engage the harvesters in the data collection and analysis. 
These individuals spend a good portion of their lives on the 
sea and have developed an understanding of the ocean that 
should not be minimized.
    In general, a much larger range of information is needed 
from the harvesting sector, data collectors, universities and 
the National Marine Fisheries Service. In closing, I would 
again like to thank you for the opportunity to offer these 
comments. We in New Bedford are dedicated to attaining a 
sustainable fishery, and we have been committed to this goal 
for over 150 years, however, a sustainable fishery is one that 
must not only sustain the resource but the industry as well. 
That is our goal, and we will only succeed in reaching that 
goal if we embrace the best available means to collect data, 
analyze that data and avoid solutions that are overly 
simplistic. Thank you.
    [The prepared statement of Mayor Kalisz follows:]

                Prepared Statement of Frederick Kalisz, 
                  Mayor of the City of New Bedford, MA

    Thank you for the opportunity to address you this morning regarding 
the Magnuson-Stevens Fisheries Conservation and Management Act. 
Unfortunately, I am scheduled to be in Washington today and so cannot 
address you in person. I have asked Attorney Matthew Thomas to deliver 
these comments for me and I thank you for your understanding of my 
absence from today's hearing on the important matter of sustainable 
fisheries.
    As you are aware, mariners from New Bedford have been fishing the 
waters along the East Coast of the United States for over 150 years. 
Our fishermen harvest one of the most diverse catches in the United 
States and in fact over 45 percent of the seafood landed in 
Massachusetts is landed in the Port of New Bedford. The seafood 
industry in New Bedford allows over 3000 individuals to provide a 
living for their families and contributes over $800 million dollars to 
the economy of New Bedford. Our port is ranked number one in the United 
States based on dollar value of landings. This concept of a sustainable 
fishery is one that has been understood by our fishermen for over 150 
years. Initially it was the fishermen themselves who regulated the days 
at sea, and eventually that regulation has been assumed by the 
government through the Magnuson-Stevens Act.
    This morning I would like to direct my comments to one aspect of 
the regulation--the need to employ the best available technology to 
determine the levels of the resource and the impacts of certain levels 
of harvesting. Whether one is a proponent of the ``derby theory'' or 
the ``quota theory'' of resource management, it is essential that the 
data upon which these regulatory decisions are made is as accurate as 
possible. I understand that there are significant challenges in the 
effort to accurately compile data and that there are differences of 
opinion in the interpretation of that data. However, I also understand 
that unless we utilize the most innovative technology available and 
unless all of the management councils agree to a protocol regarding the 
interpretation of that data our fishermen and our communities will be 
subject to rules and regulations that shift with the tides. The old 
methods of reporting catches is not sufficient. We must apply the same 
efforts to accurately determining catch levels as we have to 
determining the levels of the resource.
    In New Bedford we are fortunate to have a world class center for 
Marine Science and Technology. That center is CMAST--the Center for 
Marine and Applied Sciences at the University of Massachusetts--
Dartmouth. Dr. Rothschild and his competent staff have been 
instrumental in helping us understand the scallop resource and the 
effect of different levels of harvesting on that resource. In large 
part thanks to their efforts, our scallop industry has regained access 
to the closed areas leading to an additional $30 to $40 million of 
product. Through CMAST's efforts we were able to learn that it is 
necessary to harvest to certain levels to maintain a healthy scallop 
resource. This success involved a cooperation between CMAST, National 
Marine Fisheries, the New England Management Council and the harvesters 
themselves. This effort should become the model for analysis of the 
other fishery resources.
    A broader scope of industry groups should be brought into the 
process of fisheries management in order to protect the interests of 
all participants. As you know the Fisheries Councils were the body 
created as the partnership between the government, the scientific 
community and the direct stockholders in the fisheries. With all due 
respect to the other partners in the Fisheries Councils it is the 
scientific community that will play the greatest role in achieving a 
truly sustainable fishery. The data collected and analysis of the 
scientific community is to some degree outcome determinative. We must 
encourage the scientific community to develop the new innovative 
methods to assist in the true assessment of the resource and the true 
impact of various levels of landings. We must remove the guesswork from 
this process. I understand that this is a difficult task. However, who 
among us would make a decision that affects their family without 
attempting to collect the best available information and analyze that 
information as thoroughly as possible. We must also continue to engage 
the harvesters in the data collection and analysis. These individuals 
spend a good portion of their lives on the sea and have developed an 
understanding of the ocean that should not be minimized. In general a 
much larger range of information is needed from the harvesting sector, 
data collectors, universities and the National Marine Fisheries 
Service.
    In closing I would again like to thank you for the opportunity to 
offer these comments. We in New Bedford are dedicated to attaining a 
sustainable fishery and we have been committed to this goal for over 
150 years. However, a sustainable fishery is one that must not only 
sustain the resource, but the industry as well. That is our goal and we 
will only succeed in reaching that goal if we embrace the best 
available means to collect data, analyze that data and avoid solutions 
that are overly simplistic.

    Senator Snowe. Thank you very much.

                 STATEMENT OF HON. BRUCE TARR, 
                  MASSACHUSETTS STATE SENATOR

    Senator Tarr. Good afternoon, Madam Chair and through you 
to the members of the Committee. I'm State Senator Bruce Tarr, 
the assistant minority whip of the Massachusetts State Senate, 
and also the co-chairman of the Coastal Caucus, which is a 
caucus of Massachusetts legislatures concerned with the very 
issues that you're taking up today.
    I want to thank all of you for coming to engage us in the 
kind of dialogue that it's going to take to make Magnuson the 
truly effective tool that we all want it to be. And along those 
lines, I want to get into a couple of things that have already 
been mentioned by the panel.
    And first, to Senator Kerry's question about what ought be 
the time? What ought be the safeguard? It seems to me that what 
we ought to be looking for is not the quickest time of 
rebuilding, but the best sustainable time. And to the extent 
that we can match the needs of the communities with the ability 
over the long term for the stocks to rebuild, then we found 
that optimum goal that folks would be able to believe in and 
carry forward in complying with the Magnuson requirements.
    In addition to that, we ought to be looking at I think an 
additional national standard, one that allows the maximum 
number of industry participants that have historically 
participated in the industry to be able to continue to 
participate in the industry. And Madam Chair, that means 
directly addressing the issue of latent effort, whether it be 
for accounting differently or whether it be for buying it back, 
but dealing with it squarely on its face so that people today 
who are making the sacrifice to continue the fishery aren't 
doing it for the benefit of others who are not making those 
same sacrifices.
    Madam Chair, we've talked a lot today and you all had great 
testimony on how do we get more participation? How do we get 
the people that are affected to be more effectively involved? 
And I think some procedures could be adopted that would very 
effectively do that.
    First, the goals are to be up front. They ought to be voted 
on. And they ought to be cleared by the New England Fishery 
Management Council before plans are solicited. And when plans 
are solicited they ought to be described in terms of the steps 
they'll need to pass in order to be accepted, and when they're 
rejected by the Council they ought to be rejected in writing 
with the reasons that the industry has come up short so that 
it's not a catch or a hit or miss, that it's a process of 
dialogue and cooperation unlike some of what we see today.
    And toward that, we ought not to continue to have, in my 
opinion, Madam Chair, the analysis of the socioeconomic impact 
of these plans by the folks that are writing and approving the 
plans. I would suggest to you that divorcing the issue of 
trying to regulate from the issue of trying to sustain would in 
this instance be a good idea. With those kinds of things and 
those kinds of analyses being completed by the Small Business 
Administration or other agencies whose specific role it is to 
maintain sustainable communities. I think that would go a long 
way.
    And along that way, the issue and the one I'll close on 
because it's very hard for me, Madam Chair, to constrain 
myself, and I'll try to do the best I can, but I think 
collaborative research is a common goal. It's something that is 
going to provide us with the bridge between the confrontational 
system of management that we've seen and the cooperative system 
of management that we will see.
    And toward Senator Stevens' point, in fact, in 
Massachusetts, the work of the Massachusetts Fisheries Recovery 
Commission, the scallop industry was compelled through the 
Fishery Survival Fund to produce industry funds to continue 
that collaborative research, not on its own, but in partnership 
with state and Federal funding. And I think it's a model that 
we ought to continue to follow.
    And last but not least, I would suggest to you that if we 
look at Magnuson and we look at it as a tool for that kind of 
dialogue and that kind of interaction, then we ought to be 
willing to stand up and say that the only best science 
available is the science which includes direct and verifiable 
input from the people whose lives are so desperately affected 
by these regulations. That would be a change, Madam Chair, that 
would go a long, long way.
    Let me conclude just by thanking you, and particularly by 
thanking Senator Kerry for his great work in working with the 
Fisheries Recovery Commission and with all of you for 
understanding the investment that we need to continue to call 
fishery as one of our most important industries.
    Senator Snowe. Thank you very much.

         STATEMENT OF RICHARD MUSIOL, SPOKESPERSON FOR 
 THE HON. THERESE MURRAY, PLYMOUTH AND BARNSTABLE STATE SENATE 
                            DISTRICT

    Mr. Musiol. Senator Kerry, Senator Snowe, Senator Stevens, 
good afternoon. My name is Richard Musiol, and I am the 
spokesperson for Senator Therese Murray. Senator Murray 
represents the Plymouth and Barnstable State Senate District 
which covers southern Plymouth County and upper Cape Cod.
    The Senator's home town, and in fact, America's Home Town, 
the Town of Plymouth, Massachusetts, is a vibrant fishing 
community. Senator Murray is not a scientist, nor is she a 
fisherman. As a leader in our community, however, she does have 
some concerns in the creation of various species management 
plans pursuant to the Magnuson-Stevens Act and the Sustainable 
Fisheries Act.
    Specifically, Senator Murray has two concerns. First, there 
is a lack of science in developing the species management 
plans. We have seen constant disagreement between our local 
fisheries officials and our fishermen and our Federal fishery 
regulators.
    Second, the negative effect of these management plans never 
seems to play a role in the development of these plans. As 
Senator Snowe mentioned earlier, the recently published GAO 
report indicates that Federal officials do realize the 
potential negative economic and social impact, but they fail to 
minimize that impact.
    Nowhere is this more true than the Plymouth fishing 
community that recently has to bear the enactment of the Spiny 
Dogfish Management Plan. Our Plymouth port alone caught more 
spiny dogfish than will be allowed for all New England and Mid-
Atlantic states under the plan enacted by Secretary Bill Daley. 
It is no exaggeration to say that this management plan will 
crush the port of Plymouth.
    As the GAO report also indicates, there are much more 
resources needed in this area. However, Federal fishing 
regulators must work more cooperatively with our state 
officials and our local fishermen to get a more accurate 
assessment of the fishing stocks.
    Science must prevail when it comes to the development of 
these management plans. Accurate science, however, cannot be 
attained unless we all work together.
    On behalf of Senator Murray, we want to thank Senator Kerry 
for his diligence in his efforts in keeping us informed on 
these important Federal issues. Thank you.
    Senator Snowe. Thank you.

  STATEMENT OF MR. PRYBOT, COMMERCIAL FISHERMAN, CAPE ANN, MA

    Mr. Prybot. Thank you for the opportunity to speak. I'm 
here as a Cape Ann, Mass commercial fisherman, a commercial 
lobsterman and also a small boat longliner who holds a Federal 
day-at-sea hook permit. And I'm somebody who has attended a lot 
of Council meetings and continue to do so and has a lot of 
contact with fishermen, especially Gloucester fishermen, all 
fishermen along the coast.
    Plain and simple, what I'm seeing and also hearing is that 
many people, especially commercial fishermen, have lost faith 
in the lower levels of the fishery management process. And 
that's why they are circumventing it and going to you people, 
the people that control the pursestrings and have the power 
over the lower agencies.
    They share the same skepticism in the fishery management 
process that I sense coming from you three people earlier. 
That's where they are.
    I just hope when the Magnuson Act does get reauthorized 
that two points will be stressed. One is fairness to everybody 
involved. And also that some plain old simple common sense will 
be added at times. When I speak of fairness, one of the most 
annoying areas to commercial fishermen is what they view and 
what view is unfairness with the Gulf of Maine closed areas. 
They feel as though these are closed areas and they should be 
closed to all commercial fishing ventures including party 
charter vessels. Right now what's happening, the party charter 
vessels are allowed to fish in these closed areas and yet 
commercial fishermen who make, who earn their living on the 
same finfish, codfish that the party charter vessels can. That 
to me is blatant discrimination, especially in the Democratic 
process. You've probably heard the argument, Well, the party 
charter vessel people say, We didn't cause the Gulf of Maine 
cod collapse. There are a lot of commercial fishermen like 
myself who didn't cause the Gulf of Maine cod collapse either. 
Yet, we can't go into these areas. That's unfair. That should 
change.
    And another thing----
    Senator Snowe. You have a one-minute time limit, we have 
many people here.
    Mr. Prybot. Yes. The National Marine Fishery Science people 
say, because I keep track of this, the Gulf of Maine cod stock 
is still dangerously low, yet the Council allows cod fishing in 
these critical areas during the critical time when the cod 
bunch up and spawn. It makes no sense at all.
    And the other issue in terms of common sense is please 
change the overage policy, bring back the running clock 
provision. Now if boats catch their quota for a trip, they have 
to stay out and they can't come in. Let the vessels come in and 
take out their catch and legally sell it and then deduct the 
days-at-sea from that. Otherwise, everybody loses. The 
fishermen because they have to stay out and they have to bring 
in a lower-quality product, and more trip costs are associated. 
And obviously the dealer and the consumer loses. You're dealing 
with a lower-quality product. And also the stock itself loses 
because otherwise if those boats have to stay out, they're 
going to continue fishing, and the only thing that's going to 
happen, more and more discards.
    And let's cut down on the discards in the future and also 
increase the fairness and add a little common sense. Thank you.
    Senator Snowe. Thank you very much.
    I would like to remind the audience that the legislative 
record will be open for statements, and we will certainly 
include any additional comments beyond what you make here.

             STATEMENT OF JOE ORLANDO, FISHERMAN, 
                         GLOUCESTER, MA

    Mr. Orlando. Hi. My name is Joe Orlando. I'm a Gloucester 
fisherman. And I'd like to thank you very much. This is 
probably one of my biggest days of my life to be in front of 
people like you.
    Like I said, I'm a Gloucester fisherman. I'm the owner and 
captain of the fisher vessel Padre Peer in Gloucester. I belong 
to an organization, the Gloucester Fishermen's Association, 
which we belong to the Massachusetts Fishermen's Partnership. 
And we'd like to support Angela's testimony earlier with the 
Partnership.
    I would like to add support for the Massachusetts 
Fishermen's Partnership Plan. I feel it will bring us up to 
speed on the future fisheries. Senator Kerry, you asked a 
question earlier to Russell Sherman's panel. Did you feel 
fairness on the panel? I have 88 days at sea while other boats 
have 100 to 150 days. I don't see where the fairness to that 
is.
    Senator Kerry. Why is that? Can you tell me?
    Mr. Orlando. Well, at the time when National Fisheries and 
NMFS were issuing out days and splitting them up, they picked 
two categories: Days at sea and fleet days. And at that time it 
was voluntary on which of the two systems you wanted to go 
into. But the fleet days thing was that you have to have the 
black box, which is the monitoring system you talked about that 
will come into play that will cost $8,000 to $10,000. So a lot 
of us felt that we couldn't afford to spend that kind of money, 
so we went with fleet days. Well, the black box never came to 
be, so we lost the opportunity to apply for more days.
    And I brought that up to the Council and it was at one 
Council meeting in Plymouth, and it was voted six to six, I 
believe, and it came down through the chairman which he denied 
us the reopening of the . . .
    Safety would be greatly increased with the return of the 
running clock. Last year we had, just before the closure, we 
had a captain named Kevin Scola with a small boat, and I guess 
he had overages and stuff. He couldn't come in until a certain 
time. And what happened was there was storm and put gale 
warnings up and started to blow about 30 knots out of the 
northeast. And one of his winches came right off the deck and 
went right up against his gallowses. And we had to go to his 
rescue practically. So I'd like to make that point.
    Under discards, one of the biggest reasons of discards is 
that the landing limit is just set too low. I believe in the 
trip limit. If the trip limit was great enough, we wouldn't 
have these tens of thousands of pounds of discards that we have 
now. And if the codfish situation is so bad--I'd like to really 
add this--you know, everything is closed to us off the coast of 
Massachusetts, and we still go fishing and we catch a hell of a 
lot of codfish. So somebody is making a mistake someplace.
    Like I said, so I really appreciate your giving me this 
opportunity. Thank you very much.
    Senator Snowe. Thank you for being here. Thank you.
    Senator Kerry. Thank you very much. Thank you.

     STATEMENT OF ANTONIO RANDAZZO, COMMERCIAL FISHERMAN, 
                         GLOUCESTER, MA

    Mr. Randazzo. I'm Antonio Randazzo, commercial fisherman 
out of Gloucester. This is the first time I meet somebody--I'm 
a little bit nervous about this.
    Senator Snowe. No, don't be. It's just us.
    Mr. Randazzo. Okay. I support Angela's testimony, and this 
is all about, it's all about my life. My family depends on me, 
it's because, you know, what I do the best is fishing. I'm with 
the conservation, and I'd like to join--in other words, I'd 
like to have this thing last me forever. So everything we got 
to do is let's do it right because, like I say, whatever Angela 
put there is right, for my concern, for my family. I'm just 
there to try to put food on the table. So please, have a good 
thought about what concerns me and my friends. Thank you.
    Senator Snowe. Well, we hear you. Thank you very much. 
Thank you.
    Senator Kerry. Thank you.

STATEMENT OF EDWARD BARRETT, COMMERCIAL FISHERMAN, MARSHFIELD, 
                               MA

    Mr. Barrett. Hi. My name is Edward Barrett. I'm a 
commercial fisherman from Marshfield, Massachusetts. I am also 
a member of the Massachusetts Fishing Partnership working group 
for the reauthorization of Magnuson-Stevens.
    I would like to talk today on the topic of rebuilding 
schedules. As I understand it, once a fishing stock is declared 
overfished, a 10-year rebuilding schedule is mandated. Meeting 
these schedules, management plans have extracted a heavy cost 
to fishermen and their communities.
    My question is: Would this rigid schedule work in other 
problematic areas in the United States? Would the citizens of 
the United States be willing to pay the price, and would 
Congress and the president have the political fortitude to 
carry forth solutions on Social Security, race issues or crime 
in a 10-year period? I have my doubts. But this is exactly what 
the communities have been asked to do in the fishing industry.
    On the schedule of the SFA I would like to ask if there 
would be some flexibility to recognize this and to provide some 
relief? Ten years is just too short a time to rectify 
management plans that have existed for decades. Thank you.
    Senator Snowe. Thank you.

  STATEMENT OF VITO J. CALOMO, EXECUTIVE DIRECTOR, GLOUCESTER 
                      FISHERIES COMMISSION

    Mr. Calomo. Thank you very much. When I was a young man my 
father taught me there can only be one captain on a ship, and I 
see three captains up there on the Good Ship United States. 
You're going to have problems.
    My name is Captain Vito J. Calomo. I'm a third-generation 
fishing captain. I started fishing in 1958 washing dishes for 
the crew and cleaning the bilges. I fished in the 60's, the 
70's and in the 80's I built a new vessel and I became a 
captain.
    I am presently the executive director of Gloucester 
Fisheries Commission and the latest member of the New England 
Fisheries Management Council.
    People, how did we get this far? We the people got us here. 
Not just one segment. We the people have overfished. We the 
people have mismanaged. And we the people have overpolluted. 
These are the reasons that we are here today. We are discussing 
the Fisheries Management Act, Magnuson-Stevens Fisheries 
Conservation Act, and act to provide for the conservation and 
management of fisheries and for the purpose. We are certainly 
working for conservation, and we are definitely having 
management. But we are missing the third ingredient, fishing 
industry input.
    We have a disconnect. Cooperative management has been 
missing. Fishermen see what is happening with our stocks long 
before the scientists and the managers. Years before any action 
ever took place, the fishermen asked for the 200-mile limit. 
They knew overfishing was occurring. No one listened. We 
overfished.
    In this man's opinion, if we would have acted much sooner, 
we would not be here today. For at least 100 years we have 
polluted. We have filled in estuaries, marshes and other 
habitats. We have dumped millions of gallons of toxins directly 
or indirectly into our oceans.
    Last year Senator Tarr and myself spent approximately seven 
hours talking a fishing captain back into the home port of 
Gloucester during a hurricane. The captain thought he was over 
the haddock trip limit for his days allotted at sea. This is a 
safety issue. And this is a big one.
    I ask you, Senator Snowe and Senator Kerry, to move forward 
with the reauthorization of the Magnuson-Stevens Act by 
incorporating active fishermen to participate in the problem-
solving. Cooperative research will help us all.
    Just a thought off my head--I seen your red light go on, 
but I was here--I left my house at seven o'clock--bear with me. 
As a fisherman, I do see a great difference in our people, in 
their mindset. They're highly educated today. They have 
conservation minds which they didn't years ago. We have changed 
them. We have educated them. They understand catching the last 
sacred codfish would be their last sacred fishing trip. So 
please incorporate the fishermen, and we will have better 
fishery.
    Thank you, Senators.
    Senator Snowe. Thank you very much.
    Senator Kerry. Thank you.

   STATEMENT OF DOUG HOPKINS ON BEHALF OF THE ENVIRONMENTAL 
                          DEFENSE FUND

    Mr. Hopkins. Thank you very much, Senator Snowe and Senator 
Kerry, for the opportunity to speak today. And thank you, Vito, 
you're always a tough act to follow.
    I appear on behalf of the Environmental Defense Fund, which 
is a non-profit environmental organization. I also serve on the 
New England Fishery Management Council. I am the obligatory 
member from the State of Connecticut and have been on the 
Council for three years. I'm also on the executive committee of 
the Marine Fish Conservation Network, which earlier witnesses 
today referred to. So I wear several hats, but I'm speaking 
today for Environmental Defense.
    Here in New England we have experienced severe 
mismanagement of the fishery resources off our coast. There are 
hundreds of millions of dollars being lost every year because 
many of our commercially valuable fish stocks remain overfished 
and depleted, and therefore cannot sustain robust fisheries. 
Recreational fishing, especially for groundfish, such as cod, 
is a shadow of what it once was and what it could be again.
    So who's to blame? The answer is complicated, but at this 
point that's really not the most important question. The real 
question is: What do we need to do to dig out of the hole we 
find ourselves in? And this is a hole we can dig ourselves out 
of. This is--there's truly a pot of gold at the end of the 
rainbow and this is a solvable problem. But we need your 
leadership. And we think that there are a number of things that 
you can help us with.
    The Sustainable Fisheries Act is good. It needs to be--it 
needs to stay the course. There are some aspects of it that 
need to be strengthened. For example, the bycatch provisions. 
The moratorium on individual fishing quotas also needs to be 
lifted.
    The biggest underlying problem with fishery management in 
New England stems from two facts: No. 1, in this region, we 
have sought to use input controls to restrict fishing. And 
input controls have failed. No. 2, we have excess fishing 
capacity. Too many boats chasing too few fish. And this 
situation sets up the impossible dilemma of managers trying to 
keep too large a fishing fleet and the communities that depend 
on satisfied without enough fish. The consequence has been that 
the managers have allowed too many fish to be caught, and the 
result has been overfishing and stock collapses and lack of 
flexibility for fishermen.
    To end this vicious cycle, the New England Council needs to 
be granted the full range of management tools to craft 
solutions. This means that we need Congress to lift the 
moratorium on individual fishing quotas and to provide guidance 
to how IFQs, both transferrable and non-transferrable, can be 
used fairly and in a way that assures that their potential 
conservation benefits will be achieved. Thank you very much.
    Senator Snowe. Thank you.

                   STATEMENT OF MR. BOURQUET

    Mr. Bourquet. Good afternoon, Senators Snowe and Kerry. 
Thank you for this opportunity to address you.
    Science, the issue of science is very, very prevalent, as 
we all have witnessed this afternoon. This is what I pulled off 
of the Internet. ``Coalition urges changes supporting fishery 
science.'' There's nine issues; seven of them are concerned 
with the science.
    One of the problems with science as we perceive the 
situation is that the data base has been based on landings. And 
you can have a increase in resource with decreasing landings 
and you can have a decrease in resource with increasing 
landings. But the landings are controlled over time and scaled 
downward, and then you use the resultant landings as indicator 
of abundance and you'll show a decrease in the biomass. 
Conversely, like with the herring catches in the Gulf of Maine 
where the catches kept going up, it gives the appearance of a 
healthy stock, but we find that through observation those 
stocks aren't as healthy as we would like to have them.
    The ITQ and the IFQ--we're already in a limited access 
situation, and controlled access, and people have seen, 
fishermen have seen oligarchies form with this type of 
approach. So I think the fisheries people, the fishermen have 
changed their views over time.
    I know we're limited on time. I had my two minutes in 
Portland. I just want to say on the safety issue, with regard 
to the airplanes. The FAA received numerous complaints. And 
their folders are full of letters from people from last year 
that were very concerned with their safety. And I know Alaska, 
one of the prevalent reasons that they eliminated planes from 
their fishery, they had 14 deaths up there, including a 
president and his son. So I appreciate the concern that the 
Senators have emphasized on this issue. And I thank you for 
everything you have done.
    Senator Snowe. Thank you.

STATEMENT OF JAMES D. O'MALLEY, EXECUTIVE DIRECTOR, EAST COAST 
                   FISHERIES FEDERATION, INC.

    Mr. O'Malley. Thank you very much, Madam Chairwoman, 
Senator Kerry. East Coast Fisheries Federation, off-shore boats 
Rhode Island to New Jersey, 80-footers, crews of four or five, 
squid, groundfish, the mix.
    You've heard a lot about science and mathematics and single 
species management. And what I'd like to point out to you is 
that the way the interpretation of the Sustainable Fisheries 
Act is being carried out, a good law is being destroyed by its 
interpretation. That is the mathematically dominated single 
species management. What commercial fishermen have done for 
hundreds of years is to flow with the ocean. Abundant fish, you 
caught a lot of it cheap. Good for the consumer. And you made 
big money on fish that was scarce.
    The way the law is being interpreted now, if fish is 
abundant, we are going to husband it over a long period of 
time, regardless of whether or not environmental circumstances 
permit that. If fish is scarce, you have to leave it alone 
completely. What the Sustainable Fisheries Act needs to have 
done is an interpretation that goes back to the rhythm of the 
ocean and allowing the industry, which is part of the 
ecosystem, to flow with it once again.
    And given the fact that I'm already 20 seconds over, I'll 
just submit the rest of my remarks in writing. Thank you.
    [The prepared statement of Mr. O'Malley follows:]

     Prepared Statement of James D. O'Malley, Executive Director, 
                 East Coast Fisheries Federation, Inc.

A Perspective on the Sustainable Fisheries Act
    Although this statement may shock some people, the fact is that the 
promises of the Sustainable Fisheries Act will never be kept. It is an 
illusion fostered by political interests to avoid taking responsibility 
for the new fisheries crisis. This new crisis is one that can be seen 
on shore, and has to do with the people in the fisheries, not the 
resource itself.
    How could this be? The Act was passed with great hopes and 
expectations, conjuring up a vision of bounty for all.
    But that is not the way the ocean works. Fishermen have, for 
hundreds of years, flowed with the rhythms of the sea. That sustained 
them, economically and biologically. They caught large volumes of 
abundant fish for low prices, and at the same time, caught scarce fish 
for very high prices.
    No more.
    The Sustainable Fisheries Act, in effect, says that scarce fish 
must be left completely alone so that the stock will rebuild in the 
shortest possible time. Simultaneously, abundant species must be 
husbanded over time by maintaining biomass at ``sustainable'' levels. 
The cruel hoax lies in a combination of politics and mathematics.
    The Act mandates that the fisheries be maintained at a level which 
can continually produce maximum sustainable yield. But because 
ecosystems and interrelationships are poorly understood, each 
individual species has been analyzed, and regulations passed which 
attempt to accomplish this maximum for each species. But appealing to 
the mathematicians among you, I have to ask if it is possible to 
maximize any equation for multiple variables simultaneously. Can you 
have an ocean full of every kind of fish at the same time? Of course 
not.
    What all this means is that the laws of supply and demand will no 
longer work for fishermen or for the fishing industry. High abundance 
will not mean high productivity. And the economic rewards of scarcity--
high prices--will go unrealized and rapidly become meaningless.
    That, I believe, puts the task of ``finding the balance'' between 
conservation and production squarely back in the hands of society and 
its elected officials. Society has put abundance ahead of productivity. 
That is a decision that society, of course, is free to make. But we are 
seeing the results of that decision in the newspapers, and especially 
in the faces of those we are asking to shoulder the entire burden for a 
societal decision.
    The fact is that there has been far more energy and money spent 
arguing about the problem than it would take to fix it. I refer, of 
course, to a one-time expenditure of about $400 million dollars to buy 
out half the fleet both in New England and in the Mid-Atlantic. We must 
not allow ourselves to be duped into thinking that the ocean's soon-to-
be abundance will result in productivity which will sustain a thriving 
fleet at its present size. And despite the frequent references to some 
future paradise ``when the stocks are restored,'' the Sustainable 
Fisheries Act will still forever change the old formula of supply and 
demand for the fisheries. That is the political hoax and the 
mathematical swindle. The rhythms of the ocean will not be legislated 
into perpetual, perfect stability.
    And here, we must come back to words and their power. It is time to 
put aside the convenient, demonizing labels. Fishermen plundering the 
resource. Trawlers destroying everything in their path, leaving a 
barren moonscape. Monster vessels scooping up the bounty of the sea. 
That rhetoric may be useful for getting media attention, or for fund-
raising, but it does not accomplish much, and its inaccuracy saps 
energy in rebuttal, and distracts us from the real issues.
    If we want an abundant ocean, and are willing to forego some of its 
productivity to achieve that, if we want marine protected areas, more 
fish for recreation, or for aesthetic enjoyment, we need to solve the 
problem. Fishing, frankly, isn't much fun anymore, and is making a 
painful transition from a lifestyle to a business. Lifestyle is no 
longer an issue. It's just business. And being just a business, it can 
be addressed by money. And incidentally, whether that business will be 
controlled by corporate giants is another issue for another hearing.
    But in the meantime, realize that the problem is really rather 
simple. A fleet was bloated by the tax policies of the 1980's, critical 
fishing grounds were lost to Canada in the World Court decision in 
1984, and now the laws of supply and demand have been revoked. The 
industry has been forced to shoulder its share of the burden for these 
things. Considerable revenue has been foregone, and many have left and 
more will go. Now it is time for society in general, the taxpayer, to 
stop demonizing and labeling and shirking its responsibility, and pay 
for the remaining share--the balance, if you will--of the cost of 
getting what it wants. $400 million dollars is the cheapest way out of 
this mess.
A Perspective on Fisheries Science
    The overuse of mathematics has long been a detriment to good 
fishery management, but in recent management decisions under the 
Sustainable Fisheries Act, the problem has become far more acute.
    This issue is more fully explored in the attached talk given in 
Halifax in December, 1998, and need not be repeated verbatim.
    Nevertheless, it is apparent to many of us that the National Marine 
Fisheries Service must become a secondary player in the job of 
providing science for fishery management. The mindset of the Agency is 
simply too academic, and NMFS is patently unwilling to adapt to the 
needs of fishery managers. All too often, rules go into place based on 
information that is well over two years old, and this is simply not 
acceptable. Please see the attached article, ``Ecology, Bureaucracy and 
Differential Equations,'' by Professor Jacquie McGlade, from 
Mathematics Review.
    Fishery managers need information which is timely and accurate. The 
precision of that information is less important than its general 
accuracy. We have had one instance after another when the situation on 
the fishing grounds is entirely different from that which has been 
described by the stock assessment community. We simply can no longer 
work on their schedule, and they show no willingness to change. For 
that reason, NMFS' scientific personnel should pursue fishery science 
on a larger scale, more academic in nature, and the Councils should be 
the ones to determine what information is needed for management now. 
And the Councils must be given sufficient budget to work with the 
industry and their university partners to get the information they need 
when they need it.

A Few Suggestions
The definition of ``Fishery''
    In the Sustainable Fisheries Act's definitions, a ``fishery'' is 
defined as ``one or more stocks of fish which can be treated as a unit 
for purposes of conservation and management and which are identified on 
the basis of geographical, scientific, technical, recreational, and 
economic characteristics.''
    One of the most serious difficulties facing the fishing industry is 
the interpretation, by the National Marine Fisheries Service, of the 
word `stock' to mean only one species of fish, and `stock,' in that 
interpretation, to mean only different bodies of that one species. For 
example, a Georges Bank stock of cod and a Southern New England stock 
of cod. The current interpretation does not permit an understanding of 
``fishery'' to include several species which occupy the same ecosystem. 
This interpretation is in place despite the fact that some Fishery 
Management Plans cover several species.
    We cannot believe that Congress intended this as NMFS interprets 
it.
    This interpretation has led to fundamental absurdities, the most 
egregious being a standard for fishery management which holds that all 
species must be simultaneously at a level which can produce maximum 
sustainable yield. This, of course, is impossible. The cycles and 
fluctuations of the ocean environment, as well as pure anomalies, 
render this situation not just impossible, but ridiculous. Politically, 
it also makes every species a potential ``snail darter,'' if that 
species happens to be on a low part of its cycle. When areas are closed 
to protect one species, all other fisheries in that area are closed as 
well, usually, simply because fish are generally caught together.
    A good example is dogfish, a small coastal shark. For fifteen years 
or more, fishery managers have been castigated (sometimes by Congress 
itself) for allowing an ecosystem to develop which is dominated by this 
species, which competes for food with other fish such as cod and 
flounder. Now, however, we are being told that the Sustainable 
Fisheries Act requires us to maintain the dogfish resource at a level 
which is nearly five times what it was when the ecosystem was in far 
better condition. In 1965, the `good old days' of groundfish abundance, 
the biomass of dogfish was about 100,000 metric tons. We are now being 
told by the National Marine Fisheries Service that the law requires us 
to maintain the dogfish biomass at approximately 500,000 metric tons. 
We cannot believe that Congress intended this, or that this level of 
biomass will not be without its price for the other species we are 
trying to restore. Please see the appended NMFS graphic on the dogfish 
resource.
    The same counter-productive interpretation has been given to 
National Standard 3, which says that ``interrelated stocks of fish 
shall be managed as a unit or in close coordination.'' But at the same 
time, Congress has told us to take into account ``the interaction of 
the overfished stock of fish within the marine ecosystem'' (section 304 
on Rebuilding Fisheries).
    Fishery managers must be given the flexibility to make decisions 
which are guided by good judgment and experience, and not simply a 
mathematical formula which states, and an Agency which demands, a 
hypothetical mathematical maximum for every species simultaneously, 
without regard for any relevant circumstances.
    To provide that flexibility, it would be very useful if the 
``Definitions'' section of the Magnuson-Stevens Act were clarified, by 
whatever device, to include ``. . . or interrelated species'' in the 
definition of ``fishery,'' so that it would read, ``one or more stocks 
of fish, or interrelated species, which can be treated as a unit . . 
.'' This clarification of Congressional intent would be a significant 
help to fishery managers.
    In this way, fishery managers will be able to bring to bear their 
experience, judgment and wisdom, as they were intended to do. This will 
make the job of achieving the ``greatest national benefit'' from our 
ocean resources, as the law intends.
National Standard 4 and State-by-State Quotas
    National Standard 4 prohibits fishery management plans from 
discriminating between residents of different States. Congress' intent, 
in addition to fairness, was to keep the fishery management process 
from simply becoming a parochial grab for fish.
    In a remarkable bit of sophistry, some plans allocate quotas to 
states. The worst example of this is the plan for summer flounder 
(fluke), in which nearly 50 percent of the quota is allocated to the 
states of Virginia and North Carolina. Fishermen from different states 
fish beside each other in federal waters, but one fisherman may only 
keep 100 pounds, while another may be able to keep 10,000 pounds. The 
states, in turn, refuse to issue landing permits to residents of other 
states, although the structure of the permitting process is carefully 
tailored to avoid the appearance of discrimination. It simply works out 
that way. Both Massachusetts and Connecticut have sued the Secretary 
over such plans. And whether or not anyone wants to admit it, a 
`payback' mentality has developed in the different regions--``you do 
this to us on fluke or groundfish, we'll do that to you on squid or 
whiting.'' This is never on the record, of course, but it is there, 
like it or not. In the near future, we may see a similar exchange on 
mackerel and herring, unfortunately. And the fisherman is always the 
one who suffers in this atmosphere.
    The only cure for this insidious practice is to prohibit the 
allocation of quota on a state-by-state basis. Congress must do it now, 
and require FMP's which follow this practice to be changed within one 
year.

Council Appointments
    At one time, it mattered little which Council--New England or the 
Mid-Atlantic, had jurisdiction over a fishery. Since the rules applied 
to all (fish size, net size, etc.), a measure of comfort was obtained 
from the idea that the `other fellow' would also have to live with 
whatever rules he put on me.
    That has changed as the fishery management process has become more 
and more allocative. (This issue is related to the problem of state-by-
state quotas.)
    One partial cure is to reserve seats on the New England Council for 
New York and New Jersey, and on the Mid-Atlantic Council for 
Connecticut and Rhode Island. An alternative is to have each Council 
designate two members to the adjoining Council who will have full 
voting powers.

Joint Fishery Management Plans
    Once again, allocation issues have changed fishery management 
dramatically in recent years. And although joint management plans are 
cumbersome, as we have seen in the FMP for Dogfish, joint management is 
essential for fairness. An easy cure for the problem of conflict is to 
change the SFA so that a majority of the two Councils combined would 
suffice to submit a plan to the Secretary. At present, each Council, by 
a majority, must approve a joint plan.

The Precautionary Principle and National Standards 2 and 8
    The Precautionary Approach may be appropriate for management, but 
it is never appropriate for science. The application of `precaution' to 
scientific calculation is nothing more than the politicization of 
science. And yet the National Marine Fisheries Service requires this in 
the notorious 602 guidelines. Furthermore, in the treaties to which the 
United States is party, the application of the Precautionary Principle 
is not required when dealing with purely domestic fisheries.
    In addition, those treaties do not confine the application of the 
Precautionary Principle to simply biological issues. Socio-economic 
considerations are also appropriate, but no ``Control Rules'' analogous 
to those for biological concerns have been developed which would assist 
fishery managers in dealing with National Standard 8. Please see the 
appended letters to Penny Dalton and Patricia Kurkul.

                                                       Attachment 1
      from science to illusion: mathematics in fishery management
                             James O'Malley
   (Originally printed in Pacem in Maribus XXVI, International Ocean 
                               Institute)
       Crisis of Knowledge--Halifax, November 29-December 3, 1998

    Just so that there is no possibility of misunderstanding, I should 
tell you first that I am a representative of commercial fishermen, and 
their advocate. The East Coast Fisheries Federation membership is 
centered in the New England and Mid-Atlantic area of the U.S., and we 
fish everywhere from the Gulf of Maine and Georges Bank to Cape 
Hatteras and the Gulf of Mexico. The vessels in the organization are 
both ``wetfish'' boats, bringing in fresh fish every few days, and 
freezer trawlers. Most are in the range of 20-40 meters, owner-
operated, with crews of five or six. That information may help you 
understand some of my remarks, as well as my attitudes.
    It was said of Defense Secretary Robert MacNamara that his devotion 
to mathematics clouded his vision. And whenever I hear a fishery 
scientist proclaim that his analysis is ``rigorous,'' I am reminded of 
what John Galbraith is reputed to have said once to a group of 
economists: that the prestige of mathematics has given economics rigor, 
but alas, also mortis.
    And the proposition that I put to you today is that the same 
condition that Galbraith diagnosed in economics has infected the 
science with which we attempt to comprehend the fisheries and the ocean 
environment itself.
    I am not suggesting to you that mathematics is not a useful tool. 
But it has become the heart of the system, an intellectual bureaucracy, 
an end in itself, and an excuse to defer investigation into far 
broader, more important questions. Once other things are understood, 
mathematics can help us refine that understanding, expand it, and 
perhaps even make projections with it. And occasionally--rarely, but 
occasionally--mathematics helps us understand something that we did not 
understand at all before.
    But what has happened in our attempt to comprehend the oceans is 
that mathematics has been elevated to a status which suppresses 
knowledge and actually detracts from our efforts to acquire knowledge.
    The best example I can give you of that is fishery management in 
the United States today. Our recently-amended fishery law, the 
Sustainable Fisheries Act mandates that the fisheries be maintained at 
a level which can continually produce maximum sustainable yield. But 
because ecosystems and interrelationships are poorly understood, each 
individual species has been thoroughly--perhaps I should say 
rigorously--analyzed, and regulations passed which attempt to 
accomplish this maximum for each species. But appealing to the 
mathematicians among you, I have to ask if it is possible to maximize 
any equation for multiple variables simultaneously. Can you have an 
ocean full of every kind of fish at the same time? Of course not. And 
yet that does not deter anyone in fishery science or fishery 
management. In the words of Jake Dykstra, we are all too busy 
calculating our mismanagement to manage properly.
    The absurdities and contradictions become Kafkaesque. For over a 
decade, commercial fishermen have been told that the overfishing of 
groundfish has resulted in an ecosystem on Georges Bank which became 
dominated by elasmobranchs--dogfish and skates. Dogfish, especially, is 
an omnivorous predator whose numbers have severely retarded the 
rebuilding of groundfish. Now, under the new law, we are faced with the 
prospect that these elasmobranchs must be maintained at that same, 
grotesquely unbalanced level--because it is the maximum and therefore 
desirable.
    There are many, many similar examples. A few years ago, an 
organization in the environmental industry successfully sued the U.S. 
government over groundfish--haddock, cod and flounder--on Georges Bank. 
When the fishermen and the managers then proposed the things they knew 
would work--large closed areas, gear restrictions and the like--the 
reply seemed always to be that the proposals were not ``quantifiable,'' 
and therefore unacceptable. And while the managers struggled to find 
conservation rules for which measured estimates could be made, a 
dislocated industry seriously depleted several other species which were 
not regulated or protected at all. This occurred despite pleas from 
fishermen for basic conservation measures to protect those other 
species. We were not permitted to put in rules as basic as minimum 
sizes until the mathematicians had completed their estimates and 
calculations. I stress that the problem was not mathematics per se, but 
the place of idolatry we have given it.
    And it is idolatry. Like any priesthood, it has developed its own 
language, rituals and mystical signs to maintain its status, and to 
keep a befuddled congregation subservient, convinced that criticism is 
blasphemy. Late at night, of course, many members of the scientific 
community will confess their doubts. But in the morning, they reappear 
to preach the catechism once again.
    The examples go on. We now try, in fishery management, to protect 
what is called ``essential fish habitat,'' and this attempt is the 
clearest proof I know that we have replaced understanding with 
mathematics. The fact is, we know very little about the habits of fish. 
And so ``essential fish habitat'' was designated by reviewing research 
data to see where the fish have been found, and automatically assuming 
that, if fish are there, it is ``essential habitat'' and if the fish 
are not there, it is not essential.
    That approach is roughly the equivalent of proclaiming that 
Essential Human Habitat is a football stadium on Sunday afternoon, or 
perhaps a traffic jam during commuter hours. After all, that's where we 
find the most people. Bedrooms and kitchens are not essential, because 
we don't see the aggregations of humans there. Farmland becomes 
irrelevant. This is a clear misuse of what is supposed to be a 
scientific tool.
    Most frightening of all, our complacent acceptance of this approach 
shows that mathematics has become a substitute for science. It has 
become a defense against an appropriate humility, and a barrier to the 
acquisition of knowledge and understanding of our ocean environments. 
My rancor is for the misuse of mathematics, not a Luddite reaction 
based on my own ignorance of the discipline. I have a great respect for 
mathematicians. And of course, you did hear about the fishery biologist 
who didn't know his phone number, but he'd be happy to estimate it for 
you?
    When used improperly, mathematics becomes a reason to accept 
absurdity. We have been given a theoretical level of abundance in the 
scallop fishery, based on time-honored models of fishery science. That 
theoretical abundance that we are supposed to achieve is twice what has 
ever been observed either by the fishermen or the scientists. That 
maximum was based on what we did know about the growth rate of the 
animal. But there was no possible way to calculate something called 
``density dependence,'' scallops so thick that they are literally 
suffocating themselves, so the phenomenon was simply ignored in the 
analyses. But those who have spent their lives on the ocean knew about 
it, and they were right, as we are now discovering. Scallops smother 
themselves long before they ever reach those theoretical levels of 
abundance.
    Science, in my opinion, seeks the truth, is humble, and delights in 
the search for answers. I become very suspicious when the questions 
themselves are dismissed out of hand because they do not fit into the 
present analytical techniques, and might prove those techniques to be 
inadequate. That is intellectual cowardice of the first order. It is a 
refusal to say ``I don't know.'' It is a demurral from the challenge of 
saying, ``we don't know, but let's find out.'' It is rigging the game, 
so that no question can ever be posed which would elicit those answers.
    Examples abound, in fact. One of the most frustrating things that 
fishermen encounter is a drastic change in ``scientific'' 
pronouncements based on some minor change in the assumptions that go 
into the models (and I use that word with some distaste). We have had 
several instances when the estimate of resource abundance has tripled 
or quadrupled when that has happened. More recently, some estimates 
have been replaced by actual measurements, and the assessment again 
triples, scallops being the most notable of these. This is by no means 
the reflexive howl of some elements of the industry, ``leave me alone, 
there's plenty of fish.'' One of the most interesting battles in my 
area now has to do with the mackerel resource. The industry is 
convinced that the scientific estimates of abundance are horrifically 
inflated, and that the allowable catch should be only a quarter of what 
it is on the books.
    I have seen quotas determined to the pound--when thousands of tons 
are missing or appear without explanation. No one seems to care about 
the reasons for these obviously-missing fish, or for their mysterious 
appearance. We are too busy attempting to work the new numbers into the 
models, no matter that the new numbers may clearly demonstrate the 
wrongness of the existing models or the management strategies which are 
based on them.
    This problem, of course, permeates society, academia, and 
government. Things like crime statistics, assessments of our 
educational systems, the quality of medical care, are all issues in 
society that we have come to regard as things we understand through 
mathematics. They are all symptomatic of this malaise, this deference 
to numerical oligarchy. But haven't you ever wondered, as I have, and 
the researchers evidently have not, whether we can really rely on these 
things? When I see some statistic about ``promiscuity among today's 
youth,'' it is clear that only a mathematician would accept without 
question, and dutifully report, what a teen-age boy says about his 
activities in that particular arena. The pseudo-sciences thrive and 
their practitioners aggregate power, salaries and grant money behind a 
cloak of mathematics. Nor is the private sector immune. How often have 
we heard the demise of a perfectly good company summed up this way: 
``The bean-counters took over.''
    Worst of all, the malaise is codified. We are told in law and 
treaty that we must base our decisions on the best scientific 
information available, but I have begun to think of it, and refer to 
it, as ``the best and the brightest'' scientific information, with all 
that that expression implies. I am, naturally, delighted when a fishery 
biologist bristles at that phrase.
    Criticism is never enough, of course. And there are significant 
improvements that can be made. There are even signs that it may be 
happening, just a little. We need to explore and develop alternatives 
to both the way we acquire knowledge in the fisheries, and more 
important, what we consider knowledge to be. And I maintain that 
mathematics is not knowledge, and may not even be ``scientific.'' It is 
only mathematics.
    We must discover the factors behind the rhythms of the sea. We need 
to learn the broader truths, about predator-prey interactions, about 
environmental shifts, meteorological phenomena, food competition in the 
ecosystem. We pay great lip service to these ambitions, but any 
progress toward their accomplishment is constantly hampered by the 
criticism that they are not quantifiable. They do not lend themselves 
to mathematical exercises.
    There is, among the people who are on the ocean every day, an 
enormous body of knowledge which is largely untapped. We have seen 
these things, these events and cycles and fluctuations and anomalies. 
And for the purposes of managing the fisheries wisely and productively, 
it is quite possible that the best tools may be a working set of post 
hoc fallacies, combined with judgment, experience and wisdom. The 
people who are on the ocean every day know that when one thing happens, 
another is sure to follow. Or maybe not--they know that too. They know 
it in their experience, their logbooks, their memories. They know it 
from their fathers and from themselves. They know what a cold winter 
means next year, or an active hurricane season. They know that the 
abundance of one species is good reason to expect the abundance or 
scarcity of another. And they sense cause and effect.
    All too often, that knowledge is dismissed as ``anecdotal,'' and 
not of use in management. And the irony hidden in language here is 
remarkable. ``Anecdotal'' is derived from anekdolos, meaning ``not 
given out,'' or ``not published.'' It does not mean unreliable; it 
certainly does not mean unscientific, if you realize that the word 
``science'' itself comes not from any allusion to calculation, but 
simply, ``knowledge.'' But mathematics has hijacked the definition and 
position of real science. Talk to anyone in the academic world, and ask 
what would happen if a graduate student submitted something like ``The 
Voyage of the Beagle'' or Bigelow and Schroeder's ``Fishes of the Gulf 
of Maine'' as a master's thesis. It would be rejected, and with 
disdain. Why? Because, no matter how bountiful and useful the 
knowledge--the science--it might contain, it has no calculations, no 
graphs, no analyses, and most especially, no models. Just a wealth of 
wonderful information. Totally unacceptable.
    We are, fortunately, seeing at least a little bit of movement in 
the direction of assimilating that wealth of ``empirical data'' into 
fishery management, but not without considerable resistance. There are 
a few research fisheries being conducted now, aboard commercial 
vessels, financed by set-aside quotas dedicated specifically to 
underwriting that research. And that research is dedicated to finding 
the answers to questions which have been posed by those people on the 
ocean, not just gathering more statistically--valid data.
    What is happening out there on the ocean, and why is it happening? 
What will we do about it?
    And that is perhaps the most important question of all. For 
management purposes, for productivity and conservation, we need broader 
answers to bigger questions. My most earnest proposal would be to 
prohibit the use of decimal points in fishery management. That level of 
refinement is neither useful nor legitimate. It is merely a game, an 
exercise, and ultimately, an illusion.
    We can do better than that. And we owe it to ourselves, to the 
ocean, and especially to science itself, to assemble that great body of 
knowledge, those millions of observations, and to use every tool, 
including mathematics, to further our understanding of that knowledge. 
Knowledge and understanding are not the same. They may, in fact, be 
separated by a wide chasm. Mathematics is neither knowledge nor 
understanding. It may be a useful tool to help us bridge that gap. That 
is where it belongs, that is how we should use it, and we need to start 
now--before the bean-counters destroy us all.
    Thank you.

                                                       Attachment 2

                     East Coast Fisheries Federation, Inc.,
                               Narragansett, RI, December 15, 1999.
Ms. Penelope D. Dalton,
Assistant Administrator for Fisheries, NOAA,
National Marine Fisheries Service,
Silver Spring, MD.

Dear Penny:

    As you know, the United States is adopting the Precautionary 
Principle (cautiously) in fishery management. We have, for example, 
agreed to employ the precautionary approach, when appropriate, through 
the Code of Conduct for Responsible Fisheries. When that treaty comes 
into effect, of course, it will be voluntary, since all nations have 
reserved the right to apply the precautionary approach, or not, in 
their own domestic fisheries, as circumstances dictate.
    We have also committed to its use in the case of multinational 
stocks through the Treaty on Straddling Fish Stock and Highly Migratory 
Fish Stocks. That is entirely appropriate, because the resources of 
other nations are involved. And although it is not (and should not be) 
incorporated into United States domestic law, it is a rational policy 
when used properly and not subject to political manipulation.
    We have, however, not gone nearly far enough in considering its 
application to fishery management, because we are only looking at it as 
a biological imperative.
    Both the Responsible Fishing treaty and the Fish Stocks agreement 
require signatories to consider social and economic factors in fishery 
policy. In fact, in neither document is the use of the precautionary 
approach confined to biology.
    The United States should take the lead in the development of 
measures to apply the Precautionary Principle to social and economic 
considerations.
    This would not be a daunting task, but it would be an important 
one. Control Rules analogous to such measurements as biomass goals and 
thresholds, in economic terms, would be easy to identify.
    For example, a certain level of productivity and profitability is 
necessary for fishermen to pay their bills, put groceries on the table, 
and the like. But a critical threshold in such analysis would be 
whether or not vessel maintenance is being performed, whether or not 
the vessel itself is technically ``profitable,'' whether or not the 
vessel's amortization is accounted for, and eventual replacement is 
possible. All of these economic points are analogous to the various 
measures in the biological control rules. Similarly, analyses should be 
undertaken to determine if management measures are preserving the 
character of coastal communities, or changing them irrevocably.
    I fully understand that the Precautionary Principle is not usually 
thought of in these terms, but it is time they should be. The essence 
of the Precautionary Principle is to take action before damage is done 
from which we will not recover.
    The loss of a fleet, an industry, the people in it, the 
infrastructure, the markets, the social character of our coastal 
communities--all demand equal treatment with purely biological 
concerns. Once we lose any one of them, we will not recover.
    Furthermore, I firmly believe that Congress had exactly these 
concerns in mind when they incorporated National Standard 8 
(communities) and even National Standard 10 (vessel safety) into the 
Sustainable Fisheries Act. I also believe that we, and all signatory 
nations, are obligated by treaty to expand the Precautionary Principle 
to economic and social concerns, and the United States should take a 
leadership role in that endeavor.
    I hope to hear from you that you agree that this is an appropriate 
undertaking for the National Marine Fisheries Service and its 
researchers and analysts. I would be very pleased to participate and 
assist in any way that I can, and I am certain that many, many other 
fishermen will be very willing to help.
    I look forward to your reply.
        With regards,
                                         James D. O'Malley,
                                                Executive Director.

                                                       Attachment 3

                     East Coast Fisheries Federation, Inc.,
                               Narragansett, RI, December 15, 1999.
Ms. Patricia A. Kurkul,
Regional Administrator,
National Marine Fisheries Service,
Gloucester, MA.

Dear Pat:

    I recently made the remark that fisheries science, as presented to 
the Councils, was ``politically massaged,'' a comment that you found 
offensive. I regret that the circumstances did not allow a fuller 
discussion, and this letter follows as a result. (Parenthetically, I 
think it's a serious sign of overwork when I have to remind you of 
which of my remarks you find offensive.)
    Fisheries science is, of course, politically massaged. The 
astonishing thing is that those who practice that manipulation are 
proud of it, believe it to be their duty, and say so on the record. 
This applies not only to NEFSC personnel, but members of the Council 
staffs, the Overfishing Definition Panel, and the Science and 
Statistical Committees. I refer, as you may have anticipated, to the 
practice of applying the Precautionary Principle to fishery science.
    First of all, the precautionary approach is not part of any United 
States domestic law, and only applies internationally on a voluntary 
basis (the Code of Conduct for Responsible Fisheries), or when 
straddling stocks are involved (the Fish Stocks Agreement). In fact, no 
country that I know of has committed itself to the compulsory 
application of the precautionary approach in their own fisheries, 
without reserving the right to suspend the use of the precautionary 
approach for good reason.
    I do understand, though, that Andy Rosenberg recently told Congress 
that we ought to incorporate the precautionary approach into the 
Magnuson Act. NMFS guidelines and Agency attitudes, however, treat this 
principle as though it were already law; but that is just another 
example of a bureaucracy assuming the power of lawmakers, and 
substituting its judgment and ambitions for that of the Congress. If 
the Congress or the citizenry tolerates that, shame on them.
    The reason that the precautionary approach constitutes `political 
massaging' is that the Councils are always presented with single-point 
calculations, into which the various assessment scientists have already 
incorporated the precautionary approach. They have said so on the 
record, proudly, on any number of occasions. This has been true of 
every model from 200,000 metric tons of adult female dogfish, to 8 
kilograms per tow of scallops, to discard mortality estimates for 
fluke. The effect is especially pernicious when proxies are used for 
the various biological targets, as we have seen when ``scientific'' 
models are replaced with real measurements.
    Every variable and every assumption going into the models is guided 
by the precautionary approach, and the most conservative and 
pessimistic projections result. The net effect is ``science'' 
determined by political ideology. Ironically, I have been just as 
critical of ``scientists,'' in years gone by, who painted too rosy a 
picture for political purposes. Either one is simply bad science. The 
net result is absurdity, and bad management.
    More insidious is that this practice makes the entire process of 
fishery management a technocracy, accountable to no one, and renders 
the Congress and the Councils irrelevant. Some see that as a desirable 
goal, of course.
    But the fact remains that the use of the precautionary approach 
only has credibility as a management tool, not as a `scientific' one. 
And the only way that fishery scientists will regain their credibility 
is when they present a range of conclusions to the Councils--at which 
point, they will be more than welcome to describe one or another 
measure as ``precautionary'' or not.
    But to incorporate a politically-based conservatism into the 
``science'' of fishery management discredits all science by turning it 
into mere ideological advocacy.
    I am sure you will have a rebuttal, and I look forward to receiving 
it.
        With regards,
                                         James D. O'Malley,
                                                Executive Director.

                                                       Attachment 4

          Differential equations + bureaucratic delay = chaos
            ecology, bureaucracy and differential equations
                            Jacquie McGlade
                     Mathematics Review, April 1994
And now here is the shipping forecast for 0600 hours . . . Cromarty: 6, 
1027 and rising . . . Dover: gale force winds rising 1000 and 50 . . ., 
John Stochasky looked out to sea once more and then got his gear ready 
to go. A few phone calls later the crew was alerted and as darkness 
began to fall they were ready to cast off for another trip. This 
activity had not gone unnoticed. Brendon McCart and his crew were soon 
on the dockside on the Rose-Marie and steaming out of port hard on the 
heels of the Lady Dawn. Charts were brought up, courses set and the 
chase was on.

But who was chasing what? John Stochasky had made his decision to go 
south towards the Dogger Banks and hunt for flatfish; Brendon knew that 
John Stochasky, as one of the local highliners, was onto something and 
it was always worthwhile chasing him. `Where're diddling John?' `Is 
that you Brendan? Oh I thought I'd go north about.'

    Two hours later, as the two skippers moved offshore into the North 
Sea, large orange blocks began to appear at the bottom of the echo-
sounder screen on the Lady Dawn. There was a massive surge of activity 
on deck, and in the freezing rain nets were set, ropes cleared and the 
massive winches and hauling gear put into action. Trawling the nets 
behind the vessel John Stochasky kept a close eye on other vessels in 
the area and laughed to himself when he soon got a call. `What you 
getting now John?' came the voice over the radio. `Oh only a few 
baskets Brendan, I'll be moving on soon.'
    With no signs of large schools of fish on their sounder, Brendan 
and his first mate decided that the Lady Dawn was only checking gear 
and set their own course for a well known groundfish area 30 miles 
north. They knew others were fishing there, though with limited 
success. As they steamed over the horizon, the Lady Dawn completed a 
large haul, turned south and headed off towards Dogger Bank. Over the 
next two days, John Stochasky saw only three other vessels; he had 
short radio transmissions with other vessels but the information was 
coded so that only those within the group could decipher the 
information.
    Sailing back into port three days later, the Lady Dawn jostled 
heavily in the water alongside the Rose-Marie. With their catches 
landed it was simply a matter of talking to the processors and 
auctioneers and watching the bidding. The difference in profits between 
the Lady Dawn and the Rose-Marie was threefold; enough for John 
Stochasky to buy a new side-scan sonar and satellite positioning gear, 
plus new freezing equipment, thus enabling him to hunt for new sources 
of fish in deeper areas further afield.
Managing fish stocks
    John Stochasky was obviously acting in a different way from Brendan 
McCart, taking more risks by going to an area for which he had little 
information about catch rates. Brendan McCart adopted a low-risk 
strategy by going to sea at the same time as a known highliner, but 
then going to a fishing ground where there were already many boats 
fishing and for which he had some information about catch rates, even 
though they were very low.
    Imagine this picture repeated again and again, and you can begin to 
see how complicated it is to manage fish stocks from year to year. So 
where does mathematics come into the picture?
    To manage stocks of fish we must try to interpret the natural 
fluctuations in fish populations and the possible effect of fishermen's 
activities on these changes. And to do this we need to build up some 
simple mathematical models. In particular we must examine the changes 
in fish populations, the changes in the numbers of fishermen and boats 
from different fleets, the amount of time spent fishing at sea, the 
quantity of fish caught from different areas, the price fishermen get 
at the dockside and the price paid by the consumer. We also need to 
take into account the fact that prices depend on supply and demand, and 
also vary with the cultural identity of the consumer population and 
their response to price changes. For example, when the Vatican 
announced that Catholics were no longer obliged to eat fish on Fridays, 
there was a dramatic effect on fish consumption in places like Boston, 
where there is a very large Catholic community.
Building a model
    So let's start with the fish populations themselves and look at the 
data from a typical fish population as it changes through time. In 
Figure 1 we see that the number of fish caught from a population is not 
constant, but changes from year to year. This is because fish die 
variably from disease, predation by other fishes, and of course old 
age. If we were to look at how a group of fish all of the same age 
alters through its lifetime, we would see that in the first year of 
life nearly all the fish die off; this is because, when young, they are 
very vulnerable to changes in conditions in the ocean and are also 
tempting meals for larger fishes. As the fish grow, the death rate or 
mortality decreases and eventually becomes almost constant. But at a 
certain age they are able to reproduce, and begin the cycle again. So 
if we think about changes in the whole population, we will need to 
consider births, growth and deaths. We can do this by using a 
differential equation, the so-called `logistic growth equation':

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


where x is the number of fish in the population, and so dx/dt describes 
how fish numbers change through time. The b is the birth rate of 
fishes, N is the maximum number of fish the environment can sustain, 
and m is the death rate. Notice that this equation is almost the same 
as the differential equation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


which was discussed in Mathematics Review Vol. 4, No. 1, pp. 6-8 (where 
it appeared as equation (3)). The only difference is that in equation 
(1) we have incorporated the factor (1-x/N), it reflects the fact that 
if the population increases so much that it drawns near to N, the birth 
rate drops off to zero. Correspondingly, if the population is very low, 
so individuals do not have to compete for scarce resources, the birth 
rate is relatively high.
Long-term trends
    But there are also some very large, underlying trends in the fish 
population data which need to be explained. To describe these 
mathematically we need a mathematical model that will predict similar 
long-term behaviour. One of the most straightforward models focuses on 
the interaction between the fishermen and fish. Here we have a predator 
(fishermen) and prey (fish). The equations for predator-prey 
interaction have been studied for a long time. They are called Lotka-
Volterra equations after the two men who first developed them 
(independently). In fact Volterra's original work was performed in 
connection with the periodicities he had noticed in the populations of 
fish species in the Adriatic Sea, where he liked to go fishing. Lotka 
was a chemist, and he obtained the same equations in a study of 
chemical reaction rates. Their idea was that there are not one but two 
populations we should be looking at. Let y be the number of fishing 
boats putting out to sea; it's reasonable to assume that the catch of 
each boat is proportional to the abundance x of the fish; say it is sx 
(where s is the constant of proportionality). Then the net effect of 
the fishing is to diminish the fish population x by sxy per unit time. 
Thus equation (1) becomes

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


But now notice that not only do the fishing boats affect the fish 
population: the abundance of the fish, x, affects the likelihood of 
each boat putting out to sea. If x is high, then y will increase, while 
if x is low, y will decrease. So we have another equation

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


where r and n are two new constants of proportionality. The term -ny on 
the right hand side of (2b) is there because the more fishing boats are 
out at sea, the greater is the competition among fishermen and the 
smaller their catch. If the number of boats out at sea is too great, 
fishing ceases to be profitable and boats will start to return to port. 
I have called the two equations (2a) and (2b) because they are really 
part of a pair of simultaneous differential equations. Neither can be 
dealt with separately from the other, because there are now two 
unknowns, x and y, as well as time t, and as is clear from the 
equations, x affects y and y affects x.
    Rapid reassurance. The solution of equations like (2) is not part 
of the A-level syllabus! In fact you don't need to solve them to learn 
a lot from them. Indeed, nowadays nobody looks for explicit formulae 
for the solution of differential equations like (2a) and (2b). For one 
thing, computers can produce what are called numerical solutions. 
Because of its huge number-crunching capacity a computer can come up 
with a set of figures that describe the solutions of the equations. It 
can even plot them on a graph. It doesn't have to solve the equations, 
in the sense of finding a formula, in order to do this. If this seems 
impossible, just look back at the article on differential equations in 
Mathematics Review, Vol. 4, No. 1, pp. 6-8: there you were encouraged 
to draw the graphs of solutions of a differential equation, guided just 
by the alignment of the tangent lines. Clearly, you didn't need to know 
a formula for the solution to be able to draw the graph. A computer 
produces a numerical solution to a differential equation in rather the 
same way.
    Moreover, a whole variety of mathematical techniques has now been 
developed for obtaining qualitative information about solutions without 
actually having to obtain formulae for them. The kind of qualitative 
information sought is, for example, what the long-term behaviour of the 
solutions will be, whether they will settle down to constant values or 
continue to fluctuate periodically, how sensitive they are to changes 
in the initial conditions, and so on. Using such qualitative 
information, together with numerical solutions produced by computer 
simulation, mathematical ecologists can check to see if the equations 
they come up with, like (2), really do model successfully the phenomena 
they are investigating, such as the predator-prey interaction in the 
case of (2).
    Solutions to equations like (2) can be represented in the plane, 
with x and y standing for the populations of prey and predator 
respectively. Both x and y are functions of time t, so for the moment 
let us write them as x(t) and y(t). As t varies, the point (x(t),y(t)) 
traces out a path, which we can draw. In Figure 1 we show several such 
paths. Figure 2 shows a sequence of real measurements of the numbers of 
fish and fishing boats out at sea over the years 1969-1980. Although it 
is a lot spikier than the curves in Figure 1, the cyclic behaviour is 
clear.
    Some qualitative information is easy to come by. For example, 
looking at equations (2a) and (2b) we can easily find some constant 
solutions. If rxy = ny then dy/dt = 0, and y is constant; assuming y is 
not zero, then x = n/r. Now substitute x = n/r into equation (2a). We 
get

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


So in order that dx/dt be equal to 0, we must have

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Thus,

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


is one constant solution. It corresponds to the point marked S in 
Figure 1. There are others: I leave you to work out what the 
possibilities for x are if y = 0. But the constant solution with 
neither x nor y equal to zero is the most interesting. Now what happens 
if (x,y) is near, but not equal, to the constant solution S? In Figure 
1, nearby solutions are seen to be closed curves which circle around S. 
In terms of the situation we are modelling, this means that the 
populations of both predator and prey undergo periodic fluctuations, 
somewhat out of phase from one another. This is shown in Figure 3 
produced by computer simulation. And this is exactly what Volterra 
found (to his surprise): the equations predicted cyclical fluctuations 
in the populations of predator and prey. At that time (in the 1930s) 
people had noticed the existence of periodic fluctuations in fish 
populations. But they had put them down to recurrent epidemics, or 
simply unexplained `good' and `bad' years. The fact that Volterra's 
equations actually predicted such fluctuations came as a surprise, 
since most people believed that `all other things being equal,' 
populations would tend to some kind of stable equilibrium. The 
equations helped people to understand that the stable situation 
involved a kind of `simple harmonic motion' in which each population 
fluctuated up and down.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The interaction between predator and prey can be understood in the 
following way: imagine that you are pushing a swing. When the swing is 
at its lowest point and you push it hard, it will go higher than if you 
push it when it is half-way down. So the fishing boats tend to 
reinforce the fish population cycles, increasing when the fish numbers 
increase and declining when the fish population falls. The result can 
be quite dramatic. In Figure 3 we see how the system amplifies or 
enlarges the natural fluctuations in the fish population and sets 
itself into relatively violent oscillations. The fishermen then have to 
respond to these boom and bust cycles. This makes for a cycle that 
looks just like the one in Figure 4, for the haddock fishery off Nova 
Scotia in Canada.
Management of fishing
    Now we add a new character to our mathematical drama: the civil 
servant.
    From the point of view of both the fishermen and the consumer, 
drastic fluctuations of fish populations are highly undesirable, so 
there are government agencies charged with regulating the amount of 
fishing done.
    But unfortunately, what has happened in many fisheries is that the 
managers themselves have actually made the situation worse by 
intervening in these cycles. When the fisheries scientists collect 
information about the size of the fish populations, it takes time to 
process the data and produce an analysis. Then there is an additional 
delay between agreeing on a level of catch or quota that the fishermen 
are allowed to take and putting it into action. In some areas fishermen 
are being regulated by information that is sometimes as much as two 
years out of date. And when this happens the fishermen might find 
themselves fishing in a way corresponding to increasing population 
sizes when in fact the fish populations are in a declining part of the 
cycle. Or vice-versa.
    Understanding the mathematical behaviour of the model enables us to 
show that when the population of the predator is increasing faster than 
that of the prey, the subsequent crashes can be far worse than if they 
were moving together in phase. Seen from the perspective of the fishing 
industry, left to jump from one crisis to another, using the wrong 
mathematical model can often mean that no management would be better 
than management based on out-of-date information.
Two types of fisherman
    A fisherman's job is to hunt and search for fish, catch it and 
return it to dock as a product that can be sold at a good price. But as 
our excerpt from a fishing log showed, some fishermen are stochasts 
(high-risk takers) while others are cartesians (low-risk takers). These 
types respond differently to the same information; a stochast will move 
quickly to a new area even if there is only sparse information about 
good catch rates. A cartesian, on the other hand, will need lots of 
convincing to go somewhere else. The tendency to move relies on an 
individual fisherman's natural inclination, plus the information he 
gets from other members of his fishing fleet. Add a touch of 
superstition and incorporate all of this into the mathematics we were 
discussing above, and you have the mix that makes up a very interesting 
model!

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Further reading
    The Lotka-Volterra equations are discussed in Chapter 7 of Burghes 
D.N. and Barrie, M.S. (1981) Modelling with Differential Equations, 
Ellis Horwood, and also in Maynard Smith, J. (1991) Evolution and the 
Theory of Games, Cambridge University Press.

                                                       Attachment 5

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Snowe. Thank you. Excuse me. I have to ask the 
audience: I know there are a number of people who want to 
continue to speak, and we're going to have to limit the time of 
each speaker. We only have ten or 15 minutes left. So I would 
appreciate it if everybody will be conscious of the clock. I 
know there are a number of other people who would like to 
speak, and I would like to accommodate everybody. The record 
will remain open for ten days. So thank you.

               STATEMENT OF WILLIAM R. PALOMBO, 
               PALOMBO FISHING CORP., NEWPORT, RI

    Mr. Palombo. Chairman Snowe, I'm Bill Palombo, Palombo 
Fishing Corp. I have been involved in the off-shore lobster 
fisheries since 1971 and now own five off-shore lobster boats 
operating out of Newport, Rhode Island and Gloucester, Mass. I 
also own and operate a 17,000 square foot wholesale lobster 
distribution plant called Boston Wholesale Lobster Corp.
    And frankly, I have been very disturbed by the total lack 
of responsibility that both NMFS and the Council have assumed 
in management of the lobster fishery, one of the most important 
fishery resources on the coast.
    Since 1991 I have been asked by the bodies that are 
responsible to manage these resources to participate on two 
separate LCMT teams. We were asked to come up with a consensus 
among lobstermen to responsibly manage this lobster resource. 
Both times I along with fellow lobstermen after spending many 
hours of our time at our own expense came up on two separate 
occasions over many years with plans to manage the lobster 
resource. These plans caused the least disruption to the actual 
practice of how the catch was being harvested, while at the 
same time meeting conservation goals. Unfortunately, these 
plans weren't implemented and a plan now is implemented.
    I'm going to skip the rest of my remarks only to say that 
what we think at this point is that we think that the ITQs and 
IFQs are a very important part of the management plan. And we 
think that they need to be incorporated in the reauthorization 
because at this point every tool is needed to be available.
    And that's all I have to say. I'll submit my written 
remarks.
    Senator Snowe. Thank you. I appreciate it.
    [The prepared statement of Mr. Palombo follows:]

   Prepared Statement of William R. Palombo, Palombo Fishing Corp., 
                              Newport, RI
    I have been involved in the offshore lobster fishery since 1971 and 
now own five large offshore lobster boats operating out of Newport, RI 
and Gloucester, MA. I also own and operate a 17,000 square foot 
Wholesale Lobster Distribution Plant, Boston Wholesale Lobster Corp., 
in Lynn, MA. Frankly, I have been very disturbed by the total lack of 
responsibility that both NMFS and the Council have assumed in the 
management of the lobster fishery, one of the most important fishery 
resources on this coast.
    Since 1991, I have been asked by the bodies that are responsible to 
manage these resources to participate on two separate LCMT's. We were 
asked to come up with a consensus among lobstermen to responsibly 
manage this lobster resource. Both times, I, along with fellow 
lobstermen after spending many hours of our time and at our own 
expense, came up, on two separate occasions over many years, with plans 
to manage the lobster resource. These plans caused the least disruption 
to the actual practice of how the catch was being harvested while at 
the same time meeting conservation goals laid out by law.
    Today we find ourselves about to operate under a plan that does not 
reflect the concerns and recommendations of either, the LCMT's, the 
fishermen or the conservationists. A plan that has the potential of 
adding fishing effort rather than decreasing fishing effort because it 
does not reflect and require historic participation levels. A plan that 
can not pass the Government's own guidelines for decreasing mortality. 
And now we may be continuing to ban a tool (ITQs) that may be necessary 
to manage our resource correctly in the future.
    To a fishing businessman who has been intimately involved in the 
process and who makes his living from this resource, our Government's 
actions do not make sense. They further convince me that our Government 
is not serious about protecting and enhancing our resources. We should 
have every fishery management tool available to our industry. ITQ's 
will not be part of any management plan unless there is a widespread 
consensus in any fishery involved. If they are banned they will not be 
available to any fishery where they are appropriate for conservation 
and management.
    We have gone through a long consensus building process within our 
own group Atlantic Offshore Lobstermen's Association of which I was 
President for 15 years and am now just a member. AOLA is not promoting 
ITQs in the management plan today but many of us feel that we would 
like them available to our industry in the future should the vessels 
involved see the benefits for using ITQs somewhere down the line. A 
continued ban of even considering them as a management tool flies in 
the face of logic.
    The Lobster Management Teams consisting of industry representatives 
and scientific technical advisors are charged with the task to develop 
regulations which, when implemented, reduce mortality and increase egg 
production of the stock. The offshore lobster industry through AOLA has 
pulled together to recommend strong and meaningful conservation 
measures necessary to preserve the resource for future generations. It 
is my strong belief that no management tool should be taken out of the 
hands of industry representatives or fishery managers.

 STATEMENT OF PAUL E. BENNETT, COMMERCIAL FISHERMAN, RED DEVIL 
           FISH AND LOBSTER CO., INC., MIDDLETOWN, RI

    Mr. Bennett. Good afternoon, Madam Chairwoman, Senator and 
Committee members. My name is Paul Bennett and I'm a commercial 
fisherman from New England. I've been an active participant in 
several different fisheries over the last 28 years, but 
primarily off-shore lobster. I'm a graduate of the University 
of Rhode Island's commercial fishing marine technology program. 
I've been a member of the Atlantic Off-Shore Fishermen's 
Association, Atlantic Off-Shore Lobster Association and an 
active participant in the Lobster EMTs process and a member of 
different advisory groups and a close follower of the recent 
LCMT process.
    I am here today to support the use of individual fishing 
quotas with transferability and fisheries management. The use 
of individual fishing quotas is the most direct approach to 
sound fisheries management. Days at sea and trap reductions are 
a very indirect approach to managing the various fisheries. I 
feel that individual fishing quotas with transferability is 
another important conservation tool which can be used to 
address each stock's assessment.
    Thank you for your time and consideration.
    [The prepared statement of Mr. Bennett follows:]

Prepared Statement of Paul E. Bennett, Commercial Fisherman, Red Devil 
                Fish & Lobster Co., Inc., Middletown, RI
Madame Chairman and Committee Members:

    My name is Paul Bennett and I am a commercial fisherman from New 
England. I have been an active participant in several different 
fisheries over the last twenty-eight years, but primarily offshore 
lobster. I am a graduate of the University of Rhode Island's Commercial 
Fishing and Marine Technology Program. I have been a member of the 
Atlantic Offshore Fisherman's Association, Atlantic Offshore 
Lobsterman's Association, an active participant in the lobster EMT 
(Effort Management Team) process, a member of the Gear Conflict 
Advisory Group, and most recently a close follower of the recent LCMT 
(Lobster Conservation Management Team) process.
    I am here today to support the use of Individual Fishing Quotas 
with transferability in fisheries management. The use of Individual 
Fishing Quotas is the most direct approach to sound fisheries 
management. Days at sea and trap reductions are a very indirect 
approach to managing the various fisheries. I feel that Individual 
Fishing Quotas with transferability is another important conservation 
tool, which can be used to address each stock's assessment. Thank you 
for your time and consideration.

    Senator Snowe. Thank you.

                  STATEMENT OF DAVID SPENCER, 
            SPENCER FISH AND LOBSTER, JAMESTOWN, RI

    Mr. Spencer. My name is David Spencer. I've been an off-
shore lobsterman since 1973. And in the interest of time, I 
don't believe I can read my letter in one minute, so I would 
like echo the sentiments of the two gentlemen before me. I 
think it's very important that ITQs and IFQs be a management 
tool available to fishery managers. I think at this day in age 
with the way all our species are, it is ludicrous not to have 
that as a management tool.
    I'll submit the rest of my comments in writing. Thank you.
    [The prepared statement of Mr. Spencer follows:]

    Prepared Statement of David Spencer, Spencer Fish and Lobster, 
                             Jamestown, RI
Madame Chairman and Committee members:

    I would like to offer my comments on ITQ's and ask that their 
moratorium in the Magnuson-Stevens Act be lifted.
    My name is David Spencer. I am an offshore lobsterman fishing out 
of Newport, RI. I have fished for lobsters offshore since 1973. I own 
one boat and lobstering is my sole source of income.
    I believe that ITQ's offer fishery managers, scientists and 
fishermen the simplest and most effective means of managing a resource. 
In most over fished fisheries today, scientists are tasked with 
determining how many pounds can safely be removed from a resource each 
year. They are currently using measures such as days at sea, mesh size, 
closed areas, trip limits, gauge sizes, trap numbers and a host of 
others. The problem is that none of these measures are directly related 
to the current dilemma: How many pounds can safely be removed from the 
targeted resource. Because there is no clear connection of these 
management measures to the conservation of the resource, it is very 
difficult for the managers and scientists to predict the success or 
failure of these measures in the years ahead. They are constantly 
playing a catch up game of imposing more and more indirect measures 
when it has become clear that the goals of conservation are not being 
met. Consequently, fisherman are burdened with the increased 
restrictions. This format has created confusion among the fishermen, as 
well as law enforcement. It has also resulted in fishermen becoming 
very inefficient and unable to make with certainty any future business 
plans. This also has made resource recovery a very long ordeal.
    Doesn't it make much more sense to tell a fisherman how much 
product he will be allowed to catch, based on the scientist's 
projections? This method is simple, give fishermen more flexibility to 
run his business and be able to plan for the future while still 
conserving the resource. It also would allow the scientists some surety 
as to the removal rate of the resource on a yearly basis and make 
possible to even predict into the future rather than scurrying to make 
up for past deficiencies. ITQ's are the most direct and expeditious 
road to resource recovery.
    Although I am strongly in favor for ITQ's, I realize that they be 
more appropriate for some fisheries rather than others. However I do 
think that they should at least be available to the fishermen, 
managers, and scientists who feel that they would be appropriate for a 
particular fishery. At this very critical time for all fisheries it is 
important that every option be available.
    Thank you for this opportunity to comment.

    Senator Snowe. Thank you. Everyone can submit their 
statements for the record.

           STATEMENT OF JONATHAN MAYHEW, FISHERMAN, 
                     MARTHA'S VINEYARD, MA

    Mr. Mayhew. Good afternoon. Thank you very much for having 
me. My name is Jonathan Mayhew, third-generation fisherman from 
Martha's Vineyard, Massachusetts. I got up at five o'clock this 
morning.
    I'm a full-time year-round commercial fisherman. I own two 
boats; a 32-foot bluefin tuna boat and a 72-foot dragger, 
multispecies.
    My life has been affected in so many ways by National 
Marine Fisheries that if we could bottle it and put it in a 
bomb and drop it in the Middle East we'd have everything solved 
over there. Just with paperwork.
    The thing I'd like to address, unfortunately, is what--I 
came to speak on a lot of issues, but I have to speak on the 
fish spotting issue because it's been brought up, and actually, 
Madam Chair, I'd really like to have chance to speak to you 
personally because I feel that you have made a decision 
already.
    On whether or not fish spotters should be used. For the 
past 26 summers I have flown a small single-engine plane over 
George's and Gulf of Mexico for tuna and swordfish for my boats 
as well as others, over 11,000 hours. I wear the hat of 
president of Atlantic Fish Spotters Association, approximately 
20 active pilots with an average of 15 seasons' experience.
    I worked from the inception of the New England Aquarium 
aerial survey started in 1993. Atlantic Fish Spotters fly 
43,000 miles annually virtually for free for this survey. The 
survey has been jeopardized due to lack of funding by National 
Marine Fisheries for the scientific side. Atlantic Fish 
Spotters have worked with senate coastal studies, whale 
disentanglement teams and have assisted in saving numerous 
marine mammals. Atlantic Fish Spotters also work of search and 
rescue of sailors and downed pilots.
    The first time I personally spoke on stock analysis was in 
1982 regarding my alarm over the decline in swordfish stocks. I 
was a witness to the chief National Marine Fisheries Sciences 
at that time stated stocks were in excellent shape and would 
continue to be so into the future. The future is now, and we 
know the pain in that industry. Aerial surveys have an 
incredible value in the large species.
    As some of you are aware, fish spotters were banned by NMFS 
during 1997, bluefin tuna season, the general category. We were 
forced to tie our planes down, organize, raise money and sue 
National Marine Fisheries, something we did not want to do. We 
persevered, the regulations were found arbitrary and capricious 
en todo in June 1998.
    And also stated that despite what National Marine Fisheries 
states, aircraft do assist in size selectivity. I bring this up 
because my trust in the system has been shaken. It does not 
seem that National Marine Fisheries--it does seem that National 
Marine Fisheries is susceptible to lobbying pressures rather 
than looking at the facts. Spotter pilots and Atlantic bluefin 
tuna have been used since the 70's. Pilots can and do judge the 
size of fish. We get by production of keepers. We can't afford 
to chase shorts, economics or rules. All the boats in the fleet 
have the ability to realize when pilots leave an area where 
fish are, there are few if any keepers in that area, thereby 
assisting the whole fleet for the proper harvest of these fish.
    Please listen to both sides before making a decision that I 
feel is contrary to the Magnuson-Stevens Act and lose this 
valuable asset. Thank you.
    Senator Snowe. Thank you. How many more people want to 
speak? Do you have prepared statements that you could submit? 
Otherwise, I'm not going to be able to accommodate everybody at 
this rate.
    Senator Kerry. How many people are there? Could you all 
raise your hands? How many of you have prepared statements that 
you could----
    Senator Snowe. Would you be willing to submit prepared 
statements, if everybody could keep their statements to 30 
seconds?
    Senator Kerry. We have to. We have no choice.
    Senator Snowe. We have no choice here.

       STATEMENT OF BILL CHAPRALES, COMMERCIAL FISHERMAN

    Mr. Chaprales. Bill Chaprales, commercial fisherman. 
Senator Kerry, when you talk about building credibility, that 
really struck home for me today. And I've been a fisherman for 
30 years, bluefin, involved in the harpoon tagging program in 
the middle 70's. (Auditorium public address system fails during 
this presentation.)
    Senator Snowe. Thank you. How many more are going to 
testify? I'm sorry that so many people took longer than their 
one-minute allotment; that is what created this problem. I'm 
not going to be able to accommodate everyone, so we'll have to 
make a decision here. Do people have prepared statements? I 
have to leave in 10 minutes at the latest, so you can take 30 
seconds each. You go right ahead.

 STATEMENT OF BONNIE SPINAZZOLA, EXECUTIVE DIRECTOR, ATLANTIC 
               OFF-SHORE LOBSTERMEN'S ASSOCIATION

    Ms. Spinazzola. Madam Chairwoman, I am the executive 
director of the Atlantic Off-Shore Lobstermen's Association and 
represent approximately 40 off-shore vessels of the 
approximately 60 vessels fishing in the off-shore lobster 
industry from New Hampshire and New Jersey.
    On behalf of AOLA I urge you to support the recision of the 
moratorium on IFQs and support the inclusion of transferability 
in the upcoming reauthorization of the Magnuson-Stevens Act.
    We feel very strongly that at this point in the fishery 
process no tool should be taken away from fishery manager to be 
able to attain the goals of sustainable fisheries.
    And the rest I will submit as written comments.
    [The prepared statement of Ms. Spinazzola follows:]

     Prepared Statement of Bonnie Spinazzola, Executive Director, 
              Atlantic Off-Shore Lobstermen's Association
Madame Chairwoman, Senator Kerry and Senator Stevens:

    On behalf of the Atlantic Offshore Lobstermen's Association (AOLA), 
I urge you to support the rescission of the moratorium on individual 
fishing quotas, and support the inclusion of transferability in the 
upcoming reauthorization of the Magnuson-Stevens Fishery Conservation 
and Management Act (Magnuson-Stevens Act).
    AOLA represents 40 vessels from New Hampshire to New Jersey, within 
a total of approximately 65 vessels participating in the offshore 
lobster fishery, and has been significantly involved in developing 
conservation measures for management of the offshore lobster resource. 
As you may be aware, the American Lobster fishery was divided into 
seven management areas, each having a designated Lobster Management 
Team consisting of industry representatives and scientific technical 
advisors. These teams are tasked to develop regulations which, when 
implemented, should reduce mortality and increase egg production of the 
stock. Our fervent hope is to attain preservation and sustainability of 
the American Lobster Resource. While I have just made this sound 
relatively simple, I can personally assure you that this has been, and 
will continue to be, a grueling and complicated process. It is no 
secret that agreement among fishermen is not a common occurrence, and 
balancing the needs of the resource with those of the industry has been 
complex. The offshore industry, however, has pulled together to 
recommend strong and meaningful conservation measures necessary to 
preserve the resource for future generations.
    It is the strong belief of AOLA that every management tool should 
be made available to industry representatives and fishery managers, as 
the arduous and long-term process of fishery management necessitates 
the need for flexibility and creativity in order to attain the delicate 
balance of meaningful management measures coupled with financial 
security for fishermen. Transferability, when prudently and sensibly 
incorporated into the management process, is an important option that 
should be made available to those endeavoring to sustain our nation's 
oceans and their resources.
    Finally, I would like to comment on two other important fishery 
issues:
    It is clear that collaborative research efforts, utilizing industry 
and scientists have finally been recognized. With clear understanding 
that the groundfish resource is in a precarious position and in need of 
such funding, I would request that sources of funding also be made 
available for collaborative research in other stocks, as well. For 
instance, four-year-old lobster data was recently used to produce an 
extensive stock assessment, and in some areas, stopped short of 
producing significant results, due to poor or old existing data. Real-
time data can and must be realized through collaborative efforts of 
fishermen and scientists.
    The other important issue relates to the National Marine Fisheries 
Service consuming inordinate amounts of time to implement fishery 
management plans. In the case of the offshore lobster plan, fishermen 
are frustrated with the fact that the Service tasked industry with 
identifying measures to preserve the resource. That plan, which has 
been technically evaluated to meet the Sustainable Fisheries Act's 
goal, has been available to NMFS for over two years (actually many 
more, however I will only focus on recent management action). Due to 
agency, legal or congressional constraints, however, NMFS will likely 
not implement a full lobster FMP that meets the SFA requirements for an 
estimated 3-5 years! Although this Committee may have serious concerns 
with regard to holding fishermen's lives, their families, and their 
communities in the balance while waiting for management rules, just 
imagine how frustrating it is for those fishermen who continue to wait 
for conservation measures to be implemented yet are forced to sit idly 
by and watch their resource spiral downward toward depletion, due to 
the extended process of the very agency tasked to protect and sustain 
that resource! I hope that through the reauthorization process, this 
Committee will do everything in it's power to remove any barriers which 
prohibit NMFS from moving forward expeditiously toward the 
implementation of meaningful fishery management plans.
    In conclusion, I appreciate the opportunity to represent my 
membership and make you aware of their sentiment with regard to your 
support of transferability and lobster management in the 
reauthorization process of the Magnuson-Stevens Act. Please feel free 
to contact me should you have any questions relative to these comments, 
or to discuss the issue of lobster management, at any time.

    Senator Snowe. Thank you.

           STATEMENT OF WILL BLAND, GENERAL MANAGER, 
                     LITTLE BAY LOBSTER CO.

    Mr. Bland. I am going to submit a written comment, but I 
would like to urge you to lift the moratorium on IFQs. And I 
have a comment here that I had sent to Senator Kerry and I'll 
submit it to you too.
    Senator Kerry. Thank you very much. Thank you.
    Senator Snowe. I appreciate it. Thank you.
    [The prepared statement of Mr. Bland follows:]

          Prepared Statement of Will Bland, General Manager, 
                         Little Bay Lobster Co.
    I am writing to encourage you to support lifting the moratorium on 
individual Fishing Quotas (IFQ). I firmly believe that in order for our 
industry to manage the fisheries efficiently and responsibly, a variety 
of management tools needs to be available to us. An IFQ program is 
merely one method of many that we may need to employ in order to 
achieve a sustainable resource.
    While it is important to recognize that an IFQ program may not be 
suitable for every fishery, lifting the moratorium does, however, give 
fisheries managers a more complete range of options to use while 
creating a Fishery Management Plan (FMP). The employment of various 
types of conservation methods, even within the same stock biomass, 
allows for efficient stock management and harvesting. Additionally, the 
use of varied management measures across the range of a resource 
permits fisheries managers to consider not only the biologic, but also 
the many social and economic concerns that are generally associated 
with any FMP.
    In their report to Congress, the National Research Council (NRC) 
cited many of these same reasons for lifting the moratorium on IFQ's. 
Further, the broad-based response the Council received during the 
public hearings on the issue demonstrated the industry's recognition 
that the use of IFQ's as a management tool is a valuable and needed 
option. Respondents to the Council repeatedly cautioned against 
treating all fisheries the same and that a ``broad-brush'' approach to 
fisheries management was detrimental to promoting localized stewardship 
within a fishery. The FMP's for American Lobster and Atlantic Herring 
are good examples of this in that their formulation begins with an area 
management concept. However, in order to be successful, an area 
management program must have the flexibility to adapt to the local 
biological and social conditions, therefore, it is critically important 
that the managers of these fishing areas have a toolbox full of 
management measures available to them.
    As an individual who has been involved with the fishing industry 
for over thirty years, I have seen the tragic decline of the fish 
stocks of the Northwest Atlantic and the resultant demise of New 
England's fishing industry. In light of that, I am extremely frustrated 
at how ineffective our attempts at stopping that decline turned out to 
be. I am convinced that the time has come for a major change in fishery 
management theory. Our reliance on the reactive input measures of the 
past such as types of gear and methods of fishing needs to diminish. 
Instead, we must work toward a clear understanding of our sustainable 
harvest levels and the further development of enforceable output 
measures, such as IFQ's. Building the concept of ownership within a 
fishery is the first step toward developing a sense of resource 
stewardship within the fisherman. In doing that, we, as fishermen, will 
become more like the harvesters we should be than the hunters we are.

                   STATEMENT OF MS. FERRANTE

    Ms. Ferrante. Madam Chair, I'll be brief. I want to thank 
you and Senator Kerry and Senator Stevens for the work you've 
done with cooperative research. My father's a fisherman. It's 
great to see that his input is finally being acknowledged in a 
meaningful way.
    Second, you talked about the need for five management plans 
and asked why that may be. One way we could get around that is 
if we had more fishermen's input and cooperative management. 
Fishermen know where fish spawn, when they spawn, how they 
spawn, and how to avoid those areas. But unfortunately, that 
information doesn't get tapped into, and we need to do a better 
job of doing that.
    Thank you.
    Senator Snowe. Thank you.

         STATEMENT OF ANNE HAYDEN, RESOURCE SERVICES, 
         GULF OF MAINE FISHERIES RESEARCH COLLABORATIVE

    Ms. Hayden. Thank you very much, Senator Snowe and Senator 
Kerry. I am here on behalf of a newly formed group called the 
Gulf of Maine Fisheries Research Collaborative, and I just want 
to support the earlier statements calling for additional 
cooperative fisheries research. And I will submit my comments 
for the record.
    Thank you.
    Senator Snowe. Thank you very much. We appreciate it.
    Senator Kerry. Thanks a lot.
    [The prepared statement of Ms. Hayden follows:]

  Prepared Statement of Anne Hayden, Resource Services, Gulf of Maine 
                    Fisheries Research Collaborative
    On March 31, 2000, a committed group of people met in Brunswick, 
Maine to discuss the need for improving the quality, amount and 
timeliness of fisheries research information in the Gulf of Maine. This 
meeting was hosted by the Davis Conservation Foundation and included 
representatives of educational institutions, fishermen's organizations, 
fish packers, non-governmental organizations, charitable foundations 
and state government. The list of people invited to attend this meeting 
is attached. The list in Attachment 1 are those who were able to 
respond in support of this letter in a very limited period of time. We 
expect the number of supporters to grow as our activities increase.
    This new, diverse group has been named the Gulf of Maine Fisheries 
Research Collaborative. The Collaborative has set an aggressive agenda 
for future action with the intent of sustaining Maine's commercial 
fishing industry by developing an effective voice to establish 
cooperative research priorities and funding to enhance a variety of 
fisheries resources of commercial importance to Maine.
    We are writing today to inform you of our collective views and 
goals for improving marine fisheries research and management in the 
Gulf of Maine ecosystem, both in the U.S. and in Canada. As the Oceans 
and Fisheries Subcommittee continues to consider the reauthorization of 
the Magnuson-Stevens Fishery Conservation and Management Act (MSFCMA), 
we ask that this letter become a part of the record of today's public 
hearing. Not surprisingly, our views and goals closely match last 
week's report by the General Accounting Office where the need for 
additional, collaborative scientific research and enhanced economic-
impact information were highlighted as significant shortcomings in our 
fisheries management system.
    Adequate and trusted scientific information is one of the most 
important elements in a successful strategy for sustainably managing 
United States fisheries resources. The value of the data developed from 
our nation's fisheries research efforts is significantly enhanced if 
our research strategies are prioritized and pursued through truly 
collaborative efforts among interested and responsible parties.
    The activities of the Gulf of Maine Fisheries Research 
Collaborative will build a solid foundation for implementing 
sustainable fisheries management policies in the Gulf of Maine region. 
This approach will not only improve the quantity of fisheries research 
being done but will improve the value of this research by bringing all 
interested parties to the planning table and into the field.
    Unfortunately, it has taken far too long for a truly collaborative 
fisheries research effort to begin in the Gulf of Maine region, 
particularly in the United States. Although the MSFCMA requires the 
Secretary of Commerce to develop a strategic plan for fisheries 
research, which provides a role for commercial fishermen in the 
research, this has yet to happen on a broad, ecosystem basis here in 
New England.
    The National Marine Fisheries Services' (NMFS) budget for fisheries 
research, data collection and other necessary elements of a sustainable 
fisheries program is seriously under-funded. Progress has been further 
delayed since the collaborative culture necessary to build a strong 
constituency for NMFS funding has not been widely embraced by the 
agency. Also, rather than focusing primarily on fisheries in trouble, 
research strategies and funding adequate to investigate questions key 
to the long-term health of all fisheries resources of commercial 
importance needs to begin to be put into place.
    Your recent efforts to support funding for collaborative fisheries 
research in this region, and those of your colleagues Senator Kerry and 
Senator Gregg certainly must be commended. Millions of dollars of new 
funding for cooperative marine research are being earmarked in recent 
appropriations and authorizations. Since nearly all of the new 
fisheries research funding coming into the region is only to be used to 
solve problems in the groundfishing industry, however, it is difficult 
today to move ahead to develop and pursue other collaborative research 
efforts in other fisheries important to the Gulf of Maine.
    Looking beyond NMFS funding, we also want to bring to your 
attention the serious need to enhance our marine science infrastructure 
to provide an adequate number of people to manage the new collaborative 
research projects that are being developed now and will be in the 
future.
    One significant problem with the short-term nature of the new 
research dollars coming into the region is that it makes it difficult 
for some researchers, particularly university researchers, to commit 
their time to projects developed to use these new funds. These 
researchers' access to longer-term research funding options, like those 
available through the National Academy of Sciences for example, may be 
jeopardized by spending time using shorter-term funding. This is a 
problem that underscores the need for both NMFS and state fisheries 
research budgets to be permanently enhanced. It is important that 
independent researchers, in addition to those employed by federal and 
state agencies, can participate in new efforts to enhance collaborative 
fisheries research and be reasonably confident that long term funding 
will be made available. This approach will truly create the best 
scientific information available.
    This month and next, the Department of Marine Resources (DMR) will 
be holding a series of meetings, facilitated by the Gulf of Maine 
Aquarium (GOMA), to identify research priorities in the clam, lobster, 
scallop, sea urchin and shrimp fisheries. As you know, the DMR and GOMA 
worked with the herring industry to develop research priorities in the 
herring fishery three years ago and similar efforts are ongoing in the 
groundfish industry today. Additional, cooperative fisheries research 
is essential to our success in sustainably managing the Gulf of Maine's 
important fisheries resources and in sustaining its fishing 
communities. A tremendous amount of long-term scientific investigation, 
concerning a significant number of fisheries, should be pursued but 
adequate financial resources to do the job are very scarce.
    It is our intent and commitment that the formation of the Gulf of 
Maine Fisheries Research Collaborative will provide Maine with a 
foundation to better identify and implement fisheries research 
priorities and identify alternative funding sources in support of 
collaborative fisheries science throughout the Gulf of Maine. We look 
forward to working with you to enhance priority marine fisheries 
research in the Gulf of Maine by using a combination of federal, state, 
foundation, non-governmental organization and industry dollars. We 
invite you to attend one of the Collaborative's meetings when your 
schedule allows you to join us.
    Thank you for your attention to and your consideration of our views 
and for your commitment to a healthy Gulf of Maine ecosystem and a 
prosperous Maine fishing industry.

                                                       Attachment 1

Gulf of Maine Fisheries Research Collaborative
Robin Alden, Stonington Fisheries Alliance
Philip Conkling, Island Institute
Horace A. Hildreth, Jr., Davis Conservation Foundation
Will Hopkins, Cobscook Bay Resource Center
Jeff Kaelin, Maine Sardine Council
George Lapointe, Maine Department of Marine Resources
Linda Mercer, Maine Department of Marine Resources
Craig Pendleton, Northwest Atlantic Marine Alliance, Inc.
Donald Perkins, Gulf of Maine Aquarium
Louis Sage, Bigelow Laboratory for Ocean Sciences
Alden H. Sawyer, Jr., Davis Conservation Foundation
Pat White, Maine Lobstermen's Association
Jim Wilson, University of Maine
Anne Hayden, Resource Services Facilitator

                                                       Attachment 2

Gulf of Maine Fisheries Research Collaborative Meeting Invitees
Brunswick, Maine, March 31, 2000
Facilitator: Ms. Anne Hayden, Resource Services
Mr. Donald Perkins, Gulf of Maine Aquarium
Mr. Philip Conkling, Island Institute
Mr. Louis (Sandy) Sage, Bigelow Laboratory for Ocean Sciences
Ms. Barbara Stevenson, Portland Fish Pier
Mr. Craig Pendleton, Northwest Atlantic Marine Alliance
Mr. Jeff Kaelin, Maine Sardine Council
Mr. Pat White, Maine Lobstermen's Association
Commissioner George Lapointe, Dept. of Marine Resources
Mr. Jim Wilson, University of Maine
Mr. Horace A. Hildreth, Jr., Davis Conservation Foundation
Mr. Thomas S. Deans, New Hampshire Charitable Foundation
Mr. Alden H. (Tom) Sawyer, Jr., Davis Conservation Foundation
Linda Mercer, Director, Bureau of Research, Maine Department of Marine
    Resources
Will Hopkins, Cobscook Bay Resource Center
Robin Alden
Ted Ames
Staff: Nancy M. Winslow, Executive Director, Davis Conservation 
Foundation

          STATEMENT OF HARRIET DIDREKSEN, PRESIDENT, 
                       SUB-S CORPORATION

    Ms. Didreksen. Harriet Didreksen, boat owner from the port 
of New Bedford since 1968. I want to thank you, Madam 
Chairwoman, for asking for the GAO report. I've read it. I 
think it says a lot. I wish it was a little firmer. But as we 
see in 1996 the people were included. The other cuts have been 
put through, but the people have not been looked at. I think 
that speaks for itself.
    I'm against ITQs. It does not limit the fishing. It just 
limits the resource in the hands of a few people. And at the 
New England Council we have a chairman right now who has worked 
for a small group of boat owners who are vertically integrated 
who want ITQs. So I understand today when people speak and they 
do not have confidence in the system. Individual one vote/one 
permit owners are not able to get their point across. I hope 
you'll look more into this.
    Thank you for coming.
    [The prepared statement of Ms. Didreksen follows:]

 Prepared Statement of Harriet Didreksen, President, Sub-S Corporation
    Written submission of Harriet Didriksen. President of a small 
family held Sub-S Corporation which has owned fishing vessels since 
1968 pre Magnuson and presently one vessel F/V Settler which holds a 
full time scallop permit. I am a Massachusetts resident living in the 
Town of Mattapoisett. The vessel is moored and sailing from the Port of 
New Bedford. I am Vice-President of a ship chandlery New Bedford Ship 
Supply where I worked since the age of eleven, serving the fishing 
industry for over sixty years owned by my 87 year old aunt Sarah 
Tonnessen.
    I am not a good writer I will address each issue point by point as 
straight forward as I can.
    The first and foremost issue I wish to address with the 
preauthorization of the Magnuson-Stevens Act is maintaining the 
moratorium on ITQs. If it has not been made clear, I wish to be clear 
once more for the record.
    I do not believe that the New England Fisheries Management Council 
has the integrity nor the required knowledge of fishing and fishing 
communities, particularly in the scallop fishery, its people and its 
economics. Making decisions that would change the face of our coastal 
communities and the future generations of fishermen.
    In March of 1994 National Marine Fisheries implemented Amendment 
Four to the scallop fishery. It limited entry into the scallop fishery 
permitting vessels based on historic participation. This action 
resulted in three types of limited access scallop permits: full-time, 
part-time and occasional. It was believed by the majority of permit 
holders that Amendment Four would manage the fishery for a planned 
seven years. The plan stated that by December of 1994 all permits had 
to be attached to vessels. In the fall of 1994 the Council started the 
framework process to create history and latent permits. As we know the 
Framework process by design grossly limits the scope of public exposure 
and process. This Framework created a larger permit base that would 
eventually inflate the fishery designed and presentation in Amendment 
Four. This action went against the language in Amendment Four which 
most permit holders were dependent upon and trusted.
    The Regional Director at that time Mr. Allen Pedersen during the 
Council deliberation of the Frameworks stated that if this Framework 
passed it would change the way he had been handling the appeals process 
which was ongoing at that time, by stating ``if an individual had a 
legitimate reason for not being able to meet the December 1994 deadline 
which called for all permits to be attached to vessels he was 
accommodating them. If he saw permit holders attempting to speculate in 
the fishery, he would refuse them.'' Nonetheless, the Council passed 
the Framework and Gene Martin legal council to New England Fisheries 
Management Council condoned this action to be done by Framework. This 
was in direct conflict with the wording in Amendment Four and inflated 
the fishery. At this time many older fishing vessels were in ill 
repair, many having financial problems resulting from ten years of 
scallop count regulations which mismanaged the fishery by eliminating 
large count scallops. Prior fines for scallop count violations were out 
of proportion with earnable revenues resulting in further financial 
hardship for a number of vessels.
    From that point on a small group of no more than ten vertically 
integrated permit holders (boat owners, fish dealers, processors, 
purveyors of gear) with the where with all, began to purchase derelict 
vessels at auction or direct from owners for their permit value at 
bargain prices and then destroyed the vessels. Banks were fearful of 
the stability of the fishery as they had known it for generation due to 
a slow fishing economy, uncertainty in regulations and press reporting, 
they began to call in loans and several seaworthy vessels were forced 
into marshall sale purchased for a lower base principle investment, 
deflating the value of the entire scallop fleet.
    At the Council level, some of these same integrated individuals 
acted as scallop advisors, most of them not actively fishermen. Tom 
Hill now a Council member, a member of the scallop committee and at 
some years Chairman of the Scallop Committee was hired by ``The Scallop 
Group'' (those same vertically integrated individuals now formally 
organized with Tom Hill as executive director) with the luxury of time 
to attend Councils meetings and Subcommittee meetings begin to lobby 
for the consolidation of permits (essentially ITQs). Consolidation went 
out to public hearing twice, first for the sale of permits and the 
second time for the leasing of permits. The majority of the permit 
holders testified against selling and leasing of permits. Nonetheless 
the NEFMC on the advise of the Scallop Committee presented a motion to 
the Council process to allow Framework leasing. Attorney Gene Martine 
legal advisor to the NEFMC accepted this language and allowed this 
process to proceed forward. If it had not been for Barbara Stevenson of 
the Council who understood the implications of this action to a play to 
avoid public input presented a second motion which required that even 
though it was a framework it must go out for a series of public 
hearings, the scallop industry in New England would have ITQs today 
disguised as consolidation of days. From 1994 to present ``The Scallop 
Group'' members still retain a strong presence and continue to lobby 
for consolidation in an effort to own the majority of the East Coast 
Scallop resource which in time would force out the remaining one boat 
one permit holders. There is no security place for the one boat one 
permit owner in a consolidation or ITQ plan. He will sooner than later 
be forced out of the fishery. Many examples exist of the ITQ system 
results. Dr. DePaul of VIMS a member of the Scallop Committee presented 
a minority opinion covering this issue. Today the same Tom Hill 
referred to above is in the powerful position as Chairman of the NEFMC. 
Considering the above history and the events that have taken place, I 
do not feel the Council process is interpreting the Magnuson Act as 
intended by the Senate and the Congress. Council should not be 
permitted to privatize the resource and allow a few individuals to 
accumulate exclusive rights to the resource at the expense and 
sacrifice of other permit holders and fishing communities as a whole.
    The best example of the devastation of fishing communities and loss 
of employment is our own Northern Clam fishery managed by ITQs and 
noted in many press releases. Senator Kerry stated when there is a 
finite resource and infinite permits ITQs might be the only solution. 
In the scallop fishery on the East Coast, there is a finite number of 
permits and an infinite resource. Today areas which have been 
constantly fished since 1994 due to the four closed areas off New 
England and Virginia are yielding remarkable amounts of scallops. This 
abundance of resource in the open area cannot be credited to 
management. Mother Nature must be acknowledged as Dr. Rothschild 
alluded to in his testimony at Northeastern University.
    ITQs are an international issue, see attached (Iceland).* Iceland 
after having ITQs for 16 years has now been challenged by fishers who 
have won their first legal battle and its constitutionality is being 
challenged in the Icelandic Supreme Court.
---------------------------------------------------------------------------
    *The information referred to has been retained in the Subcommittee 
files.
---------------------------------------------------------------------------
    Dr. Rasmussen from Iceland at the ITQ meeting in New Orleans, which 
I attended as an industry panel member, stated that many of the pro 
premises such as issues of safety and the resource, that ownership 
makes more responsible fishers, has not necessarily proven true in 
Iceland. It is a false Utopia.
    Another example of the devastation of ITQs is in New Zealand where 
some coastal communities have unemployment up to 60 percent. The few 
large fishing companies that were created by ITQs now hire their crews 
from overseas cheap labor. These companies control the science since 
the TAC has not changed for several years. This is not a conservation 
tactic, it is simply taking a public resource and putting in the hands 
of a minority making a few wealthy individuals who now control the 
market at the expense of the majority.
    I believe it is the responsibility of the Senators and Congressmen 
to insure that the resource provides for as many American Fishermen, 
their families and related industries as possible.
    It has become apparent that fishermen are not respected at most 
government agencies, especially the regulators and enforcers. Please 
read attached article written by U.S. Coast Guard Captain Raymond 
Brown* comparing fishermen with drug smugglers. To have the audacity to 
put this in black and white he must have an audience who would accept 
its premise. To call New Bedford Scallopers liars is not only a leap of 
faith but also defamation of character. Please see attached article 
from the Cape Cod Times.**
---------------------------------------------------------------------------
    *The information referred to was not provided.
    **The information referred to has been retained in the Subcommittee 
files.
---------------------------------------------------------------------------
    When a group of people are not respected as any other citizen of 
the United States violations of civil rights occur. The rationale is: 
it is OK if fishermen are treated unfairly because they are like drug 
smugglers (criminals). The lack of respect has led to unrealistic 
regulations meant to put your constituents and their families on the 
street. This can happen and has happened both directly and indirectly. 
The New Bedford Ship Supply has written off over a half million dollars 
of debt to relieve financial hardship on fishing families. Their homes 
are always connected directly or indirectly to the debt. I am willing 
to document the numbers keeping the individuals names confidential.
    NOAA and NMFS under the same umbrella creates a situation where the 
same agency regulates, controls science that the regulations are based 
on, enforces, prosecutes and judges cases. This in the old country is 
called tyranny. There are no checks and balances here required by the 
democratic ethic.
    Science the lack of: Dr. Rothchild of CMAST in his testimony on 
April 10th, stated that the over fishing definition was soft and the 
methods that NMFS is using as the basis for regulations were of 
suspect. This same line of thought was presented by the Academy of 
Science when he evaluated NMFS and made his presentation over a year 
ago, ``no model is a good model.'' How then can the Secretary of 
Commerce dismiss the fishing community's concern with good conscience. 
I would ask that the Senate review this issue with renewed energy and 
dissect information that is presented by the NMFS and NEFMC 
recommendations and absolute answers to complex issues.
    I would like to address Mr. Daley's comments rebutting some aspects 
of the GAO report recently released. Mr. Daley refers to the behavior 
of fishermen challenging the science when their income is jeopardized. 
I find this perfectly logical since it is not Mr. Daley's income being 
jeopardized: it is not his mortgage on his house or his children's 
future.
    Although Mr. Daley would like to separate the science from the 
socio-economic consequences, he seems to forget he is dealing with 
human beings. THIS IS MY COMMUNITY THAT HE SO LIGHTLY IS WILLING TO 
DISMISS.
    I would like the lack of socio-economic science to be retroactively 
investigated. The FMPs that have been passed since 1996, were required 
to have this information included. NMFS and the NEFMC chose to ignore 
this portion of the ACT, they have cherry picked the parts of the ACT 
that they want to enforce. They chose not to hire the social scientist 
needed to fulfill the requirements. This in no way implies that they 
need more money to mismanage in the same redundant fashion that has 
been the trademark of NMFS. People should at least be equal to the 
level of fish in consideration of regulations. I do not understand how 
plans have been passed from 1996 forward without fulfilling the social 
science requirements. This must be ended. ``Best science available'' is 
an unacceptable excuse when no effort was made to hire the same number 
of social scientist as biology scientist.
    I wish to express my thanks to you and the Senate Committee's 
initiation requesting the GAO report. It has long been needed. Fishing 
Communities have been and are living in fear of their future. Families 
are at risk. Children in particular are very vulnerable when the type 
of economic stress that fishing people have been trying to cope with 
for a long period of time. I see the GAO report as hope, but there is 
more to be done. As I stated before I wish the GAO had used stronger 
language, but as I reread it as I have several times, it has cast a 
black cloud on the entire management process. I want to thank you for 
acknowledging the problems facing fishing today and your continuing 
efforts to rectify them.

    Senator Snowe. Thank you.

                   STATEMENT OF ELLEN SKAAR, 
                  FISHERMEN'S AD HOC COMMITTEE

    Ms. Skaar. My name is Ellen Skaar, and I'm a fisherman's 
wife and I come from generations of fishermen. I want to also 
speak against lifting the moratorium of the ITQs. Of course, 
there is no fishing person that really truly is a fishing 
person that wants that. We formed a group that is called the 
Fishermen's Ad Hoc Committee and I tried to put consolidation 
into the scallop fisheries, and we hired a lawyer and he sent 
letters to all of the scallop holders, the license holders, and 
98 percent said they did not want consolidation. So the 
feelings of the fishing people is they don't want this.
    Thank you.
    Senator Snowe. Thank you.

                   STATEMENT OF MR. DAUPHINEE

    Mr. Dauphinee. Thank you both for being here, and I 
appreciate being able to speak. Just one--I'm backing Mass 
Fishery Partnership letter. And Senator Kerry, I have--for our 
state, I have a suggestion that we take the--fill the bed at 
Moon Island and make it into a place where we could possibly 
raise halibut, which we don't even have to fish as an idea of 
how we can be proactive in rebuilding some of the stocks.
    Thank you.
    Senator Snowe. Thank you.

        STATEMENT OF FRED MATTERA, COMMERCIAL FISHERMAN

    Mr. Mattera. Yes. Fred Mattera. I'm a commercial fisherman 
for 28 years. I own a freezer troller out of Point Judith.
    I've been a staunch opponent to limited entry and ITQs for 
years. But most recently I have done a one-eighty, and I do 
support lifting the moratorium on ITQs. Just so that we can 
explore alternative option. I'm tired, and along with a lot of 
other fishermen, of being micro-managed.
    I think if we're going to look at that, I think we need to 
look at two concepts that should dovetail along with that. One 
is a substantial vessel buyout and tax incentives. There are so 
many people that would step out of this fishery if there were, 
you know, abilities to roll over CCFs into IRAs or, you know, 
eliminating capital gains.
    The unsafe issues. We just had a vessel--you know, people 
have been talking about the unsafety. We're in a derby fishery 
with these 88 days or anything else. There was a vessel out 
there yesterday who lost a man overboard; another man had to be 
air lifted. Why? He's fishing in this hellacious weather 
because he's in days at sea and he doesn't want to lose a day.
    Thank you.
    Senator Snowe. Thank you.

               STATEMENT OF MR. SCOLA, FISHERMAN

    Mr. Scola. I appreciate the opportunity to come up to speak 
before you here today. I was hoping to have a little more time, 
but . . .
    As Senator Kerry asked about the inequities within the 
Council, do we sometimes feel represented? You know, it was 
discouraging to see the first panel get two hours and I get 30 
seconds, but I'll do my best to relay my thoughts.
    I appreciate your sincere attention. I know you're very 
pressed. My statement today was originally going to focus on 
safety and some of the issues, and we'll go right over that.
    I was the gentleman that Joe was talking about. I was 
fishing on weather last year that I shouldn't have been fished 
because we were going to be closed down for three months. Ended 
up ripping the winch off my deck, cracking a couple of ribs, 
and if the winch had fallen on me as it came off, I would not 
be standing here to you and I would orphan my three children, 
which is really not my goal in life.
    There are a lot of things to speak about. Unfortunately, we 
can't. I'll just touch on them. ITQs you asked about. You seem 
to be interested in. I think some of the sincere fears that 
they will not adequately be set forth. In other words, I have 
been shut down for three months last year; this year five 
months. By the time they come around with ITQs they're going to 
go back and say, What did you catch? Well, we didn't catch 
anything. We can fish. Then you don't get anything. These are 
some of the fears.
    The other thing is that there are a lot of other management 
tools that are available that would allow fishermen to fish 
that are not even being addressed or looked at. It's just these 
vast, sweeping closures that push fishermen like myself into 
areas that they shouldn't be in. We should not be out there. We 
don't belong there. We have small vessels. This safety issue 
has to be addressed, and it's not.
    I also wanted to talk about possible aid in the future 
because if you want these fleets to ultimately survive, you 
have to come up with some type of program that allows them to 
be in existence. Everybody comes down to the docks and takes 
pictures of these fishing boats, and once they get their 
pictures, they're gone until they want pictures again. Well, 
pretty soon that's all we're going to have left are those 
pictures.
    Unfortunately, I wish I could say more.
    Senator Kerry. Let me just say to you, don't feel as if 
your other views--I mean you have your statement in writing, 
correct?
    Mr. Scola. Yeah. I have a lot more that----
    Senator Kerry. I promise you we will digest it. There's no 
thought here that your ideas aren't going to be heard or read--
and we're going to be working very hard with our staff to look 
at your suggestions. We'll be getting back to you during the 
course of the next weeks. So this is not a vacuum.
    Mr. Scola. Well, I was encouraged with the interaction. 
Normally, we go to the Council, we tell them what we're 
thinking, they all sit there and nobody says a word. At least 
you guys ask questions. That's encouraging. Thank you very 
much.
    Senator Snowe. All of these statements will be reviewed.

  STATEMENT OF JAMES BRYAN McCAFFREY, DIRECTOR, MASSACHUSETTS 
                          SIERRA CLUB

    Mr. McCaffrey. Madam Chairwoman and Senator Kerry, Senator 
Snowe, thank you very much for your leadership and interest in 
this. The Sierra Club, we have detailed comments here that I'll 
submit in writing so we don't need to take any time. But these 
are submitted on behalf of the Massachusetts Chapter of the 
Sierra Club of which I'm the Director. We have 25,000 members 
in Massachusetts, and we want to work with all the constituents 
and communities on this in solving it.
    Senator Kerry. Thank you very much.
    Senator Snowe. Thank you very much.
    [The prepared statement of Mr. McCaffrey follows:]

        Prepared Statement of James Bryan McCaffrey, Director, 
                       Massachusetts Sierra Club
    My name is James Bryan McCaffrey and I am the Director of the 
Massachusetts Sierra Club, representing more than 25,000 members in 
Massachusetts. On behalf of the Massachusetts Chapter Executive 
Committee, and our Sustainable Fisheries Subcommittee, we would like to 
thank you for the opportunity to provide comment on the reauthorization 
of the Magnuson-Stevens Fishery Conservation and Management Act.
    The collapse of the groundfish and scallop stocks in New England as 
consequence of overfishing by the commercial industry has wreaked havoc 
on the biological diversity in our coastal oceans; created economic 
hardships for fishers and their associated communities; and caused 
public distrust in the ability of our governmental stewards (National 
Marine Fisheries Service--NMFS and New England Fishery Management 
Council--NEFMC) to carry out their responsibilities to protect our 
public trust biological resources in the ocean. It is not the intent of 
the Massachusetts Chapter-Sierra Club to rehash who is responsible for 
getting us in our current predicament, but to encourage all parties 
(commercial and recreational fishers, consumers, environmental groups, 
governmental regulators, and the general public) to move forward toward 
a policy to recover depleted fisheries stocks and develop a sustainable 
fishery management policy for the future in order to prevent a repeat 
of recent history. Moreover, despite the success of many components of 
the fisheries management plans which have led to preliminary signs of 
recovery of some species, the challenge to adopt viable long term 
sustainable fisheries policies remains.
    The situation in which we have too many vessels chasing too few 
fish (overcapitalized industry) remains, despite recent NMFS efforts to 
buy back vessels and NEFMC endeavors to reduce fishing mortality under 
amendment 7 to the New England multispecies groundfish fishery 
management plan. Still, we need to move towards addressing issues of 
controlling open access, developing management measures to limit 
fishing effort, and to address allocation of living marine resources 
(LMRs) between the commercial and recreational fishing interests.
    We need a new conceptual perspective to move towards a sustainable 
fisheries policy (Charles, 1994; Christie, 1993). Dr. Carl Safina, 
Director of National Audubon Society's Living Oceans Program (and 
former member of the Mid-Atlantic Fishery Management Council--MAFMC), 
has pointed out that we need to stop viewing marine fish as commodities 
to be harvested, but recognize that fish are wildlife that are an 
important component of a healthy ocean ecosystem. Current commercial 
fishing practices (gill nets and draggers) currently change the 
biological composition of the ocean ecosystem both directly (excess 
fishing mortality on target species and bycatch of nontarget finfish, 
marine mammals, marine birds, sea turtles, etc.) and indirectly (damage 
to epibenthic invertebrates on the bottom as a consequence of otter 
trawls and ghost fishing in abandoned gill nets). As a consequence the 
demersal fish community on Georges Bank has changed from one dominated 
by cod and haddock to one dominated by dogfish and skates, with an 
accompanying explosion in the populations of pelagic species such as 
Atlantic mackerel and sea herring which has shifted the feeding grounds 
of large whale species, pelagic seabirds, and pinnipeds (Hofman, 1995; 
Kenney et al., 1996). These unprecedented changes in the composition at 
the top of the food chain are likely to impact the biodiversity in 
other components of coastal ocean ecosystem (Olver et al., 1995). Also 
the indirect impacts of fishing gear on the bottom organisms and ghost 
gill nets impoverish oceanic biodiversity (Auster et al., 1996; Dayton 
et al., 1995; Hofman, 1990).
    In order to move towards a sustainable fisheries management 
strategy we need to adopt a precautionary approach in which management 
errs on the side of conservation in the face of uncertainty (Hewison, 
1996). The current scientific advice provided by the NMFS is 
accompanied by a variety of sources of uncertainty in the assessment 
advice, stemming from incomplete knowledge of stock size and natural 
mortality rate; incorrect assumptions in the underlying mathematical 
models; and projection techniques of limited efficacy in the face of 
habitat degradation, climate change, and the inability to predict the 
socioeconomic behavior of the harvesters (Rosenberg and Restrepo, 1994; 
Sharp, 1995). In the past this uncertainty has caused the NEFMC to 
allow excess harvesting rates by the commercial industry. In the future 
we need to adopt a precautionary approach in which we allocate harvest 
levels well below optimal sustainable yield (OSY), with the onus being 
placed upon the commercial fishers to justify harvest levels above this 
reduced amount. Reauthorization of the Magnuson-Stevens Sustainable 
Fisheries Act offers further opportunities that each Fishery Management 
Plan (FMP) will have its essential fish habitat described (including an 
assessment of the impacts of fishing gear and habitat degradation from 
pollution or loss of inshore nursery areas, such as wetlands and 
seagrass beds); support conservation engineering programs to reduce 
bycatch; and promulgate measures to reduce overfishing. Long term 
ecological health of the coastal ocean and sustainability of the 
biodiversity needs to dominate short term economic considerations. We 
need a greater focus on managing the behavior of fishers, as opposed to 
the current emphasis on managing fish populations from a strictly 
biological perspective.
    The regulatory groups (NMFS-NER and NEFMC) need to take action and 
make provisions as follows:

  <bullet> Provide membership in the NEFMC to non-commercial fishing 
        representatives (recreational fishers, environmental groups, 
        and consumer groups). Need a greater sensitivity to conflict of 
        interest issues from commercial interests on the council (fox 
        guarding the chicken coop analogy which diminishes public 
        trust).

  <bullet> Establish marine reserves to serve as a recruitment areas 
        for fish, protection of fish breeding and nursery areas, and to 
        provide a baseline for evaluating the impact of otter trawl/
        scallop dredge fishing gear on the bottom invertebrate 
        communities (could make the amendment 7 closed areas I, II, and 
        Nantucket Lightship permanent and seasonally close 
        Massachusetts Bay/Great South Channel area). This would also 
        protect migrating Northern right whales, humpback whales, and 
        harbor porpoises (see Roberts, 1997; Auster and Malatesta, 
        1995).

  <bullet> Set aside a component of the TAC for less environmentally-
        damaging fishing techniques. Hook and line fisheries are more 
        selective, produce a higher quality product for the consumer, 
        and don't damage the habitat as much. The trip limits for hook 
        and line fishers should be high enough to support two persons 
        per boat in order to promote safety. The TAC and days at sea/
        trip limit regulations should be adjusted in order spread out 
        fishing effort seasonally. This would prevent the race for fish 
        by large offshore trawlers which reduces the value of landed 
        product for all participants.

  <bullet> Develop better coordination of fisheries management 
        jurisdictional issues between the state waters (0-3 mile), 
        federal waters (3-200 mile Exclusive Economic Zone), and 
        international Hague Line (U.S./Canadian conflicts). Since the 
        fish and marine mammal stocks move without regard to artificial 
        political boundaries, we need better coordination between the 
        coastal states, Atlantic States Marine Fisheries Commission 
        (ASMFC), NMFS/NEFMC and Canadian Department of Fisheries & 
        Oceans (DFO).

  <bullet> Develop a government-funded conservation engineering effort 
        to develop less destructive fishing gear to reduce bycatch and 
        damage to the bottom organisms. This can be conducted by 
        commercial fishers in conjunction with Sea Grant programs and 
        funded by Saltonstall-Kennedy and Fishing Industry Grant funds 
        supplied by NMFS.

  <bullet> Establish programs to mitigate habitat degradation from 
        land-based nonpoint sources of pollution and elimination of 
        nearshore nursery areas/breeding grounds (coastal wetlands and 
        seagrass beds; gravel habitats in rivers). This needs to be 
        based upon an assessment of areas already degraded (for which 
        we lack an easily accessible database); success/failure of past 
        mitigation efforts (for which we lack adequate follow up 
        monitoring due to understaffed NMFS habitat programs); and lack 
        of research on the dynamic habitat requirements of fish at 
        different life stages (resulting from lack of NMFS resources 
        devoted to this effort). As our depleted stocks recover from 
        overfishing, mitigation of degraded habitat will become a more 
        critical bottleneck in developing a sustainable fishery policy 
        (Dayton et al., 1995; Langton et al., 1995).

  <bullet> Devote greater attention to the threats to wildlife posed by 
        biotoxins, bacteria, and viruses. Even though it is recognized 
        that biological hazards pose a human health threat from the 
        consumption of contaminated shellfish (Ahmed, 1991; Grimes, 
        1991), not enough attention has been focused on the threat 
        posed to wildlife from these human-based sources of pollution 
        (Geraci et al., 1989; White et al., 1989). Of special relevance 
        is the threat posed by the ocean disposal of dredge spoils 
        (Massachusetts Bay Dredge Spoil Disposal site) and municipal 
        wastewater (Massachusetts Water Resources Authority outfall). 
        Comments on NPDES permits for pollution from point sources 
        discharged into the coastal ocean should address issues of 
        changes in the biological integrity of the receiving system, as 
        well as the toxic effects emanating from the chemicals 
        discharged.

  <bullet> Improve ability of stock assessments to incorporate 
        information on habitat, bycatch mortality, climate change, and 
        socioeconomic behavior of the commercial/recreational fishing 
        community (Sharp, 1995). Since uncertainty will still exist 
        even with such improvements, a precautionary approach should be 
        adopted, the primary purpose of which would be to protect the 
        biodiversity and integrity of the coastal ocean ecosystem which 
        is the ultimate guarantor for a sustainable fishery (Charles, 
        1994; Christie, 1993; Dayton et al., 1995; Olver et al., 1995).

  <bullet> Improve coordination with the scientific community to 
        utilize area closures and restrictions on fishing effort as 
        large-scale experiments to determine the efficacy of management 
        actions (adaptive management approach). This would require 
        maintaining closures even after some stocks recover, but this 
        information would help manage fisheries better in the long 
        term.

  <bullet> Provide more resources to the Coast Guard and NMFS to 
        enforce fishery regulations and collect better information on 
        landings, bycatch, and interactions between fisheries and 
        marine mammal, seabird, sea turtle, and non-target finfish 
        species. These non-target fish are forage for other components 
        of the oceanic foodchain.

  <bullet> NMFS Fishing Capacity Reduction Initiative (FCRI) has 
        fostered social justice, but is likely to fall short in the 
        areas of resource conservation (limited effort reduction will 
        be reallocated to the fishing effort of the remaining fleet and 
        inactive permit holders) and economic efficiency (effort 
        reduction will be overcome by input stuffing, input 
        substitution and technological improvement) (Gates et al., 
        1997).

  <bullet> Need to eliminate governmental subsidies that prop up 
        unsustainable fishing operations, whether these occur as a 
        result of low-cost industry loans, development of fisheries for 
        ``underutilized'' species, market research and development, 
        etc. Government financial aid should be limited to retiring 
        fishing vessels and gear and retraining displaced fishers.

  <bullet> Provide a forum outside the FMC format for the variety of 
        constituents interested in harvesting and protecting our public 
        fisheries resources to agree upon the way forward toward a 
        sustainable fishery policy from our present situation (since 
        the problem has political, socioeconomic, and allocation 
        components which can only be solved if all parties work towards 
        a solution without castigating one another).

             STATEMENT OF RON PHILLIPS, PRESIDENT, 
                      COASTAL ENTERPRISES

    Mr. Phillips. Good afternoon. I submitted my comments in 
writing. Thank you very much for just a moment. My name is Ron 
Phillips. I'm president of Coastal Enterprises, a community 
development corporation and community development financial 
institution in Maine. We do a lot of financing of businesses in 
Maine, especially natural resources and particularly the 
fishing industry. We directed $23 million into this industry. 
I'm here to say that it is a very lively and vibrant industry 
in Maine. We're doing a lot of deals. We have a lot of demand 
on capital. And my testimony is about access to capital. And 
I'd like to encourage you to consider in supporting the 
reauthorization of this, of the Act, and also be very sensitive 
to the biology and the participation of fishermen and data 
collection, which we encourage. I want to encourage and urge 
you to consider ways to create some capital to recapitalize our 
funds to keep this industry going, which is so important to the 
traditions and communities and values of people in New England.
    Thank you.
    Senator Snowe. Thank you. First of all, let me just 
apologize. I'm sorry there isn't enough time. I want to assure 
you that the Subcommittee will review all of the statements. 
There are ten legislative days to include additional comments, 
statements, concerns, and questions for the record. We'll be 
reviewing all the comments that have been issued here today. 
Unlike the Senate, I served in the House of Representatives for 
16 years and more often than not we only had one minute to 
speak. And so I sympathize. It's not an easy thing to do. I do 
appreciate your willingness to be here today, and I realize 
that it's no small sacrifice. I want to assure you that we 
understand the value of this industry to you, your families, 
your state, and your region. As a fellow Mainer, I certainly 
appreciate that.
    I want to express my appreciation to Senator Kerry for his 
leadership and his contributions. Again, I assure you that 
we're going to be working together to move forward on this very 
critical and valuable process. So again, I want to thank you.
    Senator Kerry. Thank you very much, Madam Chairwoman, thank 
you.
    Senator Snowe. The hearing is adjourned.
    (Whereupon the hearing was adjourned at 2:45 p.m.)
                            A P P E N D I X

                              Fishermen's Ad Hoc Committee,
                                     Dartmouth, MA, April 18, 2000.
Hon. Olympia J. Snowe,
Chairperson,
Senate Subcommittee on Oceans and Fisheries,
Commerce, Science, and Transportation Committee,
Washington, DC.
                                Re: Comment letter on ITQ's

Dear Senator Snowe:

    The Fishermen's Ad Hoc Committee consists of boatowners and 
fishermen from the northeast who are engaged in the scallop fishery and 
have been actively represented in the past before the New England 
Fishery Management Council (the ``NEFMC''). This comment letter is to 
record the opposition of our Committee to individual transferable 
quotas (``ITQ's'') in the limited entry scallop fishery.
    Our group has opposed similar proposals previously put forth by an 
``interested few'' under the names of consolidation and leasing who 
sought to transfer and stack limited access scallop permits and the 
``days at sea'' (DAS) which are allotted to set a quota or limit on the 
scallop total catch by limiting the number of fishing days for a 
scallop vessel each year. Our opposition goes back over four years and 
is well stated in our comment letter to the NEFMC dated October 31, 
1997. A copy of our letter with its attachments is attached hereto and 
sets out a position that is equally applicable to ITQ's today.
    When ITQ's were put on hold until October 1, 2000 the small group 
mentioned in our letter of 1997 worked vigorously to get around that 
prohibition claiming it did not apply to ``stacking'' or 
``consolidating'' licenses or transferring ``days at sea'' because 
quotas were limited to weight and volume and did not specifically 
include time spent fishing in the allotted DAS.
    The matter was attempted to be imposed as a regulation which 
required public hearings and comment. It was overwhelmingly opposed by 
scallop fishermen up and down the coast from Maine to Florida and its 
implementation was checked but not defeated. A member of the NEFMC (now 
its Chairperson) was the paid consultant and spokesman for the small 
group seeking the change to allow the transfer of permits and/or 
fishing days. His efforts almost succeeded when the catch-word was 
changed to leasing to allow the transfer of DAS. The NEFMC, responding 
to the opposition in the industry, resisted the change in 1998 but 
succumbed to the pressure of the small group and its spokesman to allow 
leasing to be implemented through the regulatory framework process 
which would not require the public hearings and notice of a regulation 
change for its adoption. Ms. Barbara Stevenson as a Council member from 
Maine was able to neutralize the framework vote by amending the motion 
to require that public hearings be required before any framework 
adjustment can be implemented.
    The arguments against ITQ's remain the same as those against 
``consolidation'' and ``leasing''! At the present time the class 2 
(full-time) limited access scallop fishing permit (``license'') is 
attached to a fishing vessel and goes with the vessel or its 
replacement vessel. This is so even though the permit purports to go to 
the owner as an individual or as a corporate entity. We believe that an 
individual fishing quota makes sense when we have sufficient scientific 
data to determine a total allowable catch in a particular fishery. 
However, the fishing permit should not be separated from the fishing 
vessel and it should not be transferable in whole or in part which 
would allow another to acquire and be guaranteed a larger share of 
scallops in a season than its competitor. Fishermen should be allowed 
to conduct business in the fishery on a fair and level playing field.
    To allow ITQ's is to encourage speculation and to threaten the 
small family-owned fishing boat business and the fishing communities. 
It will open the door for dominance in the scallop fishery by a 
prosperous few and will not foster conservation which is the essence of 
the Magnuson Act and the Sustainable Fisheries Act. ITQ's will destroy 
a way of life for the small family owned fishing business as it did in 
the surf clam fishery and as it has in Alaska. Iceland is presently 
embroiled in litigation that seeks to eliminate ITQ's.
    Our Committee is opposed to ITQ's in the scallop fishery.
        Very truly yours,
                                      John A. Birknes, Jr.,
                                      Fishermen's Ad Hoc Committee.
                                 ______
                                 
                             Massachusetts Audubon Society,
                                        Wenham, MA, April 10, 2000.
Hon. Olympia J. Snowe,
Chairperson,
Senate Subcommittee on Oceans and Fisheries,
Commerce, Science, and Transportation Committee,
Washington, DC.

Dear Senator Snowe:

    My name is Robert Buchsbaum. I work as the Coastal Ecologist for 
the Massachusetts Audubon Society and have a Ph.D. in marine ecology. I 
serve on Essential Fish Habitat Technical Team for the New England 
Fisheries Management Council. It has been involved in delineating 
essential fish habitats, habitat areas of particular concern, and 
identifying conservation issues related to fish habitats. I also serve 
on the Scientific and Statistical Committee of the Council.
    The Massachusetts Audubon Society believes that the Sustainable 
Fisheries Act is working to improve fish stocks in New England, and we 
urge Congress not to weaken it. A number of stock, such as yellowtail 
flounder and haddock are showing signs of recovery, as a result of 
management actions required under the SFA. The law itself is good and 
needs to be given more time to fully provide its benefits we envision 
it will. The fisheries crisis in New England is something that 
developed over more than ten years of lax management, so it will take 
some time for many fish stocks to recover to sustainable levels. Where 
we believe the Act has fallen down is on some aspects of its 
implementation by the National Marine Fisheries Service and the 
regional councils.
    Our organizations has been most actively involved in the Essential 
Fish Habitat (EFH) provisions of the AFA. This is an innovative aspect 
of fisheries management that we strongly support. It moves fisheries 
management toward an ecosystems approach and away from single species. 
It is important to maintain and strengthen this approach, which 
recognizes the connection between habitat and fish productivity and 
also the need to be conservative. New England Council has done a good 
job in identifying habitats and problems to those habitats.
Major habitat issues that need to be addressed:
    1. More funding is needed for habitat research. Research is needed 
to:

    <bullet> identify habitats that are really important to the fish at 
            a finer scale than is presently possible,

    <bullet> examine how gear, particularly trawls and dredges impact 
            different types of habitats,

    <bullet> examine the effects of closed areas on a variety of fish. 
            Closed areas work, as evidenced by the increase in sea 
            scallops in Closed Area 2 (Georges Bank).

    2. The New England Fisheries Management Council and other regional 
councils have not acted to address impacts to fisheries habitats, 
particularly those from fishing activities. We support the suggestions 
of the Marine Fish Conservation Network who want to change the burden 
of proof so that gears would have to prove they are not harming habitat 
rather than the other way around. This would be done for new gear and 
for all gear in closed areas that are being reopened.
    3. We need to support and maintain the consultative process for 
projects that might impact EFH. NMFS and the regional fisheries 
management councils provide the only review of projects that focuses on 
potential impacts on fish habitat. Evidence is that it has not caused 
any undue extra regulatory burden on project proponents or regulatory 
agencies such as the Army Corps of Engineers.
    We thank you for this opportunity to comment and look forward to 
continued progress in the conservation and management of New England 
fisheries.
    The Massachusetts Audubon Society is a voluntary association of 
people whose primary mission includes the preservation of a 
Massachusetts environment that supports both wildlife and people. The 
Society's programs encompass three broad areas: biological 
conservation, environmental education and advocacy. The Society is one 
of the largest independent conservation organizations in New England 
with a membership of 63,000 households.
        Sincerely yours,
                                   Robert Buchsbaum, Ph.D.,
                                                 Coastal Ecologist.
                                 ______
                                 
     Prepared Statement of James A. Donofrio, Executive Director, 
                     Recreational Fishing Alliance
    It is very disappointing to the Recreational Fishing Alliance (RFA) 
that the issue of eliminating spotter aircraft from the harpoon and 
general category fisheries has not been addressed by the National 
Marine Fisheries Service (NMFS) in a timely manner. There has been a 
recognition by the Highly Migratory Species Advisory Panel and most 
bluefin tuna fishermen in the harpoon and general categories for some 
time now, that the use of spotter planes goes against the philosophy 
that led to the development of the harpoon category and that the 
general category has operated under until recently. Since NMFS has not 
fulfilled its management responsibilities on this issue, we are forced 
to ask for your help.
    The harpoon fishery has been a traditional bluefin fishery for 
about as long as there has been a fishery--it outdates most if not all 
other gear types. The sentiment for retaining this traditional fishery 
with emphasis on the one-on-one battle of fisherman and their keen 
sight against giant bluefin has been strong over the years. When 
bluefin tuna regulations were first implemented there was recognition 
of this fishery and when quotas were drastically reduced in the early 
1980's, again there was recognition of the need to retain this 
traditional fishery and provide the opportunity for the fishermen in 
small boats, pursuing their quarry on the few calm days when the fish 
could be seen well at the surface, to take more than one fish. This 
respect for and desire to preserve the traditional fishery existed then 
and exists now. This can be seen when looking at the results of public 
hearings on this issue and all the comments received from fishermen.
    There were no airplanes guiding the fishermen in the traditional 
fishery--only their skill at spotting and then moving in on a fish at 
the surface to where they could throw their harpoon by sight. There was 
concern, however, as early as 1980 that bigger boats pursuing swordfish 
with aircraft would get into the bluefin fishery and destroy the 
traditional aspect of the fishery. This concern was realized about five 
or six years later and the catch rate was skewed towards those vessels 
with aircraft prompting an attempt by traditional harpooners in 1988 to 
get the Government to ban the use of aircraft to assist in the capture 
of bluefin. The desire of the fishermen in this category has been 
ignored too long. The message that has been sent to NMFS can not get 
any stronger than this. Spotter aircraft in the harpoon category 
destroy the objective of sustaining a traditional harpoon fishery. They 
must be eliminated.
    The same argument can be made for the general category fishery 
since aircraft were not a traditional part of this fishery. More 
important in the general category, however, is the fact that spotter 
aircraft substantially diminish the impact of effort controls that NMFS 
and fishery participants worked hard to implement in an attempt to 
maximize the use of available resources and split the catch among as 
many users as possible. This philosophy to spread out the catch over 
participants, space and time was recognized in 1980 regulatory 
documents and has persisted in bluefin regulatory actions since with 
the exception of the use of spotter aircraft which is counter to that 
philosophy. In addition to being a guiding philosophy for domestic 
allocation of bluefin under the Atlantic Tunas Convention Act, the 
National Standards for the Magnuson-Stevens Act (Section 301) states: 
``Allocation of fishing privileges shall be (A) fair and equitable to 
all fishermen; (B) reasonably calculated to promote conservation; and 
(C) carried out in such a manner that no particular individual, 
corporation, or other entity acquires an excessive share of such 
privileges.'' The use of spotter aircraft in the harpoon and general 
categories goes against all of these standards. First, it is not fair 
and equitable but provides vessels using aircraft a distinct advantage 
over vessels fishing traditional techniques. Also, it ensures that the 
opportunity to catch bluefin will not be equitable but skewed towards 
those vessels with aircraft since their catch rate is greater and the 
season closes quicker. Second, the use of aircraft certainly is not 
calculated to promote conservation but to catch as many fish as 
possible. With this ``tool,'' the temptation to high-grade is greater 
and more undersize fish are killed and released than under traditional 
fishing techniques which is certainly not conservation. There are 
letters from fishermen documenting this. The third part to the standard 
is violated for the same reason as the first--the vessels with aircraft 
catch an excessive share. Again, there is information from fishermen 
that document the difference in catch between vessels using planes and 
not using planes.
    One of the most important reasons for banning spotter aircraft in 
the general category is directly related to responsible management and 
thus conservation of bluefin tuna resources. The criteria listed in 
1982, and remaining in effect today, for the preferred management 
strategy included language from the assessment scientists that ``the 
effort that generates the catch is related to the fishing mortality 
rate.'' This requires a measurable unit of effort such as vessel days 
or hours fished which is proportional to the fishing mortality rate. 
The traditional general category fishery has measurable units of vessel 
effort and has been the basis for the very important large fish index 
which is used in the assessment for the status of Atlantic bluefin tuna 
stocks. The addition of aircraft to this category, however, throws in a 
bias that can not be measured. The effort from the vessels using 
spotter planes is not quantifiable since catching the fish has nothing 
to do with vessel effort but plane effort which is not quantifiable. 
Basically, with airplanes, you have a catch-per-unit-of-effort (CPUE) 
that doesn't relate to changes in abundance. Therefore, the catch and 
effort data from vessels capturing fish with the aid of aircraft should 
not be used in developing the large fish index used in the bluefin tuna 
assessment. Each data point is important and the International 
Commission for the Conservation of Atlantic Tunas assessment scientists 
can not afford to loose data key to determining the status of bluefin 
stocks. Spotter aircraft should be banned from this fishery so there 
can be use of the CPUE data from all the vessels in the fishery.
    Also, there is a safety issue that is particularly important as 
more and more boats get into the fishery. Even on days when visibility 
may be poor for the vessels on the water, a plane can be seen in the 
clear skies above and when this plane circles, it is instinct to rush 
towards that area. This can be dangerous when a number of boats, many 
that can go very fast, rush to the same area.
    I hope that you can see that there has been much thought put into 
this issue by the fishermen involved in these fisheries and that they 
have developed a record of opposing spotter planes in the harpoon and 
general categories. This information and comments/requests have been 
presented to NMFS and we have been waiting for a regulation to 
implement a ban on spotter planes in these categories. Despite the 
efforts of many organizations and individuals, we are frustrated by the 
delay and, thus, are seeking your help in getting this ban implemented.
                                 ______
                                 
    Prepared Statement of Ronald Enoksen, Eastern Fisheries, Inc., 
                            New Bedford, MA
    I am the third generation in the sea scallop harvesting business. I 
represent twelve vessels in New Bedford, MA, all of which fish for sea 
scallops. These vessels fish off New England and Middle Atlantic 
waters.
    I have seen many changes in this business. I can remember being on 
my father's boat back in 1976 fishing for scallops with no meat count 
before the 200-mile limit. We would be catching scallops off the coast 
of New Jersey along side with the Canadian scallopers. The 
implementation of the 200-mile limit and the Magnuson Act has generated 
many good changes particularly protecting our resource from the foreign 
fishing vessels. It also created new work for the shipyards for 
construction of new vessels. Unfortunately, it also created excess 
fishing capacity since the new vessels were not replacing other 
existing boats. This increase in the fishing capacity put tremendous 
pressure on our resource, which in turn created an uphill battle for 
all regional councils to protect the diminishing resources.
    The council would address the excess fishing capacity problems by 
having minimum fish size and a moratorium on permits issued. The 
council would also close off areas to fishing and force vessels to 
spend more time at the dock than out fishing. Next, the council would 
require a fishing gear change that reduces the efficiency of the vessel 
to catch the seafood. Later on the council would address all other 
species caught besides the directed species.
    I have followed the rulemaking in the New England Fisheries 
Management Council process. I have attended many meetings from Planning 
Develop Team, Advisor, Oversight committee, and the Council levels 
since the Amendment 4 of the sea scallop. I became directly involved in 
the council process when I volunteered to be sea scallop and monkfish 
advisor in 1998. I have seen how our council rulemaking process works. 
In my mind all regional councils have an enormous responsibility to 
address the problems of rebuilding and protecting our resources. Now 
the U.S. Congress has given Sustainable Fishery Act to the Regional 
Councils, which requires the Council to rebuild the biomass within ten 
years. The biggest threat to our resource is too many boats capable of 
chasing for the same fish. Right now there are too many vessels with 
too few days at sea chasing for the same fish that are not in the 
existing closed areas.
    The majority of the fishing vessels are approaching twenty-five 
years old. Some vessel owners have difficulty in spending monies to 
take proper care of their vessels. There is no economic incentive to 
build new or upgrade vessels. Few or no banking institution would 
finance new vessels or upgrade because too few fishing days are 
allowed. Currently the crews are jumping from boat to boat to try to 
maintain a year's pay when the boats are tied up two thirds of the 
year. This is where I would strongly encourage all Senators to please 
lift the moratorium on ITQ's, IFQ's, and quota based programs. I 
believe that by giving the Regional Councils more latitude they address 
the over fishing capacity. Give the Council more options to develop a 
sustaining fishery off our coast. I know that ITQ's, IFQ's, and quota 
based programs are not perfect but at least allow each Regional Council 
to explore the concepts. The Councils could learn from the downfalls 
and problems of other existing quota-based programs.
    Hopefully, Congress will consider lifting the moratorium which will 
in turn give each Regional Council more latitude in the decision-making 
process to address the issue of over fishing capacity. Thank you for 
this opportunity to speak.
                                 ______
                                 
         Prepared Statement of Ronald L. Phillips, President, 
                        Coastal Enterprises Inc.
Senator Snowe and members of the Subcommittee,

    I am pleased to present testimony in support of reauthorization of 
the Magnuson-Stevens Fishery Conservation and Management Act hearing. 
My comments relate to the need to continue investing in the New England 
fishery to preserve the infrastructure and support a way of life, 
values and traditions so important to many coastal communities and 
families.
    Coastal Enterprises, Inc. (CEI) is a nonprofit community 
development corporation and community development financial institution 
based in Wiscasset, Maine. We finance small businesses, community 
facilities, and affordable housing. Development of value-added natural 
resource industries has been a major economic sector of CEI's and a 
vital part of the state's economic development activity in this sector. 
In the past, and with the infusion of FDA revolving loan funds three 
years ago, we continue to focus and target scarce financial resources 
toward Maine's traditional and emerging marine resource based 
enterprises.
    Despite the doom and gloom headlines of the regional papers, this 
sector represents an important asset and source of income for coastal 
communities. To capture the valuable web of shoreside linkages, a 
recent study from the University of Maine calculated that for every 
$1.00 of seafood landed an additional $2.39 of income is generated. The 
danger we face in the current climate of stock assessment and 
rebuilding is that we will underestimate the importance of maintaining 
and carefully building upon the industry infrastructure. This is not 
just traditional wharves and piers, but the irreplaceable skills that 
the shrinking pool of professional Captain and crew contribute.
    CEI's portfolio continues to grow and responds to both traditional 
sector needs as well as new venture opportunities emerging in 
aquaculture and marine biotech. To date, we have directly invested over 
$23 million in 116 fisheries-related businesses that support well over 
1000 captain, crew, and shoreside jobs from York to Washington County. 
Worth mentioning is that over the last five years our portfolio 
performance has improved as our loan volume has increased.
    At the same time that we see the real need for community 
development financing, we also believe that the future of Maine's 
fishing industry depends upon our ability to better understand the 
biology of the resources we harvest and to effectively manage them. 
From a community economic development perspective, the challenge of 
managing marine resources for the future and maintaining the commercial 
viability of this critical industry takes place deal by deal in 
specific coastal ports and towns. Biological data is key to resource 
understanding and management. Financial capital is critical to 
investing in the future of Maine's Fishing Industry.
    We have submitted a proposal to the National Fish and Wildlife 
Foundation for our Fishtag financing in which borrowers agree to 
contribute scarce biological data towards management efforts. Our main 
goal right now is to raise the loan and investment capital to meet the 
growing demand. In the last four months alone, for example, we loaned 
out over $800,000.
    There are clearly many elements to the Magnuson-Stevens Act 
critical for ongoing management of the fishery. The 1996 amendments 
established guidelines for research to better determine the social, 
economic and cultural value and impact of the fishery as stocks 
plunged, and efforts were made to preserve and rebuild. Findings from 
these studies suggest that reinvestment presents a critical 
opportunity. Our recommendation is that resources are allocated to new 
venture opportunities, and that the Subcommittee to consider ways to 
setaside funds to capitalize revolving loan funds. CEI alone could use 
additional funds to build on our existing portfolio.
    We look forward to working with you on these issues and others that 
are crucial to Maine's Fishing Industry. Thank you for the opportunity 
to present this brief testimony.
                                                         Attachment

                                             CEI's Fisheries Project



What is the goal:                                To foster the sustainable development of Maine's Fisheries and
                                                  fishing communities by making investments, initiating
                                                  projects, supporting policies and assisting marine related
                                                  enterprises that:

                                                     <bullet> generate quality jobs;
                                                     <bullet> add value to marine resources;
                                                     <bullet> strengthen marine infrastructure;
                                                     <bullet> improve management of marine resources;
                                                     <bullet> reuse and or recycle waste streams

What are the terms:                              7% fixed rate, 5-10 years

How much have we lent:                           $7.9 million and leveraged an additional $15 million

Our Bank Partners:                               Androscoggin Bank, Bath Savings Institution, Camden National
                                                  Bank, Damriscotta Bank and Trust, Farm Credit of Maine,
                                                  Finance Authority of Maine, First National Bank of
                                                  Damriscotta, Fleet Bank, Key Bank of Maine, Northeast Bank,
                                                  Peoples Heritage Bank, Pepperell Trust Co., Union Trust

How many deals:                                  116 loans

Who do we lend to:                               38.9% harvesters, 15.1% processors, 11.9% shoreside suppliers,
                                                  11.1% wholesale, 7.9% infrastructure, 11.1% new marine
                                                  related, 4% retail

Uses:                                            $10.7 million fixed assets, $11.7 million in working capital

Portfolio Strength:                              Loss rate under 1%

Jobs:                                            953 full time and 172 part time; Avg. job pays $10/hour with
                                                  some benefits

What is a FISHTAG:                               A FISHTAG commits the borrower to collect and contribute scarce
                                                  biological data toward a management effort. CEI links the
                                                  borrower, regulatory agencies, with the scientific community
                                                  to define the data, methodology, and monitoring protocols.



                                 ______
                                 
       Prepared Statement of David K. Roach, Executive Director, 
            Florida Inland Navigation District, Jupiter, FL
    Good morning Members of the Subcommittee, my name is David K. 
Roach. I am the Executive Director of the Florida Inland Navigation 
District, an independent unit of Florida State Government that serves 
as the ``local sponsor'' of the Atlantic Intracoastal Waterway project 
in Florida. The District's Board of Commissioners has directed me to 
provide this testimony on behalf of the commercial and recreational 
users of the waterway which come from all states of our nation. My 
testimony today will provide some background on the waterway and the 
effect that Essential Fish Habitat is having on our ability to maintain 
the waterway.
Background on the Atlantic Intracoastal Waterway
    The Atlantic Intracoastal Waterway is an integral part of our 
nation's navigation system. Originally developed in 1881 by private 
interests in conjunction with the State of Florida, the waterway today 
is a federal/state project serving many national, regional and local 
interests. On an annual basis the waterway carries close to 1 million 
tons of commercial cargo, transports over 500,000 cruise passengers, 
provides connecting access to 18 inlets and ports along Florida east 
coast, supports 33,000 commercial waterway related jobs, supports a $10 
billion per year recreational marine industry, provides access for over 
500,000 recreational vessels, and supports $320 billion of land side 
real estate values.
    The waterway also serves as part of the nation's national defense 
system, provides access and recreational opportunities to the six 
million residents of Florida's east coast, provides a destination to 
the millions of tourists from other states or other countries that come 
to Florida each year to enjoy our waterway and beaches, and provides 
environmental benefits to our natural lagoons and waterways. Yes, the 
waterway channel does provide environmental benefits by facilitating 
the mixing of ocean and lagoon waters to create excellent water clarity 
to support marine habitats that make our lagoons and bays some of the 
most productive and diverse in the world. Additionally, the waterway 
provides a corridor for the migration of any species such as the 
endangered manatees. Indeed, the waterway is essential to the quality 
of our lives along the eastern seaboard.
Waterway Maintenance Status
    Since 1985, the District has been working on a Long Range Dredged 
Material Management Plan for the waterway that, when implemented, will 
provide a permanent infrastructure of sites to properly store, manage, 
and recycle 50 million cubic yards of dredged material over the next 50 
years. The primary goal of the plan is to allow the waterway to be 
maintained in perpetuity without further impacts to our wetland 
resources. The implementation of the plan will preserve over 25,000 
acres of wetlands and submerged land resources. Our plan is the most 
forward thinking dredged material management plan in the nation.
    The District has currently invested over $5 million in producing 
the plan, $50 million in land acquisition costs, and $10 million in 
development of the infrastructure. Our dredged material plan is 
currently the most implemented plan in the nation. Future investment 
costs will be an additional $10 million for land acquisition, $50 
million for infrastructure development, and approximately $300 million 
for maintenance dredging over the next 50 years. While dredging and 
infrastructure costs are the responsibility of the federal government 
sponsor, the District has stepped forward to commit at least $80 
million of these costs for better maintenance of the waterway in 
Florida. Pursuant to our agreement with Congress we will not seek 
reimbursement of these expenses. As you can see the District has made a 
substantial commitment to the maintenance of this waterway that will 
protect the environment and provide safe and efficient navigation.
Effects of Essential Fish Habitat on Waterway Maintenance
    While the spatial area of waterway channel is a very small portion 
of the acreage of the natural and man made waterways that the channel 
passes through, the Atlantic Intracoastal Waterway in Florida is 
entirely within the designated boundary of Essential Fish Habitat for 
several species including red drum, penaeid shrimp, gray and lane 
snapper, gag grouper, and spanish mackerel. This designation of 
essential fish habitat in the waterway channel was done without any 
specific investigations being performed in the channel itself
    A recent request to perform routine maintenance dredging of a 
section of the waterway channel, that has been maintenance dredged 
every four years since 1965, resulted in an adverse impact letter to 
Essential Fish Habitat from the National Marine Fisheries Service. In 
their letter, the Service requested that we avoid or mitigate for the 
impact to the sparse seagrass bed that had moved into the channel since 
the 1995 dredging event. We could not avoid the potential impact 
because of the linear nature of the channel and more significant 
resources located outside of the channel.
    We had never heard of a request to mitigate for a maintenance 
project so we contacted the Service to determine the rationale and 
authority for this mitigation requirement. Conversations with Service 
personnel indicated that ``This is a new day.'' They also indicated 
that the Magnuson-Stevens Act and the Habitat Protection Plans 
developed by the South Atlantic Fisheries Management Council did not 
exclude the channel and required mitigation for all seagrass impacts. 
They further indicated that the Act and the Plan did not provide them 
with any flexibility in their decision-making. Finally, they stated 
that if seagrasses were to recolonize in the channel after we had 
dredged and mitigated this year, ``We would probably have to mitigate 
the next time we dredged'' as well. This seemed to be an unreasonable 
approach to environmental protection in relation to the routine 
maintenance of an authorized public project.
    With the necessity to begin the project because of environmental 
timelines on the use of the beach placement area, we had to eliminate 
this portion of the channel from our permitting request. We expect 
that, until this issue is resolved, this shoal will continue to grow. 
As it grows toward the water surface it will be routinely impacted by 
more and more vessels attempting to legally use the waterway channel 
until eventually the seagrass will be removed by this vessel impact. 
Therefore, it does not seem that the Service's goal of protecting this 
seagrass bed will be realized.
Comments on Essential Fish Habitat
    The District is of the opinion from our experience that the 
definition of Essential Fish Habitat is too broad. While the waterway 
channel may serve as fish habitat it certainly is not ``essential'' 
fish habitat because of the extreme amount of vessel use and ongoing 
maintenance dredging that occurs within the channel limits. These 
activities do not support or encourage within the channel a ``substrate 
necessary to fish for spawning, breeding, feeding, or growth to 
maturity'' as defined in the Act. It is not reasonable to conclude that 
the waterway channel itself is ``necessary'' or ``essential'' for the 
fishery. Maintenance dredging of the waterway using today's technology, 
a proper dredged material management site, and limited by environmental 
permit conditions will not negatively or perpetually alter the 
``physical, chemical, and biological properties'' of the channel in 
relation to its use by fish.
    There have been no specific studies by the Service throughout the 
374 mile length of the waterway channel to document resources in the 
channel that would meet the definition of essential fish habitat. It 
now seems that the Service wants navigation interests to prove that the 
channel is not essential fish habitat. A recent resource survey of a 
small section of the waterway channel for a channel expansion project 
cost the Corps of Engineers $220,000. The cost of this type of survey 
for the 374 miles of waterway channel in Florida would be over $3 
million.
    It is our belief that Congress did not intend for essential fish 
habitat protection to preclude or increase the complexity or cost of 
routine maintenance dredging of the nation's public navigation system. 
The District is of the opinion that the Act sought to protect areas 
outside of maintained channels and harbors that provide the 
``essential'' habitat for the fisheries. The District supports this 
concept. It is not logical that altered and maintained channels and 
harbors would constitute ``essential'' fish habitat. A change to the 
definition of essential fish habitat in the Magnuson-Stevens Act to 
exclude public channels and harbors from this provision would rectify 
this unintended consequence.
Conclusion
    The Atlantic Intracoastal Waterway is an integral part of our 
nation's navigation system. The application of Essential Fish Habitat 
provisions to the waterway channel is an unintended circumstance that 
threatens the efficient maintenance and safe use of the waterway. The 
District requests that the Subcommittee modify the definition of 
essential fish habitat to exclude the nation's waterway channels and 
harbors from this designation. Thank you for this opportunity to 
address the Subcommittee and provide this testimony.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Kerry to 
                          Dr. Brian Rothschild
Multispecies and Ecosystem Management
    There is certainly a need to begin instituting multispecies 
management measures in New England so we can ensure that fishermen have 
the flexibility to switch among species. However, it is unclear how you 
would accomplish this under current guidelines and legislative 
requirements.

    Question 1. What measures are available to the Council as they 
prepare Amendment 13?
    Answer. It is possible to develop an index nominal fishing effort 
(days-at-sea for given engine horsepower) that is translatable into 
species specific fishing mortality.

    Question 2. What new tools and authorities are necessary to 
institute an effective multispecies management approach?
    Answer. Tools include developing a better understanding of 1) 
catchability in a multiple species fishery, and 2) biological or 
ecological interactions among species. The latter contains some 
difficult components because some of these interactions may involve 
recruitment.

    Question 3. Is there enough flexibility in the National Standard 
Guidelines to manage the New England multispecies fishery as a unit?
    Answer. I think there is enough flexibility in the National 
Standards to manage the New England multispecies fishing. One of the 
significant difficulties is the rebuilding idea, which is 
scientifically difficult to defend.

    Question 4. How close are we to achieving multispecies and 
ecosystem management, respectively? Do we need more data to do this?
    Answer. In principle, we are close to achieving multiple species 
management. Achieving ecosystem management will require substantial 
data. Its cost-effectiveness could come into question. The issue is 
really not so much ``more data,'' rather, it is developing an improved 
conceptual basis for multispecies management. This improved conceptual 
basis will need to involve principles of optimality.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                             Rip Cunningham
    Question 1. In the 1999 fishing season, the groundfish regulations 
changed five times. Changing the rules for a fishery five times in one 
year appears to be a de facto disregard of National Standard 8, which 
requires the consideration of socio-economic impacts of regulations on 
fishing communities.

    A. Do you have any recommendations to increase the focus on such 
factors?
    Answer. First, to my knowledge, the NE Council has considered 
socio-economic impact in all their deliberations. Next, I do not 
believe that the whole management process can take a short-term 
perspective. If that is the case, then it is reflective of where we 
currently are with managing groundfish. Rebuilding groundfish resources 
is beneficial to the communities that use those resources. The process 
of rebuilding cannot be undertaken without some short-term economic 
dislocation. For too long the New England Council has been under the 
misapprehension that there can be gain without pain. It has not worked 
and cannot work without some sacrifice. The very fact that the Council 
is attempting to manage a living resource requires an ability to make 
the necessary changes in management on an immediate basis. The easiest 
strategy would be to close the entire fishery for a period of time, but 
this has not been an acceptable alternative.

    B. What can be done to inject more flexibility into the Act?
    Answer. Flexibility is, in part, responsible for the failure of a 
lot of management efforts by the Council. The flexibility aspect has 
been used by commercial fishing participants who don't like regulations 
and want to get around them. On the FMP side, flexibility has been 
built into the framework management strategy. I do not believe that any 
more flexibility is necessary.

    Question 2. Please comment on whether you think that the Council 
decision-making process involves an adequate level of public 
participation and whether establishing standard operating procedures 
for its advisory committees would improve the Council's work.

    A. Are you aware of any instances when the Council has not 
adequately considered an Advisory Committee recommendation? If so, 
please explain.
    Answer. I am not aware of any instances when the Council has not 
adequately considered an Advisory Committee recommendation, although I 
am aware of instances where the Council's action may not have reflected 
the Committee's suggested approach. Perhaps the best way to manage the 
flow of information would be to have the Advisory Committee suggestions 
incorporated into the Species Oversight Committee recommendations to 
the Council.

    Question 3. Do you support the Marine Fish Conservation Network 
recommendation that the Magnuson-Stevens Act should be amended to 
guarantee that more non-fisherman (specifically members of 
environmental organizations) are appointed to the regional fishery 
management councils?
    Answer. I support better representation on the Councils of the 
broad spectrum of user groups interested in our marine resources. By 
any measure, the commercial fishing users have dominated the Council 
process. If either economic measures or participation levels were used 
to determine representation, the Council make-up would be substantially 
different. I am also concerned over the amount of influence that State 
marine fisheries leaders have over the process, but I do not have any 
panacea for that problem.

    Question 4. Please state whether or not Congress should extend the 
moratorium on Individual Transferable Quotas and how such action would 
affect fisheries in New England.
    Answer. As I stated in my oral testimony, I have a philosophical 
problem with transferring rights to common property resources. I am not 
sure that there is any way to mitigate this concern. On the other hand, 
I am coming to believe, as stated by Senator Stevens at the Hearing, 
that ITQ's may be our last option to try to save some of our fisheries.

    Question 5. Please share your views on the conservation and 
management of Atlantic highly migratory species such as bluefin tuna 
and swordfish.

    A. Do you believe that multilateral management through the 
International Commission for the Conservation of Atlantic Tunas (ICCAT) 
is the appropriate approach, or should the United States, through the 
regional fishery management councils and the National Marine Fisheries 
Service, manage these species unilaterally? Please explain.
    Answer. I believe that multilateral management is the only real 
solution. Unfortunately, it is a painfully slow process. When it comes 
to billfish, such as marlin and swordfish, the US EEZ management can 
impact only 5 percent<plus-minus> of the total populations, so we need 
to have viable international management.

    B. Should the United States strictly abide by the time and quota 
provisions of an ICCAT adopted rebuilding and conservation program for 
a given species, or should the United States be able to impose a 
different, either more or less restrictive, rebuilding schedule on its 
own fisherman? Please explain.
    Answer. It is my feeling that the U.S. should not have the option 
to be less restrictive than the quotas imposed by ICCAT. If all the 
signatories had that ability, then the negotiations would be a waste of 
time and effort. On the other hand, if the U.S. wants to be more 
restrictive, that does no harm to the negotiated quotas and benefits 
the resource in the long run.

    C. Are there times when it would be appropriate for the United 
States recreational or commercial fisherman to be required to shoulder 
a greater respective conservation burden than that required by ICCAT of 
other nations? If so, please explain.
    Answer. As stated above, I do not believe more restrictive measures 
implemented by the U.S. on their own users has any detrimental impact 
on the international process. In some cases, it might be used as 
leverage to get other signatories to impose more restrictive measures 
themselves. A case in point could be restrictive measures to curb the 
waste of billfish bycatch in the longline fishery. This could be used 
to try to get other nations to help rebuild marlin populations. We are 
virtually the only nation that understands the value of billfish as a 
recreational resource.

    D. Should all commercial and recreational sectors of HMS fisheries 
be expected to provide a comparable level of scientific data on their 
fisheries to ICCAT?
    Answer. I do not have a problem with the concept, but feel that the 
implementation would be the crucial factor. Voluntary logbooks used by 
the commercial fishing industry have proven to be unreliable. That 
means a much greater number of observers would have to be used. There 
is also a great deal of information through observer covered sport 
fishing tournaments and this information is not being used.

    E. Should ICCAT take greater steps to develop scientific 
information on recreational fisheries for highly migratory species 
internationally?
    Answer. Yes, I feel that they should, but as mentioned above the 
U.S. is the only major recreational user of HMS species.

    F. What, if anything, would you change about ICCAT and the manner 
in which the United States participates therein?
    Answer. I would like to see the process move faster and that is not 
likely to change. From the U.S. perspective, I feel that the advisory 
committee meetings should be held earlier and then the U.S. position 
should be discussed with other nations that have been receptive to past 
U.S. positions. Discussions prior to the actual meeting might be 
fruitful in getting better decisions from the process.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                           Penelope D. Dalton
    Question 1. Over the past year, you have consistently testified 
that one of your highest priorities is to improve social and economic 
analyses of the agency's regulations. However, the Government 
Accounting Office (GAO) report, Problems Remain with National Marine 
Fisheries Service's Implementation of the Magnuson-Stevens Act, 
concluded that NMFS has done little more than identify adverse economic 
impacts and has not satisfied the requirement to minimize such impacts. 
You have also maintained that National Standard 8 has been an important 
part of your decision-making process. Yet, GAO says that economic 
impacts are not considered early enough in the decision-making process 
to have an impact.

    A. What changes, if any, do you plan to make administratively as a 
result of GAO's findings and recommendations to address social and 
economic impacts in the decision-making process?
    Answer. Response was not available at the time hearing went to 
press.

    B. In response to GAO's comments that NMFS needs to work more 
consistently with fishermen in research activities, the agency stated, 
in part, ``Realistically, the criticisms are likely to continue as long 
as the industry's activities are constrained.'' What changes, if any, 
do you plan to make administratively to engage the industry more 
effectively?
    Answer. Response was not available at the time hearing went to 
press.

    C. In response to GAO's comment on NMFS's use of best available 
scientific information, the agency stated, in part, ``A more complete 
description of the `miscommunication' between NMFS, the Councils and 
those affected by the decision would be useful, with reference to 
specific situations.'' This comment implies that the agency may not be 
aware of any specific situations where there has been such a 
miscommunication or that the agency simply takes exception to the 
comment. Please explain in detail whether or not the agency is aware of 
any situations where there has been such a miscommunication. 
Furthermore, please explain why a more complete description of such 
situations would be useful, and how the agency would respond.
    Answer. Response was not available at the time hearing went to 
press.

    Question 2. During the hearing several witnesses suggested a shift 
from current MSY-based Fishery Management Plans to the use of Fishery 
Ecosystem Plans. The Secretary's recent decision on dogfish resulted in 
the termination of the directed dogfish fishery. Due to the low value 
of dogfish, the new catch limits will make the harvest of such fish 
economically infeasible. Consequently, it is safe to assume that much 
of the effort previously targeted at dogfish will be transferred to 
groundfish.

    A. Please comment about the abilities of the regional councils to 
develop plans that would be ecosystem-based, rather than species-based. 
Include comments on how the interaction between dogfish and groundfish 
might be better incorporated in an ecosystem plan that accounts for 
predator-prey and competitive interactions.
    Answer. Response was not available at the time hearing went to 
press.

    B. Is sufficient scientific information available at this time to 
make the shift from species management to ecosystem management?
    Answer. Response was not available at the time hearing went to 
press.

    C. What would the resulting workload be for the regional councils 
if we shifted to ecosystem management at this time?
    Answer. Response was not available at the time hearing went to 
press.

    Question 3. One of NMFS's recommendations to change the Magnuson-
Stevens Act would reinstate initial Secretarial review of council 
management plans--to allow the Secretary to make a preliminary 
determination on council actions. Currently, two to three months elapse 
before the Secretary makes a determination on a plan, and if it is 
disapproved, or partially disapproved, it can be many more months 
before the Council can modify and resubmit the plan. Obviously, this 
can leave a particular fishery with a great deal of uncertainty and in 
potential danger.
    The stated intent of this recommendation is to shorten the time it 
takes to get a plan approved. However, this authority was eliminated in 
1996 for the very same reason. Please explain why you now think initial 
Secretarial review will be more efficient?
    Answer. Response was not available at the time hearing went to 
press.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                                Tom Hill
    Question 1. The Government Accounting Office (GAO) report, Problems 
Remain with National Marine Fisheries Service's Implementation of the 
Magnuson-Stevens Act, concluded that NMFS has done little more than 
identify adverse economic impacts and has not satisfied the requirement 
to minimize such impacts. GAO also said economic analyses have not been 
sufficiently considered at the beginning of the decision-making 
process. Please explain in detail how the Council has minimized the 
social and economic impacts without this information?
    Answer 1. The New England Council has minimized social and economic 
impacts in a number of ways to the extent possible, despite the lack of 
detailed social and economic information available. It is also 
important to bear in mind that at times it is not possible to minimize 
such impacts when overharvesting of a given resource requires effort 
reductions in the areas and seasons in which the fish are caught--and 
that inevitably this will impact the fleet sectors who fish during 
those seasons and in those areas. Nonetheless, our Council is not 
insensitive to the communities which derive their livelihood from the 
resources we manage.

  <bullet> Many New England Council members have extensive experience 
        in the fishing industry and, as a result, fully understand the 
        impacts of difficult but necessary conservation measures.

  <bullet> The general economic impacts of various types of fishery 
        management measures are well-understood because they have been 
        used many times before. These include closed areas, increased 
        fish sizes, mesh sizes, reductions in days-at-sea, and trip 
        limits. Ironically, economic analyses have demonstrated that 
        days-at-sea reductions have had less negative and more positive 
        impacts than other management alternatives (other than 
        individual quotas, which currently are prohibited), but the 
        Council has not imposed further days-at-sea reductions because 
        of very strong opposition from commercial harvesters.

  <bullet> The Council has listened very carefully to public input 
        including input from the fishing industry and support 
        industries. This might not be apparent because conservation 
        restrictions imposed under National Standard 1 often cause 
        severe short-term negative impacts on all groups.

    Examples of this are:

  <bullet> In recent actions to protect Gulf of Maine cod, the Council 
        chose a mix of measures to minimize adverse impacts. It 
        implemented seasonal closed areas rather than trip limits when 
        data indicated the fish were sufficiently concentrated in 
        specific areas and seasons. It also implemented trip limits to 
        prevent directed fishing for cod so vessels could continue 
        fishing for other species rather than more extensive area 
        closures that would have virtually closed the fishery for 
        certain groups of inshore vessels. A greater reliance on 
        reduced trip limits would have increased discards and waste in 
        the fishery and not achieved mandated conservation targets and 
        a greater reliance on closures would have had more severe 
        community impacts.

  <bullet> Another example of how the Council minimized economic 
        impacts was its choice of a 10-year rebuilding schedule for the 
        scallop fishery. In the face of uncertain scientific advice, 
        the Council chose the longest time period allowed under the SFA 
        to rebuild the resource. It also chose a rebuilding schedule 
        that delayed days-at-sea reductions. The scallop industry 
        strongly criticized the Council for giving National Standard 1 
        priority over National Standard 8 while at the same time the 
        Council's Scientific and Statistical Committee criticized the 
        Council for not taking stronger conservation measures. The 
        Council chose a mid-course. The most recent scientific 
        assessment show a strong rebuilding of the scallop resource.

    It is interesting to note that in a Portland Press Herald article 
on the recent increases in groundfish landings, one prominent industry 
member who filed a legal suit against Amendment 5 to the Northeast 
Multispecies (Groundfish) Plan about five years ago, stated, ``We're 
ahead of every year back to '94. It's the fishery management plan 
working.''

    Question 2. During the hearing several witnesses suggested a shift 
from current MSY-based Fishery Management Plans to the use of Fishery 
Ecosystem Plans (FEPs). The Secretary's recent decision on dogfish 
resulted in the termination of the directed dogfish fishery. Due to the 
low value of dogfish, the new catch limits will make the harvest of 
such fish economically infeasible. Consequently, it is safe to assume 
that much of the effort previously targeted at dogfish will be 
transferred to groundfish.

    A. Please comment about the ability of the Council to develop plans 
that would be ecosystem-based, rather than species-based.
    Answer. Changing from the current FMP-based system to a two-tiered 
FEP/FMP-based system may be within the ability of the Council at some 
future point, but would be possible only if significant hurdles could 
be surmounted. It would, of course, require very substantial additional 
resources to acquire, analyze, and process all the information that 
would be necessary to accurately describe the ecosystem and its many 
inter-relationships. It also would be very important to only undertake 
this approach with realistic expectations and an understanding of the 
time it would take to fully develop and implement such a plan. It would 
also be important to have a clear understanding of the limitations that 
the Council would face in developing an FEP:

  <bullet> We do not have a complete understanding of the ecological 
        system that produces and supports fishes; and, like the 
        essential fish habitat (EFH) initiative begun in 1996, much of 
        the information required to develop a complete understanding is 
        not currently available.

  <bullet> We cannot forecast weather or climate and their effects on 
        ecosystems. Much of the interannual variability of fish 
        populations may be related to weather and climate cycles that 
        cannot be predicted, resulting in uncertainty related to the 
        effects of management measures.

  <bullet> Systems evolve over time and knowing how the system works 
        does not necessarily mean that an ecosystem would respond 
        predictably to future changes.

  <bullet> Our management institutions (Congress, NMFS, Councils) are 
        not necessarily configured to manage at the ecosystem scale. 
        Fish and the fisheries that pursue them are not easily aligned 
        with our political and jurisdictional boundaries. The Gulf of 
        Maine and Georges Bank are significant parts of the Northeast 
        Shelf ecosystem, yet we share these areas with Canada and 
        cannot be certain that ecosystem protection and management 
        measures implemented in the United States will be mirrored in 
        Canada, resulting at best a confounding of the effects of our 
        management measures and at worst an undermining of our 
        measures.

    The 1998 Report to Congress by the Ecosystems Principles Advisory 
Panel entitled ``Ecosystem-Based Fishery Management,'' recommended that 
Councils should continue to use existing Fishery Management Plans (FMP) 
for single species or species complexes, but that these should be 
amended to incorporate ecosystem approaches consistent with an overall 
Fisheries Ecosystem Plan (FEP). The FEP, the report said, would be used 
to provide Council members with a clear description of the fundamental 
physical, biological and human/institutional context of the 
ecosystem(s) within which fisheries are managed. The individual FMP's 
would continue to serve as descriptions of the specific management 
measures employed for each fishery operating in the region, but these 
management measures would be set within the greater context of the 
ecosystem described in the FEP. This two-tiered approach would be more 
appropriate and easier to implement than the wholesale replacement of 
existing FMP's with a new single FEP, according to the report.
    Many fisheries managed by the Council operate quite independently 
and differently from each other and individual FMP's provide the 
Council with the flexibility to make changes to the management and 
specifications for these fisheries without impacts to other fisheries. 
The overarching FEP theoretically would be used to establish management 
baselines and guidelines for the individual FMP's. Once the Council 
developed the FEP, all changes to individual FMP's should be relatively 
transparent to the other fisheries operating within the ecosystem.
    A wholesale change from FMP-based management to FEP-only-based 
management, however, may not be within the current ability of the 
Council, or at a minimum would be exceedingly difficult to implement. 
Rather than establishing a fairly static FEP and making relatively 
minor changes to individual FMP's, changes to the management or 
operation of an individual fishery would require a change to the 
overall FEP which would affect all fisheries and fishermen operating in 
the region. There is also the problem of inter-Council jurisdiction.
    There are additional issues of concern. The American Association 
for the Advancement of Science (AAAS), National Oceanic and Atmospheric 
Administration (NOAA), and hundreds of scientific experts have 
described the boundaries of 49 large marine ecosystems (LME's) 
worldwide, of which the Northeast Shelf ecosystem is one. This 
ecosystem overlaps the jurisdiction of the New England and Mid-Atlantic 
Fishery Management Councils. Requiring a single FEP as the only 
management document for all fisheries within the ecosystem would 
require a joint plan for all New England and Mid-Atlantic fisheries. 
Any changes to one fishery would require joint approval from both 
Councils, further complicating an already complex system. Using the 
two-tiered approach the two Councils would need to share information 
and agree on certain operating principles and guidelines for the shared 
ecosystem, but then independently make changes to the individual 
fisheries they manage.

    B. Is sufficient scientific information available at this time to 
make the shift from species management to ecosystem management?
    Answer. In their book Exploitable Marine Ecosystems: Their Behavior 
and Management, Drs. Taivo Laevastu, Dayton Alverson and Richard 
Marasco (1996), describe five basic kinds of information required for 
marine ecosystem management:

  <bullet> The determination of the present state of the ecosystem. The 
        authors describe this as an expensive and nearly continuous 
        process involving surveys, the collection of fishery dependent 
        and independent data, analyses of these data using models and 
        simulations, and the collection and processing of environmental 
        data that describe the physical and temporal aspects of the 
        ecosystem.

  <bullet> The need to know quantitatively the processes affecting the 
        natural fluctuations of the components of the ecosystem. The 
        authors suggest that this level of quantitative knowledge is 
        required to develop predictive models of the responses of fish 
        populations and fisheries to changes in the ecosystem either 
        through natural fluctuations or management strategies.

  <bullet> The evaluation of a variety of economical aspects of fishing 
        concurrently with the examination of the effects of different 
        fishing intensities assigned in the various ecosystems models 
        and simulations.

  <bullet> The evaluation from the biological point of view of the 
        state of the ecosystem resulting from the potential 
        exploitation strategies.

  <bullet> The determination of management criteria, such as TAC's, 
        their allocation, management measures, and enforcement.

    Underpinning these types of information ``required for marine 
ecosystem management'' is the need for mathematical models and 
simulations that describe the biological inputs and outputs of 
multispecies fisheries, the economic and social aspects of ecosystem 
management, and the environmental variables (weather, climate, and 
oceanic patterns) that affect ecosystem productivity, as well as the 
data required to run these models. Many mathematical models and 
simulations that address these needs either exist or are being 
developed (ECOPATH, ECOSIM, MSVPA, DYNUMES, PROBUB, NORFISK, BEAM 4, 
ERSEM, etc.). Much of the data currently collected by the National 
Marine Fisheries Service (fish and plankton surveys, commercial fish 
landings data, fish stomach contents, etc.), the U.S. Geological Survey 
(substrate and sediment mapping), the Global Ocean Ecosystems Dynamics 
Program (GLOBEC), the Cetacean and Turtle Assessment Program (CETAP), 
and the Global Ocean Observing System (GOOS) would contribute to our 
abilities to apply these models to the Northeast Shelf ecosystem. A 
very large amount of additional data, however, would be necessary, as 
would the continuation of existing data collection programs.
    Luckily, groups such as NOAA and the Regional Association for 
Research on the Gulf of Maine (RARGOM) have convened symposia and 
published documents which have contributed much toward the state of our 
knowledge and understanding about the ecosystem processes operating in 
the Northeast Shelf ecosystem. Clearly, much remains to be done, 
although it may be many years before there is enough scientific 
information available to completely understand all of the parameters of 
the ecosystem and their cycles and interactions.

    Question 3A. The 1994 NRC Study on Improving Fishery Management 
suggested the creation of an independent expert body--somewhat like the 
Marine Mammal Commission--to which technical and other disputes could 
be referred. In response, in the 1996 reauthorization we added Section 
305(g) which allowed Councils to establish fishery negotiation panels 
to assist in developing specific conservation and management measures. 
A. Is this the right approach? B. Have any Councils convened these 
panels?
    Answer. The Councils have been given the authority to manage 
fisheries in federal waters off our coasts. While the use of fishery 
negotiation panels may be useful in certain circumstances to resolve 
contentious issues or to encourage the development of new approaches, 
overall responsibility for decisions rests with the Councils, and 
ultimately the National Marine Fisheries Service. Considering these 
realities, it is not immediately clear that stakeholders would be any 
more satisfied with an alternative outcome given the necessity of any 
group to balance the competing and diverse interests identified during 
any management decision-making process in New England. To date the New 
England Council has not used such a mechanism.

    Question 3B. I understand the Science & Statistical Committee (SSC) 
can be called in to resolve scientific disputes, but wouldn't these 
sort of independent panels be useful in providing expert guidance to 
Councils as they develop alternative or innovative management measures, 
and in resolving disputes about allocation or economic impacts of 
certain measures (i.e. under National Standards 4 or 8)?
    Answer.

  <bullet> Any set of management measures will always have impacts on 
        allocation. No matter what group makes these decisions, whether 
        it be a Scientific and Statistical Committee, a Social Sciences 
        Advisory Committee (SSAC) or negotiation panel established 
        solely to handle allocation problems, the outcomes always will 
        seem unfair to those disadvantaged by the final management 
        decisions. For example, as mentioned in an earlier response, 
        quotas, trip limits and closed areas always affect some groups 
        more than others. The development of independent ideas and 
        creative solutions is to be encouraged, but not the 
        establishment of an additional layer of decision-makers who 
        will meet each time a particular group is dissatisfied with the 
        management measures approved by the Council.

  <bullet> Additionally, the Scientific and Statistical Committee is 
        composed of independent scientists who volunteer a very limited 
        amount of time, who have a professional interest in matters of 
        science, and who are largely unfamiliar with the specifics of 
        allocation issues. The primary responsibility of the SSC is to 
        ensure that the Council bases its decisions on the best 
        available scientific information (to meet its obligations under 
        National Standard 2).

  <bullet> Similarly the Council's Social Sciences Advisory Committee 
        consists of social scientists known for their research on the 
        social and economic impacts of management measures. The SSAC 
        has the same primary responsibility to ensure that the best 
        possible information is used to make management decisions. 
        Similarly, they are not equipped to serve as an arbitration 
        panel to resolve allocation issues among fishing groups.

    Question 3C. If not, how can the Council address criticisms that 
decision-making is inequitable or under-representative?
    Answer.

  <bullet> The Council has a well-defined public process that provides 
        adequate opportunity for input from and considers the interests 
        of all public sectors including commercial and recreational 
        fishers, conservation organizations and taxpayers.

  <bullet> The Councils continually face controversial conservation and 
        resource allocation decisions. By definition, controversy means 
        that there will be groups that will not be happy with the 
        actions that attempt to resolve the issues. It is difficult for 
        the Council to act as a representative body, because there are 
        a very limited number of Council appointments and a great 
        number and variety of interest groups in the New England 
        fisheries as well as limited resources to fund Council 
        operations.

  <bullet> The Council is committed to continually improving its 
        process to provide the best exchange of information between 
        decision-makers and the public. To this end it has:

    <bullet> undertaken the responsibility, in cooperation with NMFS, 
            for producing and improving annual Stock Assessment and 
            Fishery Evaluation (SAFE) Reports to provide the public 
            with the information it needs to fully participate in the 
            FMP development process;

    <bullet> strengthened its advisory panel process;

    <bullet> engaged in outreach through numerous meetings of its 
            committees in various areas of New England, through its web 
            site, news releases, and participation of the Chairman and 
            Executive Director in constituent meetings at the local 
            level; and

    <bullet> tasked its Social Sciences Advisory Committee (SSAC) to 
            provide recommendations on improving SAFE reports and 
            impact analyses, particularly with respect to identifying 
            critical social and economic issues and analyses early in 
            the plan development process.

    The New England Council appreciates the opportunity to respond to 
the follow-up questions forwarded by the Committee. If you should 
require further information, please feel free to contact either 
Chairman Tom Hill or Executive Director Paul Howard.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                             Frank Mirarchi
Questions.
    1. It has been suggested that the regional councils should switch 
from single or multi-species Fishery Management Plans to Fishery 
Ecosystem Plans.
      A. Please assess the amount of work this would create for the 
regional councils?
      B. Is there currently enough life history and environmental data 
to create such an ecosystem plan?
    2. Please state whether or not Congress should extend the 
moratorium on Individual Transferable Quotas and how such action would 
affect fisheries in New England.
    3. Does the term ``overfishing'' need to be changed? If so, please 
describe.
Answers.
    As you are aware the Magnuson-Stevens Fishery Conservation and 
Management Act mandates stock specific fishing mortality targets and 
biomass thresholds with the laudable objective of producing maximum 
sustainable yield on a continuing basis. I believe that this strategy 
is self-defeating as present technology does not permit discrete 
harvest rates among commingled stock components of a multispecies 
fishery. Either overall harvest rates are limited by the fishing 
mortality allowable for the weakest stock in the multispeices complex 
or we soon confront regulatory discarding as is now the case with Gulf 
of Maine cod.
    A superior alternative would be to allow managers to target MSY 
across a stock complex. This would require the Act to be amended to 
allow temporary overfishing on some stocks. Guidelines should be 
established to prevent the risk of a stock collapse while still 
allowing biomass to rebuild to BMSY but at a slower rate than the 10 
years plus 1 generation now specified.
    Some have recommended a further broadening of the management 
horizon to encompass entire ecosystems within a management unit. 
Presumably this approach would embrace variables and contingencies 
which are external to fishing activity. Some of these are undoubtedly 
human induced--examples include pollution, estuarine habitat 
degradation and destruction of fish larvae by industrial scale cooling 
systems.
    To the extent that these examples and others are regulated 
activities, the RFMC's already have the opportunity to comment on 
fishery impacts during the permitting process. Expanding the Council's 
role would require Legislative action.
    However, ecosystems are thought to exhibit great natural 
variability independent of anthropogenic causes. A notable example off 
the New England coast is the dynamic balance among stocks of sand 
lance, mackerel, and herring, which appear to be in competition for the 
same ecological niche. These stocks interact with New England 
groundfish at several levels: (1) providing alternative fisheries, (2) 
providing a forage base and (3) exhibiting predation on the pelagic 
larvae of demersal species.
    At this time I believe we lack sufficient knowledge to introduce an 
ecosystem approach into the Council process. However, I am concerned 
that some calculations of biomass necessary to produce MSY (Bmsy) 
included in our overfishing definitions may be unrealistic and should 
be re-examined in the light of potential shifts in carrying capacity.
    In the meantime I hope that NOAA's research priorities will 
continue to reflect the need for expanded knowledge on factors beyond 
fishing mortality which adversely affect the productivity of our 
fisheries. This information is especially valuable given the Council's 
limited role as advocate for fisheries in many permitting procedures.
    Finally, it is my desire that the 1996 prohibition on ITQ based 
management measures be allowed to expire.
    Please bear in mind that I am not requesting that Congress require 
ITQ's be implemented but merely that this become a legitimate option 
for RFMC consideration. The contrarian argument seems to hold that 
rights based management in general and ITQ's in particular are so 
pernicious that legitimate debate on their merits cannot take place. 
This argument is so logically and legally flawed that it scarcely 
requires rebuttal.
    Furthermore, if New England fisheries were undergoing a renaissance 
under the present programs I would be less strident in seeking 
alternatives. However, the biological gains which we observe are being 
muted by increasing social and economic dislocation. In the 
southwestern Gulf of Maine, where I fish, we seem to be re-discovering 
how the Pacific Halibut fishery became a semi annual derby. Please 
enable us to benefit from the lessons of history by including rights 
based management as an option for New England.
    Thank you for the opportunity to comment on these important issues.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                          Marjorie Mooney-Seus
    Question 1. Several of the witnesses testified that Maximum 
Sustainable Yield is an outdated concept.

    A. In the absence of Maximum Sustainable Yield, what would you 
advocate as a responsible benchmark to achieve sustainable yield?
    Answer. I do not believe that Maximum Sustainable Yield (MSY) is an 
outdated concept. However, I do think that there has been considerable 
misunderstanding as to exactly what is meant by this term. Some have 
interpreted the term to mean that all fish stocks must be rebuilt to 
historic high levels or virgin stock size and then maintained at these 
levels. In reality, the word maximum refers to the catch or yield, not 
the population level (although that catch must be low enough to be 
sustainable over the long term). MSY is the catch available from a 
population at B<INF>MSY</INF>; for many species this level is roughly 
half of the virgin (or unfished) biomass. Furthermore, MSY is not a set 
number to be maintained but rather a dynamic property (a range) to 
achieve better fishery yields. Lastly if you look back to the 1960s 
when fishing pressure was less than it is currently, many of the 
commercial fish stocks were at high levels. So, there is no real 
evidence to suggest that density is a limiting factor in terms of 
population growth rates. Therefore, a rebuilding target of B<INF>MSY</INF> 
to achieve MSY is not only reasonable, but serves to maximize long-term 
benefits to the fishermen as well as the fish populations.
    While today New England commercial fisheries are a lucrative 
business (producing almost $540 million dollars in dockside revenues in 
1998), current catch levels are only a fraction of their estimated 
long-term potential; reaching this potential could translate into 
exponential benefits for the regional economy. According to the 
National Marine Fisheries Service (NMFS), if we were to rebuild New 
England commercial fish stocks, dockside revenues could be in the 
billion-dollar range.
    Under the current management regime, there have already been some 
positive signs of fish population recovery and ensuing benefits to the 
region's fisheries. For instance, the adult stock biomass of haddock 
has increased fourfold since 1993 and is at its highest level since the 
early 1980s; gray sole (witch flounder) spawning stock biomass has 
doubled since 1995 and is reported to be near B<INF>MSY</INF> due to 
favorable recruitment, lower fishing mortality and reduced bycatch in 
small mesh fisheries; Georges Bank yellowtail flounder total stock 
biomass has increased substantially and is expected to be rebuilt in 
about three more years if the current management strategy remains in 
place.
    Clearly, if we were to rebuild our commercial stocks to targets 
associated with MSY (or B<INF>MSY</INF>), ultimately, everyone would 
benefit--the ecosystem as well as the fisherman--because with healthy, 
abundant fish stocks, it's cheaper and easier to catch fish.
    In addition, if stocks are rebuilt and kept at healthy levels, 
Council and NMFS staff would be able to spend less time revising 
fishing regulations and have more time to focus on improving habitat, 
bycatch and ecosystem provisions.

    B. What further data would be required to quantify this benchmark?
    Answer. N/A. I believe population levels that yield MSY are 
appropriate rebuilding targets; data required to calculate or estimate 
these targets are for the most part available.
    However, it would be advantageous to increase collaboration among 
the fishing industry and other relevant stakeholders in order to 
collect more real time data and information so that adjustments to 
management decisions, if needed, could be made in a more timely manner. 
This would require appropriate investment in enabling technologies such 
as Vessel Monitoring Systems (VMS) and upgrading VMS data management 
infrastructure. The Canadian Maritimes have had considerable success 
with this type of adaptive management in their herring fisheries.

    Question 2. You testified that the emphasis of this reauthorization 
should be on fine tuning the Act rather than rewriting significant 
components. However, you also stated that the Act should be amended to 
require Fishery Ecosystems Plans instead of the current system of 
single or multi-species Fisheries Management Plans.

    A. Isn't this a major departure from the current management 
structure contained in the Sustainable Fisheries Act? Please explain.
    Answer. I am not suggesting a departure from the current management 
structure contained in the Sustainable Fisheries Act (SFA) but rather 
an expansion of the current structure. Through the SFA, we have already 
taken some important steps to consider ecosystem dynamics and impacts 
on ecosystems as a result of human activities. This is evidenced by the 
SFA focus on minimizing bycatch and identifying and protecting 
Essential Fish Habitat.
    As I stated in my testimony, I see the SFA as a work in progress. 
However, further refinements in the Act are warranted. We cannot 
continue to look at management actions for species in isolation. We 
need to recognize that what we do with respect to a given species has 
an impact on its predators and its prey and that our actions in one 
fishery can impact the effectiveness of management in other fisheries. 
Therefore, the Act should provide provisions for considering management 
actions at multiple levels--for considering the ecosystem not just its 
individual components.
    It also is important that we clearly acknowledge that overfishing 
is only part of the problem; there are other factors that contribute to 
a decline in fish stocks, such as environmental conditions, pollution 
and natural variability. By moving towards ecosystem management we can 
more readily account for these other variables.
    Single or multi-species Fishery Management Plans (FMPs) should form 
the basis of management actions and outline specific measures necessary 
to maintain fish stocks. However, FMPs should be amended to include an 
evaluation of management actions on other species, including predator-
prey interactions, where information is available. An Ecosystem 
Management Plan (EMP) (others have referred to this as a Fishery 
Ecosystem Plan (FEP)) also should be developed for each major marine 
ecosystem within a Fishery Management Council's jurisdiction as a means 
for formally linking the FMPs. Included in the EMP should be 
information on the structure and function of ecosystems, including the 
geographic extent of ecosystems and their biological, physical and 
chemical dynamics; a description of the significant food web including 
key predator-prey relationships and habitat needs of different stages 
of species that make up the significant food web, indices of ecosystem 
health and integrity; and an outline of a long-term monitoring program 
to evaluate fishery dependent and fishery independent changes in the 
ecosystem. Used in concert FMPs and EMPs can lead to more informed 
management decisions.

    B. Please assess the amount of additional work this could create 
for the regional councils.
    Answer. While this effort will require more work on the part of the 
councils, if reasonable timeframes are adopted for completing the work, 
it is achievable. For instance, a possible timetable might be the 
following: once the Act is passed, NMFS would have one year to compile 
and distribute data to the Councils; and while the Councils were 
amending all their FMPs to include predator-prey information in Year 2, 
NMFS would begin to assemble additional data for the EMPs. It would 
complete this task in Year 3. At the start of Year 4, NMFS would 
provide the Councils with all data and information for the EMPs. The 
Councils would then have two years to prepare EMPs incorporating both 
NMFS data and data collected through collaborative research projects. 
In total, the project would span five years. If the timeframe were to 
be any shorter than this, the councils and NMFS would require 
additional resources to complete the work.
    The key here is that reasonable timetables be adopted and adhered 
to not only by the Councils but also by the federal agencies providing 
the data. One of the difficulties encountered by the New England 
Fishery Management Council's Habitat Committee and its Advisors in 
assembling Essential Fish Habitat (EFH) designations were long delays 
in receiving guidelines for preparing the designations and 
corresponding species data and information from federal agencies.

    C. Do you believe that NMFS and the councils have enough life 
history and environmental data that would be needed to create such an 
ecosystem plan?
    Answer. I believe there is enough available data to begin to amend 
existing FMPs and create a foundation for the development of an EMP. 
What is needed is directive to appropriate staff to afford them time to 
overlay existing data and information. However, the operative word here 
is ``begin.'' This should not be viewed as a short-term process. As is 
the case with refinement of EFH and designation of Habitat Areas of 
Particular Concern (HAPCs), a foundation of data and information must 
be established and then built upon.
    A challenge that must be overcome is access to data from other 
federal and state agencies. For instance, the U.S. Navy and the 
National Ocean Service both possess considerable biological and 
ecological information, respectfully. The adoption of legislative 
language urging enhanced cooperation among various agencies at the 
federal and state level would enhance data and information exchange.
    It also is critical that there be a clear mandate that all Councils 
adopt a regional strategic research plan and immediately begin to 
implement various collaborative applied research projects to collect 
additional biological and ecological data that can be used to refine 
FMPs and EMPs. In New England, the availability of $4 million dollars 
for collaborative research in the region and the prospects of more 
monies next year afford the opportunity for strategic planning to 
ensure collection of needed ecological information and data. In the 
short term, further studies of predator-prey relationships within the 
Gulf of Maine should be encouraged.

    Question 3. Please state whether or not Congress should extend the 
moratorium on Individual Transferable Quotas and how such action would 
affect fisheries in New England.
    Answer. The national moratorium should be lifted so that the 
appropriateness of ITQs as a management tool can be assessed at the 
regional level. At least some participants in New England fisheries 
seem interested in exploring ITQs as a management option.
    However, ITQs have the potential to threaten the social fabric of 
New England fishing communities and may have limited conservation 
value. Managers should therefore consider incorporating mechanisms to 
maintain fishing community integrity as well as to ensure that ITQs are 
closely tied to effective fish conservation measures. Specifically, ITQ 
frameworks should be flexible enough so that managers could consider 
measures to limit the number of licenses one individual or institution 
could hold, maximize conservation benefits of ITQs, regulate the cost 
of ITQs and ensure access for new entrants into fisheries once 
resources are rebuilt (e.g., a set number of licenses should be set 
aside and apprenticeship programs developed). If ITQs only result in 
the consolidation of fishing rights in the hands of a few large 
corporate enterprises, they are not a viable option for New England.
    Furthermore, if the moratorium were lifted, it would be worthwhile 
to consider experimentation with ``community-based rights schemes'' 
which give management authority to a broad set of stakeholders to 
determine if the concept is as attractive in reality as it is in 
theory.

    Question 4. Does the term ``overfishing'' need to be changed? If so 
please describe?
    Answer. No, I believe the term is satisfactorily defined. However, 
the definition of ``conservation and management'' should be amended to 
require that management measures include a margin of safety 
particularly when there is scientific uncertainty.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                      Rear Admiral George Naccara
Summer Transfer Impacts on Operations
    Question. During the summer months, Coast Guard personnel will be 
moving between duty stations which will result in some of the agency's 
greatest shortages. For routine, non-emergency operations, please 
describe, by percentage of aircraft patrol hours and cutters days, any 
resulting reduction that will likely occur from June-August 2000, 
compared to June-August 1999, in fisheries law enforcement, search and 
rescue, and other multi-mission responsibilities in your district?
    Answer. Summer is the season during which many of our military 
personnel transfers occur. These transfers often create temporary and 
planned reductions in the number of personnel qualified and available 
to fulfill the responsibilities of a given duty station. However, 
personnel transfers ordinarily do not affect the number of hours our 
cutters or aircraft are employed, nor do we expect employment hours to 
be significantly reduced from June-August 2000 due to personnel 
transfers.
Impact of Reduced Operations on Fisheries Law Enforcement
    Question. You testified that your district share of the reduced 
non-emergency operations could be up to 35 percent in aircraft patrol 
hours.
    In the area of fisheries law enforcement, what specifically are you 
likely to forego during this period of reduced operations? Please 
describe by percentage, aircraft patrol hours and cutters days, and 
reduction in New England fisheries law enforcement.
    Answer. The Coast Guard will not forego the enforcement of any 
particular fisheries regulations during the fiscal year 2000 period of 
reduced operations. Reductions relating to fisheries law enforcement 
operations will be applied equally to all Coast Guard fisheries 
enforcement missions in New England. In general, the Coast Guard will 
continue to deploy one major cutter to New England for fisheries 
enforcement patrol at all times. The annual hours allocated to smaller 
cutters performing New England fisheries enforcement have been reduced 
33 percent. Aircraft patrol hours in support of fisheries enforcement 
have been reduced 18 percent for the remainder of the fiscal year.
    Since the Coast Guard announced those reductions, the Congress 
recently finished work on the FY 2001 Department of Defense Military 
Construction Appropriations Bill, which included FY 2000 supplemental 
funding for the Coast Guard. This additional funding will provide for 
the most immediate requirements of the Coast Guard.
Coast Guard District One Operational Funding and Personnel Levels
    Question.  What funding and personnel levels are necessary to 
return your district to a normal operational pace?
    Answer. The Administration supports supplemental funding at $44 
million for the Coast Guard to meet unanticipated additional costs in 
fiscal year 2000.
National Standard 10 and Fisheries Management
    Question.  You testified that you closely monitor compliance with 
National Standard 10 and attempt to ensure that fisheries regulations 
do not encourage unsafe fishing practices.
    Please describe how National Standard 10 and fisheries management 
decisions are integrated into the Coast Guard's Operation SAFE CATCH.
    Answer. While Operation SAFE CATCH supports the concern for the 
safety of life at sea expressed in National Standard 10, National 
Standard 10 and fishery management decisions are not integrated into 
SAFE CATCH. National Standard 10 and SAFE CATCH have two different, 
though related purposes. National Standard 10 addresses the impact 
fishing regulations may have on the safe conduct of a fishery under the 
Magnuson-Stevens Fishery Conservation and Management Act, and is 
administered by fishery management councils. National Standard 10 
requires that fishery management plans and any implementing 
regulations, to the extent practicable, promote safety of human life at 
sea. In our role as a non-voting member of fishery management councils, 
the Coast Guard makes recommendations regarding the safety implications 
of proposed fishery management plans. It is the councils' prerogative 
to act on the Coast Guard's recommendations or not.
    Operation SAFE CATCH addresses the safety requirements under the 
Commercial Fishing Industry Vessel Safety Act, which the Coast Guard 
administers. It is focused on fishing vessel material condition and 
compliance with safety regulations. SAFE CATCH is designed to identify 
those vessels with serious safety deficiencies, and to ensure that they 
operate with the proper equipment at a minimum. The Coast Guard does 
this by encouraging voluntary, non-punitive dockside examinations to 
identify a vessel's safety discrepancies, and then educating the owner 
or master on the compliance requirements for that vessel. This dockside 
education is complemented by at-sea enforcement, where the Coast Guard 
checks vessels for compliance, cites those in violation, and directs 
unsafe vessels to port.
Trends in Fisheries Management
    Question.  What particular trends, if any, do you see in fisheries 
management that you feel will encourage or discourage dangerous fishing 
practices?
    Answer. The primary issue in District One encouraging dangerous 
fishing practices has been the closing of inshore fishing areas for 
extended periods. Without access to customary near shore fishing 
grounds, some small boat fishermen may feel compelled to take their 
vessels further offshore than is safe or prudent. Similar concerns 
arise regarding the proposed large pelagic longline closures in the 
Southeast Atlantic and Gulf of Mexico.
    The other general management measure of concern to the Coast Guard 
is the use of short fishery openings, sometimes called ``derbies.'' 
Derby fisheries do not occur in District One. However, the Bluefin Tuna 
Fisher last year suffered similar effects. Exceptionally good fishing 
in late September and early October of 1999 enticed hundreds of 
fishermen, many not properly equipped, fifty miles offshore to catch 
the large fish. Three vessels capsized, two while trying to land 400+ 
pound fish, and two others were ordered to return to port because they 
did not have required safety equipment. The National Marine Fishery 
Service (NMFS) closed the fishery on October 3, almost three months 
early, based on the large number of fish landed. In some derby 
fisheries, strong economic incentives can entice fishermen to fish in 
unsafe conditions, such as poor weather.
    While these issues are of concern, the Coast Guard is hopeful that 
the addition of National Standard 10 in the Magnuson-Stevens Fishery 
Conservation and Management Act will institutionalize safer fishing 
practices.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                              Paul Parker
    Question 1. In the 1999 fishing season, the groundfish regulations 
changed five times. Changing the rules for a fishery five times in one 
year appears to be a de facto disregard of National Standard 8, which 
requires the consideration of socio-economic impacts of regulations on 
fishing communities.

    A. Do you have any recommendations to increase focus on such 
factors?
    Answer. Ironically, the precise reason why regulations changed five 
times in 1999 was due to the New England Council's attempts to minimize 
the socio-economic impacts of rebuilding Gulf of Maine cod. Rather than 
follow the Magnuson-Stevens Act's guidance of precautionary management, 
the Council has consistently erred in favor of less conservation and 
more socio-economic consideration. Time and again, our failure to 
conserve enough fish to rebuild our stocks has triggered the need to 
generate stronger regulations in the future. An endless negative 
feedback loop has been created. Too few fish leading to too little 
regulation leading to fewer fish (albeit relative to ambitious ten year 
rebuilding schedules) and so on and so on.
    I only point out this feedback loop to illustrate the basis for my 
testimony that the Regulatory Flexibility Act and National Standard 8 
do not permit undermining fish conservation measures in order to 
minimize the socio-economic impacts. In contrast, the Regulatory 
Flexibility Act and National Standard 8 prescribe that in an instance 
where several alternatives are equally protective of marine fish, but 
have varying degrees of adverse economic impacts to fishermen, then 
NMFS should choose the alternative with the least economic impact. We 
must save the fish first to save the fishermen.
    Having clarified my position on the example that you provided in 
your question, I do agree that the New England Fishery Management 
Council is unprepared to focus on any socio-economic factors 
whatsoever. This is primarily due to NMFS failure to collect socio-
economic data. I cannot remember a time when the New England Council 
was ever considering multiple management options that would all satisfy 
the conservation and rebuilding objectives necessary to warrant a 
comparative socio-economic analysis. However, if a situation did arise 
where several alternatives were equally protective of marine fish then 
NMFS and the Council would have no basis by which to recommend one 
option over another. The need for socio-economic data is a critical 
priority.

    B. What can be done to inject more flexibility into the Act?
    Answer. Increased flexibility with regard to the consideration of 
socio-economic factors would be detrimental to the fish, the fishermen 
and our coastal communities. In order to protect our coastal 
communities, the Act must remain clear that conservation of the 
resource supercedes the consideration of socio-economic factors. The 
long term viability of our commercial fishery depends on strong 
conservation and unless we have strong language in the Act to guarantee 
that our fish stocks rebuild then our coastal communities will continue 
to reside on the brink of economic collapse.

    Question 2. Please comment on whether you think that the Council 
decision-making process involves an adequate level of public 
participation and whether establishing standard operating procedures 
for its advisory committees would improve the Council's work.

    A. Are you aware of any instances when the Council has not 
adequately considered an Advisory Committee recommendation? If so, 
please explain.
    Answer. The Advisory Panels have been held hostage by Council 
Committees for the past two years. By forcing Advisory Panels to attend 
only joint meetings with the Committees, we have essentially lost our 
ability to formulate discrete policy recommendations on the record. Our 
insights are wrapped up in the politics that hamper the Council's 
ability to do good work. Over the past two years, I have witnessed 
scores of fishermen quit the advisory process because it has become 
such a farce.
    The function of the advisory panels is to further develop the 
potential for good grass-roots, bottom-up management development within 
the Council process. When I began serving on advisory panels, we were 
allowed to meet independently BUT only to respond to Committee 
direction and direct questions. We had no autonomy over our agenda but 
responded to the Committee and as a rule took harder stands than the 
Committee or the full Council. I believe that if the advisory panels 
are to succeed and provide meaningful input to the Committee and 
Council that they must be allowed to meet independently and to direct 
their own agenda to some degree.

    Question 3. Your organization is a member of the Marine Fish 
Conservation Network.

    A. Do you support the Network's recommendation that the Magnuson-
Stevens Act should be amended to guarantee that more non-fishermen 
(specifically members of environmental organizations) are appointed to 
the regional fishery management councils?
    Answer. The Cape Cod Commercial Hook Fishermen's Association 
occupies a unique niche in the Marine Fish Conservation Network. We 
believe that the sustainability of our coastal communities, our local 
economies and our marine resources depends on careful examination of 
serious problems such as high levels of bycatch, habitat degradation 
and overfishing. We are working with the MFCN to uphold and strengthen 
these components of the 1996 Sustainable Fisheries Act in the current 
reauthorization process.
    However, there are some aspects of the Network agenda that we do 
not agree with 100 percent. Some compromise is inherent in such 
widespread collaboration. Members of environmental organizations are by 
definition not any better conservationists than some fishermen. In 
fact, some of the best conservationists on the New England Council in 
recent years have included fishermen such as Bill Amaru and Pat White. 
The best way to ensure the long term sustainability of our fisheries 
will be to maximize fishermen's input and try to maintain as many 
conservation minded fishermen on the regional councils as possible.

    B. During the next round of council appointments, do you believe 
that fishermen who currently serve on the New England Council should 
not be re-nominated in favor of the staff of environmental 
organizations?
    Answer. Definitely not.

    C. Please describe in detail your involvement in the development of 
the Network's recommendation to Congress to change the Magnuson-Stevens 
Act.
    Answer. The Cape Cod Commercial Hook Fishermen's Association has 
been instrumental in the Marine Fish Conservation Network. However, 
much of the current agenda had been developed prior to our admission to 
the Network and we have expended tremendous effort to educate the non-
fishing members of the MFCN about critical issues in fisheries 
management. By working closely with the Network, the CCCHFA hopes to 
instill consideration of fishermen and fishing communities in the 
Network agenda.
    Fishing members of the CCCHFA have made presentations to members of 
Congress regarding the critical nature of bycatch reduction and habitat 
protection in New England. The CCCHFA has been on the Network Board of 
Directors for the past year and I have been on the Executive Committee 
for several months. I will not be serving the Executive Committee after 
June 1, 2000.

    Question 4. Please state whether or not Congress should extend the 
moratorium on Individual Transferable Quotas and how such action would 
affect fisheries in New England.
    Answer. I wrote the following Op-eds which appeared in the Boston 
Globe and Providence Journal. I would look forward to working with 
Senator Snowe in any way possible to continue the moratorium on ITQs.

                                                        Attachments
                     let's not privatize our oceans
                       Boston Globe, May 5, 2000

    A month ago, the U.S. Senate Subcommittee on Oceans and Fisheries 
held field hearings in Boston over whether or not to privatize the 
oceans.
    A group of businessmen is trying to remove the moratorium on 
``individual transferable quotas,'' which give the holder exclusive 
rights to catch specific types of commercial fish. Before we foolishly 
parcel out the ocean, we ought to consider the evidence from 70 years 
of experience with another form of allotment.
    The grasslands of Arizona may seem a long way from Cape Cod, but 
the West bears the scars of a wrongheaded attempt to protect a 
similarly precious and threatened resource. Established in 1934, 
grazing allotments were intended to end overgrazing by giving farmers 
the right to graze their livestock on sections of publicly owned land.
    The number of cattle permitted per area depended on how many the 
government thought the land could support. This was determined by the 
variety and quantity of edible plants growing on the range. Allotments 
were intended to make ranchers better stewards of the land through 
ownership.
    By all accounts, grazing allotments have been a dismal failure. At 
the last official survey of rangeland in 1980, only 15 percent of the 
land could be classified as good. The overwhelming majority was fair to 
very poor, meaning that of all potential plant species once present, up 
to four-fifths had vanished.
    And so it will be with New England fisheries if transferable quotas 
become a management tool. Like grazing allotments, quotas would divide 
up the fish in the ocean among a handful of commercial operators. 
They--or their agents--will have exclusive rights, forever, to take a 
share of the ocean's resources.
    This privatization scheme would only hasten the decline of fish 
stocks. Many species are vanishing because habitat is being degraded by 
heavy equipment dragged across the seabed. By permitting this gear, we 
are preventing breeding areas from recovering, and fish stocks will 
never rebuild to plentiful levels. Privately held quotas will not 
correct this problem or restore habitat.
    Fish stocks in coastal waters are also declining as a result of 
bycatch--fish caught indiscriminately along with the intended species. 
New England fisheries lack an effective force of paid observers who 
keep track of everything caught aboard each fishing vessel. Instead, 
landings are counted to estimate fishing mortality. The absurdity of 
this approach was highlighted last May when the limit for cod in the 
Gulf of Maine was reduced to 30 pounds per trip. This Draconian measure 
did not help reduce mortality; it only generated more dead and wasted 
discards as operators culled their nets for the most marketable cod.
    Transferable quotas would make the problem of bycatch worse. In 
other fisheries, operators often ``high grade'' their landings. This is 
the practice of discarding all but the largest fish. Faced with 
scarcity of their allotted species, quota holders in the Northeast 
could take months, even a year, to reach their limit by keeping only 
the choicest specimens, leaving in their wake tons of dead and dying 
fish.
    Transferable quotas also spell doom for fishing communities. In 
recent times of uncertainty, fishermen have been advised to shift their 
focus from groundfish, like cod or halibut, to dogfish. We have been 
told to sell back our boats. Today, many inshore fishermen can't make a 
living pursuing groundfish, because the stocks have moved too far off 
shore.
    While we wait for species to recover, we support ourselves as 
painters or construction workers. When the quotas are handed out, the 
fish in the Gulf of Maine and Georges Bank will be divided among 
corporate fleets. Many of the quotas will go to foreign companies 
operating through domestic fronts. Private investors will grab the 
others, hoping to make a quick buck.
    Individual transferable quotas would no more save New England's 
fishing industry than the grazing allocations saved Western grasslands. 
Besides, the Sustainable Fisheries Act already provides the basic tools 
we need to rebuild sustainable resources. By enforcing the act's 
provisions, we can protect habitats for spawning, feeding, and shelter. 
Furthermore, the law enables us to establish and enforce limits on 
bycatch by forcing owners to acknowledge their impact on species other 
than their target fish. Both of these measures will work, but not 
overnight.
    Now is the time for New England's fishermen to renew their 
commitment to restraint as nature does its work. Above all, we must not 
allow impatience to force us into making mistakes. That is the surest 
way to condemn our livelihoods to extinction.

                    should we give away the oceans?
                   Providence Journal, April 22, 2000
TODAY, EARTH DAY, as communities pitch in to clean up beaches, harbors 
and estuaries, a group of businessmen will be hard at work trying to 
privatize the oceans. They want to lift the moratorium on Individual 
Transferable Quotas, which give the holder exclusive rights to catch 
specific types of commercially valuable fish.
    But before we foolishly parcel out the oceans, we ought to consider 
the evidence from 70 years of experience with another form of 
allotment. The grasslands of Arizona may seem a long way from the blue 
waters of Cape Cod, but the West bears the scars of a wrong- headed 
attempt to protect a similarly precious and threatened resource. 
Established in 1934, grazing allotments were intended to end over-
grazing of the range by giving farmers the right to graze livestock on 
sections of publicly owned land. The number of cattle permitted per 
area depended on how many the government thought the land could 
support. This, in turn, was determined by the variety and quantity of 
edible plants growing on the range.
    Allotments were intended to make ranchers better stewards of the 
land through ownership. By all accounts, grazing allotments have been a 
dismal failure. At the last official survey of rangeland in 1980, only 
15 percent of the land could be classified as good. The overwhelming 
majority was fair to very poor, meaning that of all potential plant 
species once present, up to four-fifths of them had vanished.
    And so it will be with New England fisheries if Individual 
Transferable Quotas become a management tool. Like grazing allotments, 
quotas will effectively divide up the fish in the ocean among a handful 
of commercial operators. They or their agents will have exclusive 
rights, forever, to take their share of the ocean's resources. This 
privatization scheme will only hasten the decline of fish stocks. Many 
species are vanishing because habitat is being degraded by heavy 
equipment dragged across the seabed. By permitting this gear, we are 
preventing breeding areas from recovering, and fish stocks will never 
rebuild to plentiful levels.
    Privately held quotas will not restore habitat. The stocks in 
coastal waters are also declining from bycatch, which are fish caught 
indiscriminately along with the intended species. New England fisheries 
lack an effective program of paid observers who keep track of 
everything caught aboard each fishing vessel. So instead, landings are 
used to estimate fishing mortality.
    The absurdity of this approach was highlighted last May, when the 
limit for cod in the Gulf of Maine was reduced to 30 pounds a trip. 
Such a draconian measure did not help reduce mortality; it only 
generated more dead and wasted discards, as operators culled their nets 
for the most marketable cod. Transferable quotas will actually make the 
problem of bycatch worse.
    In other fisheries, operators often high-grade their landings. This 
is the practice of discarding all but the largest fish. Faced with 
scarcity of their allotted species, individual quota holders in the 
Northeast could take months, even a year, to reach their limit by 
keeping only the choicest specimens, leaving in their wake tons of dead 
and dying fish.
    Individual Transferable Quotas also spell doom for our fishing 
communities. In recent times of uncertainty, fishermen have been 
advised to shift their focus from groundfish, like cod or halibut, to 
dogfish, a type of shark. We have been told to sell back our boats.
    Today, many inshore fishermen can't make a living pursuing 
groundfish because the stocks have moved too far off shore. So while we 
wait for species to recover, we support ourselves as painters or 
construction workers. But when the quotas are handed out, the fishes in 
the Gulf of Maine and on Georges Bank will be divided up among 
corporation-based fleets.
    Many of the quotas will go to foreign-based companies operating 
through domestic fronts. Others will be bought by private investors, 
hoping to make a quick buck by exploiting a scarce commodity.
    Individual Transferable Quotas will no more save New England's 
fishing industry than the grazing allocations saved western grasslands. 
Besides, the present Sustainable Fisheries Act provides the basic tools 
we need to rebuild sustainable resources. By enforcing its provisions, 
we can protect habitats for spawning, feeding, and shelter. 
Furthermore, this law enables us to establish and enforce limits on 
bycatch by forcing owners to acknowledge their impact on species other 
than their target fish.
    Both of these measures will work, but not overnight. This Earth 
Day, then, is a good time to renew our commitment to restraint, as 
nature does her work. Above all, in our impatience, we must not repeat 
the mistakes of grazing allotments and condemn our livelihoods to 
extinction.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                          Dr. Brian Rothschild
    Question 1. Several of the witnesses testified that Maximum 
Sustainable Yield is an outdated concept.

    A. In the absence of Maximum Sustainable Yield, what would you 
advocate as a responsible benchmark to achieve sustainable fisheries?
    Answer. Maximum Sustainable Yield is a well-defined concept. It is 
based upon a simple well-known theory. It's utility is somewhat narrow 
when compared to the needs of fishery management. In other words, the 
concept in its simplest form does not take into account more than one 
species at a time. In addition, the simplest Maximum Sustainable Yield 
theory is based on populations that have a balanced age structure or 
are in equilibrium, while most actual populations are not in 
equilibrium. More importantly, the magnitude of Maximum Sustained Yield 
for any stock is calculated based upon an average of many years of 
data. This means that if there was a downturn in environmental 
conditions, then the Maximum Sustainable Yield would generate fishing 
mortality that was too high and vice versa.
    The main point of all this is that Maximum Sustainable Yield is a 
useful index, but it requires a lot of interpretation. Because 
different analysts can arrive at different estimates of Maximum 
Sustainable Yield for the same data and because different analysts can 
ascribe different degrees of certainty to an estimate of Maximum 
Sustainable Yield, a degree of seeming arbitrariness is inevitable.
    The point is not so much to change the Maximum Sustainable Yield 
criteria, but to point out for each stock its many qualifications so 
that the decision-makers (i.e. the Council members and the Secretary) 
can take these into account when setting targets.
    Other important benchmarks include the yield-per-recruit index and 
the level of recruitment.
    My main point, then, is that scientists should calculate Maximum 
Sustainable Yields and present them with the various pros and cons, and 
decision-makers should take these into account when setting 
regulations. Because of the nature of the index, the rule of common 
sense and flexibility needs to prevail.

    B. What further data would be required to quantify this benchmark?
    Answer. Much of the data used to compute Maximum Sustainable Yield 
and other indices is based upon scientific surveys, which are highly 
criticized by fishermen. Actually, improved estimates would be obtained 
if data directly from the fishing boats could be folded into the 
analysis. The criticism would be muted.

    Question 2. It has been suggested that the regional councils should 
switch from single or multi-species Fishery Management Plans to Fishery 
Ecosystem Plans.

    A. Please assess the amount of work this would create for regional 
councils?
    Answer. We know what single species management is. We know what 
multiple-species management is. We do not know what ecosystem 
management is in the sense that it can be defined in almost an infinite 
number of ways. This, again, raises the issue of arbitrariness. At this 
point in time, we need to focus on multispecies management not 
ecosystem management. I actually think that the amount of work might be 
less rather than more in the sense that each fishery could be managed 
as a coherent unit. We should change the modality of management 
carefully because of unintended consequences. The rebuilding strategy 
in the present form of the Act is a good example as it is 
scientifically questionable.

    B. Is there currently enough life history and environmental data to 
create such an ecosystem plan?
    Answer. The collection of life history and environmental data needs 
to be expanded and focused, particularly in regard to the needs of 
fishery management. This is true for single or multiple species 
management. I would put priorities on 1) data from the fishing fleet, 
2) environmental data, and 3) life history data.

    Question 3. Please state whether or not Congress should extend the 
moratorium on Individual Transferable Quotas and how such action would 
affect fisheries in New England.
    Answer. The idea of ownership is important. I would lease a stock 
or mix of stocks to the industry given that they maintained production 
and conservation standards. My concern with Individual Transferable 
Quotas is that they may be more costly than other forms of management.

    Question 4. Does the term ``overfishing'' need to be changed? If 
so, please describe.
    Answer. ``Overfishing'' should not be used since it can only be 
defined in special cases. We should target an ``optimal management,'' 
which is the flexible application (as implied in National Standard 8) 
and interpretation of the various criteria that are presently used but 
placed in a multiple-species management context.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                           Angela Sanfilippo
    The Massachusetts Fishermen's Partnership (MFP) established a 
standing committee to respond to questions from Congress on the 
Magnuson-Stevens Act Reauthorization. The MFP Magnuson Committee met to 
develop the following answers that reflect the MFP consensus.

    Question 1.  In the 1999 fishing season, the groundfish regulations 
changed five times. Changing the rules for a fishery five times in one 
year appears to be a de facto disregard of National Standard 8, which 
requires the consideration of socio-economic impacts of regulations on 
fishing communities.

    A. Do you have any recommendations to increase the focus on such 
factors?
    Answer. Systematic collection and use of socio-economic data should 
become an integral part of the management design process. This requires 
that necessary and sufficient funding be appropriated to employ 
specialized and experienced personnel to collect scientifically valid 
and timely information from fishery users and manage a socio-economic 
database that is routinely updated. The best available socio-economic 
data from all sources should be collected in a comprehensive and 
demonstrably useful framework that can be applied to measure and 
understand social and economic impacts of proposed regulations on 
fishing-reliant populations. As such this information should be 
incorporated and considered in the Social Impact Assessment (SIA) for 
each proposed regulation, and Fishery Management Plan (FMP) framework 
adjustments should not be exempt from this requirement as presently 
occurs. A policy level position should be created in each region that 
is filled by a social science professional who is trained in socio-
cultural analysis and who has the same influence in the agency as the 
senior natural science authority.

    B. What can be done to inject more flexibility into the Act?
    Answer.

  <bullet> Flexibility can be injected into the Act by providing 
        necessary and sufficient funding to institute community-based 
        advisory panels of fishing stakeholders. Panels will be 
        designed to be representative of all fishery stakeholders in 
        the community, including those of lower social and economic 
        levels and who may not be as vocal in their demands for 
        consideration or as vigorous in their attendance of public 
        regulatory hearings. These panels will regularly comment on and 
        describe potential real-time impacts from proposed regulations, 
        including those, which go through multiple changes within a 
        calendar year. Panel input would be routinely collected and 
        channeled through social science advisory committees as 
        proactive information that would be available before regulatory 
        options are finalized for review. It will also insure feedback 
        on impact and adaptations to regulations as they arise from 
        specific management actions in state and federal waters. The 
        present system does not allow for timely feedback on socio-
        economic responses to regulations, with one assessment running 
        into the other without being informed by what has previously 
        occurred as communities try to adapt to regulatory change.

  <bullet> Rebuilding fish stocks to their maximum levels in less than 
        10 years is usually not necessary biologically and causes 
        inefficient and unjust displacement of fishermen and related 
        businesses. Our fishermen realize that fish stocks must be 
        rebuilt and socio-economic impacts need to be mitigated through 
        various avenues to rebuild stocks within 10 years. But when a 
        determination is made that fish stocks need to be rebuilt in 
        less than 10 years, then a socio-economic cost/benefit analysis 
        should be mandatory before the regulations go into effect.

    Question 2.  Please comment on whether you think that the Council 
decision-making process involves an adequate level of public 
participation and whether establishing standard operating procedures 
for its advisory committees would improve the Council's work.
    Answer. Please see our answer to section 1B above for our proposal 
to improve the Council decision-making process.

    A. Are you aware of any instances when the Council has not 
adequately considered an Advisory Committee recommendation? If so, 
please explain.
    Answer.

  <bullet> Some vital recommendations of the New England Fishery 
        Management Council Scallop Advisory Committee and the Scallop 
        Oversight Committee were removed from the public hearing 
        document for Amendment 14 to the Scallop Fishery Management 
        Plan.

  <bullet> The Groundfish Advisory Committee recommended the use of the 
        running clock as a strategy to reduce discards and fishing 
        pressure. The recommendation was rejected.

    Question 3.  Do you support the Marine Fish Conservation Network 
recommendation that the Magnuson-Stevens Act should be amended to 
guarantee that more non-fishermen (specifically members of 
environmental organizations) are appointed to the regional fishery 
management councils?
    Answer. No, there is already representation of the environmental 
community on the regional councils. For example, representatives of 
environmental organizations are members of the New England Fishery 
Management Council (NEFMC) and chair certain key NEFMC committees and 
advisory committees, including the Habitat Committee, Groundfish 
Oversight Committee, and Social Science Advisory Committee. Other NEFMC 
committee chairs were endorsed by environmental organizations including 
the chair of the Scallop Oversight Committee and the Research Steering 
Committee. Some of the best conservationists on the NEFMC in recent 
years have included fishermen. The best way to ensure the long term 
sustainability of our fisheries will be to maximize fishermen's input 
and try to maintain as many conservation minded fishermen on the 
regional councils as possible. Since environmentalists already have 
access to council seats and process, there is no need to further 
guarantee in the statute the allocation of council seats to certain 
sectors.

    Question 4. Please state whether or not Congress should extend the 
moratorium on Individual Transferable Quotas and how such action would 
affect fisheries in New England.
    Answer. Magnuson-Stevens Act Reauthorization should extend the 
moratorium on ITQs. The MFP consensus calls for shifting fisheries 
management towards an ecosystem-based approach. An ecosystem-based 
management system will eventually rely on more effective management 
tools than quotas. Individual quotas (IQs) in our multispecies 
fisheries would be incompatible with our vision for fisheries 
management in New England.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                            Russell Sherman
    Question 1. In the 1999 fishing season, the groundfish regulations 
changed five times. Changing the rules for a fishery five times in one 
year appears to be a de facto disregard of National Standard 8, which 
requires the consideration of socio-economic impacts of regulations on 
fishing communities.
    A. Do you have any recommendations to increase the focus on such 
factors?
    B. What can be done to inject more flexibility into the Act?
    Answer. I agree that the ever-changing regulations are improper and 
violate the National Standards. Frequent rule changes disrupt the 
fishery and fishermen's lives, and guarantee that we will never know 
what aspects of the rules actually bring about improvements to fish 
stocks We can't make a business plan or plans for our future.
    I think that the Councils should be limited to the degree of change 
permitted in the middle of a year. Very often, we spend time preparing 
management alternatives, only to be told that goals have changed 
without notice. Even in preparation for annual adjustments, the reports 
and analyses are made available only days before the meetings where 
annual adjustments are planned. We need to limit the Councils to at 
most one adjustment per year, with some flexibility for emergencies--
but no longer major changes through the ``Framework Process.''
    With regard to the issues of flexibility, managers should be 
permitted to look at total biomass, not just management on a species by 
species basis. Where a reduction is needed in one fishery, all other 
opportunity to target other species should not be lost where it will 
only provide a marginal reduction on the species of concern.
    Managers should be allowed to extend rebuilding deadlines to allow 
for continued economic participation of fishermen and communities.
    More reliance should be placed on real time data, through use of 
computerized logbooks and observer data. This would permit more 
flexible area closures and adjustment of other measures. High priority 
should be given to flexibility in allowing short-term openings of 
inshore areas closed for cod conservation, whenever cod stocks have 
migrated through, and opportunity exists to target other species.
    Question 2. Please comment on whether you think that the Council 
decision-making process involves an adequate level of public 
participation and whether establishing standard operating procedures 
for its advisory committees would improve the Council's work.
    A. Are you aware of any instances when the Council has not 
adequately considered an Advisory Committee recommendation? If so, 
please explain.
    Answer. I do not think that the present Council structure in the 
Northeast permits adequate public comment. Recent pronouncements from 
the Council office limit the public's ability to participate by 
essentially mandating participation through industry spokespeople. Even 
the advisory groups are being run by non-fishermen, often lobbyists, 
who further limit opportunity for input. Much of this is due to the 
lengthy process requiring attendance at numerous meetings. As 
conservation turns to an allocation fight, marginal groups can not keep 
up, and find themselves frozen out.
    With regard to the failure of the Council to follow industry 
advisors, the most glaring example are the inshore closures in the Gulf 
of Maine. The advisors stood firmly against these, as it was believed 
that these posed a significant threat to the inshore fleet. Subsequent 
to the development of the inshore closure alternatives and adoption by 
the council, the advisors were proven right by the NMFS report 
generated by Peter Fricke, and the figures produced by the New England 
Fishery Management Council showing that while offshore fleets 
maintained or increased landings, inshore vessels landings were reduced 
overall by about 68 percent. Attachments A and B * hereto.
---------------------------------------------------------------------------
    * Attachments have been retained in the Subcommittee files.
---------------------------------------------------------------------------
    As early as Amendment V, industry advisors recommended the Council 
take steps to prevent displacement of effort into inshore areas. 
Although the Groundfish Committee indicated this would not be allowed, 
the Council completely failed to take this industry concern into 
account, resulting in displacement of effort into inshore waters, and 
caused the Gulf of Maine cod stock to collapse.
    Recently, NEFMC subcommittee and advisory committee meetings were 
scheduled in May, just when inshore fishing grounds opened for the 
first time after months. Many of us were required to choose between our 
first paycheck in months, and attending endless meetings to make sure 
lobbyists for other elements of the fleet didn't merely stab us in the 
back to get a bigger piece of the pie. We need to bring management back 
to a level where industry works together.
     Question 3. Do you support the Marine Fish Conservation Network 
recommendation that the Magnuson-Stevens Act should be amended to 
guarantee that more non-fishermen (specifically members of 
environmental organizations) are appointed to the regional fishery 
management councils?
    Answer. I do not think that we need more members of environmental 
organizations on the Councils. There is sufficient representation of 
``environmental'' interests in the government science. The Council 
process lets industry decide how to take the medicine the government 
requires in the form of reductions in catch. Environmental 
organizations have little to offer to determine how a sectors gear 
should be modified or when areas need to be closed to protect 
individual stocks. The Council process supposedly exists to allow 
individuals affected by conservation guidelines or mandates to make 
adjustments to their activities, not to set conservation goals.
    I am concerned that individuals are appointed to the Council with 
an ``Environmental'' agenda, such as elimination of commercial fishing, 
and are paid by their organizations dependent upon how they vote. This 
completely undermines confidence in a process which is supposed to 
maximize return from the resource. I do not believe that 
representatives of environmental organizations give any consideration 
to industry concerns. In general, I am opposed to any paid lobbyists 
sitting on the Councils.
    Question 4. Please state whether or not Congress should extend the 
moratorium on Individual Transferable Quotas and how such action would 
affect fisheries in New England.
    Answer. I oppose ITQ's and recommend that the ban on them be 
continued. ITQ's will permit a very few to profit at the expense of the 
owner operator fleet, which is the vital social fabric of the fishing 
ports of New England.
    I have heard a lot of discussion attempting to compare the 
Northeast to the West coasts. The two fisheries can not be compared, 
because of the number of small owner-operators and the multispecies 
nature of our fishery. It would be impossible to set individual quotas 
in this region. The last few years have witnessed such a disruption in 
fishing patterns and disparity in landings between gear and regional 
sectors of the fleet, that fair allocation would be impossible.
    The scenarios for allocating quota threaten to reward those who 
have historically had the greatest impact on the resource. Conversely, 
those who had spread their effort over a number of species now find 
themselves frozen out of fisheries that constituted smaller parts of 
their catch. Having lost those species, such as lobster for inshore 
groundfishermen, their allocation of groundfish will be substantially 
lower than their overall historical catch. The multispecies fishery is 
not easily adapted to ITQs unless they are given equally to each 
vessel.
    I believe the easiest solution is to avoid ITQs altogether, as the 
only result will be disparity between the winners and losers, and 
ultimate concentration of title to the resource in a few large private 
entities.
    Again, I thank you for the opportunity to comment on these 
important matters. Please feel free to call upon me should you have any 
additional questions or concerns.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                          Dr. Patrick Sullivan
    Question 1. Several of the witnesses testified that Maximum 
Sustainable Yield is an outdated concept.

    A. In the absence of Maximum Sustainable Yield, what would you 
advocate as a responsible benchmark to achieve sustainable fisheries?
    Answer. The witness did not provide a response.

    B. What further data would be required to quantify this benchmark?
    Answer. The witness did not provide a response.

    Question 2. It has been suggested that the regional councils should 
switch from single or multispecies Fishery Management Plans to Fishery 
Ecosystem Plans.

    A. Please assess the amount of work this would create for the 
regional councils?
    Answer. The witness did not provide a response.

    B. Is there currently enough life history and environmental data to 
create such an ecosystem plan?
    Answer. The witness did not provide a response.

    Question 3. Please state whether or not Congress should extend the 
moratorium on Individual Transferable Quotas and how such action would 
affect fisheries in New England.
    Answer. The witness did not provide a response.

    Question 4. Does the term ``overfishing'' need to be change? If so, 
please describe.
    Answer. The witness did not provide a response.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Olympia J. Snowe to 
                              Peter Weiss
    Question 1. The Marine Fish Conservation Network (Network) has 
recommended that language requiring the United States to implement the 
management and conservation measures adopted by the International 
Commission for the Conservation of Atlantic Tunas (ICCAT) be repealed. 
This would allow the United States to implement management and 
conservation measures that would be inconsistent with measures agreed 
to by the United States for fisheries managed under ICCAT. Do you 
support this recommendation? Please explain.
    Answer. We are absolutely, totally opposed to the changes suggested 
by the Marine Fish Conservation Network to drop the statutory 
references in Magnuson and ATCA protecting all U.S. Highly Migratory 
fishermen against unilateral restrictions requiring higher conservation 
standards for only U.S. fishermen. The language prohibiting regulations 
that solely disadvantage U.S. fishermen in relation to our foreign 
counterparts simply recognizes that U.S. fishermen are not second class 
citizens of the world and are entitled to our historical share of 
international fish resources. The Magnuson Act recognizes that U.S. 
fishermen must be provided a reasonable opportunity to catch quotas 
agreed to by ICCAT and this is not some kind of luxury but rather a 
basic right inherent to all partners participating in management and 
conservation of our shared Highly Migratory resources.
    The Marine Fish Network folks simply do not get it--in the long 
run, unilateral measures and efforts by the U.S. to conserve highly 
migratory fish cannot and will not work. For nearly every highly 
migratory fish under ICCAT, we catch an almost insignificant amount 
(i.e. <5%) of the species and are responsible for but a small fraction 
of fishing mortality on these species.
    I emphatically remind the Staff that it was Senator Kerry who 
championed the cause of equal treatment for U.S. HMS fishermen during 
the 1990 Magnuson Act and ATCA amendments. I have attached his eloquent 
justifications at the time and note that they are even more true and 
necessary for the new Millennium.
    Question 2. As a member of the Highly Migratory Species Advisory 
Panel to the Secretary, do you have any suggestions on how the process 
can be made more responsive to recommendations, especially consensus 
recommendations, of the Advisory Panels?
    Answer. My suggestion is that serious consideration should be given 
to making consensus recommendations of the A.P. binding on NMFS and 
that a statutory time limit of 180 days for implementation of these 
regulations be imposed. At the same time, I think there needs to be 
more structure provided for the appointment process and balance on the 
A.P. The primary function of the A.P. is to provide advice on matters 
pertaining to regulating the fisheries.
    I also suggest that changes be made to provide the A.P. a measure 
of independence from NMFS. Longer terms of appointment, mandating the 
election of non-NMFS Chairman, authorizing calling of meetings and 
establishment of agenda items would all contribute to a more effective 
and relevant A.P.
    Question 3. Please state whether or not Congress should extend the 
moratorium on Individual Transferable Quotas and how such action would 
affect fisheries in New England.
    Answer. Congress should not extend the moratorium on ITQ's and 
Congress should end this needless micromanagement of the fisheries. 
Today, fish managers across this country need to have and consider 
every possible tool to manage all of our challenging fisheries, 
especially those with unique characteristics. ITQ's can be utilized in 
a manner where the benefits extend beyond those originally possessing 
the allocation.

                                                         Attachment

International efforts to manage Highly Migratory Species are absolutely 
imperative. U.S. fishermen should not have to endure severe 
restrictions while other nations continue to harvest the very same 
stock of fish. These are international stocks and all nations must bear 
responsibility for conservation. We are trying to avoid a situation in 
which, once again, a U.S. industry is asked to adhere to greater 
standards than our competitors abroad, a consequence of which U.S. 
workers, fishermen and others who work as a result of the fishing 
industry, wind up out of jobs or being hurt in their income. That is 
obviously not fair, and it is important that we fight for those rights 
. . . . The United States ought to take the lead to establish strong 
international quotas that will promote recovery and conservation of 
stocks. Once agreement is reached by the international community, U.S. 
fishermen ought to be allowed a reasonable opportunity to fish for the 
[agreed upon] quota . . . . (136 Cong. Rec. S14,963 (daily ed. Oct. 11, 
1990) (statement of Sen. Kerry debating S. 1025, the Fishery 
Conservation Amendments of 1990)).

[Regarding] Highly Migratory Species . . . U.S. fishermen are willing 
to do their fair share to rebuild these stocks. But it is Congress' 
intention that all nations that harvest these stocks participate and 
that our fishermen are not unduly burdened with the full responsibility 
for this effort. Therefore, this bill asks the Secretary [of Commerce] 
to negotiate a strong international quota and provide fishermen a 
reasonable opportunity to catch that quota. (136 Cong. Rec. S17,469 
(daily ed. Oct. 27, 1990) (statement of Sen. Kerry debating H.R. 2061, 
the Fishery Conservation Amendments of 1990)).

[T]he [International] Commission [for the Conservation of Atlantic 
Tunas] adopted a two-stock hypothesis, using a line drawn at 45 degrees 
west longitude to divide Atlantic bluefin tuna into western and eastern 
stocks. Little conclusive data has been collected to support the two 
stock hypothesis . . . . I raise this issue because while western 
Atlantic harvests have been reduced by 65 percent, catches in the east 
are reported to have increased by 31 percent. If further investigation 
reveals that mixing rates between the two stocks are greater than 
current data indicate, then overfishing in the eastern Atlantic is 
having a greater impact on the western stock than is currently 
acknowledged. In order to rebuild the fishery in the western Atlantic, 
it would then become critical to reduce fishing effort in the eastern 
Atlantic. Additional reductions for the western Atlantic would be of 
questionable value from a conservation standpoint. (139 Cong. Rec. 
S14,839 (daily ed. Nov. 2, 1993) (statement of Sen. Kerry introducing 
S. 1611, the Atlantic Tunas Convention Authorization Act of 1993)).

Other countries' lack of compliance with ICCAT recommendations also may 
be linked to problems in the U.S. Bluefin Tuna Fisher. [H]arvests in 
the eastern fisheries have greatly exceeded the 15 percent allowance of 
bluefin tuna under 6.4 kilograms. In addition, the catch of bluefin 
tuna by fishing vessels of non-ICCAT member countries and the 
reflagging of vessels to avoid ICCAT restrictions may inhibit the 
stock's ability to recover. The result is that the effectiveness of 
U.S. conservation efforts is dissipated by the failure of other nations 
to take complementary action. [Thus], participation by all fishing 
parties in concerted action to implement and enforce management 
measures is long overdue. Such participation is essential if we are to 
have any hope of rebuilding these stocks and ensuring sustainable 
fisheries harvests. (139 Cong. Rec. S14,839 (daily ed. Nov. 2, 1993) 
(statement of Sen. Kerry introducing S. 1611, the Atlantic Tunas 
Convention Authorization Act of 1993)).

The Atlantic bluefin resource supports valuable commercial and 
recreational fisheries in the United States. A general national 
estimate is that the commercial industry generates $22 to $32 million 
in direct sales of bluefin tuna. Of course, this figure does not begin 
to take into consideration the supporting industry and businesses for 
which the bluefin tuna industry generates revenue. Nationally, there 
are approximately 11,600 permits issued to commercial vessels to fish 
for bluefin tuna, of which over one third are held by vessels from my 
State of Massachusetts. Numerous families in small coastal communities 
from Maine to Louisiana depend upon this fishery for their livelihood--
in commercial fisheries, charter boat operations, or in assorted 
supply, maintenance, and processing operations. (139 Cong. Rec. S14,839 
(daily ed. Nov. 2, 1993) (statement of Sen. Kerry introducing S. 1611, 
the Atlantic Tunas Convention Authorization Act of 1993)).

We need better information to properly assess and manage Atlantic 
bluefin tuna and other highly migratory species. In addition, we must 
encourage other countries in the eastern and western Atlantic and the 
Mediterranean to do their fair share. The benefits of coordinated 
action and shared responsibility for these stocks will be enjoyed by 
all. (139 Cong. Rec. S14,839 (daily ed. Nov. 2, 1993) (statement of 
Sen. Kerry introducing S. 1611, the Atlantic Tunas Convention 
Authorization Act of 1993)).


</pre></body></html>
